APPENDIX

1a

APPENDIX A

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
THE DEMOCRATIC NATIONAL
COMMITTEE; DSCC, AKA
Democratic Senatorial Campaign
Committee; THE ARIZONA
DEMOCRATIC PARTY,
Plaintiffs-Appellants,
v.
KATIE HOBBS, in her official
capacity as Secretary of State of
Arizona; MARK BRNOVICH,
Attorney General, in his official
capacity as Arizona Attorney
General,
Defendants-Appellees,
THE ARIZONA REPUBLICAN PARTY;
BILL GATES, Councilman; SUZANNE
KLAPP, Councilwoman; DEBBIE
LESKO, Sen.; TONY RIVERO, Rep.,
Intervenor-Defendants-Appellees.

No. 18-15845
D.C. No.
2:16-cv-01065DLR
OPINION

2a
Appeal from the United States District Court
for the District of Arizona
Douglas L. Rayes, District Judge, Presiding
Argued and Submitted En Banc March 27, 2019
San Francisco, California
Filed January 27, 2020
Before: Sidney R. Thomas, Chief Judge, and
Diarmuid F. O’Scannlain, William A. Fletcher,
Marsha S. Berzon*, Johnnie B. Rawlinson, Richard
R. Clifton, Jay S. Bybee, Consuelo M. Callahan,
Mary H. Murguia, Paul J. Watford, and John B.
Owens, Circuit Judges.
Opinion by Judge W. Fletcher;
Concurrence by Judge Watford;
Dissent by Judge O’Scannlain;
Dissent by Judge Bybee

*

Judge Berzon was drawn to replace Judge Graber. Judge
Berzon has read the briefs, reviewed the record, and watched
the recording of oral argument held on March 27, 2019.

3a
SUMMARY**
Civil Rights
The en banc court reversed the district court’s
judgment following a bench trial in favor of
defendants, the Arizona Secretary of State and
Attorney General in their official capacities, in an
action brought by the Democratic National
Committee and others challenging, first, Arizona’s
policy of wholly discarding, rather than counting or
partially counting, ballots cast in the wrong precinct;
and, second, House Bill 2023, a 2016 statute
criminalizing the collection and delivery of another
person’s ballot.
Plaintiffs asserted that the out-of-precinct policy
(OOP) and House Bill (H.B.) 2023 violated Section 2
of the Voting Rights Act of 1965 as amended because
they adversely and disparately affected Arizona’s
American Indian, Hispanic, and African American
citizens. Plaintiffs also asserted that H.B. 2023
violated Section 2 of the Voting Rights Act and the
Fifteenth Amendment to the United States
Constitution because it was enacted with
discriminatory intent. Finally, plaintiffs asserted
that the OOP policy and H.B. 2023 violated the First
and Fourteenth Amendments because they unduly
burden minorities’ right to vote.
The en banc court held that Arizona’s policy of
wholly discarding, rather than counting or partially
**

This summary constitutes no part of the opinion of the
court. It has been prepared by court staff for the convenience of
the reader.

4a
counting,
OOP
ballots,
and
H.B.
2023’s
criminalization of the collection of another person’s
ballot, have a discriminatory impact on American
Indian, Hispanic, and African American voters in
Arizona, in violation of the “results test” of Section 2
of the Voting Rights Act. Specifically, the en banc
court determined that plaintiffs had shown that
Arizona’s OOP policy and H.B. 2023 imposed a
significant disparate burden on its American Indian,
Hispanic, and African American citizens, resulting in
the “denial or abridgement of the right of its citizens
to vote on account of race or color.” 52 U.S.C.
§ 10301(a). Second, plaintiffs had shown that, under
the “totality of circumstances,” the discriminatory
burden imposed by the OOP policy and H.B. 2023 was
in part caused by or linked to “social and historical
conditions” that have or currently produce “an
inequality in the opportunities enjoyed by [minority]
and white voters to elect their preferred
representatives” and to participate in the political
process. Thornburg v. Gingles, 478 U.S. 30, 47
(1986); 52 U.S.C. § 10301(b).
The en banc court held that H.B. 2023’s
criminalization of the collection of another person’s
ballot was enacted with discriminatory intent, in
violation of the “intent test” of Section 2 of the Voting
Rights Act and of the Fifteenth Amendment. The en
banc court held that the totality of the
circumstances—Arizona’s long history of race-based
voting discrimination; the Arizona legislature’s
unsuccessful efforts to enact less restrictive versions
of the same law when preclearance was a threat; the
false, race-based claims of ballot collection fraud used
to convince Arizona legislators to pass H.B. 2023; the

5a
substantial increase in American Indian and
Hispanic voting attributable to ballot collection that
was targeted by H.B. 2023; and the degree of racially
polarized voting in Arizona—cumulatively and
unmistakably revealed that racial discrimination
was a motivating factor in enacting H.B. 2023. The
en banc court further held that Arizona had not
carried its burden of showing that H.B. 2023 would
have been enacted without the motivating factor of
racial discrimination. The panel declined to reach
DNC’s First and Fourteenth Amendment claims.
Concurring, Judge Watford joined the court’s
opinion to the extent it invalidated Arizona’s out-ofprecinct policy and H.B. 2023 under the results test.
Judge Watford did not join the opinion’s discussion of
the intent test.
Dissenting, Judge O’Scannlain, joined by Judges
Clifton, Bybee and Callahan, stated that the majority
drew factual inferences that the evidence could not
support and misread precedent along the way. In so
doing, the majority impermissibly struck down
Arizona’s duly enacted policies designed to enforce its
precinct-based election system and to regulate thirdparty collection of early ballots.
Dissenting, Judge Bybee, joined by Judges
O’Scannlain, Clifton and Callahan, wrote separately
to state that in considering the totality of the
circumstances, which took into account long-held,
widely adopted measures, Arizona’s time, place, and
manner rules were well within our American
democratic-republican tradition.

6a
COUNSEL
Bruce V. Spiva (argued), Marc E. Elias, Elisabeth C.
Frost, Amanda R. Callais, and Alexander G.
Tischenko, Perkins Coie LLP, Washington, D.C.;
Daniel C. Barr and Sarah R. Gonski, Perkins Coie
LLP, Phoenix, Arizona; Joshua L. Kaul, Perkins Coie
LLP, Madison, Wisconsin; for Plaintiffs-Appellants.
Andrew G. Pappas (argued), Joseph E. La Rue, Karen
J. Hartman-Tellez, and Kara M. Karlson, Assistant
Attorneys General; Dominic E. Draye, Solicitor
General; Mark Brnovich, Attorney General; Office of
the Attorney General, Phoenix, Arizona; for
Defendants-Appellees.
Brett W. Johnson (argued) and Colin P. Ahler, Snell
& Wilmer LLP, Phoenix, Arizona, for IntervenorDefendants-Appellees.
John M. Gore (argued), Principal Deputy Assistant
Attorney General; Thomas E. Chandler and Erin H.
Flynn, Attorneys; Gregory B. Friel, Deputy Assistant
Attorney General; Eric S. Dreiband, Assistant
Attorney General; Department of Justice, CRD–
Appellate Section, Washington, D.C.; for Amicus
Curiae United States.
Kathleen E. Brody, ACLU Foundation of Arizona,
Phoenix, Arizona; Dale Ho, American Civil Liberties
Union Foundation, New York, New York; Davin
Rosborough and Ceridwen Chery, American Civil
Liberties Union Foundation, Washington, D.C.; for
Amici Curiae American Civil Liberties Union &
American Civil Liberties Union of Arizona.

7a
OPINION
W. FLETCHER, Circuit Judge:
The right to vote is the foundation of our
democracy. Chief Justice Warren wrote in his
autobiography that the precursor to one person, one
vote, Baker v. Carr, 369 U.S. 186 (1962), was the most
important case decided during his tenure as Chief
Justice—a tenure that included Brown v. Board of
Education, 347 U.S. 483 (1954). Earl Warren, The
Memoirs of Earl Warren 306 (1977). Chief Justice
Warren wrote in Reynolds v. Sims, 377 U.S. 533, 555
(1964): “The right to vote freely for the candidate of
one’s choice is of the essence of a democratic society,
and any restrictions on that right strike at the heart
of representative government.” Justice Black wrote
in Wesberry v. Sanders, 376 U.S. 1, 17 (1964): “No
right is more precious in a free country than that of
having a voice in the election of those who make the
laws under which, as good citizens, we must live.
Other rights, even the most basic, are illusory if the
right to vote is undermined.”
For over a century, Arizona has repeatedly
targeted its American Indian, Hispanic, and African
American citizens, limiting or eliminating their
ability to vote and to participate in the political
process.
In 2016, the Democratic National
Committee
and
other
Plaintiffs-Appellants
(collectively, “DNC” or “Plaintiffs”) sued Arizona’s
Secretary of State and Attorney General in their
official capacities (collectively, “Arizona”) in federal
district court.
DNC challenged, first, Arizona’s policy of wholly
discarding, rather than counting or partially

8a
counting, ballots cast in the wrong precinct (“out-ofprecinct” or “OOP” policy); and, second, House Bill
2023 (“H.B. 2023”), a 2016 statute criminalizing the
collection and delivery of another person’s ballot.
DNC contends that the OOP policy and H.B. 2023
violate Section 2 of the Voting Rights Act of 1965 as
amended (“VRA”) because they adversely and
disparately affect Arizona’s American Indian,
Hispanic, and African American citizens. DNC also
contends that H.B. 2023 violates Section 2 of the VRA
and the Fifteenth Amendment to the United States
Constitution because it was enacted with
discriminatory intent. Finally, DNC contends that
the OOP policy and H.B. 2023 violate the First and
Fourteenth Amendments because they unduly
burden minorities’ right to vote.
Following a ten-day bench trial, the district court
found in favor of Arizona on all claims. Democratic
Nat’l Comm. v. Reagan, 329 F. Supp. 3d 824 (D. Ariz.
2018) (Reagan). DNC appealed, and a divided threejudge panel of our court affirmed. Democratic Nat’l
Comm. v. Reagan, 904 F.3d 686 (9th Cir. 2018)
(DNC). A majority of non-recused active judges voted
to rehear this case en banc, and we vacated the
decision of the three-judge panel. Democratic Nat’l
Comm. v. Reagan, 911 F.3d 942 (9th Cir. 2019).
We review the district court’s conclusions of law de
novo and its findings of fact for clear error. Gonzalez
v. Arizona, 677 F.3d 383, 406 (9th Cir. 2012) (en
banc). We may “correct errors of law, including those
that may infect a so-called mixed finding of law and
fact, or a finding of fact that is predicated on a
misunderstanding of the governing rule of law.”
Thornburg v. Gingles, 478 U.S. 30, 79 (1986) (internal

9a
quotation marks omitted); see Smith v. Salt River
Project Agric. Improvement & Power Dist., 109 F.3d
586, 591 (9th Cir. 1997) (Salt River). We review for
clear error the district court’s overall finding of vote
dilution or vote denial in violation of the VRA.
Gingles, 478 U.S. at 78; Salt River, 109 F.3d at 591.
Reviewing the full record, we conclude that the
district court clearly erred. We reverse the decision
of the district court. We hold that Arizona’s policy of
wholly discarding, rather than counting or partially
counting, out-of-precinct ballots, and H.B. 2023’s
criminalization of the collection of another person’s
ballot, have a discriminatory impact on American
Indian, Hispanic, and African American voters in
Arizona, in violation of the “results test” of Section 2
of the VRA. We hold, further, that H.B. 2023’s
criminalization of the collection of another person’s
ballot was enacted with discriminatory intent, in
violation of the “intent test” of Section 2 of the VRA
and of the Fifteenth Amendment. We do not reach
DNC’s First and Fourteenth Amendment claims.
I. Out-of-Precinct Policy and H.B. 2023
DNC challenges (1) Arizona’s policy of wholly
discarding, rather than counting or partially
counting, ballots cast out-of-precinct (“OOP”), and (2)
H.B. 2023, a statute that, subject to certain
exceptions, criminalizes the collection of another
person’s early ballot. See Ariz. Rev. Stat. §§ 16-122, 135, -584; H.B. 2023, 52nd Leg., 2d Reg. Sess. (Ariz.
2016), codified as Ariz. Rev. Stat. § 16-1005(H), (I).
Arizona offers two methods of voting: (1) in-person
voting at a precinct or vote center either on election
day or during an early-vote period, or (2) “early

10a
voting” whereby the voter receives the ballot via mail
and either mails back the voted ballot or delivers the
ballot to a designated drop-off location. Arizona’s
OOP policy affects in-person voting. H.B. 2023
affects early voting.
We describe in turn Arizona’s OOP policy and H.B.
2023.
A. Out-of-Precinct Policy
1. Policy of Entirely Discarding OOP Ballots
Arizona law permits each county to choose a votecenter or a precinct-based system for in-person
voting. Reagan, 329 F. Supp. 3d at 840. In counties
using the vote-center system, registered voters may
vote at any polling location in the county. Id. In
counties using the precinct-based system, registered
voters may vote only at the designated polling place
in their precinct. Approximately 90 percent of
Arizona’s population lives in counties using the
precinct-based system.
In precinct-based counties, if a voter arrives at a
polling place and does not appear on the voter rolls
for that precinct, that voter may cast a provisional
ballot. Id.; Ariz. Rev. Stat. §§ 16-122, -135, -584.
After election day, county election officials in close
elections review all provisional ballots to determine
the voter’s identity and address. If, after reviewing a
provisional ballot, election officials determine that
the voter voted out of precinct, the county discards
the OOP ballot in its entirety. In some instances, all
of the votes cast by the OOP voter will have been cast
for candidates and propositions for which the voter
was legally eligible to vote. In other instances, most
of the votes cast by the OOP voter will have been cast

11a
properly, in the sense that the voter was eligible to
vote on those races, but one or more votes for local
candidates or propositions will have been cast
improperly.
In both instances, the county discards the OOP
ballot in its entirety. Reagan, 329 F. Supp. 3d at 840.
That is, the county discards not only the votes of an
OOP voter for the few local candidates and
propositions for which the OOP voter may have been
ineligible to vote. The county also discards the votes
for races for which the OOP voter was eligible to vote,
including U.S. President, U.S. Senator, and (almost
always) Member of the U.S. House of
Representatives; all statewide officers, including
Governor, and statewide propositions; (usually) all
countywide officers and propositions; and (often) local
candidates and propositions.
2. Comparison with Other States
The district court found that Arizona “consistently
is at or near the top of the list of states that collect
and reject the largest number of provisional ballots
each election.” Id. at 856 (emphasis added). The
district court’s finding understates the matter.
Arizona is consistently at the very top of the list by a
large margin.
Dr. Jonathan Rodden, Professor of Political
Science and Senior Fellow at the Hoover Institution
at Stanford University, provided expert reports to the
district court. The court gave “great weight” to
Dr. Rodden’s analysis of the “rates and causes of OOP
voting” in Arizona. Id. at 835. Dr. Rodden reported:
“Since 2012, Arizona has clearly become the national
leader in both provisional ballots cast and especially

12a
in provisional ballots rejected among in-person
voters.” Jonathan Rodden, Expert Report (Rodden)
at 25.
Dr. Rodden reported that, from 2006 to 2010,
between 9 to 13 percent of all in-person ballots cast
in Arizona were provisional ballots. Id. at 24. In the
2012 general election, more than 22 percent of all inperson ballots cast were provisional ballots. Id. In
Maricopa County, Arizona’s most populous county,
close to one in three in-person ballots cast in 2012
were provisional ballots. Id. at 27–28. In the 2014
midterm election, over 18 percent of in-person ballots
cast in the State were provisional ballots. Id. at 25.
These numbers place Arizona at the very top of the
list of States in collection of provisional ballots.
Arizona also rejects a higher percentage of
provisional ballots than any other State. The district
court found:
In 2012 alone “[m]ore than one in every five
[Arizona in-person] voters . . . was asked to cast
a provisional ballot, and over 33,000 of these—
more than 5 percent of all in-person ballots cast—
were rejected. No other state rejected a larger
share of its in-person ballots in 2012.”
Reagan, 329 F. Supp. 3d at 856 (alterations in
original) (quoting Rodden at 24–25).
One of the most frequent reasons for rejecting
provisional ballots in Arizona is that they are cast
out-of-precinct. Id.; see also Rodden at 26–29. From
2008 to 2016, Arizona discarded a total of 38,335
OOP ballots cast by registered voters—29,834 ballots
during presidential general elections, and 8,501

13a
ballots during midterm general elections. Reagan,
329 F. Supp. 3d at 856.
As the figure below shows, Arizona is an extreme
outlier in rejecting OOP ballots:

Rodden at 26. The percentage of rejected OOP votes
in Arizona is eleven times that in Washington, the
State with the second-highest percentage.
The percentage of OOP ballots in Arizona,
compared to all ballots cast, has declined in recent
years. But the percentage of in-person ballots cast,
compared to all ballots cast, has declined even more.
See Jonathan Rodden, Rebuttal Report (Rodden

14a
Rebuttal) at 10. As a result, as a percentage of inperson ballots between 2008 and 2014, the
percentage of OOP ballots has increased.
3. Reasons for OOP Ballots
Three key factors leading to OOP ballots are
frequent changes in polling locations; confusing
placement of polling locations; and high rates of
residential
mobility.
These
factors
disproportionately
affect
minority
voters.
Dr. Rodden summarized:
Voters must invest significant effort in order to
negotiate a dizzying array of precinct and polling
place schemes that change from one month to the
next. Further, Arizona’s population is highly
mobile and residential locations are fluid,
especially for minorities, young people, and poor
voters, which further contributes to confusion
around voting locations.
Rodden at 2; see also Reagan, 329 F. Supp. 3d at 857–
58 (discussing these reasons).
a. Frequent Changes in Polling Locations
Arizona election officials change voters’ assigned
polling places with unusual frequency. Maricopa
County, which includes Phoenix, is a striking
example. The district court found that between 2006
and 2008, “at least 43 percent of polling locations”
changed. Reagan, 329 F. Supp. 3d at 858. Between
2010 and 2012, approximately 40 percent of polling
place locations were changed again. Id. These
changes continued in 2016, “when Maricopa County
experimented with 60 vote centers for the
presidential preference election [in March], then
reverted to a precinct-based system with 122 polling

15a
locations for the May special election, and then
implemented over 700 assigned polling places [for]
the August primary and November general
elections.” Id. The OOP voting rate was 40 percent
higher for voters whose polling places were changed.
Id. As Chief Judge Thomas put it, “the paths to
polling places in the Phoenix area [are] much like the
changing stairways at Hogwarts, constantly moving
and sending everyone to the wrong place.” DNC, 904
F.3d at 732 (Thomas, C.J., dissenting).
White voters in Maricopa County are more likely
than minority voters to have continuity in their
polling place location. Rodden at 60–61. Dr. Rodden
wrote that between the February and November
elections in 2012, “the rates at which African
Americans and Hispanics experienced stability in
their polling places were each about 30 percent lower
than the rate for whites.” Id.
b. Confusing Placement of Polling Locations
Some
polling
places
are
located
so
counterintuitively that voters easily make mistakes.
In Maricopa and Pima Counties, many polling places
are located at or near the edge of precincts. Id. at 50.
An example is the polling place for precinct 222 in
Maricopa County during the 2012 election.
Dr. Rodden wrote:
[A] group of 44 voters who were officially
registered to vote in precinct 222, . . . showed up
on Election Day at the Desert Star School, the
polling location for precinct 173. It is easy to
understand how they might have made this
mistake.
Polling place 173 is the local
elementary school, and the only polling place in

16a
the vicinity. It is within easy walking distance,
and is the polling place for most of the neighbors
and other parents at the school, yet due to a
bizarre placement of the [polling place at the]
Southern border of precinct 222, these voters
were required to travel 15 minutes by car
(according to [G]oogle maps) to vote in polling
location 222, passing four other polling places
along the way.
Id. at 47–48.
This map illustrates Dr. Rodden’s point:

Id. at 47.

17a
In 2012, approximately 25 percent of OOP voters
lived closer to the polling place where they cast their
OOP ballot than to their assigned polling place. Id.
at 53. Voters who live more than 1.4 miles from their
assigned polling place are 30 percent more likely to
vote OOP than voters who live within 0.4 miles of
their assigned polling place. Id. at 54. American
Indian and Hispanic voters live farther from their
assigned polling places than white voters. Id. at 60.
American
Indian
voters
are
particularly
disadvantaged. The district court found: “Navajo
voters in Northern Apache County lack standard
addresses, and their precinct assignments for state
and county elections are based upon guesswork,
leading to confusion about the voter’s correct polling
place.” Reagan, 329 F. Supp. 3d at 873; Rodden
Second at 52–53.
c. Renters and Residential Mobility
High percentages of renters and high rates of
residential mobility correlate with high rates of OOP
voting. Reagan, 329 F. Supp. 3d at 857. The district
court found that rates of OOP voting are “higher in
neighborhoods where renters make up a larger share
of householders.” Id. Between 2000 and 2010, almost
70 percent of Arizonans changed their residential
address, the second highest rate of any State.
Reagan, 329 F. Supp. 3d at 857; Rodden at 11–12.
The district court found that “[t]he vast majority of
Arizonans who moved in the last year moved to
another address within their current city of
residence.” Reagan, 329 F. Supp. 3d at 857.
The need to locate the proper polling place after
moving—particularly after moving a short distance

18a
in an urban area—leads to a high percentage of OOP
ballots. Dr. Rodden wrote:
An individual who faces a rent increase in one
apartment complex and moves to another less
than a mile away might not be aware that she
has moved into an entirely new precinct—indeed,
in many cases . . . she may still live closest to her
old precinct, but may now be required to travel
further in order to vote in her new assigned
precinct. Among groups for whom residential
mobility is common, requirements of in-precinctvoting—as well as the requirement that they
update their registration with the state every
time that they move even a short distance within
a county—can make it substantially more
burdensome to participate in elections.
Rodden at 11.
The district court found that minority voters in
Arizona have “disproportionately higher rates of
residential mobility.” Reagan, 329 F. Supp. 3d at 872.
The court found, “OOP voting is concentrated in
relatively dense precincts that are disproportionately
populated with renters and those who move
frequently.
These groups, in turn, are
disproportionately composed of minorities.” Id.
4. Disparate Impact on Minority Voters
The district court found that Arizona’s policy of
wholly discarding OOP ballots disproportionately
affects minority voters. Reagan, 329 F. Supp. 3d at
871. During the general election in 2012 in Pima
County, compared to white voters, the rate of OOP
ballots was 123 percent higher for Hispanic voters, 47
percent higher for American Indian voters, and 37

19a
percent higher for African American voters. Rodden
at 43. During the 2014 and 2016 general elections in
Apache, Navajo, and Coconino Counties, the vast
majority of OOP ballots were in areas that are almost
entirely American Indian. Rodden Rebuttal at 53–
54, 58; Jonathan Rodden, Second Expert Report
(Rodden Second) at 22. In all likelihood, the reported
numbers underestimate the degree of disparity.
Dr. Rodden wrote, “[A]lthough the racial disparities
described . . . are substantial, they should be treated
as a conservative lower bound on the true differences
in rates of out-of-precinct voting across groups.”
Rodden Second at 15 (emphasis in original). The
district court found, “Dr. Rodden credibly explained
that the measurement error for Hispanic
probabilities leads only to the under-estimation of
racial disparities.” Reagan, 329 F. Supp. 3d at 838.
Racial disparities in OOP ballots in 2016
“remained just as pronounced” as in 2012 and 2014.
Rodden Second at 3. For example, the rates of OOP
ballots in Maricopa County “were twice as high for
Hispanics, 86 percent higher for African Americans,
and 73 percent higher for Native Americans than for
their non-minority counterparts.” Reagan, 329 F.
Supp. 3d at 871–72; Rodden Second at 29. “In Pima
County, rates of OOP voting were 150 percent higher
for Hispanics, 80 percent higher for African
Americans, and 74 percent higher for Native
Americans than for non-minorities.” Reagan, 329 F.
Supp. 3d at 872. “[I]n Pima County the overall rate
of OOP voting was higher, and the racial disparities
larger, in 2016 than in 2014.” Id.; Rodden Second at
33.
The district court found:

20a
Among all counties that reported OOP ballots in
the 2016 general election, a little over 1 in every
100 Hispanic voters, 1 in every 100 AfricanAmerican voters, and 1 in every 100 Native
American voters cast an OOP ballot. For nonminority voters, the figure was around 1 in every
200 voters.
Reagan, 329 F. Supp. 3d at 872. That is, in the 2016
general election, as in the two previous elections,
American Indians, Hispanics, and African Americans
voted OOP at twice the rate of whites.
B. H.B. 2023
1. Early Voting and Ballot Collection
Arizona has permitted early voting for over 25
years. Id. at 839. “In 2007, Arizona implemented
permanent no-excuse early voting by mail, known as
the Permanent Early Voter List (“PEVL”).” Id.
Under PEVL, Arizonans may either (a) request an
early vote-by-mail ballot on an election-by-election
basis, or (b) request that they be placed on the
Permanent Early Voter List. See id.; Ariz. Rev. Stat.
§§ 16-542, -544. Some counties permit voters to drop
their early ballots in special drop boxes. All counties
permit the return of early ballots by mail, or in person
at a polling place, vote center, or authorized election
official’s office. Early voting is by far “the most
popular method of voting [in Arizona].” Reagan, 329
F. Supp. 3d at 839. Approximately 80 percent of all
ballots cast in the 2016 general election were early
ballots. Id. Until the passage of H.B. 2023, Arizona
did not restrict collection and drop-off of voted ballots
by third parties.

21a
The district court heard extensive testimony about
the number of ballots collected and turned in by third
parties. Id. at 845. A Maricopa County Democratic
Party organizer testified that during the course of her
work for the party she personally saw 1,200 to 1,500
early ballots collected and turned in by third-party
volunteers. These were only a portion of the total
ballots collected by her organization. The organizer
testified that during the 2010 election the Maricopa
County Democratic Party collected hundreds of
ballots from a heavily Hispanic neighborhood in one
state legislative district alone. A representative of
Citizens for a Better Arizona testified that the
organization collected approximately 9,000 early
ballots during the 2012 Maricopa County Sheriff’s
election. A member of the Arizona Democratic Party
testified that the party collected “a couple thousand
ballots” in 2014. Id. A community advocate testified
before the Arizona Senate Elections Committee that
in one election he collected 4,000 early ballots. Id. A
Phoenix City Councilmember testified that she and
her volunteers collected about 1,000 early ballots in
an election in which she received a total of 8,000
votes.
2. Minority Voters’ Reliance on Third-Party Ballot
Collection
The district court found “that prior to H.B. 2023’s
enactment minorities generically were more likely
than non-minorities to return their early ballots with
the assistance of third parties.” Id. at 870. The court
recounted:
“Helen Purcell, who served as the
Maricopa County Recorder for 28 years from 1988 to
2016, observed that ballot collection was
disproportionately used by Hispanic voters.” Id.

22a
Individuals who collected ballots in past elections
“observed that minority voters, especially Hispanics,
were more interested in utilizing their services.” Id.
One ballot collector testified about what she termed
a “case study” demonstrating the extent of the
disparity. In 2010, she and her fellow organizers
collected “somewhere south of 50 ballots” in one area.
The area was later redistricted before the next
election to add the heavily Hispanic neighborhood of
Sunnyslope. In 2012, the organization “pulled in
hundreds of ballots, [with the] vast majority from
that Sunnyslope area.”
The district court found that, in contrast, the
Republican Party has “not significantly engaged in
ballot collection as a GOTV [Get Out the Vote]
strategy.” Id. The base of the Republican Party in
Arizona is white. Id. Individuals who engaged in
ballot collection in past elections observed that voters
in predominately white areas “were not as interested
in ballot collection services.” Id.
Minority voters rely on third-party ballot collection
for many reasons. Joseph Larios, a community
advocate who has collected ballots in past elections,
testified that “returning early mail ballots presents
special challenges for communities that lack easy
access to outgoing mail services; the elderly,
homebound, and disabled voters; socioeconomically
disadvantaged
voters
who
lack
reliable
transportation; voters who have trouble finding time
to return mail because they work multiple jobs or lack
childcare services; and voters who are unfamiliar
with the voting process and therefore do not vote
without assistance or tend to miss critical deadlines.”
Id. at 847–48 (summarizing Larios’ testimony).

23a
These burdens fall disproportionately on Arizona’s
minority voters.
Arizona’s American Indian and Hispanic
communities frequently encounter mail-related
problems that make returning early ballots difficult.
In urban areas of heavily Hispanic counties, many
apartment buildings lack outgoing mail services. Id.
at 869.
Only 18 percent of American Indian
registered voters have home mail service. Id. White
registered voters have home mail service at a rate
over 350 percent higher than their American Indian
counterparts. Id. Basic mail security is an additional
problem. Several witnesses testified that incoming
and outgoing mail often go missing. Id. The district
court found that especially in low-income
communities, frequent mail theft has led to “distrust”
in the mail service. Id.
A lack of transportation compounds the issue.
“Hispanics, Native Americans, and African
Americans . . . are significantly less likely than nonminorities to own a vehicle, more likely to rely upon
public transportation, [and] more likely to have
inflexible work schedules[.]” Id. In San Luis—a city
that is 98 percent Hispanic—a major highway
separates almost 13,000 residents from their nearest
post office. Id. The city has no mass transit, a
median income of $22,000, and many households
with no cars. Id. On the Navajo Reservation, “most
people live in remote communities, many
communities have little to no vehicle access, and
there is no home incoming or outgoing mail, only post
office boxes, sometimes shared by multiple families.”
Id. “[R]esidents of sovereign nations often must
travel 45 minutes to 2 hours just to get a mailbox.”

24a
DNC, 904 F.3d at 751–52 (Thomas, C.J., dissenting).
As a result, voting “requires the active assistance of
friends and neighbors” for many American Indians.
Reagan, 329 F. Supp. 3d at 870 (quoting Rodden
Second at 60).
The adverse impact on minority communities is
substantial. Without “access to reliable and secure
mail services” and without reliable transportation,
many minority voters “prefer instead to give their
ballots to a volunteer.”
Id. at 869.
These
communities thus end up relying heavily on thirdparty collection of mail-in ballots. Dr. Berman wrote
with respect to Hispanic voters:
[T]he practice of collecting ballots, used
principally in Hispanic areas, ha[s] contributed
to more votes being cast in those places tha[n]
would have been cast without the practice. . . .
That the practice has increased minority turnout
appears to have been agreed upon or assumed by
both sides of the issue[.] Democrats and Hispanic
leaders have seen reason to favor it, Republicans
have not.
Berman, Expert Reply Report at 8–9. Similarly,
LeNora Fulton, a member of the Navajo Nation and
previous Apache County Recorder, testified that it
was “standard practice” in Apache County and the
Nation to vote by relying on non-family members
with the means to travel. Reagan, 329 F. Supp. 3d at
870.
3. History of H.B. 2023
Before the passage of H.B. 2023, Arizona already
criminalized fraud involving possession or collection
of another person’s ballot. The district court wrote:

25a
[B]allot tampering, vote buying, or discarding
someone else’s ballot all were illegal prior to the
passage of H.B. 2023. Arizona law has long
provided that any person who knowingly collects
voted or unvoted ballots and does not turn those
ballots in to an elections official is guilty of a class
5 felony. A.R.S. § 16-1005. Further, Arizona has
long made all of the following class 5 felonies:
“knowingly mark[ing] a voted or unvoted ballot
or ballot envelope with the intent to fix an
election;” “receiv[ing] or agree[ing] to receive any
consideration in exchange for a voted or unvoted
ballot;” possessing another’s voted or unvoted
ballot with intent to sell; “knowingly solicit[ing]
the collection of voted or unvoted ballots by
misrepresenting [one’s self] as an election official
or as an official ballot repository or . . . serv[ing]
as a ballot drop off site, other than those
established and staffed by election officials;” and
“knowingly collect[ing] voted or unvoted ballots
and . . . not turn[ing] those ballots in to an
election official . . . or any . . . entity permitted by
law to transmit post.” A.R.S. §§ 16-1005(a)–(f).
The early voting process also includes a number
of other safeguards, such as tamper evident
envelopes and a rigorous voter signature
verification procedure.
Reagan, 329 F. Supp. 3d at 854 (alterations in
original) (internal record citations omitted).
There is no evidence of any fraud in the long
history of third-party ballot collection in Arizona.
Despite the extensive statutory provisions already
criminalizing fraud involving possession or collection
of another person’s ballot, and despite the lack of

26a
evidence of any fraud in connection with third-party
ballot collection, Republican State Senator Don
Shooter introduced a bill in February 2011. S.B.
1412, 50th Leg., 1st Reg. Sess. (introduced) (Ariz.
2011),
http://www.azleg.gov/legtext/50leg/1r/bills/
sb1412p.htm.
Senator Shooter’s bill criminalized non-fraudulent
third-party ballot collection. The district court had
no illusions about Senator Shooter’s motivation. It
found:
Due to the high degree of racial polarization in
his district, Shooter was in part motivated by a
desire to eliminate what had become an effective
Democratic GOTV strategy. Indeed, Shooter’s
2010 election was close: he won with 53 percent
of the total vote, receiving 83 percent of the nonminority vote but only 20 percent of the Hispanic
vote.
Reagan, 329 F. Supp. 3d at 879–80.
The state legislature amended Senator Shooter’s
bill several times, watering it down significantly. As
finally enacted, the bill—included as part of a series
of election-related changes in Senate Bill 1412 (“S.B.
1412”)—restricted the manner in which unrelated
third parties could collect and turn in more than ten
voted ballots. S.B. 1412, 50th Leg., 1st Reg. Sess.
(engrossed),
Sec.
3
at
D
(Ariz.
2011),
https://legiscan.com/AZ/text/SB1412/id/233492/Arizo
na-2011-SB1412-Engrossed.html. If a third-party
ballot collector turned in more than ten ballots, the
collector was required to provide photo identification.
After each election, the Secretary of State was
required to compile a statewide public report listing

27a
ballot collectors’ information.
The bill did not
criminalize any violation of its provisions.
When S.B. 1412 became law, Arizona was still
subject to preclearance under the Voting Rights Act.
S.B. 1412 therefore could not go into effect until it
was precleared by the U.S. Department of Justice
(“DOJ”) or a three-judge federal district court. On
May 18, 2011, the Arizona Attorney General
submitted S.B. 1412 to DOJ for preclearance.
Arizona Attorney General Thomas Horne, Effect of
Shelby County on Withdrawn Preclearance
Submissions,
(August
29,
2013),
https://www.azag.gov/opinions/i13-008-r13-013. On
June 27, 2011, DOJ precleared all provisions of S.B.
1412 except the provision regulating third-party
ballot collection. Reagan, 329 F. Supp. 3d at 880.
DOJ sent a letter to Arizona concerning the thirdparty ballot collection provision, stating that the
information provided with the preclearance request
was “insufficient to enable [DOJ] to determine that
the proposed changes have neither the purpose nor
will have the effect of denying or abridging the right
to vote on account of race, color, or membership in a
language minority group.” Id. at 880–81. DOJ
requested additional information and stated that it
“may object” to the proposed change if no response
was received within sixty days. Id. at 881.
Instead of responding with the requested
information, the Arizona Attorney General withdrew
the preclearance request for the third-party ballot
collection provision. Id. The Attorney General did so
for good reason. According to DOJ records, Arizona’s
Elections Director, who had helped draft the

28a
provision, had admitted to DOJ that the provision
was “targeted at voting practices in predominantly
Hispanic areas.”
The state legislature formally repealed the
provision after receiving the letter from DOJ.
Withdrawing a preclearance request was not common
practice in Arizona. Out of 773 proposals that
Arizona submitted for preclearance over almost forty
years, the ballot collection provision of S.B. 1412 was
one of only six that Arizona withdrew. Id.
Two years later, on June 25, 2013, the United
States Supreme Court decided Shelby County v.
Holder, 570 U.S. 529 (2013). The Court declared
unconstitutional the formula in Section 4(b) of the
VRA for determining “covered jurisdictions,” thereby
eliminating preclearance under Section 5 for any
previously covered jurisdiction, including Arizona.
On June 19, 2013, Arizona’s Governor had signed a
new bill, H.B. 2305, which entirely banned partisan
ballot collection and required non-partisan ballot
collectors to complete an affidavit stating that they
had returned the ballot. Reagan, 329 F. Supp. 3d at
881; H.B. 2305, 51st Leg., 1st Reg. Sess. (engrossed),
at Secs. 3 and 5 (Ariz. 2013), https://legiscan.com
/AZ/text/HB2305/id/ 864002. Violation of H.B. 2305
was a criminal misdemeanor.
H.B. 2305 “was passed along nearly straight party
lines in the waning hours of the legislative session.”
Reagan, 329 F. Supp. 3d at 881. “Shortly after its
enactment, citizen groups organized a referendum
effort[.]” Id. They “collected more than 140,000
signatures”—significantly more than the required
amount—”“to place H.B. 2305 on the ballot for a

29a
straight up-or-down [statewide] vote” in the next
election. Id. Arizona law provided that repeal by
referendum prevented the legislature from enacting
future related legislation without a supermajority
vote. Moreover, any such future legislation could
only “further[]”—not undercut—”“the purposes” of
the referendum. Ariz. Const. art. IV, pt. 1, § 1(6)(C),
(14). “Rather than face a referendum, Republican
legislators . . . repealed their own legislation along
party lines.” Reagan, 329 F. Supp. 3d at 881. The
primary sponsor of H.B. 2305, then-State Senator
Michele Reagan (a future Secretary of State of
Arizona and an original defendant in this action),
“admitted that the legislature’s goal [in repealing
H.B. 2305] was to break the bill into smaller pieces
and reintroduce individual provisions ‘a la carte.’” Id.
During the 2015 and 2016 legislative sessions,
Republican legislators again sought to criminalize
ballot collection by third parties, culminating in 2016
in the passage of H.B. 2023, the measure challenged
in this suit. The district court found that Republican
legislators had two motivations for passing H.B.
2023. First, Republican legislators were motivated
by the “unfounded and often farfetched allegations of
ballot collection fraud” made by former State Senator
Shooter—who had introduced the bill to limit thirdparty ballot collection in 2011. Id. at 880 (finding
Shooter’s allegations “demonstrably false”). Second,
Republican legislators were motivated by a “raciallytinged” video known as the “LaFaro Video.” Id.
The video gave proponents of H.B. 2023 their best
and only “evidence” of voter fraud. During legislative
hearings on previous bills criminalizing third-party
collection, the district court wrote, “Republican

30a
sponsors and proponents [had] expressed beliefs that
ballot collection fraud regularly was occurring but
struggled with the lack of direct evidence
substantiating those beliefs.” Id. at 876. In 2014,
Republicans’ “perceived ‘evidence’ arrived in the form
of a racially charged video created by Maricopa
County Republican Chair A.J. LaFaro . . . and posted
on a blog.” Id. The court summarized:
The LaFaro Video showed surveillance footage of
a man of apparent Hispanic heritage appearing
to deliver early ballots. It also contained a
narration of “Innuendos of illegality . . . [and]
racially tinged and inaccurate commentary by . . .
LaFaro.”
LaFaro’s commentary included
statements that the man was acting to stuff the
ballot box; that LaFaro did not know if the person
was an illegal alien, a dreamer, or citizen, but
knew that he was a thug; and that LaFaro did not
follow him out to the parking lot to take down his
tag number because he feared for his life.
Id. (alterations in original and internal record
citations omitted).
A voice-over on the video
described “ballot parties” where people supposedly
“gather en mass[e] and give their un-voted ballots to
operatives of organizations so they can not only
collect them, but also vote them illegally.” Id. at 876–
77.
The district court found, “The LaFaro Video did not
show any obviously illegal activity and there is no
evidence that the allegations in the narration were
true.” Id. at 877. The video “merely shows a man of
apparent Hispanic heritage dropping off ballots and
not obviously violating any law.” Id. The video

31a
“became quite prominent in the debates over H.B.
2023.” Id. The court wrote:
The LaFaro video also was posted on Facebook
and YouTube, shown at Republican district
meetings, and was incorporated into a television
advertisement—entitled “Do You Need Evidence
Terry?”—for Secretary Reagan when she ran for
Secretary of State. In the ad, the LaFaro Video
plays after a clip of then-Arizona Attorney
General Terry Goddard stating he would like to
see evidence that there has been ballot collection
fraud. While the video is playing, Secretary
Reagan’s narration indicates that the LaFaro
Video answers Goddard’s request for evidence of
fraud.
Id. (internal record citations omitted). The court
found, “Although no direct evidence of ballot
collection fraud was presented to the legislature or at
trial, Shooter’s allegations and the LaFaro Video
were successful in convincing H.B. 2023’s proponents
that ballot collection presented opportunities for
fraud that did not exist for in-person voting[.]” Id. at
880.
The district court found that H.B. 2023 is no
harsher than any of the third-party ballot collection
bills previously introduced in the Arizona legislature.
The court found:
[A]lthough Plaintiffs argue that the legislature
made H.B. 2023 harsher than previous ballot
collection bills by imposing felony penalties, they
ignore that H.B. 2023 in other respects is more
lenient than its predecessors given its broad

32a
exceptions for family members,
members, and caregivers.

household

Id. at 881. In so finding, the district court clearly
erred. Both S.B. 1412 and H.B. 2305 were more
lenient than H.B. 2023.
For example, S.B. 1412, which was presented to
DOJ for preclearance, required a third party
collecting more than ten voted ballots to provide
photo identification. There were no other restrictions
on third-party ballot collection. There were no
criminal penalties. By contrast, under H.B. 2023 a
third party may collect a ballot only if the third party
is an official engaged in official duties, or is a family
member, household member, or caregiver of the
voter. Ariz. Rev. Stat. § 16-1005(H), (I); Reagan, 329
F. Supp. 3d at 839–40. A third party who violates
H.B. 2023 commits a class 5 felony.
In 2011, the relatively permissive third-party
ballot collection provision of S.B. 1412 was
withdrawn from Arizona’s preclearance request when
DOJ asked for more information. In 2016, in the
wake of Shelby County and without fear of
preclearance scrutiny, Arizona enacted H.B. 2023.
II. Section 2 of the VRA
“Congress enacted the Voting Rights Act of 1965
for the broad remedial purpose of ‘rid[ding] the
country of racial discrimination in voting.’” Chisom v.
Roemer, 501 U.S. 380, 403 (1991) (alteration in
original) (quoting South Carolina v. Katzenbach, 383
U.S. 301, 315 (1966)). “The Act create[d] stringent
new remedies for voting discrimination where it
persists on a pervasive scale, and . . . strengthen[ed]
existing remedies for pockets of voting discrimination

33a
elsewhere in the country.” Katzenbach, 383 U.S. at
308.
When Section 2 of the Voting Rights Act was
originally enacted in 1965, it read:
SEC. 2. No voting qualification or prerequisite to
voting, or standard, practice, or procedure shall
be imposed or applied by any State or political
subdivision to deny or abridge the right of any
citizen of the United States to vote on account of
race or color.
Chisom, 501 U.S. at 391 (citing 79 Stat. 437). “At the
time of the passage of the Voting Rights Act of 1965,
§ 2, unlike other provisions of the Act, did not provoke
significant debate in Congress because it was viewed
largely as a restatement of the Fifteenth
Amendment.” Id. at 392. The Fifteenth Amendment
provides that “[t]he right of citizens of the United
States to vote shall not be denied or abridged by the
United States or by any State on account of race,
color, or previous condition of servitude,” and it
authorizes Congress to enforce the provision “by
appropriate legislation.” U.S. Const. amend. XV. In
City of Mobile v. Bolden, 446 U.S. 55 (1980)
(plurality), the Supreme Court held that the
“coverage provided by § 2 was unquestionably
coextensive with the coverage provided by the
Fifteenth Amendment; the provision simply
elaborated upon the Fifteenth Amendment.” Chisom,
501 U.S. at 392. That is, the Court held that proof of
intentional discrimination was necessary to establish
a violation of Section 2. Id. at 393.
Congress responded to Bolden by amending
Section 2, striking out “to deny or abridge” and

34a
substituting “in a manner which results in a denial or
abridgement of.” Id. (quoting amended Section 2;
emphasis added by the Court); see also Gingles, 478
U.S. at 35. “Under the amended statute, proof of
intent [to discriminate] is no longer required to prove
a § 2 violation.” Chisom, 501 U.S. at 394. Rather,
plaintiffs can now prevail under Section 2 either by
demonstrating proof of intent to discriminate or “by
demonstrating that a challenged election practice has
resulted in the denial or abridgment of the right to
vote based on color or race.” Id. That is, a Section 2
violation can “be established by proof of
discriminatory results alone.” Chisom, 501 U.S. at
404. The Supreme Court summarized: “Congress
substantially revised § 2 to make clear that a
violation could be proved by showing discriminatory
effect alone and to establish as the relevant legal
standard the ‘results test.’” Gingles, 478 U.S. at 35
(emphasis added).
A violation of Section 2 may now be shown under
either the results test or the intent test. Id. at 35, 44.
In the sections that follow, we analyze Plaintiffs’
challenges under these two tests. First, we analyze
Arizona’s OOP policy and H.B. 2023 under the results
test. Second, we analyze H.B. 2023 under the intent
test.
A. Results Test: OOP Policy and H.B. 2023
1. The Results Test
Section 2 of the VRA “‘prohibits all forms of voting
discrimination’ that lessen opportunity for minority
voters.” League of Women Voters of N.C. v. North
Carolina, 769 F.3d 224, 238 (4th Cir. 2014) (quoting

35a
Gingles, 478 U.S. at 45 n.10). As amended in 1982,
Section 2 of the VRA provides:
(a) No voting qualification or prerequisite to
voting or standard, practice, or procedure shall be
imposed or applied by any State or political
subdivision in a manner which results in a denial
or abridgement of the right of any citizen of the
United States to vote on account of race or color,
or in contravention of the guarantees set forth in
section 10303(f)(2) of this title, as provided in
subsection (b).
(b) A violation of subsection (a) is established if,
based on the totality of circumstances, it is shown
that the political processes leading to nomination
or election in the State or political subdivision are
not equally open to participation by members of
a class of citizens protected by subsection (a) in
that its members have less opportunity than
other members of the electorate to participate in
the political process and to elect representatives
of their choice.
52 U.S.C. § 10301 (emphases added).
The results test of Section 2 applies in both vote
dilution and vote denial cases. “Vote dilution claims
involve challenges to methods of electing
representatives—like redistricting or at-large
districts—as having the effect of diminishing
minorities’ voting strength.” Ohio State Conference
of NAACP v. Husted, 768 F.3d 524, 554 (6th Cir.
2014), vacated on other grounds, 2014 WL 10384647
(6th Cir. 2014). A vote denial claim is generally
understood to be “any claim that is not a vote dilution

36a
claim.” Id. The case now before us involves two votedenial claims.
The jurisprudence of vote-denial claims is
relatively underdeveloped in comparison to votedilution claims. As explained by the Fourth Circuit,
“[T]he predominance of vote dilution in Section 2
jurisprudence likely stems from the effectiveness of
the now-defunct Section 5 preclearance requirements
that stopped would-be vote denial from occurring in
covered jurisdictions[.]” League of Women Voters, 769
F.3d at 239.
In evaluating a vote-denial challenge to a
“standard, practice, or procedure” under the “results
test” of Section 2, most courts, including our own,
engage in a two-step process. We first did so, in
abbreviated fashion, in Smith v. Salt River Project
Agricultural Improvement & Power District, 109 F.3d
586 (9th Cir. 1997). We later did so, at somewhat
greater length, in Gonzalez v. Arizona, 677 F.3d 383
(9th Cir. 2012) (en banc). Other circuits have
subsequently used a version of the two-step analysis.
See Veasey v. Abbott, 830 F.3d 216, 244–45 (5th Cir.
2016); League of Women Voters, 769 F.3d at 240 (4th
Cir. 2014); Husted, 768 F.3d at 554 (6th Cir. 2014).
Compare Frank v. Walker, 768 F.3d 744, 755 (7th Cir.
2014) (“We are skeptical about the second of these
steps[.]”).
First, we ask whether the challenged standard,
practice or procedure results in a disparate burden on
members of the protected class. That is, we ask
whether, “as a result of the challenged practice or
structure[,] plaintiffs do not have an equal
opportunity to participate in the political processes

37a
and to elect candidates of their choice.” Gingles, 478
U.S. at 44. The mere existence—or “bare statistical
showing”—of a disparate impact on a racial minority,
in and of itself, is not sufficient. See Salt River, 109
F.3d at 595 (“[A] bare statistical showing of
disproportionate impact on a racial minority does not
satisfy the § 2 ‘results’ inquiry.”
(emphasis in
original)).
Second, if we find at the first step that the
challenged practice imposes a disparate burden, we
ask whether, under the “totality of the
circumstances,” there is a relationship between the
challenged “standard, practice, or procedure,” on the
one hand, and “social and historical conditions” on
the other. The purpose of the second step is to
evaluate a disparate burden in its real-world context
rather than in the abstract. As stated by the
Supreme Court, “The essence of a § 2 claim is that a
certain electoral law, practice, or structure interacts
with social and historical conditions to cause an
inequality in the opportunities enjoyed by [minority]
and white voters to elect their preferred
representatives” or to participate in the political
process.
Gingles, 478 U.S. at 47; 52 U.S.C.
§ 10301(b). To determine at the second step whether
there is a legally significant relationship between the
disparate burden on minority voters and the social
and historical conditions affecting them, we consider,
as appropriate, factors such as those laid out in the
Senate Report accompanying the 1982 amendments
to the VRA. Id. at 43 (“The Senate Report which
accompanied the 1982 amendments elaborates on the
nature of § 2 violations and on the proof required to

38a
establish these violations.”); Veasey, 830 F.3d at 244–
45.
The Senate Report provides:
If as a result of the challenged practice or
structure plaintiffs do not have an equal
opportunity to participate in the political
processes and to elect candidates of their choice,
there is a violation of this section. To establish a
violation, plaintiffs could show a variety of
factors, depending on the kind of rule, practice,
or procedure called into question.
Typical factors include:
1. the extent of any history of official
discrimination in the state or political
subdivision that touched the right of the
members of the minority group to register,
to vote, or otherwise to participate in the
democratic process;
2. the extent to which voting in the
elections of the state or political subdivision
is racially polarized;
3. the extent to which the state or political
subdivision has used unusually large
election
districts,
majority
vote
requirements, anti-single shot provisions,
or other voting practices or procedures that
may enhance the opportunity for
discrimination against the minority group;
4. if there is a candidate slating process,
whether the members of the minority group
have been denied access to that process;

39a
5. the extent to which members of the
minority group in the state or political
subdivision
bear
the
effects
of
discrimination in such areas as education,
employment and health, which hinder their
ability to participate effectively in the
political process;
6. whether political campaigns have been
characterized by overt or subtle racial
appeals;
7. the extent to which members of the
minority group have been elected to public
office in the jurisdiction.
Additional factors that in some cases have had
probative value as part of plaintiffs’ evidence to
establish a violation are:
[8.] whether there is a significant lack of
responsiveness on the part of elected
officials to the particularized needs of the
members of the minority group.
[9.] whether the policy underlying the state
or political subdivision’s use of such voting
qualification, prerequisite to voting, or
standard, practice or procedure is tenuous.
S. Rep. No. 97-417 (“S. Rep.”), at 28–29 (1982); see
Gingles, 478 U.S. at 36–37 (quoting the Senate
Report).
The Senate Committee’s list of “typical factors” is
neither comprehensive nor exclusive. S. Rep. at 29.
“[T]here is no requirement that any particular
number of factors be proved, or that a majority of
them point one way or the other.” Id. “[T]he question

40a
whether the political processes are ‘equally open’
depends on a searching practical evaluation of the
‘past and present reality.’” Id. at 30. An evaluation of
the totality of circumstances in a Section 2 results
claim, including an evaluation of appropriate Senate
factors, requires “a blend of history and an intensely
local appraisal[.]” Gingles, 478 U.S. at 78 (quoting
White v. Regester, 412 U.S. 755, 769–70 (1973)). The
Senate factors are relevant to both vote-denial and
vote-dilution claims. Gingles, 478 U.S. at 45 (Senate
factors will be “pertinent to certain types of § 2
claims,” including vote denial claims, but will be
“particularly [pertinent] to vote dilution claims.”).
Our sister circuits have struck down standards,
practices, or procedures in several vote-denial cases
after considering the Senate factors. In Husted, the
Sixth Circuit upheld a district court’s finding that an
Ohio law limiting early voting violated the results
test of Section 2. The court wrote,
We find Senate factors one, three, five, and nine
particularly relevant to a vote denial claim in
that they specifically focus on how historical or
current patterns of discrimination “hinder
[minorities’] ability to participate effectively in
the political process.” Gingles, 478 U.S. at 37
(quoting Senate factor five). All of the factors,
however, can still provide helpful background
context to minorities’ overall ability to engage
effectively on an equal basis with other voters in
the political process.
Husted, 768 F.3d at 555. In Veasey, the Fifth Circuit
upheld a district court’s finding that Texas’s
requirement that a photo ID be presented at the time

41a
of voting violated the results test. Veasey, 830 F.3d
at 256–64 (considering Senate factors one, two, five,
six, seven, eight, and nine). In League of Women
Voters, the Fourth Circuit held that the district court
had clearly erred in finding that the results test had
not been violated by North Carolina’s elimination of
same-day registration, and by North Carolina’s
practice of wholly discarding out-of-precinct ballots.
League of Women Voters, 769 F.3d at 245–46
(considering Senate factors one, three, and nine).
2. OOP Policy and the Results Test
Uncontested evidence in the district court
established that minority voters in Arizona cast OOP
ballots at twice the rate of white voters. The question
is whether the district court clearly erred in holding
that Arizona’s policy of entirely discarding OOP
ballots does not violate the “results test” of Section 2.
a. Step One: Disparate Burden
The question at step one is whether Arizona’s
policy of entirely discarding OOP ballots results in a
disparate burden on a protected class. The district
court held that Plaintiffs failed at step one. The
district court clearly erred in so holding.
Extensive and uncontradicted evidence in the
district court established that American Indian,
Hispanic, and African American voters are overrepresented among OOP voters by a ratio of two to
one. See Part II(A), supra. The district court wrote,
“Plaintiffs provided quantitative and statistical
evidence of disparities in OOP voting through the
expert testimony of Dr. Rodden . . . . Dr. Rodden’s
analysis is credible and shows that minorities are
over-represented among the small number of voters

42a
casting OOP ballots.” Reagan, 329 F. Supp. 3d at
871. Dr. Rodden reported that this pattern was
consistent over time and across counties. Based on
this evidence, the court found that during the 2016
general election, American Indian, Hispanic, and
African American voters were twice as likely as white
voters to vote out-of-precinct and not have their votes
counted. Id. at 872.
Despite these factual findings, the district court
held that Arizona’s policy of entirely discarding OOP
ballots does not impose a disparate burden under the
results test. The court gave two reasons to support
its holding.
First, the district court discounted the disparate
burden on the ground that there were relatively few
OOP ballots cast in relation to the total number of
ballots. Id. at 872. The district court clearly erred in
so doing.
The district court pointed out that the absolute
number of OOP ballots in Arizona fell between 2012
and 2016.
It pointed out, further, that as a
percentage of all ballots cast, OOP ballots fell from
0.47 percent to 0.15 percent during that period. Id.
The numbers and percentages cited by the district
court are accurate. Standing alone, they may be read
to suggest that locating the correct precinct for inperson voting has become easier and that OOP
ballots, as a percentage of in-person ballots, have
decreased accordingly.
However, the opposite is true. Arizona’s OOP
policy applies only to in-person ballots. The proper
baseline to measure OOP ballots to is thus not all
ballots, but all in-person ballots. The district court

43a
failed to point out that the absolute number of all inperson ballots fell more than the absolute number of
OOP ballots, and that, as a result, as a percentage of
in-person ballots, OOP ballots increased rather than
decreased.
Even putting aside the potentially misleading
numbers and percentages cited by the district court
and focusing only on the decline in the absolute
number of OOP ballots, the court clearly erred. As
indicated
above,
the
vote-denial
category
encompasses all cases that are not vote-dilution
cases. The number of minority voters adversely
affected, and the mechanism by which they are
affected, may vary considerably. For example, if a
polling place denies an individual minority voter her
right to vote based on her race or color, Section 2 is
violated based on that single denial. However, a
different analysis may be appropriate when a facially
neutral policy adversely affects a number of minority
voters. Arizona’s OOP policy is an example. We are
willing to assume in such a case that more than a de
minimis number of minority voters must be burdened
before a Section 2 violation based on the results test
can be found. Even on that assumption, however, we
conclude that the number of OOP ballots cast in
Arizona’s general election in 2016—3,709 ballots—is
hardly de minimis.
We find support for our conclusion in several
places. The Department of Justice submitted an
amicus brief to our en banc panel in support of
Arizona. Despite its support for Arizona, DOJ
specifically disavowed the district court’s conclusion
that the number of discarded OOP ballots was too

44a
small to be cognizable under the results test. DOJ
wrote:
[T]he district court’s reasoning was not correct
to the extent that it suggested that plaintiffs’
Section 2 claim would fail solely because of the
small number of voters affected. . . .
That is not a proper reading of the statute.
Section 2 prohibits any “standard, practice, or
procedure” that “results in a denial or
abridgement of the right of any citizen of the
United States to vote on account of race or color.”
52 U.S.C. 10301(a) (emphasis added); see also
Frank v. Walker, 819 F.3d 384, 386 (7th Cir.
2016) (Frank II) (“The right to vote is personal
and is not defeated by the fact that 99% of other
people can secure the necessary credentials
easily.”). Section 2 safeguards a personal right to
equal participation opportunities. A poll worker
turning away a single voter because of her race
plainly results in “less opportunity * * * to
participate in the political process and to elect
representatives of [her] choice.”
52 U.S.C.
10301(b).
DOJ Amicus Brief at 28–29. DOJ’s brief appears to
treat as equivalent the case of an individually
targeted single minority voter who is denied the right
to vote and the case where a facially neutral policy
affects a single voter. We do not need to go so far. We
need only point out that in the case before us a
substantial number of minority voters are
disparately affected by Arizona’s OOP policy. As long
as an adequate disparate impact is shown, as it has
been shown here, and as long as the other

45a
prerequisites for finding a Section 2 violate are met,
each individual in the affected group is protected
under Section 2.
Further,
in
League
of
Women
Voters,
“approximately 3,348 out-of-precinct provisional
ballots” cast by African American voters would have
been discarded under the challenged North Carolina
law. 769 F.3d at 244 (quoting the district court). The
district court had held that this was a “minimal”
number of votes, and that Section 2 was therefore not
violated. The Fourth Circuit reversed, characterizing
the district court’s ruling as a “grave error.” Id. at
241.
Finally, in the 2000 presidential election, the
official margin of victory for President George W.
Bush in Florida was 537 votes. Federal Election
Commission, 2000 Official Presidential General
Election Results (Dec. 2001), available at
https://transition.fec.gov/
pubrec/2000presgeresults.htm. If there had been
3,709 additional ballots cast in Florida in 2000, in
which minority voters had outnumbered white voters
by a ratio of two to one, it is possible that a different
President would have been elected.
Second, the district court concluded that Arizona’s
policy of rejecting OOP ballots does not impose a
disparate burden on minority voters because
Arizona’s policy of entirely discarding OOP ballots “is
not the cause of the disparities in OOP voting.”
Reagan, 329 F. Supp. 3d at 872. The court wrote that
Plaintiffs “have not shown that Arizona’s policy to not
count OOP ballots causes minorities to show up to
vote at the wrong precinct at rates higher than their

46a
non-minority counterparts.” Id. at 873. Again, the
district court clearly erred.
The district court misunderstood what Plaintiffs
must show. Plaintiffs need not show that Arizona
caused them to vote out of precinct. Rather, they
need only show that the result of entirely discarding
OOP ballots has an adverse disparate impact, by
demonstrating “a causal connection between the
challenged voting practice and a prohibited
discriminatory result.” Salt River, 109 F.3d at 595
(emphasis added). Here, “[t]he challenged practice—
not counting OOP ballots—results in ‘a prohibited
discriminatory result’; a substantially higher
percentage of minority votes than white votes are
discarded.” DNC, 904 F.3d at 736 (Thomas, C.J.,
dissenting).
We hold that the district court clearly erred in
holding that Arizona’s policy of entirely discarding
OOP ballots does not result in a disparate burden on
minority voters. We accordingly hold that Plaintiffs
have succeeded at step one of the results test.
b. Step Two: Senate Factors
The question at step two is whether, under the
“totality of circumstances,” the disparate burden on
minority voters is linked to social and historical
conditions in Arizona so as “to cause an inequality in
the opportunities enjoyed by [minority] and white
voters to elect their preferred representatives” or to
participate in the political process. Gingles, 478 U.S.
at 47; 52 U.S.C. § 10301(b). The district court wrote
that because in its view Plaintiffs failed at step one,
discussion of step two was unnecessary. Reagan, 329
F. Supp. 3d at 873. The court nonetheless went on to

47a
discuss step two and, after considering various
Senate factors, to hold that Plaintiffs failed at this
step as well. The district court clearly erred in so
holding.
At step two, we consider relevant Senate factors.
Some Senate factors are “more important to” votedenial claims, or to some vote-denial claims, and
others, “[i]f present, . . . are supportive of, but not
essential to” the claim. Gingles, 478 at 48 n.15
(emphasis in original). That is, Senate factors vary
in importance depending on whether a court is
dealing with a vote-dilution or a vote-denial case.
The same factors may also vary in importance from
one vote-denial case to another.
We emphasize that the relative importance of the
Senate factors varies from case to case. For example,
as we will describe in a moment, Arizona has a long
and unhappy history of official discrimination
connected to voting. Other States may not have such
a history, but depending on the existence of other
Senate factors they may nonetheless be found to have
violated the results test of Section 2.
The district court considered seven of the nine
Senate factors: factor one, the history of official
discrimination connected to voting; factor two,
racially polarized voting patterns; factor five, the
effects of discrimination in other areas on minority
groups’ access to voting; factor six, racial appeals in
political campaigns; factor seven, the number of
minorities in public office; factor eight, officials’
responsiveness to the needs of minority groups; and
factor nine, the tenuousness of the justification for
the challenged voting practice.

48a
We analyze below each of these factors, indicating
whether we agree or disagree with the district court’s
analysis as to each. Of the various factors, we regard
Senate factors five (the effects of discrimination in
other areas on minorities access to voting) and nine
(the tenuousness of the justification for the
challenged voting practices) as particularly
important. We also regard factor one (history of
official discrimination) as important, as it bears on
the existence of discrimination generally and
strongly supports our conclusion under factor five.
Though “not essential,” Gingles, 478 U.S. at 48 n.15,
the other factors provide “helpful background
context.” Husted, 768 F.3d at 555.
i. Factor One: History of Official Discrimination
Connected to Voting
Arizona has a long history of race-based
discrimination against its American Indian,
Hispanic, and African American citizens. Much of
that discrimination is directly relevant to those
citizens’ ability “to register, to vote, or otherwise to
participate in the democratic process.” Id. We
recount the most salient aspects of that history.
Dr. David Berman, a Professor Emeritus of
Political Science at Arizona State University,
submitted an expert report and testified in the
district court. The court found Dr. Berman “credible”
and gave “great weight to Dr. Berman’s opinions.”
Reagan, 329 F. Supp. 3d at 834. The following
narrative is largely drawn from Dr. Berman’s report
and the sources on which he relied.

49a
(A) Territorial Period
Arizona’s history of discrimination dates back to
1848, when it first became an American political
entity as a United States territory. “Early territorial
politicians acted on the belief that it was the
‘manifest destiny’ of the Anglos to triumph in Arizona
over the earlier Native American and Hispanic
civilizations.”
David Berman, Expert Report
(Berman) at 4. Dr. Berman wrote that from the
1850s through the 1880s there were “blood thirsty
efforts by whites to either exterminate” Arizona’s
existing American Indian population or “confine
them to reservations.” Id. at 5. In 1871, in the Camp
Grant
Massacre,
white
settlers
“brutal[ly]
murder[ed] over 100 Apaches, most of whom were
women and children.” Id. Arizona’s white territorial
legislature passed a number of discriminatory laws,
including anti-miscegenation laws forbidding
marriage between whites and Indians. See James
Thomas Tucker et al., Voting Rights in Arizona:
1982–2006, 17 S. Cal. Rev. L. & Soc. Just. 283, 283
n.3 (2008) (Tucker et al., Voting Rights). Dr. Berman
wrote: “By the late 1880s and the end of th[e] Indian
wars, the realities of life for Native Americans in
Arizona were confinement to reservations, a
continuous loss of resources (water, land, minerals)
to settlers, poverty, and pressure to abandon their
traditional cultures.” Berman at 5.
White settlers also discriminated against Arizona’s
Hispanic population. Dr. Berman wrote:
Although Hispanics in the territory’s early period
commonly held prominent roles in public and
political life, as migration continued they were

50a
overwhelmed by a flood of Anglo-American and
European immigrants. While a small group of
Hispanics continued to prosper, . . . most
Hispanics toiled as laborers who made less than
Anglos even though they performed the same
work.
Id. (footnote omitted). Hispanics in Arizona “found it
difficult to receive acceptance or fair treatment in a
society that had little tolerance for people of Latin
American extraction, and particularly those whose
racial make-up included Indian or African blood.” Id.
at 5–6 (quoting Oscar J. Martinez, Hispanics in
Arizona, in Arizona at Seventy-Five: The Next
Twenty-Five Years 88–89 (Ariz. State Univ. Pub.
History Program & the Ariz. Historical Soc’y, 1987)).
Pursuant to the Treaty of Guadalupe Hidalgo that
ended the Mexican-American War, the United States
conferred citizenship on the approximately 100,000
Hispanics living in Arizona. In 1909, the Arizona
territorial legislature passed a statute imposing an
English language literacy test as a prerequisite to
voter registration. Id. at 10. The test was specifically
designed to prevent the territory’s Hispanic
citizens—who had lower English literacy rates than
white citizens—from voting. Id. At the time, Indians
were not citizens and were not eligible to vote.
In 1910, Congress passed a statute authorizing
Arizona, as a prelude to statehood, to draft a state
constitution. Upon approval of its constitution by
Congress, the President, and Arizona voters, Arizona
would become a State. Id. at 11. Members of
Congress viewed Arizona’s literacy test as a
deliberate effort to disenfranchise its Hispanic voters.

51a
Id. The authorizing statute specifically provided that
Arizona could not use its newly adopted literacy test
to prevent Arizona citizens from voting on a proposed
constitution. Id.
That same year, Arizona convened a constitutional
convention. Id. at 7. Although Congress had ensured
that Arizona would not use its literacy test to prevent
Hispanic citizens from voting on the constitution,
Hispanics were largely excluded from the drafting
process. With the exception of one Hispanic delegate,
all of the delegates to the convention were white. Id.
By comparison, approximately one-third of the
delegates to the 1910 New Mexico constitutional
convention were Hispanic, and one-sixth of the 48
delegates to the 1849 California constitutional
convention were Hispanic. Id.
The influence of Hispanic delegates is evident in
those States’ constitutions.
For example, New
Mexico’s constitution provides that the “right of any
citizen of the state to vote, hold office or sit upon
juries, shall never be restricted, abridged or impaired
on account of . . . race, language or color, or inability
to speak, read or write the English or Spanish
languages.” N.M. Const. art. VII, § 3 (1910). It also
requires the legislature to provide funds to train
teachers in Spanish instruction. N.M. Const. art. XII,
§ 8 (1910). California’s constitution required all state
laws to be published in Spanish as well as English.
Cal. Const. art. XI, § 21 (1849).
By contrast, Arizona’s constitution did not include
such provisions. Indeed, two provisions required
precisely the opposite. The Arizona constitution
provided that public schools “shall always be

52a
conducted in English” and that “[t]he ability to read,
write, speak, and understand the English language
sufficiently well to conduct the duties of the office
without the aid of an interpreter, shall be a necessary
qualification for all State officers and members of the
State Legislature.” Ariz. Const. art. XX, §§ 7, 8
(1910).
(B) Early Statehood
(1) Literacy Test
Arizona became a State in 1912. That same year,
the Arizona legislature passed a statute reimposing
an English literacy test—the test that had been
imposed by the territorial legislature in 1909 and
that Congress had forbidden the State to use for
voting on the state constitution. Berman at 11; see
also James Thomas Tucker, The Battle Over
Bilingual Ballots: Language Minorities and Political
Access Under the Voting Rights Act 20 (Routledge,
2016) (Tucker, Bilingual Ballots). According to
Dr. Berman, the statute was enacted “to limit ‘the
ignorant Mexican vote.’” David R. Berman, Arizona
Politics and Government: The Quest for Autonomy,
Democracy, and Development 75 (Univ. of Neb. Press,
1998) (Berman, Arizona Politics) (quoting letter
between prominent political leaders); Berman at 12.
County registrars in Arizona had considerable
discretion in administering literacy tests. Registrars
used that discretion to excuse white citizens from the
literacy requirement altogether, to give white citizens
easier versions of the test, and to help white citizens
pass the test. See also Katzenbach, 383 U.S. at 312
(describing the same practice with respect to African
American citizens in southern States). In contrast,

53a
Hispanic citizens were often required to pass more
difficult versions of the test, without assistance and
without error. Berman, Arizona Politics at 75; see
also Berman at 12.
The literacy test was used for the next sixty years.
The year it was introduced, Hispanic registration
declined so dramatically that some counties lacked
enough voters to justify primaries. Berman at 12.
One county had recall campaigns because enough
Hispanic voters had been purged from voting rolls to
potentially change the electoral result. Id. Arizona
would use its literacy test not only against Hispanics,
but also against African Americans and, once they
became eligible to vote in 1948, against American
Indians. The test was finally repealed in 1972, two
years after an amendment to the Voting Rights Act
banned literacy tests nationwide. Id.
(2) Disenfranchisement of American Indians
In 1912, when Arizona became a State, Indians
were not citizens of Arizona or of the United States.
In 1924, Congress passed the Indian Citizenship Act,
declaring all Indians citizens of the United States
and, by extension, of their States of residence. Indian
Citizenship Act of 1924, Pub. L. No. 68-175, 43 Stat.
253 (codified at 8 U.S.C. § 1401(b)).
Indian voting had the potential to change the
existing white political power structure of Arizona.
See Patty Ferguson-Bohnee, The History of Indian
Voting Rights in Arizona: Overcoming Decades of
Voter Suppression, 47 Ariz. St. L.J. 1099, 1103–04
(2015) (Ferguson-Bohnee). Indians comprised over
14 percent of the population in Arizona, the secondhighest percentage of Indians in any State. Id. at

54a
1102 n.19, 1104. Potential power shifts were even
greater at the county level. According to the 1910
Census, Indians comprised over 66 percent of the
population of Apache County, over 50 percent of
Navajo County, over 34 percent of Pinal County, and
over 34 percent of Coconino County. Id. at 1104.
Enacted under the Fourteenth and Fifteenth
Amendments, the Indian Citizenship Act should have
given Indians the right to vote in Arizona elections.
The Attorney General of Arizona initially agreed that
the Act conferred the right to vote, and he suggested
in 1924 that precinct boundaries should be expanded
to include reservations. Id. at 1105. However, in the
years leading up to the 1928 election, Arizona’s
Governor, county officials, and other politicians
sought to prevent Indians from voting. Id. at 1106–
08. The Governor, in particular, was concerned that
Indian voter registration—specifically, registration
of approximately 1,500 Navajo voters—would hurt
his reelection chances. Id. at 1107–08. The Governor
sought legal opinions on ways to exclude Indian
voters, id., and was advised to “adopt a systematic
course of challenging Indians at the time of election.”
Id. at 1108 (quoting Letter from Samuel L. Pattee to
George W.P. Hunt, Ariz. Governor (Sept. 22, 1928)).
County officials challenged individual Indian voter
registrations. Id. at 1107–08.
Prior to the 1928 election, two Indian residents of
Pima County brought suit challenging the county’s
rejection of their voter registration forms. Id. at
1108. The Arizona Supreme Court sided with the
county. The Arizona constitution forbade anyone
who was “under guardianship, non compos mentis, or
insane” from voting. Ariz. Const. art. VII, § 2 (1910).

55a
The Court held that Indians were “wards of the
nation,” and were therefore “under guardianship”
and not eligible to vote. Porter v. Hall, 271 P. 411,
417, 419 (Ariz. 1928).
Arizona barred Indians from voting for the next
twenty years. According to the 1940 census, Indians
comprised over 11 percent of Arizona’s population.
Ferguson-Bohnee at 1111. They were the largest
minority group in Arizona. “One-sixth of all Indians
in the country lived in Arizona.” Id.
After World War II, Arizona’s Indian citizens
returned from fighting the Axis powers abroad to
fight for the right to vote at home. Frank Harrison,
a World War II veteran and member of the Fort
McDowell Yavapai Nation, and Harry Austin,
another member of the Fort McDowell Yavapai
Nation, filed suit against the State. In 1948, the
Arizona Supreme Court overturned its prior decision
in Porter v. Hall. Harrison v. Laveen, 196 P.2d 456,
463 (Ariz. 1948). Almost a quarter century after
enactment of the Indian Citizenship Act of 1924,
Indian citizens in Arizona had the legal right to vote.
(C) The 1950s and 1960s
For decades thereafter, however, Arizona’s Indian
citizens often could not exercise that right. The
Arizona Supreme Court’s decision in Harrison v.
Laveen did not result in “a large influx” of new voters
because Arizona continued to deny Indian citizens—
as well as Hispanic and African American citizens—
access to the ballot through other means. Berman at
15.
The biggest obstacle to voter registration was
Arizona’s English literacy test.
In 1948,

56a
approximately 80 to 90 percent of Indian citizens in
Arizona did not speak or read English. Tucker et al.,
Voting Rights at 285; see also Berman at 15. In the
1960s, about half the voting-age population of the
Navajo Nation could not pass the English literacy
test. Ferguson-Bohnee at 1112 n.88. For Arizona’s
Indian—and Hispanic and African American—
citizens who did speak and read English,
discriminatory administration of the literacy test by
county registrars often prevented them from
registering. See, e.g., Berman, Arizona Politics at 75
(“As recently as the 1960s, registrars applied the test
to reduce the ability of blacks, Indians and Hispanics
to register to vote.”).
Voter intimidation during the 1950s and 60s often
prevented from voting those American Indian,
Hispanic, and African American citizens who had
managed to register. According to Dr. Berman:
During the 1960s, it was . . . clear that more
than the elimination of the literacy test in some
areas was going to be needed to protect
minorities.
Intimidation of minority-group
members—Hispanics, African Americans, as well
as Native Americans—who wished to vote
was . . . a fact of life in Arizona.
Anglos
sometimes challenged minorities at the polls and
asked them to read and explain “literacy” cards
containing
quotations
from
the
U.S.
Constitution.
These intimidators hoped to
frighten or embarrass minorities and discourage
them from standing in line to vote.
Vote
challenges of this nature were undertaken by
Republican workers in 1962 in South Phoenix, a
largely minority Hispanic and African-American

57a
area. [In addition,] [p]eople in the non-Native
American community, hoping to keep Native
Americans away from the polls, told them that
involvement
could
lead
to
something
detrimental, such as increased taxation, a loss of
reservation lands, and an end to their special
relationship with the federal government.
Berman at 14–15.
Intimidation of minority voters continued
throughout the 1960s. For example, in 1964, Arizona
Republicans undertook voter intimidation efforts
throughout Arizona “as part of a national effort by the
Republican Party called ‘Operation Eagle Eye.’” Id. at
14. According to one account:
The approach was simple: to challenge voters,
especially voters of color, at the polls throughout
the country on a variety of specious pretexts. If
the challenge did not work outright—that is, if
the voter was not prevented from casting a ballot
(provisional ballots were not in widespread use at
this time)—the challenge would still slow down
the voting process, create long lines at the polls,
and likely discourage some voters who could not
wait or did not want to go through the hassle they
were seeing other voters endure.
Id. (quoting Tova Andrea Wang, The Politics of Voter
Suppression: Defending and Expanding Americans’
Right to Vote 44–45 (Cornell Univ. Press, 2012)).
Compounding the effects of the literacy test and
voter intimidation, Arizona “cleansed” its voting rolls.
In 1970, Democrat Raul Castro narrowly lost the
election for Governor.
(He would win the
governorship four years later to become Arizona’s

58a
first and only Hispanic Governor.) Castro received 90
percent of the Hispanic vote, but he lost the election
because of low Hispanic voter turnout. Dr. Berman
explained:
[C]ontributing to that low turnout was “a
decision by the Republican-dominated legislature
to cleanse the voting rolls and have all citizens
reregister. This cleansing of the rolls erased
years of registration drives in barrios across the
state. It seems certain that many Chicanos did
not understand that they had to reregister, were
confused by this development, and simply stayed
away from the polls.”
Id. at 17 (quoting F. Chris Garcia & Rudolph O. de la
Garza, The Chicano Political Experience 105
(Duxbury Press, 1977)).
(D) Voting Rights Act and Preclearance under
Section 5
Congress passed the Voting Rights Act in 1965.
See Voting Rights Act of 1965, Pub. L. No. 89-110, 79
Stat. 437–446 (codified as amended at 52 U.S.C.
§§ 10301–10314, 10501–10508, 10701, 10702).
Under Section 4(b) of the Act, a State or political
subdivision qualified as a “covered jurisdiction” if it
satisfied two criteria. Id. § 4(b). The first was that
on November 1, 1964—the date of the presidential
election—the State or political subdivision had
maintained a “test or device,” such as a literacy test,
restricting the opportunity to register or vote. The
second was either that (a) on November 1, 1964, less
than 50 percent of the voting-age population in the
jurisdiction had been registered to vote, or (b) less
than 50 percent of the voting-age population had

59a
actually voted in the presidential election of 1964.
Seven States qualified as covered jurisdictions under
this formula: Alabama, Alaska, Georgia, Louisiana,
Mississippi,
South
Carolina,
and
Virginia.
Determination of the Director of the Census
Pursuant to Section 4(b)(2) of the Voting Rights Act
of 1965, 30 Fed. Reg. 9897-02 (Aug. 7, 1965). Political
subdivisions in four additional States—Arizona,
Hawai’i, Idaho, and North Carolina—also qualified
as covered jurisdictions. See id.; Determination of the
Director of the Census Pursuant to Section 4(b)(2) of
the Voting Rights Act of 1965, 30 Fed. Reg. 14,505-02
(Nov. 19, 1965).
Under Section 4(a) of the VRA, covered
jurisdictions were forbidden for a period of five years
from using a “test or device,” such as a literacy test,
as a prerequisite to register to vote, unless a threejudge district court of the District of Columbia found
that no such test had been used by the jurisdiction
during the preceding five years for the purpose of
denying the right to vote on account of race or color.
Voting Rights Act of 1965, Pub. L. No. 89-110, § 4(a).
Under Section 5, covered jurisdictions were forbidden
from changing “any voting qualification or
prerequisite to voting, or standard, practice, or
procedure with respect to voting” unless the
jurisdiction “precleared” that change, by either
obtaining approval (a) from a three-judge district
court of the District of Columbia acknowledging that
the proposed change “neither has the purpose nor will
have the effect of denying or abridging the right to
vote on account of race or color,” or (b) from the
Attorney General if a proposed change has been
submitted to DOJ and the Attorney General has not

60a
“interposed an objection” within sixty days of the
submission. Id. § 5.
Three counties in Arizona qualified as “covered
jurisdictions” under the 1965 Act: Apache, Coconino,
and Navajo Counties. See Determination of the
Director of the Census Pursuant to Section 4(b)(2) of
the Voting Rights Act of 1965, 30 Fed. Reg. 9897-02,
14,505-02. Those counties were therefore initially
prohibited from using the literacy test as a
prerequisite to voter registration. All three counties
were majority American Indian, and there was a
history of high use of the literacy test and
correspondingly low voter turnout. Berman at 12.
However, in 1966, in a suit brought by the counties
against the United States, a three-judge district court
held that there was insufficient proof that a literacy
test had been used by the counties in a discriminatory
fashion during the immediately preceding five years.
See Apache Cty. v. United States, 256 F. Supp. 903
(D.D.C. 1966). The Navajo Nation had sought to
intervene and present evidence of discrimination in
the district court, but its motion to intervene had
been denied. Id. at 906–13.
Congress renewed and amended the VRA in 1970,
extending it for another five years. Voting Rights Act
of 1970, Pub. L. No. 91-285, 84 Stat. 314 (1970).
Under the VRA of 1970, the formula for determining
covered jurisdictions under Section 4(b) was changed
to add the presidential election of 1968 to the
percentage-of-voters criterion. Id. § 4(b). As a result,
eight out of fourteen Arizona counties—including
Apache, Navajo, and Coconino Counties—qualified as
covered jurisdictions. Tucker et al., Voting Rights at
286. Under the 1970 Act, non-covered jurisdictions

61a
were forbidden from using a “test or device,” such as
a literacy test, to the same degree as covered
jurisdictions. The 1970 Act thus effectively imposed
a nationwide ban on literacy tests. Voting Rights Act
of 1970, Pub. L. No. 91-285, § 201.
Arizona immediately challenged the ban. In
Oregon v. Mitchell, 400 U.S. 112, 132 (1970), the
Court unanimously upheld the ban on literacy tests.
Justice Black wrote,
In enacting the literacy test ban . . . [,]
Congress had before it a long history of the
discriminatory use of literacy tests to
disfranchise voters on account of their race. . . .
Congress . . . had evidence to show that voter
registration in areas with large SpanishAmerican populations was consistently below the
state and national averages. In Arizona, for
example, only two counties out of eight with
Spanish surname populations in excess of 15%
showed a voter registration equal to the statewide average. Arizona also has a serious problem
of deficient voter registration among Indians.
Two years after the Court’s decision, Arizona finally
repealed its literacy test. Tucker, Bilingual Ballots,
at 21.
In 1975, Congress again renewed and amended the
VRA. Voting Rights Act of 1975, Pub. L. No. 94-73,
89 Stat. 400 (1975). Under the VRA of 1975, the
formula for determining covered jurisdictions under
Section 4(b) was updated to add the presidential
election of 1972. Id. § 202. In addition, Congress
expanded the definition of “test or device” to address
discrimination against language minority groups. Id.

62a
§ 203 (Section 4(f)). Pursuant to this amended
formula and definition, any jurisdiction where a
single language minority group (e.g., Spanish
speakers who spoke no other language) constituted
more than 5 percent of eligible voters was subject to
preclearance under Section 5 if (a) the jurisdiction did
not offer bilingual election materials during the 1972
presidential election, and (b) less than 50 percent of
the voting-age population was registered to vote, or
less than 50 percent of the voting-age population
actually voted in the 1972 presidential election. Id.
§§ 201–203.
Every jurisdiction in Arizona failed the new test.
As a result, the entire State of Arizona became a
covered jurisdiction. Berman at 20–21.
(E) Continued Obstacles to Voting: The Example of
Apache County
The VRA’s elimination of literacy tests increased
political participation by Arizona’s American Indian,
Hispanic, and African American citizens. However,
state and county officials in Arizona continued to
discriminate against minority voters.
Apache
County, which includes a significant part of the
Navajo Reservation, provides numerous examples of
which we recount only one.
In 1976, a school district in Apache County sought
to avoid integration by holding a special bond election
to build a new high school in a non-Indian area of the
county. See Apache Cty. High Sch. Dist. No. 90 v.
United States, No. 77-1815 (D.D.C. June 12, 1980);
see also Tucker et al., Voting Rights at 324–26
(discussing the same). Less than a month before the
election, the school district, a “covered jurisdiction”

63a
under the VRA, sought preclearance under Section 5
for proposed changes in election procedures,
including closure of nearly half the polling stations on
the Navajo Reservation. Letter from J. Stanley
Pottinger, Assistant Attorney Gen., Civil Rights Div.,
Dep’t of Justice, to Joe Purcell, Gust, Rosenfeld,
Divelbess & Henderson (Oct. 4, 1976). DOJ did not
complete its review before the election. The school
district nonetheless held the bond election using the
proposed changes. After the election, DOJ refused to
preclear the proposed changes, finding that they had
a discriminatory purpose or effect.
Id. (and
subsequent letters from Assistant Attorney Gen.
Drew S. Days III on May 3, 1977, and June 10, 1977).
The school district brought suit in a three-judge
district court, seeking a declaratory judgment that
the election did not violate the VRA.
The district court found that “[t]he history of
Apache County reveals pervasive and systemic
violations of Indian voting rights.” Apache Cty. High
Sch. Dist. No. 90, No. 77-1815, at 6. The court found
that the school district’s behavior was neither
“random[]” nor “unconscious[].”
Id. at 14–15.
“Rather, its campaign behavior served to effectuate
the unwritten but manifest policy of minimizing the
effect of the Navajos’ franchise, while maximizing the
Anglo vote.” Id. at 15.
(F) United States v. Arizona and Preclearance
during the 1980s and 1990s
During the following two decades, DOJ refused to
preclear numerous proposed voting changes in
Arizona. See, e.g., Goddard v. Babbitt, 536 F. Supp.
538, 541, 543 (D. Ariz. 1982) (finding that a state

64a
legislative redistricting plan passed by the Arizona
state legislature “dilut[ed] the San Carlos Apache
Tribal voting strength and divid[ed] the Apache
community of interest”); see also Tucker et al., Voting
Rights at 326–28 (discussing additional examples).
In 1988, the United States sued Arizona, alleging
that the State, as well as Apache and Navajo
Counties, violated the VRA by employing election
standards, practices, and procedures that denied or
abridged the voting rights of Navajo citizens. See
United States v. Arizona, No. 88-1989 (D. Ariz. May
22, 1989) (later amended Sept. 27, 1993); see also
Tucker et al., Voting Rights at 328–30 (discussing the
same). A three-judge district court summarized the
complaint:
The challenged practices include alleged
discriminatory voter registration, absentee
ballot, and voter registration cancellation
procedures, and the alleged failure of the
defendants to implement, as required by Section
4(f)(4), effective bilingual election procedures,
including the effective dissemination of election
information in Navajo and providing for a
sufficient number of adequately trained bilingual
persons to serve as translators for Navajo voters
needing assistance at the polls on election day.
United States v. Arizona, No. 88-1989, at 1–2.
Arizona and the counties settled the suit under a
Consent Decree. Id. at 1–26. The Decree required
the defendants to make extensive changes to their
voting practices, including the creation of a Navajo
Language Election Information Program. See id. at
4–23. More than a decade later, those changes had

65a
not been fully implemented.
See U.S. Gov’t
Accountability Office, Department of Justice’s
Activities to Address Past Election-Related Voting
Irregularities
91–92
(2004),
available
at
http://www.gao.gov/new.items/d041041r.pdf
(identifying significant deficiencies and finding that
implementation of the Navajo Language Election
Information Program by Apache and Navajo
Counties was “inadequate”).
During the 1980s and 1990s, DOJ issued seventeen
Section 5 preclearance objections to proposed changes
in Arizona election procedures, concluding that they
had the purpose or effect of discriminating against
Arizona’s American Indian and/or Hispanic voters.
See U.S. Dep’t of Justice, Voting Determination
Letters for Arizona, https://www.justice.gov/crt/
voting-determination-letters-arizona (last updated
Aug. 7, 2015). Three of these objections were for
statewide redistricting plans, one in the 1980s and
two in the 1990s. Id. Other objections concerned
plans for seven of Arizona’s fifteen counties. Id.
(objections to plans for Apache, Cochise, Coconino,
Graham, La Paz, Navajo, and Yuma Counties).
(G) Continuation to the Present Day
Arizona’s pattern of discrimination against
minority voters has continued to the present day.
(1) Practices and Policies
We highlight two examples of continued
discriminatory practices and policies. First, as the
district court found, the manner in which Maricopa
County—home to over 60 percent of Arizona’s
population—administers elections has “been of
considerable concern to minorities in recent years.”

66a
Reagan, 329 F. Supp. 3d at 871; Berman at 20.
During the 2016 presidential primary election,
Maricopa County reduced the number of polling
places by 70 percent, from 200 polling places in 2012
to just 60 polling places in 2016. Berman at 20. The
reduction in number, as well as the locations, of the
polling places had a disparate impact on minority
voters. Rodden at 61–68. Hispanic voters were
“under-served by polling places relative to the rest of
the metro area,” id. at 62, and Hispanic and African
American voters were forced to travel greater
distances to reach polling places than white, nonHispanic voters. Id. at 64–68. The reduction in the
number of polling places “resulted in extremely long
lines of people waiting to vote—some for five hours—
and many people leaving the polls, discouraged from
voting by the long wait.” Berman at 20.
Second, the district court found that Maricopa
County
has
repeatedly
misrepresented
or
mistranslated key information in Spanish-language
voter materials. Reagan, 329 F. Supp. 3d at 875
(“Along with the State’s hostility to bilingual
education, Maricopa County has sometimes failed to
send properly translated education[al] materials to
its Spanish speaking residents, resulting in confusion
and distrust from Hispanic voters.”); Berman at 20.
In 2012, the official Spanish-language pamphlet in
Maricopa County told Spanish-speaking voters that
the November 6 election would be held on November
8. Berman at 20. The county did not make the same
mistake in its English-language pamphlet. Four
years later, Spanish-language ballots in Maricopa
County provided an incorrect translation of a ballot
proposition. Id.

67a
(2) Voter Registration and Turnout
Voter registration of Arizona’s minority citizens
lags behind that of white citizens. In November 2016,
close to 75 percent of white citizens were registered
to vote in Arizona, compared to 57 percent of Hispanic
citizens. See U.S. Census Bureau, Reported Voting
and Registration by Sex, Race, and Hispanic Origin
for November 2016, tbl. 4b.
Arizona has one of the lowest voter turnout rates
in the United States. A 2005 study ranked Arizona
forty-seventh out of the fifty States. See Ariz. State
Univ., Morrison Inst. for Pub. Policy, How Arizona
Compares: Real Numbers and Hot Topics 47 (2005)
(relying on Census data); see also Tucker et al.,
Voting Rights at 359. In 2012, Arizona ranked fortyfourth in turnout for that year’s presidential election.
Rodden at 19.
The turnout rate for minority voters is
substantially less than that for white voters. In 2002,
59.8 percent of registered Hispanic voters turned out
for the election, compared to 72.4 percent of total
registered voters. Tucker et al., Voting Rights at
359–60 (relying on Census data). In the 2012
presidential election, 39 percent of Arizona’s
Hispanic voting-age population and 46 percent of
Arizona’s African American voting-age population
turned out for the election, compared to 62 percent of
Arizona’s white population. Rodden at 20–21. The
national turnout rate for African Americans in that
election was 66 percent. Id. In the 2000 and 2004
presidential elections, turnout of Arizona’s American
Indian voters was approximately 23 percentage

68a
points below the statewide average. Tucker et al.,
Voting Rights at 360.
(H) District Court’s Assessment of Factor One
The district court recognized Arizona’s history of
discrimination, but minimized its significance.
Quoting Dr. Berman, the court wrote:
In sum, “[d]iscriminatory action has been more
pronounced in some periods of state history than
others . . . [and] each party (not just one party)
has led the charge in discriminating against
minorities over the years.” Sometimes, however,
partisan objectives are the motivating factor in
decisions to take actions detrimental to the
voting rights of minorities. “[M]uch of the
discrimination that has been evidenced may well
have in fact been the unintended consequence of
a political culture that simply ignores the needs
of minorities.” Arizona’s recent history is a mixed
bag of advancements and discriminatory actions.
Id. at 875–76 (alterations in original).
The fact that each party in Arizona “has led the
charge in discriminating against minorities” does not
diminish the legal significance of that discrimination.
Quite the contrary. That fact indicates that racial
discrimination has long been deeply embedded in
Arizona’s political institutions and that both parties
have discriminated when it has served their
purposes. Further, the “mixed bag of advancements
and discriminatory actions” in “Arizona’s recent
history” does not weigh in Arizona’s favor. As Chief
Judge Thomas wrote:
“Rather, despite some
advancements, most of which were mandated by
courts or Congress [through Section 5 preclearance],

69a
Arizona’s history is marred by discrimination.” DNC,
904 F.3d at 738 (Thomas, C.J., dissenting). The
“history of official discrimination” in Arizona and its
political subdivisions “touch[ing] the right of the
members of the minority group to register, to vote, or
otherwise to participate in the democratic process” is
long, substantial, and unambiguous. Gingles, 478
U.S. at 36–37 (quoting S. Rep. at 28–29).
The district court clearly erred in minimizing the
strength of this factor in Plaintiffs’ favor.
ii. Factor Two: Racially Polarized Voting Patterns
Voting in Arizona is racially polarized. The district
court found, “Arizona has a history of racially
polarized voting, which continues today.” Reagan,
329 F. Supp. 3d at 876. In recent years, the base of
the Republican party in Arizona has been white.
Putting to one side “landslide” elections, in statewide
general elections from 2004 to 2014, 59 percent of
white Arizonans voted for Republican candidates,
compared with 35 percent of Hispanic voters. The
district court found that in the 2016 general election,
exit polls “demonstrate that voting between nonminorities and Hispanics continues to be polarized
along racial lines.”
Id.
In the most recent
redistricting cycle, the Arizona Independent
Redistricting Commission “found that at least one
congressional district and five legislative districts
clearly exhibited racially polarized voting.” Id.
Voting is particularly polarized when Hispanic and
white candidates compete for the same office. In
twelve non-landslide district-level elections in 2008
and 2010 between a Hispanic Democratic candidate
and a white Republican candidate, an average of 84

70a
percent of Hispanics, 77 percent of American Indians,
and 52 percent of African Americans voted for the
Hispanic candidate compared to an average of only
30 percent of white voters.
The district court did not clearly err in assessing
the strength of this factor in Plaintiffs’ favor.
iii. Factor Five: Effects of Discrimination
It is undisputed that “members of the minority
group[s]” in Arizona “bear the effects of
discrimination in such areas as education,
employment and health, which hinder their ability to
participate effectively in the political process.”
Gingles, 478 U.S. at 37 (quoting S. Rep. at 28–29).
The district court found, “Racial disparities between
minorities and non-minorities in socioeconomic
standing, income, employment, education, health,
housing, transportation, criminal justice, and
electoral representation have persisted in Arizona.”
Reagan, 329 F. Supp. 3d at 876.
The district court made factual findings in four key
areas—education, poverty and employment, home
ownership, and health. The district court concluded
in each area that the effects of discrimination
“hinder” minorities’ ability to participate effectively
in the political process.
First, the district court wrote:
From 1912 until the Supreme Court’s decision
in Brown v. Board of Education, segregated
education was widespread throughout Arizona
and sanctioned by both the courts and the
state legislature. In fact, the Tucson Public
Schools only recently reached a consent decree
with the DOJ over its desegregation plan in

71a
2013.
The practice of segregation also
extended beyond schools; it was common place
to have segregated public spaces such as
restaurants, swimming pools, and theaters.
Even where schools were not segregated,
Arizona enacted restrictions on bilingual
education.
As recently as 2000, Arizona
banned bilingual education with the passage of
Proposition 203.
Arizona has a record of failing to provide
adequate funding to teach its non-English
speaking students. This underfunding has
taken place despite multiple court orders
instructing Arizona to develop an adequate
funding formula for its programs, including a
2005 order in which Arizona was held in
contempt of court for refusing to provide
adequate funding for its educational
programs. “According to the Education Law
Center’s latest National Report Card that
provided data for 2013, Arizona ranked 47th
among the states in per-student funding for
elementary and secondary education.”
Id. at 874–75 (internal citations omitted).
White Arizonans “remain more likely than
Hispanics, Native Americans, and African Americans
to graduate from high school, and are nearly three
times more likely to have a bachelor’s degree than
Hispanics and Native Americans.” Id. at 868. “[I]n a
recent survey, over 22.4 percent of Hispanics and 11.2
percent of Native Americans rated themselves as
speaking English less than ‘very well,’ as compared
to only 1.2 percent of non-minorities.” Id. The

72a
district court found that, due to “lower levels of
[English] literacy and education, minority voters are
more likely to be unaware of certain technical [voting]
rules, such as the requirement that early ballots be
received by the county recorder, rather than merely
postmarked, by 7:00 p.m. on Election Day.” Id.
Second, Hispanics and African Americans in
Arizona live in poverty at nearly two times the rate
of whites. American Indians live in poverty at three
times the rate of whites.
Id.
“Wages and
unemployment rates for Hispanics, African
Americans, and Native Americans consistently have
exceeded non-minority unemployment rates for the
period of 2010 to 2015.” Id. The district court found
that minority voters are more likely to work multiple
jobs, less likely to own a car, and more likely to lack
reliable access to transportation, id. at 869, all of
which make it more difficult to travel to a polling
place—or between an incorrect polling place and a
correct polling place.
Third, the district court found that “[i]n Arizona,
68.9 percent of non-minorities own a home, whereas
only 32.3 percent of African Americans, 49 percent of
Hispanics, and 56.1 percent of Native Americans do
so.” Id. at 868. Lower rates of homeownership and
correspondingly higher rates of renting and
residential mobility contribute to higher rates of OOP
voting.
Fourth, the district court found that “[a]s of 2015,
Hispanics, Native Americans, and African Americans
fared worse than non-minorities on a number of key
health indicators.” Id. at 868–69. “Native Americans
in particular have much higher rates of disability

73a
than non-minorities, and Arizona counties with large
Native American populations have much higher rates
of residents with ambulatory disabilities.” Id. at 869.
“For example, ‘17 percent of Native Americans are
disabled in Apache County, 22 percent in Navajo
County, and 30 percent in Coconino County.’” Id.
“Further, ‘11 percent [of individuals] have
ambulatory difficulties in Apache County, 13 percent
in Navajo County, and 12 percent in Coconino
County, all of which contain significant Native
American populations and reservations.’” Id.
(alteration in original). Witnesses credibly testified
that ambulatory disabilities—both alone and
combined with Arizona’s transportation disparities—
make traveling to and between polling locations
difficult.
The district court did not clearly err in assessing
the strength of this factor in Plaintiffs’ favor.
iv. Factor Six: Racial Appeals in Political
Campaigns
Arizona’s “political campaigns have been
characterized by overt [and] subtle racial appeals”
throughout its history. Gingles, 478 U.S. at 37
(quoting S. Rep. at 28–29). The district court found
that “Arizona’s racially polarized voting has resulted
in racial appeals in campaigns.” Reagan, 329 F.
Supp. 3d at 876.
For example, when Raul Castro, a Hispanic man,
successfully ran for governor in the 1970s, Castro’s
opponent, a white man, urged voters to support him
instead because “he looked like a governor.” Id. “In
that same election, a newspaper published a picture
of Fidel Castro with a headline that read ‘Running for

74a
governor of Arizona.’” Id. In his successful 2010
campaign for State Superintendent of Public
Education, John Huppenthal, a white man running
against a Hispanic candidate, ran an advertisement
in which the announcer said that Huppenthal was
“one of us,” was opposed to bilingual education, and
would “stop La Raza,” an influential Hispanic civil
rights organization. Id. When Maricopa County
Attorney Andrew Thomas, a white man, ran for
governor in 2014, he ran an advertisement describing
himself as “the only candidate who has stopped
illegal immigration.”
Id.
The advertisement
“simultaneously show[ed] a Mexican flag with a red
strikeout line through it superimposed over the
outline of Arizona.” Id. Further, “racial appeals have
been made in the specific context of legislative efforts
to limit ballot collection.” Id. The district court
specifically referred to the “racially charged” LaFaro
Video, falsely depicting a Hispanic man,
characterized as a “thug,” “acting to stuff the ballot
box.” Id.
The district court did not clearly err in assessing
the strength of this factor in Plaintiffs’ favor.
v. Factor Seven: Number of Minorities in
Public Office
The district court recognized that there has been a
racial disparity in elected officials but minimized its
importance. The court wrote, “Notwithstanding
racially polarized voting and racial appeals, the
disparity in the number of minority elected officials
in Arizona has declined.” Id. at 877. Citing an expert
report by Dr. Donald Critchlow—an expert whose
opinion the court otherwise afforded “little weight,”

75a
id. at 836—the court wrote, “Arizona has been
recognized for improvements in the number of
Hispanics and Native Americans registering and
voting, as well as in the overall representation of
minority elected officials,” id. at 877.
As recounted above, it is undisputed that American
Indian, Hispanic, and African American citizens are
under-represented in public office in Arizona.
Minorities make up 44 percent of Arizona’s total
population, but they hold 25 percent of Arizona’s
elected offices. Id. Minorities hold 22 percent of state
congressional seats and 9 percent of judgeships. No
American Indian or African American has ever been
elected to represent Arizona in the United States
House of Representatives. Only two minorities have
been elected to statewide office in Arizona since the
passage of the VRA. Arizona has never elected an
American Indian candidate to statewide office. No
American Indian, Hispanic, or African American
candidate has ever been elected to serve as a United
States Senator representing Arizona.
Arizona’s practice of entirely discarding OOP
ballots is especially important in statewide and
United States Senate elections. Some votes for local
offices may be improperly cast in an OOP ballot,
given that the voter has cast the ballot in the wrong
precinct. But no vote for statewide office or for the
United States Senate is ever improperly cast in an
OOP ballot. Arizona’s practice of wholly discarding
OOP ballots thus has the effect of disproportionately
undercounting minority votes, by a factor of two to
one, precisely where the problem of underrepresentation in Arizona is most acute.

76a
The district court clearly erred in minimizing the
strength of this factor in Plaintiffs’ favor.
vi. Factor Eight: Officials’ Responsiveness to the
Needs of Minority Groups
The district court found that “Plaintiffs’
evidence . . . is insufficient to establish a lack of
responsiveness on the part of elected officials to
particularized needs of minority groups.” Id. In
support of its finding, the court cited the activity of
one organization, the Arizona Citizens Clean
Elections Commission, which “engages in outreach to
various communities, including the Hispanic and
Native American communities, to increase voter
participation” and “develops an annual voter
education plan in consultation with elections officials
and stakeholders,” and whose current Chairman is
an enrolled member of the San Carlos Apache Tribe.
Id.
The district court’s finding ignores extensive
undisputed evidence showing that Arizona has
significantly underserved its minority population.
“Arizona was the last state in the nation to join the
Children’s Health Insurance Program, which may
explain, in part, why forty-six states have better
health insurance coverage for children.” DNC, 904
F.3d at 740 (Thomas, C.J., dissenting). Further,
“Arizona’s
public
schools
are
drastically
underfunded; in fact, in 2016 Arizona ranked 50th
among the states and the District of Columbia in per
pupil spending on public elementary and secondary
education.” Id. “Given the well-documented evidence
that minorities are likelier to depend on public
services[,] . . . Arizona’s refusal to provide adequate

77a
state services demonstrates its nonresponsiveness to
minority needs.” Id.; cf. Myers v. United States, 652
F.3d 1021, 1036 (9th Cir. 2011) (holding that the
district court clearly erred when it ignored evidence
contradicting its findings).
Further, the district court’s finding is contradicted
elsewhere in its own opinion. Earlier in its opinion,
the court had written that Arizona has a “political
culture that simply ignores the needs of minorities.”
Id. at 876 (citation omitted). Later in its opinion, the
court referred to “Arizona’s history of advancing
partisan objectives with the unintended consequence
of ignoring minority interests.” Id. at 882.
The district court clearly erred in finding that this
factor does not weigh in Plaintiffs’s favor.
vii. Factor Nine: Tenuousness of Justification of
the Policy Underlying the Challenged Restriction
The ninth Senate factor is “whether the policy
underlying the state or political subdivision’s use of
such voting qualification, prerequisite to voting, or
standard, practice or procedure is tenuous.” Gingles,
478 U.S. at 37 (quoting S. Rep. at 28). The district
court found that Arizona’s policy of entirely
discarding OOP ballots is justified by the importance
of Arizona’s precinct-based system of elections. The
court held:
Precinct-based voting helps Arizona counties
estimate the number of voters who may be
expected at any particular precinct, allows for
better allocation of resources and personnel,
improves orderly administration of elections, and
reduces wait times. The precinct-based system
also ensures that each voter receives a ballot

78a
reflecting only the races for which that person is
entitled to vote, thereby promoting voting for
local candidates and issues and making ballots
less confusing. Arizona’s policy to not count OOP
ballots is one mechanism by which it strictly
enforces this system to ensure that precinctbased counties maximize the system’s benefits.
This justification is not tenuous.
Reagan, 329 F. Supp. 3d at 878.
The court misunderstood the nature of Plaintiffs’
challenge. Plaintiffs do not challenge Arizona’s
precinct-based system of voting.
Indeed, their
challenge assumes both its importance and its
continued existence. Rather, their challenge is to
Arizona’s policy, within that system, of entirely
discarding OOP ballots. The question before the
district court was not the justification for Arizona’s
precinct-based system. The question, rather, was the
justification for Arizona’s policy of entirely discarding
OOP ballots.
There is no finding by the district court that would
justify, on any ground, Arizona’s policy of entirely
discarding OOP ballots. There is no finding that
counting or partially counting OOP ballots would
threaten the integrity of Arizona’s precinct-based
system. Nor is there a finding that Arizona has ever
sought to minimize the number of OOP ballots. The
lack of such findings is not surprising given the
extreme disparity between OOP voting in Arizona
and such voting in other states, as well as Arizona’s
role in causing voters to vote OOP by, for example,
frequently changing the location of polling places.

79a
The only plausible justification for Arizona’s OOP
policy would be the delay and expense entailed in
counting OOP ballots, but in its discussion of the
Senate factors, the district court never mentioned
this justification.
Indeed, the district court
specifically found that “[c]ounting OOP ballots is
administratively feasible.” Id. at 860.
Twenty States, including Arizona’s neighboring
States of California, Utah, and New Mexico, count
OOP ballots. Id.; Cal. Elec. Code §§ 14310(a)(3),
14310(c)(3), 15350; Utah Code Ann. § 20A-4107(1)(b)(iii), 2(a)(ii), 2(c); N.M. Stat. Ann § 1-1225.4(F); N.M. Admin. Code 1.10.22.9(N). The district
court wrote: “Elections administrators in these and
other states have established processes for counting
only the offices for which the OOP voter is eligible to
vote.” Reagan, 329 F. Supp. 3d at 861. “Some states,
such as New Mexico, use a hand tally procedure,
whereby a team of elections workers reviews each
OOP ballot, determines the precinct in which the
voter was qualified to vote, and marks on a tally sheet
for that precinct the votes cast for each eligible office.”
Id.; see N.M. Admin Code 1.10.22.9(H)–(N). “Other
states, such as California, use a duplication method,
whereby a team of elections workers reviews each
OOP ballot, determines the precinct in which the
voter was qualified to vote, obtains a new paper ballot
for the correct precinct, and duplicates the votes cast
on the OOP ballot onto the ballot for the correct
precinct.” Reagan, 329 F. Supp. 3d at 861. “Only the
offices that appear on both the OOP ballot and the
ballot for the correct precinct are copied. The
duplicated ballot then is scanned through the optical
scan voting machine and electronically tallied.” Id.

80a
Arizona already uses a duplication system, similar
to that used in California, for provisional ballots cast
by voters eligible to vote in federal but not state
elections, as well as for damaged or mismarked
ballots that cannot be read by an optical scanner. Id.
The district court briefly discussed the time that
might be required to count or partially count OOP
ballots, but it did not connect its discussion to its
consideration of the Senate factors. The court cited
testimony of a Pima County election official that the
county’s duplication procedure “takes about twenty
minutes per ballot.” Id. The court did not mention
that this same official had stated in his declaration
that the procedure instead takes fifteen minutes per
ballot. The court also did not mention that a
California election official had testified that it takes
a very short time to count or partially count the valid
votes on an OOP ballot. That official testified that it
takes “several minutes” in California to confirm the
voter’s registration—which is done for all provisional
ballots, in Arizona as well as in California. Once that
is done, the official testified, it takes one to three
minutes to duplicate the ballot.
The district court clearly erred in finding that this
factor does not weigh in Plaintiffs’ favor.
viii. Assessment of Senate Factors
The district court’s “overall assessment” of the
Senate factors was: “In sum, of the germane Senate
Factors, the Court finds that some are present in
Arizona and others are not.” Id. at 878. Based on
this assessment, the court held that Plaintiffs had not
carried their burden at step two. The district court
clearly erred in so holding. The district court clearly

81a
erred in minimizing the strength in favor of Plaintiffs
of Senate factors one (official history of
discrimination) and seven (number of minorities in
public office). Further, the district court clearly erred
in finding that Senate factors eight (officials’
responsiveness to the needs of minority groups) and
nine (tenuousness of the justification of the policy
underlying the challenged provision) do not favor
Plaintiffs. Plaintiffs have successfully shown that all
of the considered Senate factors weigh in their favor.
Most important, plaintiffs have shown that the most
pertinent factors, five and nine, weigh very strongly
in their favor.
c. Summary
We hold that the district court clearly erred in
holding that Plaintiffs’ challenge to Arizona’s OOP
policy failed under the results test. We hold that
Plaintiffs have carried their burden at both steps one
and two. First, they have shown that Arizona’s OOP
policy imposes a significant disparate burden on its
American Indian, Hispanic, and African American
citizens, resulting in the “denial or abridgement of
the right” of its citizens to vote “on account of race or
color.” 52 U.S.C. § 10301(a). Second, they have
shown that, under the “totality of circumstances,” the
discriminatory burden imposed by the OOP policy is
in part caused by or linked to “social and historical
conditions” that have or currently produce “an
inequality in the opportunities enjoyed by [minority]
and white voters to elect their preferred
representatives” and to participate in the political
process.
Gingles, 478 U.S. at 47; 52 U.S.C.
§ 10301(b).

82a
We therefore hold that Arizona’s OOP policy
violates the results test of Section 2 of the Voting
Rights Act.
3. H.B. 2023 and the Results Test
Uncontested evidence in the district court
established that, prior to the enactment of H.B. 2023,
a large and disproportionate number of minority
voters relied on third parties to collect and deliver
their early ballots.
Uncontested evidence also
established that, beginning in 2011, Arizona
Republicans made sustained efforts to limit or
eliminate third-party ballot collection. The question
is whether the district court clearly erred in holding
that H.B. 2023 does not violate the “results test” of
Section 2.
a. Step One: Disparate Burden
The question at step one is whether H.B. 2023
results in a disparate burden on a protected class.
The district court held that Plaintiffs failed at step
one. The district court clearly erred in so holding.
Extensive and uncontradicted evidence established
that prior to the enactment of H.B. 2023, third parties
collected a large and disproportionate number of
early ballots from minority voters. Neither the
quantity nor the disproportion was disputed.
Numerous witnesses testified without contradiction
to having personally collected, or to having personally
witnessed the collection of, thousands of early ballots
from minority voters. There is no evidence that white
voters relied to any significant extent on ballot
collection by third parties.
The district court recognized the disparity in thirdparty ballot collection between minority and white

83a
citizens. It wrote that “[t]he Democratic Party and
community advocacy organizations . . . focused their
ballot collection efforts on low-efficacy voters, who
trend disproportionately minority.” Reagan, 329 F.
Supp. 3d at 870. “In contrast,” the court wrote, “the
Republican Party has not significantly engaged in
ballot collection as a GOTV strategy.” Id.
The district court nonetheless held that this
evidence was insufficient to establish a violation at
step one. To justify its holding, the court wrote,
“[T]he Court finds that Plaintiffs’ circumstantial and
anecdotal evidence is insufficient to establish a
cognizable disparity under § 2.” Id. at 868. The court
wrote further:
Considering the vast majority of Arizonans,
minority and non-minority alike, vote without
the assistance of third-parties who would not fall
within H.B. 2023’s exceptions, it is unlikely that
H.B. 2023’s limitations on who may collect an
early ballot cause a meaningful inequality in the
electoral opportunities of minorities as compared
to non-minorities.
Id. at 871.
First, the court clearly erred in discounting the
evidence of third-party ballot collection as merely
“circumstantial and anecdotal.” The evidence of
third-party ballot collection was not “circumstantial.”
Rather, as recounted above, it was direct evidence
from witnesses who had themselves acted as thirdparty ballot collectors, had personally supervised
third-party ballot collection, or had personally
witnessed third-party ballot collection by others. Nor
was the evidence merely “anecdotal.” As recounted

84a
above, numerous witnesses provided consistent and
uncontradicted testimony about third-party ballot
collection they had done, supervised, or witnessed.
This evidence established that many thousands of
early ballots were collected from minority voters by
third parties. The court itself found that white voters
did not significantly rely on third-party ballot
collection. No better evidence was required to
establish that large and disproportionate numbers of
early ballots were collected from minority voters.
Second, the court clearly erred by comparing the
number of early ballots collected from minority voters
to the much greater number of all ballots cast
“without the assistance of third parties,” and then
holding that the relatively smaller number of
collected early ballots did not cause a “meaningful
inequality.” Id. at 871. In so holding, the court
repeated the clear error it made in comparing the
number of OOP ballots to the total number of all
ballots cast. Just as for OOP ballots, the number of
ballots collected by third parties from minority voters
surpasses any de minimis number.
We hold that H.B. 2023 results in a disparate
burden on minority voters, and that the district court
clearly erred in holding otherwise. We accordingly
hold that Plaintiffs have succeeded at step one of the
results test.
b. Step Two: Senate Factors
The district court did not differentiate between
Arizona’s OOP policy and H.B. 2023 in its discussion
of step two. Much of our analysis of the Senate
factors for Arizona’s OOP policy applies with equal
force to the factors for H.B. 2023. Again, we regard

85a
Senate factors five (the effects of discrimination in
other areas on minorities access to voting) and nine
(the tenuousness of the justification for the
challenged voting practices) as particularly
important, given the nature of Plaintiffs’ challenge to
H.B. 2023. We also regard factor one (history of
official discrimination) as important, as it strongly
supports our conclusion under factor five. Though
“not essential,” Gingles, 478 U.S. at 48 n.15, the other
less important factors provide “helpful background
context.” Husted, 768 F.3d at 555.
We do not repeat here the entirety of our analysis
of Arizona’s OOP policy. Rather, we incorporate that
analysis by reference and discuss only the manner in
which the analysis is different for H.B. 2023.
i. Factor One: History of Official Discrimination
Connected to Voting
We recounted above Arizona’s long history of racebased discrimination in voting. H.B. 2023 grows
directly out of that history. During the Republicans’
2011 attempt to limit ballot collection by third
parties, Arizona was still subject to preclearance
under Section 5.
When DOJ asked for more
information about whether the relatively innocuous
ballot-collection provision of S.B. 1412 had the
purpose or would have the effect of denying
minorities the right to vote and requested more
information, Arizona withdrew the preclearance
request. It did so because there was evidence in the
record that the provision intentionally targeted
Hispanic voters.
In 2013, public opposition
threatened to repeal H.B. 2305 by referendum. If
passed, the referendum would have required that any

86a
future bill on the same topic pass the legislature by a
supermajority. Republicans repealed H.B. 2305
rather than face a referendum. Finally, after the
Supreme Court’s decision in Shelby County
eliminated preclearance, Arizona enacted H.B. 2023,
making third-party ballot collection a felony. The
campaign was marked by race-based appeals, most
prominently in the LaFaro Video described above.
As it did with respect to OOP voting, the district
court clearly erred in minimizing the strength of this
factor in Plaintiffs’ favor.
ii. Factor Two: Racially Polarized Voting Patterns
H.B. 2023 connects directly to racially polarized
voting patterns in Arizona. The district court found
that “H.B. 2023 emerged in the context of racially
polarized voting.” Reagan, 329 F. Supp. 3d at 879.
Senator Shooter, who introduced the bill that became
S.B. 1412—the predecessor to H.B. 2023— was
motivated by the “high degree of racial polarization
in his district” and introduced the bill following a
close, racially polarized election. Id.
The district court did not clearly err in assessing
the strength of this factor in Plaintiffs’ favor.
iii. Factor Five: Effects of Discrimination
H.B. 2023 is closely linked to the effects of
discrimination that “hinder” the ability of American
Indian, Hispanic, and African American voters “to
participate effectively in the political process.”
Gingles, 478 U.S. at 37. The district court found that
American Indian, Hispanic, and African American
Arizonans “are significantly less likely than nonminorities to own a vehicle, more likely to rely upon
public transportation, more likely to have inflexible

87a
work schedules, and more likely to rely on income
from hourly wage jobs.” Reagan, 329 F. Supp. 3d at
869. In addition, “[r]eady access to reliable and
secure mail service is nonexistent in some minority
communities.”
Id.
Minority voters in rural
communities disproportionately lack access to
outgoing mail, while minority voters in urban
communities
frequently
encounter
unsecure
mailboxes and mail theft. Id. These effects of
discrimination hinder American Indian, Hispanic,
and African American voters’ ability to return early
ballots without the assistance of third-party ballot
collection.
The district court did not clearly err in assessing
the strength of this factor in Plaintiffs’ favor.
iv. Factor Six: Racial Appeals in Political
Campaigns
The enactment of H.B. 2023 was the direct result
of racial appeals in a political campaign. The district
court found that “racial appeals [were] made in the
specific context of legislative efforts to limit ballot
collection.” Id. at 876. Proponents of H.B. 2023
relied on “overt or subtle racial appeals,” Gingles, 478
U.S. at 37, in advocating for H.B. 2023, including the
“racially tinged” LaFaro Video, Reagan, 329 F. Supp.
3d at 876–77 (characterizing the LaFaro Video as one
of the primary motivators for H.B. 2023). The district
court concluded, “[Senator] Shooter’s allegations and
the LaFaro video were successful in convincing H.B.
2023’s proponents that ballot collection presented
opportunities for fraud that did not exist for in-person
voting.” Reagan, 329 F. Supp. 3d at 880.

88a
The district court did not clearly err in assessing
the strength of this factor in Plaintiff’s favor.
v. Factor Seven: Number of Minorities in
Public Office
Because Arizona’s OOP policy had a particular
connection to the election of minorities to statewide
office and to the United States Senate, we concluded
that the factor of minorities in public office favored
Plaintiffs. That particular connection to statewide
office does not exist between H.B. 2023 and election
of minorities. However, H.B. 2023 is likely to have a
pronounced effect in rural counties with significant
American Indian and Hispanic populations who
disproportionately
lack
reliable
mail
and
transportation services, and where a smaller number
of votes can have a significant impact on election
outcomes. In those counties, there is likely to be a
particular connection to election of American Indian
and Hispanic candidates to public office.
As it did with respect to OOP voting, the district
court clearly erred in minimizing the strength of this
factor in Plaintiffs’ favor.
vi. Factor Eight: Officials’ Responsiveness to the
Needs of Minority Groups
The district court found that “Plaintiffs’
evidence . . . is insufficient to establish a lack of
responsiveness on the part of elected officials to
particularized needs of minority groups.” Id. at 877.
As discussed above, this finding ignores extensive
evidence to the contrary and is contradicted by the
court’s statements elsewhere in its opinion.
The district court clearly erred in finding that this
factor does not weigh in Plaintiffs’ favor.

89a
vii. Factor Nine: Tenuousness of Justification of
the Policy Underlying the Challenged Restriction
The district court relied on two justifications for
H.B. 2023: That H.B. 2023 is aimed at preventing
ballot fraud “by creating a chain of custody for early
ballots and minimizing the opportunities for ballot
tampering, loss, and destruction”; and that H.B. 2023
is aimed at improving and maintaining “public
confidence in election integrity.” Id. at 852. We
address these justifications in turn.
First, third-party ballot collection was permitted
for many years in Arizona before the passage of H.B.
2023. No one has ever found a case of voter fraud
connected to third-party ballot collection in Arizona.
This has not been for want of trying. The district
court described the Republicans’ unsuccessful
attempts to find instances of fraud:
The Republican National Lawyers Association
(“RNLA”) performed a study dedicated to
uncovering cases of voter fraud between 2000 and
2011. The study found no evidence of ballot
collection or delivery fraud, nor did a follow-up
study through May 2015. Although the RNLA
reported instances of absentee ballot fraud, none
were tied to ballot collection and delivery.
Likewise, the Arizona Republic conducted a
study of voter fraud in Maricopa County and
determined that, out of millions of ballots cast in
Maricopa County from 2005 to 2013, a total of 34
cases of fraud were prosecuted. Of these, 18
involved a felon voting without her rights first
being restored. Fourteen involved non-Arizona

90a
citizens voting. The study uncovered no cases of
fraud perpetrated through ballot collection.
Id. at 853 (internal citations omitted).
The district court wrote, “[T]here has never been a
case of voter fraud associated with ballot collection
charged in Arizona.” Id. at 852. “No specific, concrete
example of voter fraud perpetrated through ballot
collection was presented by or to the Arizona
legislature during the debates on H.B. 2023 or its
predecessor bills.” Id. at 852–53. “No Arizona county
produced evidence of confirmed ballot collection fraud
in response to subpoenas issued in this case, nor has
the Attorney General’s Office produced such
information.” Id. at 853.
Ballot-collection-related fraud was already
criminalized under Arizona law when H.B. 2023 was
enacted. Collecting and failing to turn in someone
else’s ballot was already a class 5 felony. Ariz. Rev.
Stat. § 16-1005(F). Marking someone else’s ballot
was already a class 5 felony. Id. § 16-1005(A).
Selling one’s own ballot, possessing someone else’s
ballot with the intent to sell it, knowingly soliciting
the collection of ballots by misrepresenting one’s self
as
an
election
official,
and
knowingly
misrepresenting the location of a ballot drop-off site
were already class 5 felonies. Id. § 16-1005(B)–(E).
These criminal prohibitions are still in effect.
Arizona also takes measures to ensure the security of
early ballots, such as using “tamper evident
envelopes and a rigorous voter signature verification
procedure.” Reagan, 329 F. Supp. 3d at 854.
The history of H.B. 2023 shows that its proponents
had other aims in mind than combating fraud. H.B.

91a
2023 does not forbid fraudulent third-party ballot
collection. It forbids non-fraudulent third-party
ballot collection. To borrow an understated phrase,
the anti-fraud rationale advanced in support of H.B.
2023 “seems to have been contrived.” Dep’t of
Commerce v. New York, 139 S. Ct. 2551, 2575 (2019).
Second, we recognize the importance of public
confidence in election integrity. We are aware that
the federal bipartisan Commission on Federal
Election Reform, charged with building public
confidence, recommended inter alia that States
“reduce the risks of fraud and abuse in absentee
voting by prohibiting ‘third-party’ organizations,
candidates, and political party activists from
handling absentee ballots.” Building Confidence in
U.S. Elections § 5.2 (Sept. 2005). We are aware of the
recent case of voter fraud in North Carolina involving
collection and forgery of absentee ballots by a political
operative hired by a Republican candidate. And we
are aware that supporters of H.B. 2023 and its
predecessor bills sought to convince Arizona voters,
using false allegations and racial innuendo, that
third-party ballot collectors in Arizona have engaged
in fraud.
Without in the least discounting either the
common sense of the bipartisan commission’s
recommendation or the importance of public
confidence in the integrity of elections, we emphasize,
first, that the Supreme Court has instructed us in
Section 2 cases to make an “intensely local appraisal.”
Gingles, 478 U.S. at 78. The third-party ballot
collection fraud case in North Carolina has little
bearing on the case before us. We are concerned with
Arizona, where third-party ballot collection has had

92a
a long and honorable history, and where the acts
alleged in the criminal indictment in North Carolina
were illegal under Arizona law before the passage of
H.B. 2023, and would still be illegal if H.B. 2023 were
no longer the law.
We emphasize, further, that if some Arizonans
today distrust third-party ballot collection, it is
because of the fraudulent campaign mounted by
proponents of H.B. 2023. Those proponents made
strenuous efforts to persuade Arizonans that thirdparty ballot collectors have engaged in election fraud.
To the degree that there has been any fraud, it has
been the false and race-based claims of the
proponents of H.B. 2023. It would be perverse if those
proponents, who used false statements and racebased innuendo to create distrust, could now use that
very distrust to further their aims in this litigation.
The district court clearly erred in finding that this
factor does not weigh in Plaintiffs’ favor. This factor
either weighs in Plaintiffs’ favor or is, at best,
neutral.
viii. Assessment
The district court made the same overall
assessment of the Senate factors in addressing H.B.
2023 as in addressing Arizona’s policy of discarding
OOP ballots. As it did with respect to OOP ballots,
the court concluded that Plaintiffs had not carried
their burden at step two. Here, too, the district
court’s conclusion was clearly erroneous. Contrary to
the court’s conclusion, Plaintiffs have successfully
shown that six of the Senate factors weigh in their
favor and that the remaining factor weighs in their
favor or is neutral.

93a
c. Summary
We hold that the district court clearly erred in
holding that Plaintiffs’ challenge to H.B. 2023 failed
under the results test. We hold that Plaintiffs have
carried their burden at both steps one and two. First,
they have shown that H.B. 2023 imposes a disparate
burden on American Indian, Hispanic, and African
American citizens, resulting in the “denial or
abridgement of the right” of its citizens to vote “on
account of race or color.” 52 U.S.C. § 10301(a).
Second, they have shown that, under the “totality of
circumstances,” the discriminatory burden imposed
by H.B. 2023 is in part caused by or linked to “social
and historical conditions” that have or currently
produce “an inequality in the opportunities enjoyed
by [minority] and white voters to elect their preferred
representatives” and to participate in the political
process.
Gingles, 478 U.S. at 47; 52 U.S.C.
§ 10301(b).
We therefore conclude that H.B. 2023 violates the
results test of Section 2 of the Voting Rights Act.
B. Intent Test: H.B. 2023
As indicated above, uncontested evidence in the
district court established that before enactment of
H.B. 2023, a large and disproportionate number of
minority voters relied on third parties to collect and
deliver their early ballots. Uncontested evidence also
established that, beginning in 2011, Arizona
Republicans made sustained efforts to outlaw thirdparty ballot collection. After a racially charged
campaign, they finally succeeded in passing H.B.
2023. The question is whether the district court

94a
clearly erred in holding that H.B. 2023 does not
violate the “intent test” of Section 2.
1. The Intent Test
Village of Arlington Heights v. Metropolitan
Housing Development Corp., 429 U.S. 252 (1977),
provides the framework for analyzing a claim of
intentional discrimination under Section 2. See, e.g.,
N.C. State Conference of NAACP v. McCrory, 831 F.3d
204, 220–21 (4th Cir. 2016).
Under Arlington
Heights, Plaintiffs have an initial burden of providing
“[p]roof of racially discriminatory intent or purpose.”
Arlington Heights, 429 U.S. at 265. Plaintiffs need
not show that discriminatory purpose was the “sole[]”
or even a “primary” motive for the legislation. Id.
Rather, Plaintiffs need only show that discriminatory
purpose was “a motivating factor.” Id. at 265–66
(emphasis added).
“Determining whether invidious discriminatory
purpose was a motivating factor demands a sensitive
inquiry into such circumstantial and direct evidence
of intent as may be available.”
Id. at 266.
“[D]iscriminatory purpose may often be inferred from
the totality of the relevant facts, including the fact, if
it is true, that the law bears more heavily on one race
than another.” Washington v. Davis, 426 U.S. 229,
242 (1976).
Because “[o]utright admissions of
impermissible racial motivation are infrequent[,] . . .
plaintiffs often must rely upon other evidence,”
including the broader context surrounding passage of
the legislation. Hunt v. Cromartie, 526 U.S. 541, 553
(1999). “In a vote denial case such as the one here,
where the plaintiffs allege that the legislature
imposed barriers to minority voting, this holistic

95a
approach
is
particularly
important,
for
‘[d]iscrimination today is more subtle than the visible
methods used in 1965.’” N.C. State Conference of
NAACP, 831 F.3d at 221 (quoting H.R. Rep. No. 109–
478, at 6 (2006)).
Arlington Heights provided a non-exhaustive list of
factors that a court should consider. Arlington
Heights, 429 U.S. at 266. The factors include (1) the
historical background; (2) the sequence of events
leading to enactment, including any substantive or
procedural departures from the normal legislative
process; (3) the relevant legislative history; and (4)
whether the law has a disparate impact on a
particular racial group. Id. at 266–68.
“Once racial discrimination is shown to have been
a ‘substantial’ or ‘motivating’ factor behind
enactment of the law, the burden shifts to the law’s
defenders to demonstrate that the law would have
been enacted without this factor.”
Hunter v.
Underwood, 471 U.S. 222, 228 (1985). In determining
whether a defendant’s burden has been carried,
“courts must scrutinize the legislature’s actual nonracial motivations to determine whether they alone
can justify the legislature’s choices.” N.C. State
Conference of NAACP, 831 F.3d at 221 (emphases in
original) (citing Mt. Healthy City Sch. Dist. Bd. of
Educ. v. Doyle, 429 U.S. 274, 287 (1977); Miss. Univ.
for Women v. Hogan, 458 U.S. 718, 728 (1982)). “In
the context of a § 2 discriminatory intent analysis,
one of the critical background facts of which a court
must take notice is whether voting is racially
polarized.” Id. “[I]ntentionally targeting a particular
race’s access to the franchise because its members

96a
vote for a particular party, in a predictable manner,
constitutes discriminatory purpose.” Id. at 222.
2. H.B. 2023 and the Intent Test
a. Arlington Heights Factors and Initial
Burden of Proof
The district court wrote, “Having considered [the
Arlington Heights] factors, the Court finds that H.B.
2023 was not enacted with a racially discriminatory
purpose.” Reagan, 329 F. Supp. 3d at 879. The court
then went on to discuss each of the four factors, but
did not attach any particular weight to any of them.
In holding that the Plaintiffs had not shown that
discriminatory purpose was “a motivating factor,” the
district court clearly erred.
We address the Arlington Heights factors in turn.
i. Historical Background
“A historical pattern of laws producing
discriminatory results provides important context for
determining whether the same decisionmaking body
has also enacted a law with discriminatory purpose.”
N.C. State Conference of NAACP, 831 F.3d at 223–24;
see Arlington Heights, 429 U.S. at 267 (“The historical
background of the decision is one evidentiary source,
particularly if it reveals a series of official actions
taken for invidious purposes.”). As recounted above,
the Arizona legislature has a long history of racebased discrimination, disenfranchisement, and voter
suppression, dating back to Arizona’s territorial days.
Further, the history of H.B. 2023 itself reveals
invidious purposes.
In addressing the “historical background” factor,
the district court mentioned briefly the various

97a
legislative efforts to restrict third-party ballot
collection that had been “spearheaded” by Senator
Shooter, described briefly Senator Shooter’s
allegations of third-party ballot fraud, and alluded to
the “racially-tinged” LaFaro Video. Reagan, 329 F.
Supp. 3d at 879–80. But the district court discounted
their importance. We discuss the court’s analysis
below, under the third Arlington Heights factor.
ii. Sequence of Events Leading to Enactment
“The specific sequence of events leading up to the
challenged decision . . . may shed some light on the
decisionmaker’s purposes.” Arlington Heights, 429
U.S. at 267. We recounted above the sequence of
events leading to the enactment of H.B. 2023. The
district court acknowledged this history but again
discounted its importance. We discuss the court’s
analysis below, under the third Arlington Heights
factor.
iii. Relevant Legislative History
“The legislative . . . history may be highly relevant,
especially where there are contemporary statements
by members of the decisionmaking body[.]” Id. at
268. The district court found that legislators voted
for H.B. 2023 in response to the “unfounded and often
farfetched allegations of ballot collection fraud” made
by former Senator Shooter, and the “racially-tinged
LaFaro Video.” Reagan, 329 F. Supp. 3d at 880. As
Chief Judge Thomas wrote: “Because there was ‘no
direct evidence of ballot collection fraud . . . presented
to the legislature or at trial,’ the district court
understood that Shooter’s allegations and the LaFaro
Video were the reasons the bill passed.” DNC, 904
F.3d at 748 (Thomas, C.J., dissenting) (quoting

98a
Reagan, 329 F. Supp. 3d at 880) (emphasis in
original).
Senator Shooter was one of the major proponents
of the efforts to limit third-party ballot collection and
was influential in the passage of H.B. 2023. Reagan,
329 F. Supp. 3d at 879. According to the district
court, Senator Shooter made “demonstrably false”
allegations of ballot collection fraud. Id. at 880.
Senator Shooter’s efforts to limit ballot collection
were motivated in substantial part by the “high
degree of racial polarization in his district.” Id. at
879. He was “motivated by a desire to eliminate” the
increasingly effective efforts to ensure that Hispanic
votes in his district were collected, delivered, and
counted. Id.
The LaFaro Video provides even stronger evidence
of racial motivation. Maricopa County Republican
Chair LaFaro produced a video showing “a man of
apparent Hispanic heritage”—a volunteer with a getout-the-vote organization—apparently dropping off
ballots at a polling place. Id. at 876. LaFaro’s voiceover narration included unfounded statements, id. at
877, “that the man was acting to stuff the ballot box”
and that LaFaro “knew that he was a thug,” id. at
876. The video was widely distributed. It was “shown
at Republican district meetings,” “posted on Facebook
and YouTube,” and “incorporated into a television
advertisement.” Id. at 877.
The district court used the same rationale to
discount the importance of all of the first three
Arlington Heights factors. It pointed to the “sincere
belief,” held by some legislators, that fraud in thirdparty ballot collection was a problem that needed to

99a
be addressed. The district court did so even though
it recognized that the belief was based on the false
and race-based allegations of fraud by Senator
Shooter and other proponents of H.B. 2023. The court
wrote: “Shooter’s allegations and the LaFaro Video
were successful in convincing H.B. 2023’s proponents
that ballot collection presented opportunities for
fraud that did not exist for in-person voting[.]” Id. at
880.
We accept the district court’s conclusion that some
members of the legislature who voted for H.B. 2023
had a sincere, though mistaken, non-race-based
belief that there had been fraud in third-party ballot
collection, and that the problem needed to be
addressed. However, as the district court found, that
sincere belief had been fraudulently created by
Senator Shooter’s false allegations and the “raciallytinged” LaFaro video. Even though some legislators
did not themselves have a discriminatory purpose,
that purpose may be attributable to their action
under the familiar “cat’s paw” doctrine. The doctrine
is based on the fable, often attributed to Aesop, in
which a clever monkey induces a cat to use its paws
to take chestnuts off of hot coals for the benefit of the
monkey.
For example, we wrote in Mayes v. Winco Holdings,
Inc., 846 F.3d 1274 (9th Cir. 2017):
[T]he animus of a supervisor can affect an
employment
decision
if
the
supervisor
“influenced or participated in the decisionmaking
process.” Dominguez-Curry [v. Nev. Transp.
Dep’t], 424 F.3d [1027,] 1039–40 [(9th Cir. 2017)].
Even if the supervisor does not participate in the

100a
ultimate termination decision, a “supervisor’s
biased report may remain a causal factor if the
independent investigation takes it into account
without determining that the adverse action was,
apart from the supervisor’s recommendation,
entirely justified.” Staub v. Proctor Hosp., 562
U.S. 411, 421 (2011).
Id. at 1281; see also Poland v. Chertoff , 494 F.3d
1174, 1182 (9th Cir. 2007) (“[I]f a subordinate . . . sets
in motion a proceeding by an independent
decisionmaker that leads to an adverse employment
action, the subordinate’s bias is imputed to the
employer if the plaintiff can prove that the allegedly
independent adverse employment decision was not
actually independent because the biased subordinate
influenced or was involved in the decision or
decisionmaking process.”).
The good-faith belief of these sincere legislators
does not show a lack of discriminatory intent behind
H.B. 2023. Rather, it shows that well meaning
legislators were used as “cat’s paws.” Convinced by
the false and race-based allegations of fraud, they
were used to serve the discriminatory purposes of
Senator Shooter, Republican Chair LaFaro, and their
allies.
We hold that the district court clearly erred in
discounting the importance of the first three
Arlington Heights factors. We hold that all three
factors weigh in favor of showing that discriminatory
intent was a motivating factor in enacting H.B. 2023.
iv. Disparate Impact on a Particular Racial Group
“The impact of the official action[,] whether it
‘bears more heavily on one race than another,’ may

101a
provide an important starting point. Sometimes a
clear pattern, unexplainable on grounds other than
race, emerges from the effect of the state action even
when the governing legislation appears neutral on its
face.” Arlington Heights, 429 U.S. at 266 (internal
citation omitted). As described above, uncontested
evidence shows that H.B. 2023 has an adverse and
disparate impact on American Indian, Hispanic, and
African American voters. The district court found
that the legislature “was aware” of the impact of H.B.
2023 on what the court called “low-efficacy minority
communities.” Reagan, 329 F. Supp. 3d at 881.
It appears that the district court weighed this
factor in favor of showing discriminatory intent as a
motivating factor in enacting H.B. 2023. The court
did not clearly err in so doing.
v. Assessment
We hold that the district court clearly erred in
holding that Plaintiffs failed to carry their initial
burden of proof of showing that racial discrimination
was a motivating factor leading to the enactment of
H.B. 2023. We hold that all four of the Arlington
Heights factors weigh in favor of Plaintiffs. Our
holding does not mean that the majority of the
Arizona state legislature “harbored racial hatred or
animosity toward any minority group.” N.C. State
Conference of NAACP, 831 F.3d at 233. “But the
totality of the circumstances”—Arizona’s long history
of race-based voting discrimination; the Arizona
legislature’s unsuccessful efforts to enact less
restrictive versions of the same law when
preclearance was a threat; the false, race-based
claims of ballot collection fraud used to convince

102a
Arizona legislators to pass H.B. 2023; the substantial
increase in American Indian and Hispanic voting
attributable to ballot collection that was targeted by
H.B. 2023; and the degree of racially polarized voting
in Arizona—”“cumulatively and unmistakably
reveal” that racial discrimination was a motivating
factor in enacting H.B. 2023. Id.
b. Would H.B. 2023 Otherwise Have Been Enacted
At the second step of the Arlington Heights
analysis, Arizona has the burden of showing that
H.B. 2023 would have been enacted without racial
discrimination as a motivating factor. Because the
district court held that Plaintiffs had not carried their
initial burden, it did not reach the second step of the
Arlington Heights analysis.
Although there is no holding of the district court
directed to Arlington Heights’ second step, the court
made a factual finding that H.B. 2023 would not have
been enacted without racial discrimination as a
motivating factor. The court specifically found that
H.B. 2023 would not have been enacted without
Senator Shooter’s and LaFaro’s false and race-based
allegations of voter fraud. The court wrote, “The
legislature was motivated by a misinformed belief
that ballot collection fraud was occurring, but a
sincere belief that mail-in ballots lacked adequate
prophylactic safeguards as compared to in-person
voting.” Reagan, 329 F. Supp. 3d at 882. That is,
members of the legislature, based on the
“misinformed belief” created by Shooter, LaFaro, and
their allies and serving as their “cat’s paws,” voted to
enact H.B. 2023. See Poland, 494 F.3d at 1182.
Based on the court’s finding, we hold that Arizona has

103a
not carried its burden of showing that H.B. 2023
would have been enacted without the motivating
factor of racial discrimination.
c. Summary
We hold that the district court clearly erred in
holding that Plaintiffs failed to establish that H.B.
2023 violates the intent test of Section 2 of the VRA.
A holding that H.B. 2023 violates the intent test of
Section 2 necessarily entails a holding that it also
violates the Fifteenth Amendment.
III. Response to Dissents
We respectfully disagree with our dissenting
colleagues. For the most part, our response to their
contentions is contained in the body of our opinion
and needs no elaboration. Several contentions,
however, merit a specific response.
A. Response to the First Dissent
Our first dissenting colleague, Judge O’Scannlain,
makes several mistakes.
First, our colleague contends that H.B. 2023 does
not significantly change Arizona law. Our colleague
writes:
For years, Arizona has restricted who may
handle early ballots. Since 1992, Arizona has
prohibited anyone but the elector himself from
possessing “that elector’s unvoted absentee
ballot.” 1991 Ariz. Legis. Serv. Ch. 310, § 22 (S.B.
1390) (West). In 2016, Arizona enacted a parallel
regulation, H.B. 2023 (the “ballot-collection”
policy), concerning the collection of early ballots.
Diss. Op. at 116–117 (emphases added).

104a
Our colleague appends a footnote to the first
sentence in the passage just quoted:
The majority’s effort to deny history can easily be
dismissed. Maj. Op. 104–105. As Judge Bybee’s
dissent ably recounts, not only Arizona but 21
other states have restricted early balloting for
years. Bybee, J. Diss. Op. 157–158.
Our colleague fails to recognize the distinction
between “unvoted” and “voted” ballots. Contrary to
our colleague’s contention, H.B. 2023 is not “a
parallel regulation” to already existing Arizona law.
Under prior Arizona law, possession of an “unvoted
absentee ballot” was forbidden. Arizona law in no
way restricted non-fraudulent possession of voted
absentee ballots (absentee ballots on which the vote
had already been indicated). Unlike our colleague,
the district court recognized the distinction. It wrote:
Since 1997, it has been the law in Arizona that
“[o]nly the elector may be in possession of that
elector’s unvoted early ballot.” A.R.S. § 16542(D). In 2016, Arizona amended A.R.S. § 161005 by enacting H.B. 2023, which limits who
may collect a voter’s voted or unvoted early ballot.
Reagan, 329 F. Supp. 3d at 839 (emphases added).
H.B. 2023 for the first time forbade non-fraudulent
collection of voted ballots. It was not a “parallel
regulation.” It was a fundamental change in Arizona
law.
Second, our colleague repeats the potentially
misleading numbers and percentages of OOP voting
recounted by the district court. Our colleague writes:
Only 0.47 percent of all ballots cast in the 2012
general election (10,979 out of 2,323,579) were

105a
not counted because they were cast out of the
voter’s assigned precinct. [Reagan, 329 F. Supp.
3d] at 872. In 2016, this fell to 0.15 percent (3,970
out of 2,661,497). Id.
Diss. Op. at 122–123. Our colleague, like the district
court, see Reagan, 329 F. Supp. 3d at 872, fails to
mention that, as a percentage of all in-person ballots,
OOP ballots increased between 2012 and 2016.
Third, our colleague quotes from a sentence in a
footnote in the Supreme Court’s opinion in Gingles.
Based on that sentence, he insists that “substantial
difficulty electing representatives of their choice” is
the governing standard for the Section 2 results test
in the case before us. Our colleague writes:
[In Gingles], the Court observed that “[i]t is
obvious that unless minority group members
experience
substantial
difficulty
electing
representatives of their choice, they cannot prove
that a challenged electoral mechanism impairs
their ability ‘to elect.’” Gingles, 478 U.S. at 48
n.15 (quoting 52 U.S.C. § 10301(b)) (emphasis
added).
Diss. Op. at 124 (emphasis in original).
writes:

He later

Given the lack of any testimony in the record
indicating that the ballot-collection policy would
result in minority voters ‘experienc[ing]
substantial difficulty electing representatives of
their choice,’ Gingles, 478 U.S. at 48 n.15, the
district court did not clearly err[.]
Id. at 132 (emphasis added).

106a
Our colleague fails to distinguish between a vote
dilution case and a vote denial case. As we noted
above, a vote dilution case is one in which
multimember electoral districts have been formed, or
in which district lines have been drawn, so as to
dilute and thereby diminish the effectiveness of
minority votes. Vote denial cases are all other cases,
including cases in which voters are prevented from
voting or in which votes are not counted. Gingles was
a vote dilution case, and the case before us is a vote
denial case.
Our colleague fails to quote the
immediately preceding sentence in the Gingles
footnote, which makes clear that the Court was
addressing vote dilution cases. The Court wrote, “In
recognizing that some Senate Report factors are more
important to multimember district vote dilution
claims than others, the Court effectuates the intent
of Congress.” Gingles, 478 U.S. at 48 n.15 (emphasis
added).
The standard in a vote denial case is different, as
recognized by DOJ in its amicus brief in this case, and
in League of Women Voters where the Fourth Circuit
struck down a state statute that would have
prevented the counting of OOP ballots in North
Carolina without inquiring into whether the number
of affected ballots was likely to affect election
outcomes. See 769 F.3d at 248–49. As we noted
above, there may be a de minimis number in vote
denial cases challenging facially neutral policies or
law, but the 3,709 OOP ballots in our case is above
any such de minimis number.
Citing our en banc decision in Gonzalez, our
colleague contends that our case law does not
differentiate between vote denial and vote dilution

107a
cases. But the very language from Gonzalez that he
quotes belies his contention. We wrote in text:
[A] § 2 challenge “based purely on a showing of
some relevant statistical disparity between
minorities and whites,” without any evidence
that the challenged voting qualification causes
that disparity, will be rejected.
Gonzalez, 677 F.3d at 405. We then appended a
footnote, upon which our colleague relies:
This approach applies both to claims of vote
denial and of vote dilution. [Smith v. Salt River
Project Agric. Improvement & Power Dist., 109
F.3d 586,] 596 n.8 [(9th Cir. 1997)].
Id. at 405 n.32. The quoted language makes the
obvious point that in both vote denial and vote
dilution cases, we require evidence of a causal
relation between a challenged voting qualification
and any claimed statistical disparity between
minority and white voters. However, this language
does not tell us that the predicate disparity, and its
effect, are the same in vote denial and vote dilution
cases.
B. Response to the Second Dissent
Our second dissenting colleague, Judge Bybee,
writes “to make a simple point: The Arizona rules
challenged here are part of an ‘electoral process that
is necessarily structured to maintain the integrity of
the democratic system.’” Diss. Op. at 142 (quoting
Burdick v. Takushi, 504 U.S. 428, 441 (1992)). We
respectfully disagree. There is nothing in Arizona’s
policy of discarding OOP votes or about H.B. 2023
that is necessary “to maintain the integrity” of
Arizona’s democratic system.

108a
Our colleague writes, further, “Parties of all stripes
should have an equal interest in rules that are both
fair on their face and fairly administered.” Id. at 144.
Our colleague misunderstands the purpose of the
VRA’s results test of Section 2. The results test looks
past the facial fairness of a law to its actual results.
We take these two points in turn.
1. Integrity of Arizona’s Democratic System
First, our colleague uses his “simple point” to
justify Arizona’s OOP policy and H.B. 2023 on the
ground that they are necessary to protect the
integrity of Arizona’s system.
Our colleague argues that eliminating Arizona’s
OOP policy will “lower[] the cost to voters of
determining where they are supposed to vote, but
only as to presidential, U.S. Senate, and statewide
races,” and will have “its own consequences.” Id. at
151, 153. To illustrate those consequences, our
colleague imagines a voter from Tucson who votes in
Phoenix. Based on his imagined voter, he posits “two
predictable ways” in which future elections in
Arizona will be “skew[ed]” if OOP votes are counted
for the elections in which the voter is entitled to vote.
Id. at 152. Because his imagined voter cares only
about national elections, that voter “may vote with
impunity in the wrong precinct.” Id. at 152. This will
result, first, in “overvalu[ing]” national elections,
and, second, in “undervalu[ing]” local elections. Id.
Our colleague speculates that Arizona’s OOP policy
will result in voters either finding the right precinct,
or voting by mail. He writes:
Under Arizona’s current OOP rule, a voter,
having gone to the trouble of going to a precinct

109a
to vote in person and suffering the indignity of
having to fill out a provisional ballot, is less likely
to make the same mistake next year. A voter who
has had a ballot disqualified is more likely to
figure out the correct precinct next time—or,
better yet, sign up for the convenience of early
voting, a measure that avoids the conundrum of
OOP altogether.
Id. at 155.
Our colleague’s speculation leads him to predict
that Arizona’s OOP policy will lead to increased inprecinct voting. There is nothing in the record that
remotely supports our colleague’s predicted
consequences. Instead, the record clearly shows the
opposite. Arizona’s OOP policy has been in place
since at least 1970. Reagan, 329 F. Supp. 3d at 840.
The record shows that, despite its long-standing
policy, Arizona has consistently had by far the
highest rate of OOP voting of any State—in 2012,
eleven times greater than the second-place State. See
Figure 6, supra at 13; see also Rodden at 26
(describing OOP voting as a “persistent problem” in
Arizona).
Contrary to our colleague’s speculation, OOP
voters are unlikely ever to discover the “indignity” of
having their provisional ballots discarded. Our
colleague quotes from an Arizona statute requiring
county recorders to establish a “method” by which a
voter casting a provisional ballot be notified that his
or ballot was not counted, and giving a reason why it
was not counted. Diss. Op. at 155 n.9. However,
there is nothing in the record showing that county
recorders have in fact established, or followed, such a

110a
“method.”
Instead, there was uncontradicted
testimony in the district court by OOP voters that
they were not directed to their proper polling place
and were never told that their vote would not be
counted if cast out of precinct. See Reagan, 329 F.
Supp. 3d at 858 (finding that poll workers neither
directed OOP voters to the correct precinct nor told
voters that OOP ballots would be discarded).
The persistence of OOP voting is unsurprising
given the actions of Arizona. Arizona changes polling
places with extraordinary frequency, and often
locates them in inconvenient and misleading places.
This produces a high rate of OOP voting, particularly
in urban areas and particularly for voters with high
rates of residential mobility. The uncontested result
is that minority voters cast OOP votes twice as often
as white voters.
Our colleague further argues that H.B. 2023 is an
appropriate measure to protect against voter fraud.
He begins by pointing out that many States forbid
third-party ballot collection. Diss. Op. at 158–160.
But a simple numerical comparison with other states
fails to take into account, as the VRA says we must,
the particular geography, ethnic patterns, and long
history of third-party ballot collection in Arizona. See
Gingles, 478 U.S. at 78 (a Section 2 analysis requires
“a blend of history and an intensely local appraisal”).
Evidence in the record shows that third-party ballot
collection has long had a unique role in Arizona, given
the large numbers of Hispanic and American Indian
voters who have unreliable or non-existent in-home
mail service, who have unreliable means of
transportation, who live long distances from polling
places, and who have long-standing cultural

111a
traditions of ballot collection. Evidence in the record
shows that Arizona has never, in its long history of
third-party ballot collection, found a single case of
fraud.
Our colleague also argues that Arizona should not
ignore the recommendation of the report of the
bipartisan commission, Building Confidence in U.S.
Elections (2005). Diss. Op. at 161–164. This is a
reasonable argument, but it has limited force when
applied to Arizona. Forbidding third-party ballot
collection protects against potential voter fraud. But
such protection is not necessary, or even appropriate,
when there is a long history of third-party ballot
collection with no evidence, ever, of any fraud and
such fraud is already illegal under existing Arizona
law. Such protection is undesirable, even illegal,
when a statute forbidding third-party ballot
collection produces a discriminatory result or is
enacted with discriminatory intent. The commission
was concerned with maintaining “confidence” in our
election system, as indicated by the title of its report.
If there is a lack of confidence in third-party ballot
collection in Arizona, it is due to the fraudulent, racebased campaign mounted by the proponents of H.B.
2023.
Finally, our colleague points to third-party ballot
collection fraud perpetrated by a Republican political
operative in North Carolina. Id. at 164–166. Our
colleague’s argument ignores the different histories
and political cultures in Arizona and North Carolina,
and puts to one side as irrelevant the long and
honorable history of third-party ballot collection in
Arizona. The argument also ignores the fact that
Arizona had long had statutes prohibiting fraudulent

112a
handling of both unvoted and voted ballots by third
parties, even before the enactment of H.B. 2023. The
actions of the North Carolina Republican operative,
if performed in Arizona, would have been illegal
under those statutes. H.B. 2023 does not forbid
fraudulent third-party ballot collection. Such fraud
is forbidden by other provisions of Arizona law. H.B.
2023 forbids non-fraudulent third-party ballot
collection.
2. Rules that Are Fair on Their Face
Second, our colleague defends Arizona’s OOP
policy and H.B. 2023 as “rules that are . . . fair on
their face.” Id. at 144. The results test of Section 2
of the VRA is based on the understanding that laws
that are “fair on their face” can, as in this case,
produce discriminatory results. Indeed, Congress
added the results test to the VRA precisely to address
laws that were fair on their face but whose result was
unfair discrimination.
Arizona’s OOP policy and H.B. 2023 both fail the
results test. The result of Arizona’s OOP policy is
that twice as many minority ballots as white ballots
are thrown away. Prior to the enactment of H.B.
2023, third-party ballot collectors, acting in good
faith, collected many thousands of valid ballots cast
by minority voters. White voters rarely relied on
third-party ballot collection. The result of H.B. 2023
is that many thousands of minority ballots will now
not be collected and counted, while white ballots will
be largely unaffected.
IV. Conclusion
We hold that Arizona’s OOP policy violates the
results test of Section 2. We hold that H.B. 2023

113a
violates both the results test and the intent test of
Section 2. We hold that H.B. 2023 also violates the
Fifteenth Amendment. We do not reach Plaintiffs’
other constitutional challenges.
We reverse the judgment of the district court and
remand for further proceedings consistent with this
opinion.
REVERSED and REMANDED.

114a
WATFORD, Circuit Judge, concurring:
I join the court’s opinion to the extent it invalidates
Arizona’s out-of-precinct policy and H.B. 2023 under
the results test. I do not join the opinion’s discussion
of the intent test.
O’SCANNLAIN, Circuit Judge, with whom
CLIFTON, BYBEE, and CALLAHAN, Circuit
Judges, join, dissenting:
We have been asked to decide whether two current
Arizona election practices violate the Voting Rights
Act or the First, Fourteenth, or Fifteenth
Amendments to the United States Constitution.1
Based on the record before us and relevant Supreme
Court and Ninth Circuit precedent, the answer to
such question is clear: they do not. The majority,

1

Section 2 of the Voting Rights Act prohibits a State from
adopting an election practice that “results in a denial or
abridgement of the right of any citizen of the United States to
vote on account of race or color.” 52 U.S.C. § 10301(a).
The First Amendment to the United States Constitution
provides in relevant part: “Congress shall make no law . . .
abridging . . . the right of the people peaceably to assemble.”
U.S. Const. amend. I.
The Fourteenth Amendment guarantees: “No State shall
make or enforce any law which shall abridge the privileges or
immunities of citizens of the United States; nor shall any State
deprive any person of life, liberty, or property, without due
process of law; nor deny to any person within its jurisdiction the
equal protection of the laws.” U.S. Const. amend. XIV.
The Fifteenth Amendment ensures that the right “to vote
shall not be denied or abridged by the United States or by any
State on account of race, color, or previous condition of
servitude.” U.S. Const. amend. XV.

115a
however, draws factual inferences that the evidence
cannot support and misreads precedent along the
way. In so doing, it impermissibly strikes down
Arizona’s duly enacted policies designed to enforce its
precinct-based election system and to regulate thirdparty collection of early ballots.
I respectfully dissent.
I
Given the abundant discussion by the district court
and the en banc majority, I offer only a brief summary
of the policies at issue here and discuss the district
court’s factual findings as pertinent to the analysis
below.
A
Arizona offers voters several options: early mail
ballot, early in-person voting, and in-person Election
Day voting. Democratic Nat’l Comm. v. Reagan
(“DNC”), 329 F. Supp. 3d 824, 838 (D. Ariz. 2018).
1
Since at least 1970, Arizona has required that inperson voters “cast their ballots in their assigned
precinct and has enforced this system by counting
only those ballots cast in the correct precinct.” Id. at
840. A voter who arrives at a precinct in which he or
she is not listed on the register may cast a provisional
ballot, but Arizona will not count such ballot if it
determines that the voter does not live in the precinct
in which he or she voted. Id. For shorthand, I refer
to this rule as Arizona’s “out-of-precinct” or “OOP”
policy.
Most Arizona voters, however, do not vote in
person on Election Day. Id. at 845. Arizona law

116a
permits all registered voters to vote early by mail or
in person at an early voting location in the 27 days
before an election. Ariz. Rev. Stat. §§ 16-121(A), 16541(A), 16-542(D). All Arizona counties operate at
least one location for early in person voting. DNC,
329 F. Supp. 3d at 839. Rather than voting early in
person, any voter may instead request an early ballot
to be delivered to his or her mailbox on an electionby-election or permanent basis. Id. In 2002, Arizona
became the first state to make available an online
voter registration option, which also permits voters to
enroll in permanent early voting by mail. Id. Voters
who so enroll will be sent an early ballot no later than
the first day of the 27-day early voting period. Id.
Voters may return early ballots in person at any
polling place, vote center, or authorized office without
waiting in line or may return their early ballots by
mail at no cost. Id. To be counted, however, an early
ballot must be received by 7:00 p.m. on Election Day.
Id.
2
For years, Arizona has restricted who may handle
early ballots.2 Since 1992, Arizona has prohibited
anyone but the elector himself from possessing “that
elector’s unvoted absentee ballot.” 1991 Ariz. Legis.
Serv. Ch. 310, § 22 (S.B. 1390) (West). In 2016,
Arizona enacted a parallel regulation, H.B. 2023 (the
“ballot-collection” policy), concerning the collection of

2

The majority’s effort to deny history can easily be
dismissed. Maj. Op. 104–105. As Judge Bybee’s dissent ably
recounts, not only Arizona but 21 other states have restricted
early balloting for years. Bybee, J. Diss. Op. 157–158.

117a
early ballots.3 DNC, 329 F. Supp. 3d at 839. Under
the ballot-collection policy, only a “family member,”
“household member,” “caregiver,” “United States
postal service worker” or other person authorized to
transmit mail, or “election official” may return
another voter’s completed early ballot. Id. at 839–40
(citing Ariz. Rev. Stat. § 16-1005(H)–(I)).
B
In April 2016, the Democratic National Committee,
the Democratic Senatorial Campaign Committee,
and the Arizona Democratic Party (together, “DNC”)
sued the State of Arizona to challenge the OOP policy
and the ballot-collection policy. The district court
denied DNC’s motions to enjoin preliminarily
enforcement of both polices, and DNC asked our court
to issue injunctions pending appeal of such denials.
After expedited proceedings before three-judge and
en banc panels, our court denied the motion for an
injunction against the OOP policy but granted the
parallel motion against the ballot-collection policy.
Feldman v. Ariz. Sec’y of State’s Office, 840 F.3d 1165
(9th Cir. 2016) (en banc) (mem.) (per curiam);
Feldman v. Ariz. Sec’y of State’s Office (Feldman III),
843 F.3d 366 (9th Cir. 2016) (en banc). The Supreme
Court, however, stayed our injunction against the
ballot-collection policy and the OOP and ballotcollection policies functioned in usual fashion. Ariz.
Sec’y of State’s Office v. Feldman, 137 S. Ct. 446
(2016) (mem.).

3

While the majority refers to the legislation as “H.B. 2023,”
I prefer to call it the ballot-collection policy by which it is
commonly known and will do so throughout the dissent.

118a
In 2017, the district court proceeded to the merits
of DNC’s suit. In May 2018, after a ten-day bench
trial, the district court issued a decision supported by
thorough findings of fact and conclusions of law.
DNC, 329 F. Supp. 3d at 832. The district court found
that DNC failed to prove any violation of the Voting
Rights Act or the United States Constitution and
issued judgment in the state’s favor. Id. at 882–83.
DNC timely appealed, and a three-judge panel of
our court affirmed the decision of the district court in
its entirety. Democratic Nat’l Comm. v. Reagan
(“DNC”), 904 F.3d 686 (9th Cir. 2018), vacated by
order granting rehearing en banc, 911 F.3d 942 (9th
Cir. 2019) (mem.). But today, the en banc panel
majority reverses the decision of the district court
and holds that the OOP and ballot-collection policies
violate § 2 of the Voting Rights Act and that the
ballot-collection
policy
was
enacted
with
discriminatory intent in violation of the Fifteenth
Amendment.
II
The first mistake of the en banc majority is
disregarding the critical standard of review.
Although the majority recites the appropriate
standard, it does not actually engage with it.4 Maj.

4

As the majority admits, we review the district court’s
“overall finding of vote dilution” under § 2 of the Voting Rights
Act only for clear error. Thornburg v. Gingles, 478 U.S. 30, 79
(1986) (emphasis added); Maj. Op. 8–9. The majority quotes an
elaboration of this standard by the Supreme Court in Gingles.
Maj. Op. 8–9. But the Court in Gingles actually held that the
district court’s ultimate finding was not clearly erroneous.
Gingles, 478 U.S. at 80.

119a
Op. 8–9. The standard is not complex. We review de
novo the district court’s conclusions of law, but may
review its findings of fact only for clear error. Navajo
Nation v. U.S. Forest Serv., 535 F.3d 1058, 1067 (9th
Cir. 2008) (en banc).
The majority’s disregard of such standard and,
thus, our appellate role, infects its analysis of each of
DNC’s claims. The demanding clear error standard
“plainly does not entitle a reviewing court to reverse
the finding of the trier of fact simply because it is
convinced that it would have decided the case
differently.” Anderson v. City of Bessemer City, 470
U.S. 564, 573 (1985). Rather, we may reverse a
finding only if, “although there is evidence to support
it, [we are] left with the definite and firm conviction
that a mistake has been committed.” Id. (quoting
United States v. U. S. Gypsum Co., 333 U.S. 364, 395
(1948)). To do otherwise “oversteps the bounds of
[our] duty under [Federal Rule of Civil Procedure]
52(a)” by “duplicat[ing] the role of the lower court.”
Id. at 573. As explained in Parts III and IV, I fail to
see how on the record before us one could be “left with
a definite and firm conviction” that the district court
erred.
III
DNC first contends that Arizona’s policies violate
§ 2 of the Voting Rights Act. A district court’s
determination of whether a challenged practice
violates § 2 of the Voting Rights Act is “intensely factbased”: the court assesses the “totality of the
circumstances” and conducts “a ‘searching practical
evaluation of the past and present reality.’” Smith v.
Salt River Project Agric. Improvements & Power Dist.

120a
(“Salt River”), 109 F.3d 586, 591 (9th Cir. 1997)
(quoting Thornburg v. Gingles, 478 U.S. 30, 79
(1986)). Thus, “[d]eferring to the district court’s
superior fact-finding capabilities, we review only for
clear error its ultimate finding of no § 2 violation.” Id.
at 591 (emphasis added).
In relevant part, § 2 provides:
(a) No voting qualification or prerequisite to
voting or standard, practice, or procedure shall
be imposed or applied by any State . . . in a
manner which results in a denial or
abridgment of the right of any citizen of the
United States to vote on account of race or
color . . . .
(b) A violation of subsection (a) is established
if, based on the totality of circumstances, it is
shown that the political processes leading to
nomination or election in the State are not
equally open to participation by members of a
class of citizens protected by subsection (a) in
that its members have less opportunity than
other members of the electorate to participate
in the political process and to elect
representatives of their choice.
52 U.S.C. § 10301 (emphasis added). “The essence of
a § 2 claim is that a certain electoral law, practice, or
structure interacts with social and historical
conditions to cause an inequality in the opportunities
enjoyed by black and white voters to elect their
preferred representatives.” Gingles, 478 U.S. at 47.
To determine whether a practice violates § 2, courts
employ a two-step analysis. See Ohio Democratic
Party v. Husted, 834 F.3d 620, 637 (6th Cir. 2016);

121a
Veasey v. Abbott, 830 F.3d 216, 244 (5th Cir. 2016);
Frank v. Walker, 768 F.3d 744, 754–55 (7th Cir.
2014); League of Women Voters of N.C. v. North
Carolina, 769 F.3d 224, 240 (4th Cir. 2014).
The first step is asking whether the practice
provides members of a protected class “less
‘opportunity’ than others ‘to participate in the
political process and to elect representatives of their
choice.’” Chisom v. Roemer, 501 U.S. 380, 397 (1991)
(alteration in original) (quoting 52 U.S.C. § 10301).
In other words, the challenged practice “must impose
a discriminatory burden on members of a protected
class.” League of Women Voters, 769 F.3d at 240
(emphasis added). To prevail at step one, the plaintiff
therefore “must show a causal connection between
the challenged voting practice and [a] prohibited
discriminatory result.” Salt River, 109 F.3d at 595
(alteration in original) (quoting Ortiz v. City of Phila.
Office of City Comm’rs Voter Registration Div., 28
F.3d 306, 312 (3d Cir. 1994)); see also Ohio
Democratic Party, 834 F.3d at 638.
If a
discriminatory burden is established, then—and only
then—do we consider whether the burden is “caused
by or linked to ‘social and historical conditions’ that
have or currently produce discrimination against
members of the protected class.” League of Women
Voters, 769 F.3d at 240 (quoting Gingles, 478 U.S. at
47).
The majority agrees that this two-step analysis
controls but mistakenly applies it. According to the
majority, DNC has shown that the OOP policy and
the ballot-collection policy fail at both steps—and,
presumably, that the district court clearly erred in
finding otherwise.
Under an appropriately

122a
deferential analysis, however, DNC cannot prevail
even at step one: it has simply failed to show that
either policy erects a discriminatory burden.
A
As to the facially neutral OOP policy, DNC argues,
erroneously, that wholly discarding, rather than
partially counting, ballots that are cast out-ofprecinct violates § 2 of the Voting Rights Act because
such policy imposes a discriminatory burden on
minority voters related to Arizona’s history of
discrimination. The district court, quite properly,
found that DNC failed to carry its burden at step
one—that the practice imposes a discriminatory
burden on minority voters—for two reasons. DNC,
329 F. Supp. 3d at 873.
1
First, the district court determined that DNC
failed to show “that the racial disparities in OOP
voting are practically significant enough to work a
meaningful inequality in the opportunities of
minority voters as compared to non-minority voters.”
Id. Thus, it ruled that DNC failed to show that the
precinct-based system has a “disparate impact on the
opportunities of minority voters to elect their
preferred representatives.” Id. at 872. To the
contrary, the district court made the factual finding
that out-of-precinct “ballots represent . . . a small and
ever-decreasing fraction of the overall votes cast in
any given election.” Id.
Furthermore, the district court determined that
“the burdens imposed by precinct-based voting . . .
are not severe. Precinct-based voting merely requires
voters to locate and travel to their assigned precincts,

123a
which are ordinary burdens traditionally associated
with voting.” Id. at 858. Indeed, the numbers found
by the district court support such conclusion. Only
0.47 percent of all ballots cast in the 2012 general
election (10,979 out of 2,323,579) were not counted
because they were cast out of the voter’s assigned
precinct. Id. at 872. In 2016, this fell to 0.15 percent
(3,970 out of 2,661,497). Id. And of those casting
ballots in-person on Election Day, approximately 99
percent of minority voters and 99.5 percent of nonminority voters cast their ballots in their assigned
precincts. Id. Given that the overwhelming majority
of all voters complied with the precinct-based voting
system during the 2016 election, it is difficult to see
how the district court’s finding could be considered
clearly erroneous. See also Crawford v. Marion Cty.
Election Bd., 553 U.S. 181, 198 (2008) (plurality
opinion) (discussing “the usual burdens of voting”).
And it further ruled that DNC “offered no evidence of
a systemic or pervasive history of minority voters
being given misinformation regarding the locations of
their assigned precincts, while non-minority voters
were given correct information” to suggest that the
burden of voting in one’s assigned precinct is more
significant for minority voters than for non-minority
voters. DNC, 329 F. Supp. 3d at 873.
As Judge Ikuta explained in her now-vacated
majority opinion for the three-judge panel:
If a challenged election practice is not
burdensome or the state offers easily accessible
alternative means of voting, a court can
reasonably conclude that the law does not impair
any particular group’s opportunity to “influence

124a
the outcome of an election,” even if the practice
has a disproportionate impact on minority voters.
DNC, 904 F.3d at 714 (citation omitted) (quoting
Chisom, 501 U.S. at 397 n.24). The “bare statistic[s]”
presented may indeed show a disproportionate
impact on minority voters, but we have held
previously that such showing is not enough. Salt
River, 109 F.3d at 595 (“[A] bare statistical showing
of disproportionate impact on a racial minority does
not satisfy the § 2 ‘results’ inquiry.” (emphasis in
original)). A court must evaluate the burden imposed
by the challenged voting practice—not merely any
statistical disparity that may be shown.
The
Supreme Court’s interpretation of § 2 in Gingles
suggests the same. There, the Court observed that
“[i]t is obvious that unless minority group members
experience
substantial
difficulty
electing
representatives of their choice, they cannot prove
that a challenged electoral mechanism impairs their
ability ‘to elect.’” Gingles, 478 U.S. at 48 n.15
(emphasis added) (quoting 52 U.S.C. § 10301(b)).
Furthermore, because “[n]o state has exactly equal
registration rates, exactly equal turnout rates, and so
on, at every stage of its voting system,” it cannot be
the case that pointing to a mere statistical disparity
related to a challenged voting practice is sufficient to
“dismantle” that practice. Frank, 768 F.3d at 754; see
also Salt River, 109 F.3d at 595.
The majority, however, contends that “the district
court discounted the disparate burden on the ground
that there were relatively few OOP ballots cast in
relation to the total number of ballots.” Maj. Op. 43.
In the majority’s view, the district court should have
emphasized that the percentage of in-person ballots

125a
that were cast out-of-precinct increased, thus
isolating the specific impact of the OOP policy
amongst in-person voters bound by the precinctsystem requirements.
Contrary to the majority’s assertion, however, the
legal review at hand does not require that we isolate
the specific challenged practice in the manner it
suggests. Rather, at step one of the § 2 inquiry, we
only consider whether minority voters “experience
substantial difficulty electing representatives of their
choice,” Gingles, 478 U.S. at 48 n.15, “based on the
totality of circumstances,” 52 U.S.C. § 10301(b).5
Although the majority would like us to believe that
the increasing percentage of in-person ballots cast
5 The majority correctly asserts that Gingles was a vote
dilution not vote denial case. However, it incorrectly claims the
standard in a vote denial case is different and, without stating
such standard, it simply concludes that the 3,709 ballots cast
out of precinct in the 2016 general election in Arizona is more
than any “de minimis number” below which there is no Section
2 violation, without ever revealing what such minimum
threshold might be. Maj. Op. 107. The majority cites League of
Women Voters, a vote denial case, to reach this conclusion. See
769 F.3d at 248–49. Yet, in that case, the Fourth Circuit relies
on Gingles throughout to determine that the same analysis
applies to vote denial and vote dilution cases. Id. at 238–40.
Earlier in its opinion, the majority itself uses Gingles as the
standard for analyzing a § 2 violation in a vote denial case. Maj.
Op. 37. The distinction the majority attempts to draw fails
because, contrary to what the majority implies, “a § 2 challenge
based purely on a showing of some relevant statistical disparity
between minorities and whites, without any evidence that the
challenged voting qualification causes that disparity, will be
rejected,” Gonzalez v. Arizona, 677 F.3d 383, 495 (9th Cir. 2012)
(internal quotation marks omitted), and “[t]his approach applies
both to claims of vote denial and vote dilution.” Id. at 495 n. 32.

126a
out-of-precinct demonstrates that minorities are
disparately burdened by the challenged policy, the
small number of voters who chose to vote in-person
and the even smaller number of such voters who fail
to do so in the correct precinct demonstrate that any
minimal burden imposed by the policy does not
deprive minority voters of equal opportunities to elect
representatives of their choice.
A conclusion
otherwise could not be squared with our
determination that a mere statistical showing of
disproportionate impact on racial minorities does not
satisfy the challenger’s burden. See Salt River, 109
F.3d at 595. If such statistical impact is not
sufficient, it must perforce be the case that the crucial
test is the extent to which the practice burdens
minority voters as opposed to non-minority voters.
But the en banc majority offers no explanation for
how or why the burden of voting in one’s assigned
precinct is severe or beyond that of the burdens
traditionally associated with voting.
The majority argues that there may be a “de
minimis number” below which no § 2 violation has
occurred.6 Maj. Op. 44. But we know from our own
precedent that “a bare statistical showing of
disproportionate impact on a racial minority does not
satisfy the § 2 . . . inquiry.” Salt River, 109 F.3d at
595 (emphasis in original). And Chisom makes clear
that § 2 “claims must allege an abridgment of the
opportunity to participate in the political process and
6 As Judge Ikuta explained, “an election rule requiring voters

to identify their correct precinct in order to have their ballots
counted does not constitute a ‘disenfranchisement’ of voters.”
DNC, 904 F.3d at 730 n.33; see also id. at 724 n.27.

127a
to elect representatives of one’s choice.” 501 U.S. at
398 (emphasis in original). As such, the inquiry must
require consideration of both the scope of the burden
imposed by the particular policy—not merely how
many voters are impacted by it—and the difficulty of
accessing the political process in its entirety.
Thus, it cannot be true, as the majority suggests,
that simply showing that some number of minority
voters’ ballots were not counted as a result of an
individual policy satisfies step one of the § 2 analysis
for a facially neutral policy.
2
Second, the district court made the factual finding
that “Arizona’s policy to not count OOP ballots is not
the cause of [any identified] disparities in OOP
voting.” DNC, 329 F. Supp. 3d at 872. According to
the OOP policy that is challenged by DNC, a ballot is
not counted if it is cast outside of the voter’s assigned
precinct. And the district court pointed to several
factors that result in higher rates of out-of-precinct
voting among minorities. For example, the district
court found that “high rates of residential mobility
are associated with higher rates of OOP voting,” and
minorities are more likely to move more frequently.
Id. at 857, 872. Similarly, “rates of OOP voting are
higher in neighborhoods where renters make up a
larger share of householders.” Id. at 857. The
precinct-system may also pose special challenges for
Native American voters, because they may “lack
standard addresses” and there may be additional
“confusion about the voter’s correct polling place”
where precinct assignments may differ from
assignments for tribal elections.
Id. at 873.

128a
“Additionally”, the district court found, Arizona’s
“changes in polling locations from election to election,
inconsistent election regimes used by and within
counties, and placement of polling locations all tend
to increase OOP voting rates.” Id. at 858.
But the burden of complying with the precinctbased system in the face of any such factors is plainly
distinguishable from the consequence imposed should
a voter fail to comply. Indeed, as the district court
found, “there is no evidence that it will be easier for
voters to identify their correct precincts if Arizona
eliminated its prohibition on counting OOP ballots.”
Id. Although “the consequence of voting OOP might
make it more imperative for voters to correctly
identify their precincts,” id., such consequence does
not cause voters to cast their ballots out-of-precinct or
make it more burdensome for voters to cast their
ballots in their assigned precincts.
The majority goes astray by failing to recognize the
distinction between the burden of complying and the
consequence of failing to do so. In fact, the majority
undercuts its own claim by citing the same host of
reasons identified by the district court as the reasons
why a minority voter is more likely to vote out-ofprecinct. Maj Op. 14–19. All the factors the majority
seizes upon, however, stem from the general
requirement that a voter cast his or her ballot in the
assigned precinct—not the policy that enforces such
requirement. The importance of such distinction is
made clear by the relief that DNC seeks: DNC does
not request that Arizona be made to end its precinctbased system or to assign its precincts differently, but
instead requests that Arizona be made to count those
ballots that are not cast in compliance with the OOP

129a
policy.7 Removing the enforcement policy, however,
would do nothing to minimize or to extinguish the
disparity that exists in out-of-precinct voting.
Consider another basic voting requirement: in
order to cast a ballot, a voter must register. If a
person fails to register, his or her vote will not count.
Any discriminatory result from such a policy would
need to be addressed in a challenge to that policy
itself.
For
example,
if
minorities
are
underrepresented as a segment of registered voters,
perhaps they could challenge some discriminatory
aspect of the registration system. But they surely
could not prevail by challenging simply the state’s
enforcement of the registration policy by refusing to
count unregistered voters’ ballots. Minorities in a
jurisdiction may very well be underrepresented as
members of the registered electorate, but the
discrepancy between the protected class as a segment
of the general population and as a segment of the
registered voting population would not require that a
7

The majority suggests that DNC challenges only “Arizona’s
policy, within that system, of entirely discarding OOP ballots”
as opposed to counting or partially counting them. Maj. Op. 78.
But this is not a compromise position: there is no difference
between counting and partially counting a ballot cast out-ofprecinct. Counting an OOP ballot would entail evaluating the
ballot to determine on which issues the person would have been
qualified to vote in his or her assigned precinct and discarding
the person’s votes as to issues on which he or she would not have
been qualified to vote. Certainly, the majority isn’t suggesting
that a person would ever be allowed to vote on issues which he
or she would not have been eligible to vote even in the assigned
precinct. It is difficult to discern any other possible meaning for
what the majority refers to as entirely “counting” out-of-precinct
ballots.

130a
state permit unregistered voters to cast valid ballots
on Election Day.
Similarly, the fact that a ballot cast by a voter
outside of his or her assigned precinct is discarded
does not cause minorities to vote out-of-precinct
disproportionately. But DNC does not challenge the
general requirement that one vote in his or her
precinct or take issue with the assignment of precinct
locations—the very requirements that could lead to a
disproportionate impact. It may indeed be the case
in a precinct-based voting system that a state’s poor
assignment of districts, distribution of inadequate
information about voting requirements, or other
factors have some material effect on election
practices such that minorities have less opportunity
to elect representatives of their choice as a result of
the system. But, in the words of the majority, DNC’s
challenge “assumes both [the] importance and [the]
continued existence” of “Arizona’s precinct-based
system of voting.” Maj. Op. 78. Instead, DNC
challenges only Arizona’s enforcement of such system.
Thus, even if there were a recognizable disparity in
the opportunities of minority voters voting out-ofprecinct, it would nonetheless not be the result of the
policy at issue before us.
3
I reject the suggestion implicit in the majority
opinion that any facially neutral policy which may
result in some statistical disparity is necessarily
discriminatory under step one of the § 2 inquiry. We
have already held otherwise. Salt River, 109 F.3d at
595. And the majority itself concedes that “more than
a de minimis number of minority voters must be

131a
burdened before a Section 2 violation based on the
results test can be found.” Maj. Op. 44. Furthermore,
I fail to see how DNC—and the majority—can
concede the importance and continued existence of a
precinct-based system, yet argue that the
enforcement mechanism designed to maintain such
system is impermissible.
Because DNC has failed to meet its burden under
step one of the Voting Rights Act § 2 inquiry—that
the district court’s findings were clearly erroneous—
our analysis of its OOP claim should end here.
B
As to the facially neutral ballot-collection policy,
DNC argues, erroneously, that it violates § 2 because
there is “extensive evidence” demonstrating that
minority voters are more likely to have used ballotcollection services and that they would therefore be
disproportionately burdened by limitations on such
services.
Specifically, DNC relies on anecdotal
evidence that ballot collection has disproportionately
occurred in minority communities, that minority
voters were more likely to be without home mail
delivery or access to transportation, and that ballotharvesting
efforts
were
disproportionately
undertaken by the Democratic Party in minority
communities. And, DNC claims, such burden is
caused by or linked to Arizona’s history of
discrimination.
The district court, quite properly, rejected such
argument, making the factual finding that DNC
failed to establish at step one that the ballotcollection policy imposed a discriminatory burden on
minority voters. DNC, 329 F. Supp. 3d at 866, 871.

132a
Once again, the question is whether such finding was
clearly erroneous. Salt River, 109 F.3d at 591.
1
The district court found broadly that the nonquantitative evidence offered by DNC failed to show
that the ballot-collection policy denied minority
voters of “meaningful access to the political process.”
DNC, 329 F. Supp. 3d at 871. As Judge Ikuta
observed, to determine whether the challenged policy
provides minority voters “less opportunity to elect
representatives of their choice, [we] must necessarily
consider the severity and breadth of the law’s impacts
on the protected class.” DNC, 904 F.3d at 717.
But no evidence of that impact has been offered.
“In fact, no individual voter testified that [the ballotcollection policy’s] limitations on who may collect an
early ballot would make it significantly more difficult
to vote.” DNC, 329 F. Supp. 3d at 871 (emphasis
added). Anecdotal evidence of how voters have
chosen to vote in the past does not establish that
voters are unable to vote in other ways or would be
burdened by having to do so. The district court
simply found that “prior to the [ballot-collection
policy’s] enactment minorities generically were more
likely than non-minorities to return their early
ballots with the assistance of third parties,” id. at
870, but, once again, the disparate impact of a
challenged policy on minority voters is insufficient to
establish a § 2 violation, see Salt River, 109 F.3d at
594–95.
The majority simply does not address the lack of
evidence as to whether minority voters have less
opportunity than non-minority voters now that ballot

133a
collection is more limited. Instead, the majority
answers the wrong question by pointing to minority
voters’ use of ballot collection in the past. The
majority offers no record-factual support for its
conclusion that the anecdotal evidence presented
demonstrates that compliance with the ballotcollection policy imposes a disparate burden on
minority voters—a conclusion that must be reached
in order to satisfy step one of the § 2 inquiry—let
alone evidence that the district court’s contrary
finding was “clearly erroneous.”
Given the lack of any testimony in the record
indicating that the ballot-collection policy would
result in minority voters “experienc[ing] substantial
difficulty electing representatives of their choice,”
Gingles, 478 U.S. at 48 n.15, the district court did not
clearly err in finding that, “for some voters, ballot
collection is a preferred and more convenient method
of voting,” but a limitation on such practice “does not
deny minority voters meaningful access to the
political process.” DNC¸ 329 F. 3d Supp. at 871.
2
The district court further found that the ballotcollection policy was unlikely to “cause a meaningful
inequality in the electoral opportunities of
minorities” because only “a relatively small number
of voters have used ballot collection services” in the
past at all. DNC, 329 F. Supp. 3d at 870–71. And,
the district court noted, DNC “provided no
quantitative or statistical evidence comparing the
proportion that is minority versus non-minority.” Id.
at 866. “Without this information,” the district court
explained, “it becomes difficult to compare the law’s

134a
impact on different demographic populations and to
determine whether the disparities, if any, are
meaningful.” Id. at 867. Thus, from the record, we
do not know either the extent to which voters may be
burdened by the ballot-collection policy or how many
minority voters may be so burdened.
Nonetheless, the district court considered
circumstantial and anecdotal evidence offered by
DNC and determined that “the vast majority of
Arizonans, minority and non-minority alike, vote
without the assistance of third-parties who would not
fall within [the ballot-collection policy’s] exceptions.”
Id. at 871. DNC—and the majority—argue that such
finding is not supported by the record, but, given the
lack of quantitative or statistical evidence before us,
it is difficult to conclude that such finding is clearly
erroneous. The district court itself noted that it could
not “speak in more specific or precise terms” given the
sparsity of the record. Id. at 870. Drawing from
anecdotal testimony, the district court estimated that
fewer than 10,000 voters used ballot-collection
services in any election. Id. at 845. Drawing even
“the unjustified inference that 100,000 early mail
ballots were collected” during the 2012 general
election, the district court found that such higher
total would nonetheless be “relatively few early
voters” as compared to the 1.4 million early mail
ballots returned or 2.3 million total votes cast. Id. at
845. The majority further argues that the district
court erred in “discounting the evidence of thirdparty ballot collection as merely ‘circumstantial and
anecdotal’” Maj. Op. 83. But the district court did
nothing of the sort. To the contrary, the district court
considered whether the ballot-collection policy

135a
violated § 2 by making these estimates—and even
generous estimates—from the anecdotal evidence
offered.
And the district court’s subsequent
conclusion that the limitation of third-party ballot
collection would impact only a “relatively small
number of voters,” id. at 870, is clearly plausible on
this record, see Bessemer City, 470 U.S. at 573.
The majority also argues that the total number of
votes affected is not the relevant inquiry; the proper
test is whether the number of ballots collected by
third parties surpasses any de minimis number. Maj.
Op. 84. But we already know “that a bare statistical
showing” that an election practice has a
“disproportionate impact on a racial minority does
not satisfy” step one of the § 2 inquiry. Salt River,
109 F.3d at 595 (emphasis in original). And, even if
such impact were sufficient, the record offers no
evidence from which the district court could
determine the extent of the discrepancy between
minority voters as a proportion of the entire
electorate versus minority voters as a proportion of
those who have voted using ballot-collection services
in the past. DNC, 329 F. Supp. 3d at 866–67.
3
As Judge Bybee keenly observed in a previous
iteration of this case (and indeed in his dissent in this
case), “[t]here is no constitutional or federal statutory
right to vote by absentee ballot.” Feldman III, 843
F.3d at 414 (Bybee, J., dissenting) (citing McDonald
v. Bd. of Election Comm’rs of Chi., 394 U.S. 802, 807–
08 (1969)); accord Bybee, J. Diss. Op. 156. Both
today and in the past, Arizona has chosen to provide
a wide range of options to voters. But Arizona’s

136a
previous decision to permit a particular mechanism
of voting does not preclude Arizona from modifying
its election system to limit such mechanism in the
future so long as such modification is made in a
constitutional manner.
And, in fact, Arizona’s
modification here was made in compliance with “the
recommendation of the bipartisan Commission on
Federal Election Reform.” DNC, 329 F. Supp. 3d at
855. Without any evidence in the record of the
severity and breadth of the burden imposed by this
change to the ballot-collection policy, we cannot be
“left with the definite and firm conviction” that the
district court erred in finding that DNC failed to show
that the policy violated § 2. See Bessemer City, 470
U.S. at 573; see also Salt River, 109 F.3d at 591.
C
Because I disagree with the majority’s conclusion
that DNC has satisfied its burden at step one of the
§ 2 Voting Rights Act inquiry, I would not reach step
two. I therefore do not address the majority’s
consideration of the so-called “Senate Factors” in
determining whether the burden is “in part caused by
or linked to ‘social and historical conditions’ that have
or currently produce discrimination against members
of the protected class.” League of Women Voters, 769
F.3d at 240 (quoting Gingles, 478 U.S. at 47). These
factors—and the majority’s lengthy history lesson on
past election abuses in Arizona—simply have no
bearing on this case. Indeed, pages 47 to 81 of the
majority’s opinion may properly be ignored as
irrelevant.

137a
IV
DNC also contends that the ballot-collection policy
violates the Fifteenth Amendment to the United
States Constitution.8 To succeed on a claim of
discriminatory
intent
under
the
Fifteenth
Amendment, the challenger must demonstrate that
the state legislature “selected or reaffirmed a
particular course of action at least in part ‘because of,’
not merely ‘in spite of,’ its adverse effects upon an
identifiable group.” Pers. Adm’r of Mass. v. Feeney,
442 U.S. 256, 279 (1979). Because discriminatory
intent “is a pure question of fact,” we again review
only for clear error. Pullman-Standard v. Swint, 456
U.S. 273, 287–88 (1982). “Determining whether
invidious discriminatory purpose was a motivating
factor demands a sensitive inquiry into such
circumstantial and direct evidence of intent as may
be available.” Vill. of Arlington Heights v. Metro.
Hous. Dev. Corp., 429 U.S. 252, 266 (1977).
The district court concluded that the ballotcollection policy did not violate the Fifteenth
Amendment because it made the factual finding that
the legislature “was not motivated by a desire to
suppress minority voters,” although “some individual
legislators and proponents of limitations on ballot
collection harbored partisan motives” that “did not
permeate the entire legislative process.” DNC, 329 F.
Supp. 3d at 879, 882 (emphasis added). Instead,
8

The Fifteenth Amendment authorizes Congress to enforce
its guarantee that the right “to vote shall not be denied or
abridged . . . by appropriate legislation.” U.S. Const. amend.
XV. Section 2 of the Voting Rights Act is such legislation.
Shelby Cty. v. Holder, 570 U.S. 529, 536 (2013).

138a
“[t]he legislature was motivated by . . . a sincere
belief that mail-in ballots lacked adequate
prophylactic safeguards as compared to in-person
voting.” Id. at 882. In analyzing DNC’s appeal from
such finding, the majority, once again, completely
ignores our demanding standard of review and
instead conducts its own de novo review. Maj. Op. 93.
Our duty is only to consider whether the district court
clearly erred in its finding that the ballot-collection
policy was not enacted with discriminatory intent.
See Bessemer City, 470 U.S. at 573. And “to be clearly
erroneous, a decision must . . . strike [a court] as
wrong with the force of a five-week old,
unrefrigerated dead fish.” Ocean Garden, Inc. v.
Marktrade Co., Inc., 953 F.2d 500, 502 (9th Cir. 1991)
(quoting Parts & Elec. Motors, Inc. v. Sterling Elec.,
Inc., 866 F.2d 228, 233 (7th Cir. 1988)).
The majority therefore fails to offer any basis—let
alone a convincing one—for the conclusion that it
must reach in order to reverse the decision of the
district court: that the district court committed clear
error in its factual findings. Given the failure of the
majority to conduct its review in the proper manner,
I see no reason to engage in a line-by-line debate with
its flawed analysis. Rather, it is enough to note two
critical errors made by the majority in ignoring the
district court’s determinations that while some
legislators were motivated by partisan concerns, the
legislature as a body was motivated by a desire to
enact prophylactic measures to prevent voter fraud.
A
First, the majority fails to distinguish between
racial motives and partisan motives. Even when

139a
“racial identification is highly correlated with
political affiliation,” a party challenging a legislative
action nonetheless must show that racial motives
were a motivating factor behind the challenged
policy. Cooper v. Harris, 137 S. Ct. 1455, 1473 (2017)
(quoting Easley v. Cromartie, 532 U.S. 234, 243
(2001)). Nonetheless, the majority suggests that a
legislator motivated by partisan interest to enact a
law that disproportionately impacts minorities must
necessarily have acted with racially discriminatory
intent as well. For example, the district court noted
that Arizona State Senator Don Shooter was, “in part
motivated by a desire to eliminate what had become
an effective Democratic [Get Out The Vote] strategy.”
DNC, 329 F. Supp. 3d at 879. The majority simply
concludes that such finding shows racially
discriminatory intent as a motivating factor. But the
majority’s unsupported inference does not satisfy the
required showing. And the majority fails to cite any
evidence demonstrating that the district court’s
finding to the contrary was not “plausible in light of
the record viewed in its entirety.” Bessemer City, 470
U.S. at 574.
B
Second, in defiance of Supreme Court precedent to
the contrary, the majority assumes that a
legislature’s stated desire to prevent voter fraud
must be pretextual when there is no direct evidence
of voter fraud in the legislative record. In Crawford,
the Court rejected the argument that actual evidence
of voter fraud was needed to justify the State’s
decision to enact prophylactic measures to prevent
such fraud. Crawford, 553 U.S. at 195–96 . There,
the Court upheld an Indiana statute requiring in-

140a
person voters to present government-issued photo
identification in the face of a constitutional challenge.
Id. at 185. Although “[t]he record contain[ed] no
evidence of [voter] fraud actually occurring in
Indiana at any time in its history,” the Supreme
Court nonetheless determined that the State had a
legitimate and important interest “in counting only
the votes of eligible voters.” Id. at 194, 196; see also
id. at 195 nn.11–13 (citing “fragrant examples of”
voter fraud throughout history and in recent years).
Given its interest in addressing its valid concerns of
voter fraud, Arizona was free to enact prophylactic
measures even though no evidence of actual voter
fraud was before the legislature. Yet the majority
does not even mention Crawford, let alone grapple
with its consequences on this case.
And because no evidence of actual voter fraud is
required to justify an anti-fraud prophylactic
measure, the majority’s reasoning quickly collapses.
The majority cites Senator Shooter’s “false and racebased allegations” and the “LaFaro video,” which the
district court explained “showed surveillance footage
of a man of apparent Hispanic heritage appearing to
deliver early ballots” and “contained a narration of
[i]nnuendos of illegality . . . [and] racially tinged and
inaccurate commentary by . . . LaFaro.” DNC, 329 F.
Supp. 3d at 876 (second, third, and fourth alterations
in original). The majority contends that although
“some members of the legislature who voted for H.B.
2023 had a sincere, though mistaken, non-race-based
belief that there had been fraud in third-party ballot
collection, and that the problem needed to be
addressed,” a discriminatory purpose may be
attributable to all of them as a matter of law because

141a
any sincere belief was “created by Senator Shooter’s
false allegations and the ‘racially tinged’ LaFaro
video.” Maj. Op. 99. The majority claims that these
legislators were used as “cat’s paws” to “serve the
discriminatory purposes of Senator Shooter,
Republican Chair LaFaro, and their allies.” Maj. Op.
100. Yet, the majority’s reliance on such employment
discrimination doctrine is misplaced because, unlike
employers whose decision may be tainted by the
discriminatory motives of a supervisor, each
legislator is an independent actor, and bias of some
cannot be attributed to all members. The very fact
that some members had a sincere belief that voter
fraud needed to be addressed is enough to rebut the
majority’s conclusion.
To the contrary, the
underlying allegations of voter fraud did not need to
be true in order to justify the “legitimacy or
importance of the State’s interest in counting only the
votes of eligible voters.” Crawford, 553 U.S. at 196.
And the majority provides no support for its inference
of pretext where there is a sincere and legitimate
interest in addressing a valid concern. Maj. Op. at
97–100. Instead, the majority accepts the district
court’s finding that some legislators “had a sincere,
non-race-based belief that there was fraud” that
needed to be addressed. Nevertheless, unable to
locate any discriminatory purpose, it simply
attributes one to them using the inapplicable “cat’s
paw doctrine.”
Maj. Op. 99.
Such argument
demonstrates the extraordinary leap in logic the
majority must make in order to justify its conclusion.
Let me restate the obvious: we may reverse the
district court’s intensely factual determination as to
discriminatory intent only if we determine that such

142a
finding was clearly erroneous. Thus, even if the
majority disagrees with the district court’s finding, it
must demonstrate that the evidence was not
“plausible in light of the record viewed in its
entirety.” Bessemer City, 470 U.S. at 574. Perhaps if
the majority had reminded itself of our appellate
standard, it would not have simply re-weighed the
same evidence considered by the district court to
arrive at its own findings on appeal.
V
The district court properly determined that neither
Arizona’s out-of-precinct policy nor its ballotcollection policy violates § 2 of the Voting Rights Act
and the Fifteenth Amendment to the Constitution.9
In concluding otherwise, the majority misperceives
the inquiry before us and fails to narrow the scope of
its review, instead insisting on acting as a de novo
trial court. That, of course, is not our role.
I would therefore affirm the judgment of the
district court and must respectfully dissent from the
majority opinion.

9 Because the majority concludes that the OOP policy and the

ballot-collection policy violate § 2 of the Voting Rights Act and
the Fifteenth Amendment to the United States Constitution, it
does not reach DNC’s claim that such policies also violate the
First and Fourteenth Amendments to the United States
Constitution. I will not belabor such claims here; for these
purposes, it is sufficient to say that—for many of the reasons
and based on much of the evidence cited above—I would also
conclude that neither practice violates the First and Fourteenth
Amendments.

143a
BYBEE, Circuit Judge, with whom O’SCANNLAIN,
CLIFTON, and CALLAHAN, Circuit Judges, join,
dissenting:
The right to vote is the most fundamental of our
political rights and the basis for our representative
democracy. “No right is more precious” because it is
a meta-right: it is the means by which we select
“those who make the laws under which, as good
citizens, we must live.” Wesberry v. Sanders, 376 U.S.
1, 17 (1964). “Other rights, even the most basic, are
illusory if the right to vote is undermined.” Id.
Almost as fundamental as the right to vote is the need
for the electorate to have confidence in the rules by
which elections are conducted.
I write separately to make a simple point: The
Arizona rules challenged here are part of an
“electoral process that is necessarily structured to
maintain the integrity of the democratic system.”
Burdick v. Takushi, 504 U.S. 428, 441 (1992).1 The
Constitution entrusts the “Times, Places and Manner
of holding Elections” to state legislatures, subject to
laws enacted by Congress to “make or alter such
Regulations.” U.S. Const. art. I, § 4, cl. 1. “‘Times,
Places, and Manner,’ . . . are ‘comprehensive words,’
which ‘embrace authority to provide a complete code
for . . . elections.’” Arizona v. Inter Tribal Council of
Ariz., Inc., 570 U.S. 1, 8–9 (2013) (quoting Smiley v.
Holm, 285 U.S. 355, 366 (1932)); see Rucho v.
Common Cause, 139 S. Ct. 2484, 2495 (2019).

1 I join in full Judge O’Scannlain’s dissent.

I write separately
to place the majority’s decision today in context of the American
democratic tradition.

144a
“[A]s a practical matter, there must be a
substantial regulation of elections if they are to
be fair and honest and if some sort of order,
rather than chaos, is to accompany the
democratic processes.”
To achieve these
necessary objectives, States have enacted
comprehensive and sometimes complex election
codes. Each provision of these schemes, whether
it governs the registration and qualifications of
voters, the selection and eligibility of candidates,
or the voting process itself, inevitably affects—at
least in some degree—the individual’s right to
vote and his right to associate with others for
political ends.
Nevertheless, the State’s
important regulatory interests are generally
sufficient
to
justify
reasonable,
nondiscriminatory restrictions.
Anderson v. Celebrezze, 460 U.S. 780, 788 (1983)
(citation omitted) (quoting Storer v. Brown, 415 U.S.
724, 730 (1974)).
Time, place, and manner restrictions are
fundamentally differently from provisions that affect
the “Qualifications requisite for Electors,” U.S. Const.
art. I, § 2, cl. 1, and state apportionments “according
to their respective Numbers,” id. art. I, § 2, cl. 3. The
Constitution
restricts
with
exactness
the
qualifications states may require of their voters. See
id. amend. XV, § 1 (“race, color, or previous condition
of servitude”); amend. XIX (sex); amend. XXIV
(“failure to pay any poll tax or other tax”); amend.
XXVI (those “eighteen years of age or older, . . . on
account of age”); Kramer v. Union Free Sch. Dist. No.
15, 395 U.S. 621 (1969) (property ownership).
Similarly, the constitutional imperative for one

145a
person, one vote demands that apportionment be
subject to precision approaching “absolute population
equality,” Karcher v. Daggett, 462 U.S. 725, 732
(1983), “as nearly as practicable,” Kirkpatrick v.
Preisler, 394 U.S. 526, 531 (1969).
Time, place, and manner restrictions stand on
different footing from status-based restraints on vote
qualifications and legislative malapportionment.
State requirements respecting when and where we
vote and how ballots will be counted are “generallyapplicable and evenhanded restrictions that protect
the integrity and reliability of the electoral process
itself.” Anderson, 460 U.S. at 788 n.9. By contrast,
for example, “redistricting differs from other kinds of
state decisionmaking in that the legislature always is
aware of race when it draws district lines, just as it is
aware of age, economic status, religions and political
persuasion, and a variety of other demographic
factors.” Shaw v. Reno, 509 U.S. 630, 646 (1993).
Time, place, and manner restrictions are the rules of
the game, announced in advance, so that all voters
will know what they must do. Parties of all stripes
should have an equal interest in rules that are both
fair on their face and fairly administered.
Two such rules are challenged here: the rule about
how Arizona will count out-of-precinct votes (OOP)
and the rule about who may file another person’s
absentee ballot (H.B. 2023). As rules of general
applicability, they apply to all voters, without
“account of race or color.” 52 U.S.C. § 10301(a).2
2

In relevant part, § 2 of the Voting Rights Act provides that
“[n]o voting qualification or prerequisite to voting or standard,
practice, or procedure shall be imposed or applied by any

146a
Rather than simply recognizing that Arizona has
enacted neutral, color-blind rules, the majority has
embraced the premise that § 2 of the VRA is violated
when any minority voter appears to be adversely
affected by Arizona’s election laws. Although the
majority abjures this premise for now, claiming that
it does “not need to go so far” as equating “the case of
an individually targeted single minority voter who is
denied the right to vote and the case where a facially
neutral policy affects a single voter,” Maj. Op. at 45,
its analysis necessarily rests on that premise. The
majority has no limiting principle for identifying a de
minimis effect in a facially neutral time, place, or
manner rule.
The premise finds its clearest
expression in the Fourth Circuit’s opinion in League
of Women Voters of N.C. v. North Carolina, 769 F.3d
224, 244 (4th Cir. 2014) (emphasis added): “[W]hat
matters for purposes of Section 2 is not how many
minority voters are being denied equal electoral
opportunities but simply that ‘any’ minority voter is
being denied equal electoral opportunities.” See Maj.
Op. at 41–42, 45–46, 107 (relying on League of Women
Voters). Such a premise insists on a precision that we
have never demanded before.
By contrast, the Supreme Court explained that
following City of Mobile v. Bolden, 446 U.S. 55 (1980),
“Congress substantially revised § 2 to make clear
State . . . in a manner which results in a denial or abridgement
of the right of any citizen of the United States to vote on account
of race or color.” 52 U.S.C. § 10301(a). A violation of § 2(a) may
be shown “based on the totality of the circumstances . . . [if] the
political processes leading to nomination or election in the
State . . . are not equally open to participation by members of a
class of citizens [on account of race or color].” Id. § 10301(b).

147a
that a violation could be proved by showing
discriminatory effect alone and to establish as the
relevant legal standard the ‘results test,’ applied . . .
in White v. Regester, 412 U.S. 755 (1973).” Thornburg
v. Gingles, 478 U.S. 30, 35 (1986). Yet in White, the
Court made clear that it “did not hold . . . that any
deviations from absolute equality, however small,
must be justified to the satisfaction of the judiciary to
avoid invalidation under the Equal Protection
Clause.” 412 U.S. at 763–64. Rather, the Court
recognized that any rule in an election scheme might
suffer “relatively minor population deviations ‘based
on legitimate considerations incident to the
effectuation of a rational state policy.’” Id. at 764
(quoting Reynolds v. Sims, 377 U.S. 533, 579 (1964)).
A “rational state policy” surely includes the need
for a consistent, neutral set of time, place, and
manner rules. The majority’s reading of the Voting
Rights Act turns § 2 into a “one-minority-vote-veto
rule” that may undo any number of time, place, and
manner rules. It is entirely results-bound, so much
so that under the majority’s reading of the Voting
Rights Act, the same rules the majority strikes down
in Arizona may be perfectly valid in every other state,
even states within our circuit. It all depends on the
numbers. Indeed, so diaphanous is the majority’s
holding, that it may be a temporary rule for Arizona.
If Arizona were to reenact these provisions again in,
say, 2024, the numbers might come out differently
and the OOP and ballot collection rules would be
lawful once again.
The two Arizona rules at issue here—OOP and
H.B. 2023—are rules of general applicability, just
like the rules governing voting on the day of the

148a
election, registering with the Secretary of State, and
bringing identification with you. Such “‘evenhanded
restrictions that protect the integrity and reliability
of the electoral process itself’ are not invidious.”
Crawford v. Marion Cty. Election Bd., 553 U.S. 181,
189–90 (2008) (plurality opinion) (quoting Anderson,
460 U.S. at 788 n.9). Both rules the majority strikes
down today have widely-held, well-recognized—even
distinguished—pedigrees. As I show in Part I, the
OOP is a long-standing rule that remains in place in
a majority of American jurisdictions. The rule the
majority prefers is a minority rule in the United
States and, more importantly, disregards Arizona’s
interest in encouraging voting in local elections and,
in application, may actually disadvantage minority
voters. In Part II, I demonstrate that, although H.B.
2023 is of more recent vintage, similar rules are in
place in other American jurisdictions, and H.R. 2023
follows carefully the recommendation of a bi-partisan
commission on the integrity of American elections.
I
It has long been a feature of American democracy
that, on election day, voters must vote in person at an
assigned polling venue—an election precinct.
[I]t is the well established practice in nearly
every state to divide the county or city into a
number of geographical districts for the purpose
of holding elections. Each elector is required to
vote at the polling place of his own precinct,
which by custom is ordinarily located within the
precinct, and, in cities, within a few blocks of his
residence.

149a
Joseph P. Harris, Election Administration in the
United States 206–07 (1934). Like most American
jurisdictions, Arizona’s election rules require a nonabsentee voter’s personal presence at the polling
place. Ariz. Rev. Stat. § 16-411(A) (“The broad of
supervisors of each county . . . shall establish a
convenient number of election precincts in the county
and define the boundaries of the precincts.”). The
reasons for such a venue rule are
significant and numerous: it caps the number of
voters attempting to vote in the same place on
election day; it allows each precinct ballot to list
all of the votes a citizen may cast for all pertinent
federal, state, and local elections, referenda,
initiatives, and levies; it allows each precinct
ballot to list only those votes a citizen may cast,
making ballots less confusing; it makes it easier
for election officials to monitor votes and prevent
election fraud; and generally puts polling places
in closer proximity to voter residences.
Sandusky Cty. Democratic Party v. Blackwell, 387
F.3d 565, 569 (6th Cir. 2004).3 Precincts help to
3

“One of the major voting innovations in certain states was
the increase in the number of polling places.” Robert J. Dinkin,
Voting in Revolutionary America: A Study of Elections in the
Original Thirteen States, 1776–1789, at 96 (1982). Among the
states, New York led the way, “enacting a law in 1778 which
stated that all future elections should be held ‘not by counties
but by boroughs, towns, manors, districts, and precincts.’” Id. at
97 (quoting Laws of New York, sess. 1, chap. 16 (1778)). In early
America, polling places were located where the people were:
voting . . . in barns, private homes, country stores, and
churches—almost anything that could separate voters from
the election officials and the ballot boxes they tended. On

150a
secure the orderly administration of elections, which
then assures all voters of the integrity of the election.
A
Arizona’s out of precinct rule (OOP) is a standard
feature of American democracy. Under Arizona’s
election code, “[n]o person shall be permitted to vote
unless such person’s name appears as a qualified
elector in both the general county register and in the
precinct register.” Ariz. Rev. Stat. § 16-122. The
election code provides extensive instructions for
electors who have changed their residence or whose
name does not appear on the precinct register; if
there is any question of the elector’s eligibility to vote
in that precinct, Arizona authorizes the filing of a
provisional ballot. See, e.g., Ariz. Rev. Stat. §§ 16135, 16-583, 16-584, 16-592.
There is nothing unusual about Arizona’s OOP
rule.4 Although there are variations in the way the
the frontier, where buildings were even harder to find,
votes were sometimes cast in sodhouse saloons, sutler
stores near army forts, the front porches of adobe houses,
and temporary lean-tos thrown together at desolate desert
crossroads. In the larger cities, fire stations, warehouses,
and livery stables were commonly used. One of the most
common venues was liquor establishments Such an
arrangement made an election noisy and, sometimes,
violent.
Richard Franklin Bensel, The American Ballot Box in the MidNineteenth Century 9 (2004).
4

For many years, a voter was not even permitted to cast a
provisional ballot in a precinct other than her own. See Harris,
Election Administration in the United States, at 287–88. The
Help America Vote Act (HAVA) now requires states to permit
voters to cast a provisional ballot. 52 U.S.C. § 21082(a). HAVA,
however, does not affect a state’s rules about how to process a

151a
rule is formulated, by my count, twenty-six states,
the District of Columbia, and three U.S. territories
disqualify ballots cast in the wrong precinct.5 These
states represent every region of the country: The
Northeast (Connecticut, Vermont), the mid-Atlantic
(Delaware, District of Columbia, West Virginia), the
South (Alabama, Florida, Kentucky, Mississippi,
South Carolina, Tennessee, Virginia, Virgin Islands),
the mid-West (Illinois, Indiana, Iowa, Michigan,
Missouri, Nebraska, South Dakota, Wisconsin), the
Southwest (Arizona, Oklahoma, Texas), the
Mountain States (Montana, Wyoming), and the West
(American Samoa, Hawaii, Nevada, Northern
Mariana Islands). Twenty states and two territories
will count out of precinct ballots, although the states
are not uniform in what they will count.6 They also
represent a broad spectrum of the country: The
provisional ballot. It does provide that states must create a tollfree number that “any individual who casts a provisional ballot
may access to discover whether the vote of that individual was
counted, and, if the vote was not counted, the reasons that the
vote was not counted.” 52 U.S.C. § 21082(a)(5)(B); see Blackwell,
387 F.3d at 576 (“HAVA is quintessentially about being able to
cast a provisional ballot [B]ut the ultimate legality of the vote
cast provisionally is generally a matter of state law.”).
5

I have listed all fifty states, the District of Columbia, and
U.S. territories, with relevant citations to their treatment of out
of precinct votes, in Appendix A. In Appendix B, I have
categorized the jurisdictions by rule.
6

For example, five states will count an out-of-precinct vote,
but only if the ballot is filed in the voter’s county (Kansas, New
Mexico, Pennsylvania, Utah) or town (Massachusetts).
Louisiana and Rhode Island will only count votes for federal
office. Puerto Rico will count only votes for Governor and
Resident Commissioner.

152a
Northeast (Maine, Massachusetts, New York, Rhode
Island), the mid-Atlantic (Maryland, New Jersey,
Pennsylvania), the South (Arkansas, Louisiana,
North Carolina, Georgia, Puerto Rico), the mid-West
(Ohio, Kansas), the Southwest (New Mexico), the
Mountain States (Colorado, Utah), and the West
(Alaska, California, Guam, Oregon, Washington).7
Nowhere in its discussion of the “totality of the
circumstances” has the majority considered that
Arizona’s OOP provision is a widely held time, place,
or manner rule. It is not a redistricting plan, see
Cooper v. Harris, 137 S. Ct. 1455 (2017); League of
United Latin Am. Citizens v. Perry, 548 U.S. 399
(2006); Shaw v. Reno, 509 U.S. 630 (1993); a
multimember district, see Chisom v. Roemer, 501 U.S.
380 (1991); Gingles, 478 U.S. 30; or an at-large
system, see Rogers v. Lodge, 458 U.S. 613 (1982).
Those “circumstances” are as unique as a fingerprint,
subject to manipulation, and require “an intensely
local appraisal” of the state’s plan. Gingles, 478 U.S.
at 78 (internal quotation marks and citation omitted).
Arizona’s OOP applies statewide; it is not a unique
rule, but a traditional rule, common to the majority
of American states. The OOP rule, as a rule of
general applicability, is part of a “political
process[] . . . equally open to participation” by all
Arizona voters. 52 U.S.C. § 10301(b).

7

Four states (Idaho, Minnesota, New Hampshire, North
Dakota) are not accounted for in either list because they allow
same-day registration and do not use provisional ballots.

153a
B
The majority asserts that “counting or partially
counting OOP ballots would [not] threaten the
integrity of Arizona’s precinct-based system.” Maj.
Op. at 78. Effectively, the majority holds that
Arizona must abandon its traditional polling venue
rules and accept the ballots of voters who cast their
ballot in the wrong precinct, at least for national and
state-wide offices. Id. at 76–78 (citing the rules of
California, Utah, and New Mexico as an example of
states partially counting OOP ballots). Under the
majority’s preferred scheme, Arizona must count all
votes for offices that are not precinct dependent. As
to the remainder of the ballot, Arizona may—in
accordance with its traditional rule—disqualify the
ballot for all offices for which the political geography
of the precinct matters. The majority has failed to
take into account that the rule it prefers has its own
consequences, including adverse consequences for
minority voters.
Let’s review an example to consider the unintended
consequences of the majority’s haste.
Under
Arizona’s traditional rules, the state would disqualify
the ballot of a voter from Tucson who votes in any
precinct other than his assigned precinct. Under the
majority’s new rule, a voter from Tucson may cross
precinct lines and vote in any precinct in Arizona—
for instance, in Phoenix. His cross-precinct ballot will
be counted for those offices which are common to
ballots in his precinct-in-law in Tucson and his new
precinct-in-fact in Phoenix—such offices would
include the presidency, the U.S. Senate, and any
statewide offices. His ballot will be disqualified,
however, for all state and local offices defined by

154a
geographic boundaries that are not common to the
two precincts—for example, the U.S. House of
Representatives, the state legislature, and municipal
offices such as mayor, city council, and school board.
The majority’s rule will skew future elections in
Arizona in two predictable ways. First, it overvalues
national elections. Ballots for the presidency, the
U.S. Senate, and any state offices that would
otherwise be disqualified must be counted. Voters—
whether intentionally or carelessly—may vote with
impunity in the wrong precinct, knowing that their
vote will count for the national and statewide offices.
Second, it undervalues local elections. Those same
ballots will not be counted toward those federal,
state, and local offices that are defined by geographic
boundaries and for which the voters from the outside
precinct are not eligible. Non-conscientious voters—
voters who care more about a national or a statewide
race than the local races—are permitted to vote
wherever they please, while conscientious voters—
those concerned with all the offices on the ballot—are
burdened by the requirement that they find their way
to their proper precinct. And if the conscientious
voter can’t get to the polling place on time, he will
have cast no ballot for any office, national, state, or
local.
The net result is that the majority has lowered the
cost to voters of determining where they are supposed
to vote, but only as to presidential, U.S. Senate, and
statewide races. As the majority no doubt intends,
persons who didn’t know or were confused about their
polling place will have their vote counted, but only in
select races. But as the majority may not have

155a
thought through, anyone in Arizona, including people
who know where they are supposed to vote in an
election (but for one reason or another would not have
otherwise voted because it was inconvenient or
impossible to vote at their home precinct), will also be
able to vote—but again, only in select races. Arizona
can thus expect more votes in the presidential,
senatorial, and state races than would be cast under
its traditional rules. I suppose that in theory that’s a
good thing. What the majority has not counted on is
the effect its order will have on the races that depend
on
geographic
boundaries
within
Arizona:
congressional, state-legislative, and local offices.
When voters do not go to their local precincts to vote,
they cannot vote in those races. Voters who do not
take the time to determine their appropriate
precinct—for whatever reason—and vote out of
precinct have disenfranchised themselves with
respect to the local races. That’s a bad thing.
Arizona’s longstanding, neutral rule gives voters
an incentive to figure out where their polling place is,
which, in turn, encourages voters to cast ballots in
national, state, and local elections. In effect, Arizona
has stapled national and statewide elections to other
state and local elections. The opportunity to vote in
any one race is the opportunity to vote in all races.
It’s strong medicine, but Arizona’s rule is a selfprotective rule; it helps encourage voting and,
presumably, interest in local elections.
The
majority’s preferred rule gives voters an incentive to
vote wherever it is convenient for them which
increases the likelihood they will vote in certain
national and statewide races, but decreases the
likelihood they will vote in other state and local races.

156a
It places a burden on voters who wish to exercise
their right to vote on all matters to which they are
entitled, a burden that simply would not exist for the
less-engaged voter. The majority’s rule contradicts
our most basic principles of federalism by deeming
elections for national and statewide offices more
important than those for lesser offices.
The majority’s concern is based on the fact that
voters who vote in the wrong precinct are more likely
to be minorities. Maj. Op. at 42–44. If that fact holds
true in the future—and it may not because, as I have
explained, any voter in Arizona (including those who
know where to vote) may take advantage of the
majority’s new rule—then minority ballots will be
underrepresented in the local races. Under the
majority’s preferred scheme, it is thus likely that
more minorities will fail to vote in local elections—
elections that most directly affect the daily lives of
ordinary citizens, and often provide the first platform
by which citizen-candidates, not endowed with
personal wealth or name recognition, seek on the
path to obtaining higher office. In any event, the
court has just put a big thumb on the scale of the
Arizona elections—national, state, and local—with
unclear results.
These concerns are magnified when we consider
the relatively small number of OOP ballots. See
Democratic Nat’l Comm. v. Reagan, 329 F. Supp. 3d
824, 873 (D. Ariz. 2018). It is more likely that these
ballots would make a difference in a local election
than in a national or statewide election. Arizona’s
rule encourages its OOP voters—white, AfricanAmerican, Hispanic, or other—to vote in the correct
precinct. Under Arizona’s current OOP rule, a voter,

157a
having gone to the trouble of going to a precinct to
vote in person and suffering the indignity of having
to fill out a provisional ballot, is less likely to make
the same mistake the next year.8 A voter who has
had a ballot disqualified is more likely to figure out
the correct precinct next time—or, better yet, sign up
for the convenience of early voting, a measure that
avoids the conundrum of OOP altogether.9 The voter

8 The Majority dismisses this point by highlighting how
Arizona has frequently changed polling places in some localities.
Maj. Op. at 111 (referring to Arizona’s high rate of OOP voting).
But there is no evidence in the record that the same voters’s
ballots are excluded as OOP year after year. My point is that a
voter who has had her ballot excluded as OOP is more likely to
exercise greater care in finding the right polling location next
time.
9

The Majority worries that OOP voters may never come to
know that their votes were in fact rejected and, hence, will never
learn from the situation. Maj. Op. at 110. Whatever the cause
for the Majority’s concern, Arizona’s statutory law is not to
blame. Arizona law specifically requires county recorders to
establish “a method of notifying the provisional ballot voter at
no cost to the voter whether the voter’s ballot was verified and
counted and, if not counted, the reason for not counting the
ballot.” Ariz. Rev. Stat. Ann. § 16-584(F) (2019). Thus, voters
should have the opportunity to find out whether their vote was
counted.
Further, to the extent that voters inadvertently vote in the
wrong precinct, that is not a failing of Arizona law. Instead, the
law requires that voters’ names be checked on the precinct
register. If a voter’s name does not appear on the register, then
the address is checked to confirm that the voter resides within
that jurisdiction. Id. § 16-584(B). Once the address is confirmed
to be in the precinct or the voter affirms in writing that the voter
is eligible to vote in that jurisdiction, the voter “shall be allowed
to vote a provisional ballot.” Id. Accordingly, under Arizona

158a
who only votes where it is convenient
disenfranchised himself from local elections.

has

States such as California, Utah, and New Mexico
have made the same choice the majority forces on
Arizona. Those states may or may not have made the
calculus I have set out here and they may or may not
have measured the costs and benefits of their new
rule; it’s theirs to experiment with. They may
conclude that the new rule is the right one; they may
not. And if any of those states decides that the countthe-ballots-partially rule is not the best rule, those
states will be free to adopt a different rule, including
the OOP rule the majority strikes down today. After
today’s decision, Arizona has no such recourse.
II
H.B. 2023 presents a different set of
considerations. There is no constitutional or federal
statutory right to vote by absentee ballot. See
McDonald v. Bd. of Election Comm’rs of Chi., 394
U.S. 802, 807–08 (1969) (“It is thus not the right to
vote that is at stake here but a claimed right to
receive absentee ballots. . . . [T]he absentee statutes,
which are designed to make voting more available to
some groups who cannot easily get to the polls, do not
themselves deny . . . the exercise of the franchise “);
see also Crawford, 553 U.S. at 209 (Scalia, J.,
concurring in the judgment) (“That the State
accommodates some voters by permitting (not
requiring) the casting of absentee or provisional
ballots, is an indulgence—not a constitutional

law, no voter should inadvertently vote at the wrong precinct
without some indication that something is amiss.

159a
imperative that falls short of what is required.”);
Griffin v. Roupas, 385 F.3d 1128, 1130 (7th Cir. 2004)
(rejecting the claim that there is “a blanket right of
registered voters to vote by absentee ballot” because
“it is obvious that a federal court is not going to decree
weekend voting, multi-day voting, all-mail voting, or
Internet voting”).10 Nevertheless, if a state is going
to offer absentee ballots, it must do so on an equal
basis. Arizona’s absentee ballot rule, like its OOP
rule, is a neutral time, place, or manner provision to
help ensure the integrity of the absentee voting
process. In fact, what is at issue here is not the right
of Arizona voters to obtain and return an absentee
ballot, but the question of who can physically return
the ballot.
A
H.B. 2023 provides that “[a] person who knowingly
collects voted or unvoted early ballots from another

10

“The exercise of a public franchise by proxy was illegal at
common law.” Cortlandt F. Bishop, History of Elections in the
American Colonies 129 (1893). The Colonies experimented with
proxy votes, with varying degrees of success. Proxy voting was
not a success in at least one colony. A 1683 letter to the
Governor of South Carolina warned:
Wee are informed that there are many undue practices in
the choyce of members of Parlmt, and that men are
admitted to bring papers for others and put in their votes
for them, wh is utterly illegal & contrary to the custome of
Parliaments & will in time, if suffered, be very
mischeevious: you are therefore to take care that such
practices be not suffered for the future, but every man must
deliver his own vote & noe man suffered to bring the votes
of another . . . .
Id. at 139 (spelling in original) (citation omitted).

160a
person is guilty of a class 6 felony.” Ariz. Rev. Stat.
Ann. § 16-1005(H) (codifying H.B. 2023). The law
does not apply to three classes of persons: (1) “[a]n
election official,” (2) “a United States postal service
worker or any other person who is allowed by law to
transmit United States mail,” and (3) “[a] family
member, household member or caregiver of the
voter.” Id. § 16-1005(H)–(I)(2).
The Arizona provision is substantially similar to
the laws in effect in many other states. In Indiana,
for example, it is a felony for anyone to collect a
voter’s absentee ballot, with exceptions for members
of the voter’s household, the voter’s designated
attorney in fact, certain election officials, and mail
carriers. Ind. Code § 3-14-2-16(4). Connecticut also
restricts ballot collection, permitting only the voter, a
designee of an ill or disabled voter, or the voter’s
immediate family members to mail or return an
absentee ballot. Conn. Gen. Stat. § 9-140b(a). New
Mexico likewise permits only the voter, a member of
the voter’s immediate family, or the voter’s caregiver
to mail or return an absentee ballot. N.M. Stat. Ann.
§ 1-6-10.1. At least seven other states (Georgia,
Missouri, Nevada, North Carolina, Oklahoma, Ohio,
and Texas) similarly restrict who can personally
deliver an absentee ballot to a voting location. Ga.
Code Ann. § 21-2-385(a) (limiting who may
personally deliver an absentee ballot to designees of
ill or disabled voters or family members); Mo. Rev.
Stat. § 115.291(2) (restricting who can personally
deliver an absentee ballot); Nev. Rev. Stat. Ann.
§ 293.330(4) (making it a felony for anyone other than
the voter or the voter’s family member to return an
absentee ballot); Okla. Stat. tit. 26, § 14-108(C) (voter

161a
delivering a ballot must provide proof of identity);
Ohio Rev. Code Ann. § 3509.05(A) (limiting who may
personally deliver an absent voter’s ballot); Tex. Elec.
Code Ann. § 86.006(a) (permitting only the voter to
personally deliver the ballot).11
Other states are somewhat less restrictive than
Arizona because they permit a broader range of
people to collect early ballots from voters but restrict
how many ballots any one person can collect and
return. Colorado forbids anyone from collecting more
than ten ballots. Colo. Rev. Stat. § 1-7.5-107(4)(b).
North Dakota prohibits anyone from collecting more
than four ballots, N.D. Cent. Code § 16.1-07-08(1);
New Jersey, N.J. Stat. Ann. § 19:63-4(a), and
Minnesota, Minn. Stat. Ann. § 203B.08 sbd. 1, three;
Arkansas, Ark. Code Ann. § 7-5-403(a)(1), Nebraska,
Neb. Rev. Stat. § 32-943(2), and West Virginia, W.
Va. Code § 3-3-5(k), two. South Dakota prohibits
anyone from collecting more than one ballot without
notifying “the person in charge of the election of all
voters for whom he is a messenger.” S.D. Codified
Laws § 12-19-2.2.

11

Until recently, two other states had similar provisions on
the books. California formerly limited who could return mail
ballots to the voter’s family or those living in the same
household. Compare Cal. Elec. Code § 3017(a)(2) (West 2019),
with Cal. Elec. Code § 3017(a) (West 2015). It only amended its
law in 2016. 2016 Cal. Legis. Serv. ch. 820 (West). Illinois also
used to make it a felony for anyone but the voter, his or her
family, or certain licensed delivery companies to mail or deliver
an absentee ballot. 10 Ill. Comp. Stat. Ann. 5/19-6 (1996); 10 Ill.
Comp. Stat. 5/29-20(4). Illinois amended that provision in 2015
to let voters authorize others to mail or deliver their ballots. 10
Ill. Comp. Stat. Ann. 5/19-6 (2015).

162a
Still other states have adopted slightly different
restrictions on who may collect early ballots.
California, Maine, and North Dakota, for example,
make it illegal to collect an absentee ballot for
compensation. Cal. Elec. Code § 3017(e)(1); Me. Rev.
Stat. Ann. tit. 21-A, § 791(2)(A) (making it a crime to
receive compensation for collecting absentee ballots);
N.D. Cent. Code § 16.1-07-08(1) (prohibiting a person
from receiving compensation for acting as an agent
for an elector). Florida and Texas make it a crime to
receive compensation for collecting certain numbers
of ballots. Fla. Stat. Ann. § 104.0616(2) (making it a
misdemeanor to receive compensation for collecting
more than two vote-by-mail ballots); Tex. Elec. Code
Ann. § 86.0052(a)(1) (criminalizing compensation
schemes based on the number of ballots collected for
mailing).
Some of these laws are stated as a restriction on
how the early voter may return a ballot. In those
states, the voter risks having his vote disqualified.
See, e.g., Wrinn v. Dunleavy, 440 A.2d 261, 272 (Conn.
1982) (disqualifying ballots and ordering a new
primary election when an unauthorized individual
mailed absentee ballots). In other states, as in
Arizona, the statute penalizes the person collecting
the ballot. See Ind. Code Ann. § 3-14-2-16 (making it
a felony knowingly to receive a ballot from a voter);
Nev. Rev. Stat. Ann. § 293.330(4) (making it a felony
for unauthorized persons to return an absentee
ballot); Tex. Elec. Code Ann. § 86.006(f)–(g) (making
it a crime for an unauthorized person to possess an
official ballot); see also Murphy v. State, 837 N.E.2d
591, 594–96 (Ind. Ct. App. 2005) (affirming a denial
of a motion to dismiss a charge for unauthorized

163a
receipt of a ballot from an absentee voter); People v.
Deganutti, 810 N.E.2d 191, 198 (Ill. App. Ct. 2004)
(affirming conviction for absentee ballot violation).
In those states, the ballot, even if collected
improperly, may be valid. See In re Election of
Member of Rock Hill Bd. of Educ., 669 N.E.2d 1116,
1122–23 (Ohio 1996) (holding that a ballot will not be
disqualified for a technical error).
In sum, although states have adopted a variety of
rules, Arizona’s ballot collection rule is fully
consonant with the broad range of rules throughout
the United States.12
B
Even more striking than the number of other
states with similar provision is that H.B. 2023 follows
precisely the recommendation of the bi-partisan
Carter-Baker Commission on Federal Election
Reform.13 The Carter-Baker Commission found:
Absentee ballots remain the largest source of
potential voter fraud. Absentee balloting is
vulnerable to abuse in several ways: . . . Citizens
who vote at home, at nursing homes, at the
12

For context, Appendix C provides the relevant provisions
of the laws from all fifty states, the District of Columbia, and the
U.S. territories regarding the collection and mailing of absentee
ballots.
13 The Commission on Federal Election Reform was
organized by American University’s Center for Democracy and
Election Management and supported by the Carnegie
Corporation of New York, The Ford Foundation, the John S. and
James L. Knight Foundation, and the Omidyar Network. It was
co-chaired by former President Jimmy Carter and former
Secretary of State James Baker.

164a
workplace, or in church are more susceptible to
pressure, overt and subtle, or to intimidation.
Vote buying schemes are far more difficult to
detect when citizens vote by mail.
States
therefore should reduce the risks of fraud and
abuse in absentee voting by prohibiting “thirdparty” organizations, candidates, and political
party activists from handling absentee ballots.
Comm’n on Fed. Elections Reform, Building
Confidence in U.S. Elections 46 (2005) (“Building
Confidence”) (footnote omitted). The Carter-Baker
Commission recommended that “States . . . should
reduce the risks of fraud and abuse in absentee voting
by
prohibiting
‘third-party’
organizations,
candidates, and political party activists from
handling absentee ballots.” Id. It made a formal
recommendation:
State and local jurisdictions should prohibit a
person from handling absentee ballots other than
the voter, an acknowledged family member, the
U.S. Postal Service or other legitimate shipper,
or election officials. The practice in some states
of allowing candidates or party workers to pick
up and deliver absentee ballots should be
eliminated.
Id. at 47 (Recommendation 5.2.1).
The Carter-Baker Commission recommended that
states limit the persons, other than the voter, who
handle or collect absentee ballots to three classes of
persons: (1) family members, (2) employees of the
U.S. Postal Service or another recognized shipper,
and (3) election officials. H.B. 2013 allows two classes
of persons to collect absentee ballots: (1) election

165a
officials and (2) employees of the U.S. Postal Service
“or any other person who is allowed by law to
transmit United States mail.” Ariz. Rev. Stat. § 161005(H). H.B. 2023 also provides that the prior
restriction on collection of ballots does not apply to
“[a] family member, household member or caregiver
of the voter.” Id. § 16-1005(I)(2). With respect to
election officials and mail delivery workers, Arizona
tracks exactly the recommendation from the
Commission.
With respect to family, however,
Arizona’s provision is more generous than the CarterBaker Commission’s recommendation. Whereas the
Commission recommended that only family members
be permitted to handled a voter’s absentee ballot,
Arizona expanded the class of absentee ballot
handlers
to
“household
member[s]”
and
“caregiver[s].”
I don’t see how Arizona can be said to have violated
the
VRA
when
it
followed
bipartisan
recommendations for election reform in an area the
Carter-Baker Commission found to be fraught with
the risk of voter fraud. Nothing could be more
damaging to confidence in our elections than fraud at
the ballot box. And there is evidence that there is
voter fraud in the collecting of absentee ballots. As
the Seventh Circuit described it: “Voting fraud is a
serious problem in U.S. elections generally . . . and it
is facilitated by absentee voting [A]bsentee voting is
to voting in person as a take-home exam is to a
proctored one.” Griffin, 385 F.3d at 1130–31; see also
Wrinn, 440 A.2d at 270 (“[T]here is considerable room
for fraud in absentee voting and a failure to comply
with the regulatory provision governing absentee
voting increases the opportunity for fraud.” (citation

166a
omitted)); Qualkinbush v. Skubisz, 826 N.E.2d 1181,
1197 (Ill. App. Ct. 2004) (“[T]he integrity of a vote is
even more susceptible to influence and manipulation
when done by absentee ballot.”); Adam Liptak, Error
and Fraud at Issue as Absentee Voting Rises, N.Y.
Times (Oct. 6, 2012), http://nyti.ms/QUbcrg
(discussing a variety of problems in states).14
Organized absentee ballot fraud of sufficient scope
to corrupt an election is no doomsday hypothetical: it
happened as recently as 2018 in North Carolina. In
the state’s Ninth Congressional District, over 282,000
voters cast ballots, either in person or absentee. See
Brief of Dan McCready at 7, In re Investigation of
Election Irregularities Affecting Ctys. Within the 9th
Cong. Dist. (N.C. State Bd. of Elections Feb. 12, 2019)
[hereinafter McCready Br.]. North Carolina permits
“[a]ny qualified voter” in the state to vote by absentee
ballot. N.C. Gen. Stat. § 163A-1295. However, like
Arizona, the state adheres to the Commission’s
recommendations and restricts the categories of
persons who may collect a voter’s absentee ballot. It
is a Class I felony in North Carolina for “any person
except the voter’s near relative or the voter’s
verifiable legal guardian to assist the voter to vote an
absentee ballot.” Id. § 163A-1298.

14

Pressure on absentee voters has long been noted. See
Harris, Election Administration in the United States, at 302
(“The amount of intimidation now exercised by the precinct
captain in many sections of large cities is very great; with mail
voting it would be enormously increased. The overbearing and
dominant precinct captain would insist upon seeing how each
voter under obligation to him had marked his ballot, and the
voter would have no protection against such tactics.”).

167a
In last year’s election in the Ninth Congressional
District, evidence suggested that a political activist
hired by the Republican nominee paid employees to
collect absentee ballots—possibly more than 1,000—
from voters in violation of § 163A-1298.
See
Indictment, State v. Dowless, No. 19CRS001934 (N.C.
Super. Ct. July 30, 2019); McCready Br. at app. 2–3.
An employee of the suspected activist testified that
she personally collected about three dozen ballots.
See Transcript of Evidentiary Hearing at 150, In re
Investigation of Election Irregularities Affecting Ctys.
Within the 9th Cong. Dist. (N.C. State Bd. of Elections
Feb. 18, 2019). She also helped fill in about five or
ten incomplete, unsealed ballots in favor of
Republican candidates. Id. at 67, 99, 152–53. The
ballots were kept at the activist’s home and office for
days or longer before they were turned in. Id. at 69.
A voter testified that she turned over her blank ballot
to the activist’s employees in an unsealed envelope,
trusting that the activist would make a good decision
for her. Id. at 207–08, 214–15.
This coordinated ballot fraud led the state Board of
Elections to invalidate the results of the election,
which had been decided by only 905 votes—fewer
than the amount of suspected fraudulent ballots.
Order at 10, 44–45, In re Investigation of Election
Irregularities Affecting Ctys. Within the 9th Cong.
Dist. (N.C. State Bd. of Elections Mar. 13, 2019). The
residents of the district—some 778,447 Americans—
were thus unrepresented in the House of
Representatives for the better part of a year. Perhaps
the more devastating injury will be the damage this
episode does to North Carolinians’ confidence in their
election system.

168a
The majority acknowledges that the Democratic
Party disproportionately benefits from get-out-thevote efforts by collecting mail-in ballots. See, e.g.,
Maj. Op. at 83 (quoting Reagan, 329 F. Supp. 3d at
870). Further, the majority acknowledges that
Democratic activists have often led such collection
efforts. Id. Yet the experience of North Carolina with
Republican activists shows starkly the inherent
danger to allowing political operatives to conduct
collections of mail-in ballots. Arizona is well within
its right to look at the perils endured by its sister
states and enact prophylactic measures to curtail any
similar schemes. By prohibiting overtly political
operatives and activists from playing a role in the
ballot-collection process, Arizona mitigates this risk.
And the State’s well-acknowledged past sins should
not prevent it from using every available avenue to
keep safe the public’s trust in the integrity of
electoral outcomes.
Indeed, Arizona does not have to wait until it has
proof positive that its elections have been tainted by
absentee ballot fraud before it may enact neutral
rules. “Legislatures . . . should be permitted to
respond to potential deficiencies in the electoral
process with foresight rather than reactively.”
Munro v. Socialist Workers Party, 479 U.S. 189, 195
(1986). In Crawford, the Supreme Court quoted with
approval the Carter-Baker Commission:
There is no evidence of extensive fraud in U.S.
elections or of multiple voting, but both occur,
and it could affect the outcome of a close election.
The electoral system cannot inspire public
confidence if no safeguards exist to deter or detect
fraud or to confirm the identity of voters.

169a
Crawford, 553 U.S. at 194 (quoting Building
Confidence at 18) (footnote omitted).
The majority today holds that, as a matter of
federal law, Arizona may not enforce a neutrally
drawn statute recommended by a bi-partisan
commission criminalizing the very conduct that
produced a fraudulent outcome in a race for Congress
less than a year ago. When the Voting Rights Act
requires courts to consider the “totality of the
circumstances,” it is a poor understanding of the Act
that would strike common time, place, and manner
restrictions designed to build confidence in the very
voting system that it now leaves vulnerable.
III
As citizens of a democratic republic, we understand
intuitively that we have a legal right and a moral
duty to cast a ballot in free elections. The states have
long had the power to fashion the rules by which its
citizens vote for their national, state, and local
officials. Once we consider that “totality of the
circumstances” must take account of long-held,
widely adopted measures, we must conclude that
Arizona’s time, place, and manner rules are well
within
our
American
democratic-republican
tradition. Nothing in the Voting Rights Act makes
“‘evenhanded restrictions that protect the integrity
and reliability of the electoral process’ . . . invidious.”
Crawford, 553 U.S. at 189–90 (quoting Anderson, 460
U.S. at 788 n.9).
I would affirm the judgment of the district court,
and I respectfully dissent.

170a

APPENDIX B

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
THE DEMOCRATIC NATIONAL
COMMITTEE; DSCC, AKA
Democratic Senatorial Campaign
Committee; THE ARIZONA
DEMOCRATIC PARTY,
Plaintiffs-Appellants,
v.
KATIE HOBBS, in her official
capacity as Secretary of State of
Arizona; MARK BRNOVICH,
Attorney General, in his official
capacity as Arizona Attorney
General,
Defendants-Appellees,
THE ARIZONA REPUBLICAN PARTY;
BILL GATES, Councilman; SUZANNE
KLAPP, Councilwoman; DEBBIE
LESKO, Sen.; TONY RIVERO, Rep.,
Intervenor-Defendants-Appellees.

No. 18-15845
D.C. No.
2:16-cv-01065DLR
OPINION

171a
Appeal from the United States District Court
for the District of Arizona
Douglas L. Rayes, District Judge, Presiding
Argued and Submitted July 20, 2018
San Francisco, California
Filed September 12, 2018
Before: Sidney R. Thomas, Chief Judge, and
Carlos T. Bea and Sandra S. Ikuta, Circuit Judges.
Opinion by Judge Ikuta;
Dissent by Chief Judge Thomas

172a
SUMMARY*
Civil Rights
The panel affirmed the district court’s judgment,
entered following a bench trial, in an action
challenging under the First, Fourteenth and Fifteenth
Amendments, and § 2 of the Voting Rights Act, two
state of Arizona election practices: (1) Arizona’s
requirement that in-person voters cast their ballots in
their assigned precinct, which Arizona enforces by not
counting ballots cast in the wrong precinct; and
(2) House Bill 2023, which makes it a felony for third
parties to collect early ballots from voters, unless the
collector falls into one of several exceptions.
The panel held that the district court did not err in
holding that H.B. 2023 and the out of precinct policy
did not violate the First and Fourteenth Amendments
because the provisions imposed only a minimal burden
on voters and were adequately designed to serve
Arizona’s important regulatory interests. The panel
also concluded that the district court did not err in
holding that H.B. 2023 and the out of precinct policy
did not violate § 2 of the Voting Rights Act. The panel
held that given the minimal burden imposed by these
election practices, plaintiffs failed to show that
minority voters were deprived of an equal opportunity
to participate in the political process and elect
candidates of their choice.
Finally, the panel
concluded that that the district court did not err in
holding that H.B. 2023 did not violate the Fifteenth
*

This summary constitutes no part of the opinion of the court.
It has been prepared by court staff for the convenience of the
reader.

173a
Amendment because plaintiffs failed to carry their
burden of showing that H.B. 2023 was enacted with
discriminatory intent.
Dissenting, Chief Judge Thomas stated that
Arizona’s policy of wholly discarding—rather than
partially counting—votes cast out-of-precinct had a
disproportionate effect on racial and ethnic minority
groups. He stated that the policy violated § 2 of the
Voting Rights Act, and it unconstitutionally burdened
the right to vote guaranteed by the First Amendment
and incorporated against the states under the
Fourteenth Amendment. He further wrote that H.B.
2023, which criminalizes most ballot collection, served
no purpose aside from making voting more difficult,
and keeping more African American, Hispanic, and
Native American voters from the polls than white
voters.
COUNSEL
Bruce V. Spiva (argued), Alexander G. Tischenko,
Amanda R. Callais, Elisabeth C. Frost, and Marc E.
Elias, Perkins Coie LLP, Washington, D.C.; Sarah R.
Gonski and Daniel C. Barr, Perkins Coie LLP,
Phoenix, Arizona; Joshua L. Kaul, Perkins Coie LLP,
Madison, Wisconsin; for Plaintiffs-Appellants.
Dominic E. Draye (argued), Joseph E. La Rue, Karen
J. Hartman-Tellez, Kara M. Karlson, and Andrew G.
Pappas, Office of the Attorney General, Phoenix,
Arizona, for Defendants-Appellees.
Brett W. Johnson (argued) and Colin P. Ahler, Snell &
Wilmer LLP, Phoenix, Arizona, for IntervenorDefendants-Appellees.

174a
OPINION
IKUTA, Circuit Judge:
The Democratic National Committee (DNC) and
other appellants1 sued the state of Arizona,2 raising
several challenges under the First, Fourteenth and
Fifteenth Amendments, and § 2 of the Voting Rights
Act of 1965 (VRA), 52 U.S.C. § 10301, against two
state election practices: (1) Arizona’s longstanding
requirement that in-person voters cast their ballots in
their assigned precinct, which Arizona enforces by not
counting ballots cast in the wrong precinct (referred to
by DNC as the out-of-precinct or OOP policy), and (2)
H.B. 2023, a recent legislative enactment which
precludes most third parties from collecting early
ballots from voters. After a lengthy trial involving the
testimony of 51 witnesses and over 230 evidentiary
exhibits, the district court rejected each of DNC’s
claims. Democratic Nat’l Comm. v. Reagan,—F.
Supp.3d—, No. CV-16-01065-PHX-DLR, 2018 WL
2191664 (D. Ariz. May 10, 2018).
1

The appellants here (plaintiffs below) are the Democratic
National Committee, the Democratic Senatorial Campaign
Committee, and the Arizona Democratic Party. For convenience,
we refer to the appellants as “DNC.”
2

The appellees here (defendants below) are Arizona Secretary
of State Michele Reagan, in her official capacity, and Arizona
Attorney General Mark Brnovich, in his official capacity. The
interveneor-defendants/appellees are the Arizona Republican
Party; Debbie Lesko, an Arizona member of the U.S. House of
Representatives; Tony Rivero, a member of the Arizona House of
Representatives; Bill Gates, a member of the Maricopa County
Board of Supervisors; and Suzanne Klapp, a City of Scottsdale
Councilwoman and Precinct Committeewoman. For convenience,
we refer to the appellees as “Arizona.”

175a
In deciding this case, the district court was tasked
with making primarily factual determinations. For
instance, a First and Fourteenth Amendment
challenge to an election rule involves the “intense[ly]
factual inquiry” of whether a plaintiff has carried the
burden of showing that challenged election laws
impose a severe burden on Arizona voters, or a
subgroup thereof. Gonzalez v. Arizona, 485 F.3d 1041,
1050 (9th Cir. 2007). A Fifteenth Amendment claim
involves the “pure question of fact” of whether the
plaintiff has carried the burden of showing that the
state legislature enacted the challenged law with a
discriminatory intent. Pullman Standard v. Swint,
456 U.S. 273, 287–88 (1982). And in a VRA challenge,
we defer to “the district court’s superior fact-finding
capabilities,” Smith v. Salt River Project Agric.
Improvements & Power Dist., 109 F.3d 586, 591 (9th
Cir. 1997), regarding whether the plaintiff has carried
the burden of showing that an election practice offers
minorities less opportunity “to participate in the
political process and to elect representatives of their
choice.” 52 U.S.C. § 10301(b); see also Chisom v.
Roemer, 501 U.S. 380, 397 (1991). We must affirm
these factual findings unless they are “clearly
erroneous.” Anderson v. Bessemer City, 470 U.S. 564,
573 (1985).
In its detailed 83-page opinion, the district court
found that DNC failed to meet its burden on these
critical factual questions. Its analysis on these factual
inquiries was thorough and evenhanded, with findings
well-supported by the record. Given the district
court’s extensive factual findings, much of DNC’s
appeal amounts to a request that we reweigh and
reevaluate the evidence in the record. But we may not

176a
“duplicate the role of the lower court” or reject factual
findings that, as here, are not clearly erroneous. Id. at
573. Nor did the district court err in identifying and
applying the correct legal standard to each of DNC’s
claims.
Accordingly, we conclude that the district court did
not err in holding that H.B. 2023 and the OOP policy
did not violate the First and Fourteenth Amendments
because they imposed only a minimal burden on voters
and were adequately designed to serve Arizona’s
important regulatory interests. We also conclude that
the district court did not err in holding that H.B. 2023
and the OOP policy did not violate § 2 of the VRA.
Given the minimal burden imposed by these election
practices, DNC failed to show that minority voters
were deprived of an equal opportunity to participate in
the political process and elect candidates of their
choice. Finally, we conclude that the district court did
not err in holding that H.B. 2023 did not violate the
Fifteenth Amendment, because DNC failed to carry its
burden of showing that H.B. 2023 was enacted with
discriminatory intent. We reject DNC’s urging to toss
out the district court’s findings, reweigh the facts and
reach opposite conclusions. As such, we affirm the
district court.
I
The district court’s order denying DNC’s claims sets
forth the facts in detail, Reagan, 2018 WL 2191664, at
*1–9, so we provide only a brief factual and procedural
summary here. The district court’s factual findings
are discussed in detail as they become relevant to our
analysis.

177a
A
We begin by reviewing Arizona’s election system.
Arizona permits voters to vote either in person on
Election Day or by early mail ballot. Id. at *7, *12.
The vast majority of Arizonans vote by early ballot.
For instance, only about 20 percent of the votes in the
2016 general election were cast in person. Id. at *12.
Most Arizona counties conduct in-person voting
through a precinct-based system. Arizona gives each
county the responsibility to “establish a convenient
number of election precincts in the county and define
the boundaries of [those] precincts.” Ariz. Rev. Stat.
§ 16-411(A). Before an election, the County Board of
Supervisors (the County’s legislative unit) must
designate at least one polling place per precinct. Id.
§ 16-411(B). Arizona law provides some flexibility for
counties to combine precincts if each county’s board of
supervisors makes specific findings. See id. § 16411(B)(2).
Arizona has long required in-person voters to cast
their ballots in their assigned precinct and has
enforced this system, since at least 1970, by counting
only votes cast in the correct precinct. See Ariz. Rev.
Stat. §§ 16-122, 16-135, 16584 (codified in 1979); 1970
Ariz. Sess. Laws, ch. 151, § 64 (amending Ariz. Rev.
Stat. § 16-895); Ariz. Rev. Stat. § 16102 (1974). If an
Arizona voter’s name does not appear on the voting
register at the polling place on Election Day (either
because the voter recently moved or due to
inaccuracies in the official records), the voter may vote
only by provisional ballot. Ariz. Rev. Stat. §§ 16-122,
16-135, 16-584.
Later, the state reviews all
provisional ballots and counts those votes cast by

178a
voters confirmed to be eligible to vote. Id. §§ 16135(D),
16-584(D). A provisional ballot cast outside of the
voter’s correct precinct is not counted. Id. (As
mentioned above, DNC refers to Arizona’s rejection of
improperly cast ballots as Arizona’s OOP policy.)
Recently, Arizona has permitted counties to choose
between the traditional precinct model and “voting
centers,” wherein voters from multiple precincts can
vote at a single location. Id. § 16-411(B)(4). Each
voting center must be equipped to print a specific
ballot, correlated to each voter’s particular district,
that includes all races in which the voter is eligible to
vote. Reagan, 2018 WL 2191664, at *9. Six rural and
sparsely populated counties—Graham, Greenlee,
Cochise, Navajo, Yavapai, and Yuma—have adopted
the voting center model. Id.
As noted above, most Arizona voters (roughly 80
percent in the 2016 general election) do not vote in
person. Arizona law permits “[a]ny qualified elector”
to “vote by early ballot.” Ariz. Rev. Stat. § 16-541(A).3
Early voting can occur by mail or in person at an onsite early voting location in the 27 days before an
election. See id. § 16-542(D). All Arizona counties
operate at least one on-site early voting location.
Reagan, 2018 WL 2191664, at *7. Voters may also
return their ballots in person at any polling place
without waiting in line, and several counties
additionally provide special drop boxes for early ballot
submission. Id. Moreover, voters can vote early by
mail, either for an individual election or by having
3

A “qualified elector” is any person at least eighteen years of
age on or before the date of the election “who is properly
registered to vote.” Ariz. Rev. Stat. § 16-121(A).

179a
their names added to a permanent early voting list.
Id. An early ballot is mailed to every person on that
list as a matter of course no later than the first day of
the early voting period. Ariz. Rev. Stat. § 16544(F).
Voters may return their early ballot by mail at no cost,
id. § 16-542(C), but it must be received by 7:00 p.m. on
Election Day, id. § 16-548(A).
Since 1992, Arizona has prohibited any person other
than the voter from having “possession of that elector’s
unvoted absentee ballot.” See 1991 Ariz. Legis. Serv.
Ch. 310, § 22 (S.B. 1390) (West). In 1997, the Arizona
legislature expanded that prohibition to prevent any
person other than the voter from having possession of
any type of unvoted early ballot. See 1997 Ariz. Legis.
Serv. Ch. 5, § 18 (S.B. 1003) (West) (codified at Ariz.
Rev. Stat. § 16-542(D)). As explained by the Supreme
Court of Arizona, regulations on the distribution of
absentee and early ballots advance Arizona’s
constitutional interest in secret voting, see Ariz. Const.
art. VII, § 1, “by setting forth procedural safeguards to
prevent undue influence, fraud, ballot tampering, and
voter intimidation,” Miller v. Picacho Elementary Sch.
Dist. No. 33, 179 Ariz. 178, 180 (1994) (en banc).
Arizona has long supplemented its protection of the
early voting process through the use of penal
provisions, as set forth in section 16-1005 of Arizona’s
statutes. For example, since 1999, “[a]ny person who
knowingly marks a voted or unvoted ballot or ballot
envelope with the intent to fix an election for that
person’s own benefit . . . is guilty of a class 5 felony.”
1999 Ariz. Legis. Serv. Ch. 32, § 12 (S.B. 1227)
(codified as amended at Ariz. Rev. Stat. § 16-1005(A)).
And in 2011, Arizona made offering or providing any
consideration to acquire a voted or unvoted early

180a
ballot a class 5 felony. See 2011 Ariz. Legis. Serv. Ch.
105, § 3 (S.B. 1412) (codified at Ariz. Rev. Stat. § 161005(B)).
Since at least 2002, individuals and groups in
Arizona have collected early ballots from voters.
While distribution of early ballots had been strictly
regulated for decades, see 1997 Ariz. Legis. Serv. Ch.
5, § 18 (S.B. 1003) (West) (codified at Ariz. Rev. Stat.
§ 16-542(D)), ballot collection by third parties was not.
This changed in 2016, when Arizona revised its early
voting process, as defined in section 161005, by
enacting H.B. 2023 to regulate the collection of early
ballots. This law added the following provisions to the
existing penalties for persons abusing the early voting
process:
H.
A person who knowingly collects voted or
unvoted early ballots from another person is
guilty of a class 6 felony. An election official, a
United States postal service worker or any other
person who is allowed by law to transmit United
States mail is deemed not to have collected an
early ballot if the official, worker or other person
is engaged in official duties.
I.
Subsection H of this section does not
apply to:
1.
An election held by a special taxing
district formed pursuant to title 48 for the
purpose of protecting or providing services
to agricultural lands or crops and that is
authorized to conduct elections pursuant to
title 48.

181a
2.
A family member, household member
or caregiver of the voter. For the purposes
of this paragraph:
(a)
“Caregiver” means a person who
provides medical or health care
assistance to the voter in a residence,
nursing care institution, hospice facility,
assisted living center, assisted living
facility, assisted living home, residential
care institution, adult day health care
facility or adult foster care home.
(b)
“Collects” means to gain possession
or control of an early ballot.
(c)
“Family member” means a person
who is related to the voter by blood,
marriage, adoption or legal guardianship.
(d)
“Household member” means a
person who resides at the same residence
as the voter.
Ariz. Rev. Stat. § 16-1005(H)–(I).
This amendment to section 16-1005 makes it a
felony for third parties to collect early ballots from
voters unless the collector falls into one of several
exceptions. See id. The prohibition does not apply to
election officials acting as such, mail carriers acting as
such, any family members, any persons who reside at
the same residence as the voter, or caregivers, defined
as any person who provides medical or health care
assistance to voters in a range of adult residences and
facilities. Id. § 16-1005(I)(2). H.B. 2023 does not
provide that ballots collected in violation of this
statute are disqualified or disregarded in the final
election tally.

182a
B
We next turn to the history of this case. In April
2016, DNC and other appellants sued the state of
Arizona, challenging H.B. 2023 and Arizona’s OOP
policy.
In separate motions, DNC sought preliminary
injunctions against H.B. 2023 and the OOP policy,
respectively. On September 23, 2016, the district
court denied the motion to preliminarily enjoin
enforcement of H.B. 2023.
The district court
subsequently denied DNC’s motion for a preliminary
injunction pending appeal. On October 11, 2016, the
district court likewise declined to issue a preliminary
injunction with respect to the OOP policy.
DNC appealed both denials. A motions panel denied
DNC’s request to issue an injunction pending appeal
of the district court’s ruling on the challenge to H.B.
2023, but the two appeals were expedited and
calendared for arguments before a three-judge panel
on October 19 and 26, 2016, respectively. The
expedited appeals proceeded at a rapid pace. On
October 28, 2016, a divided panel affirmed the district
court’s denial of a preliminary injunction as to H.B.
2023. See Feldman v. Ariz. Sec’y of State’s Office
(Feldman I), 840 F.3d 1057 (9th Cir. 2016). The case
was called en banc the same day, and on November 2,
2016—after a highly compressed five-day memo
exchange and voting period—a majority of the active
judges on this court voted to hear the appeal of the
district court’s denial of a preliminary injunction
against H.B. 2023 en banc. Two days later, the en
banc panel reconsidered the motions panel’s earlier
denial of an injunction pending appeal and granted

183a
DNC’s motion for an injunction pending a resolution
of the preliminary injunction appeal. See Feldman v.
Ariz. Sec’y of State’s Office (Feldman III), 843 F.3d 366
(9th Cir. 2016) (en banc). In so doing, the six-judge
majority stated that “we grant the motion for a
preliminary injunction pending appeal essentially for
the reasons provided in the dissent in [Feldman I].”
Id. at 367 (citing Feldman I, 840 F.3d at 1085–98).
The Supreme Court summarily stayed this injunction
pending appeal the next day. See Ariz. Sec’y of State’s
Office v. Feldman, 137 S. Ct. 446, 446 (2016) (mem.)
(“The injunction issued by the United States Court of
Appeals for the Ninth Circuit on November 4, 2016, in
case No. 16-16698, is stayed pending final disposition
of the appeal by that court.”).4
The appeal of the district court’s denial of a
preliminary injunction as to the OOP policy also
proceeded apace. On November 2, 2016, a divided

4

Although Feldman III referenced the dissent in Feldman I,
it did not incorporate it nor adopt any specific reasoning from the
dissenting opinion, Because Feldman III did not provide a “fully
considered appellate ruling on an issue of law,” we are guided by
our general rule that “decisions at the preliminary injunction
phase do not constitute the law of the case.” Ranchers Cattlemen
Action Legal Fund United Stockgrowers of Am. v. U.S. Dept. of
Agric., 499 F.3d 1108, 1114 (9th Cir. 2007) (first quoting 18
Charles Alan Wright & Arthur R. Miller Federal Practice and
Procedure § 4478.5 (2002); then citing S. Or. Barter Fair v.
Jackson County, 372 F.3d 1128, 1136 (9th Cir. 2004)). Moreover,
the Supreme Court’s immediate stay of Feldman III’s injunction
pending appeal “undercut[s] [Feldman III’s] theory or reasoning”
to a significant extent. Miller v. Gammie, 335 F.3d 889, 900 (9th
Cir. 2003) (en banc). Therefore, we conclude that Feldman III’s
reference to the dissent in Feldman I does not make that dissent
law of the case or of the circuit.

184a
panel affirmed the district court. See Feldman v. Ariz.
Sec’y of State’s Office (Feldman II), 842 F.3d 613 (9th
Cir. 2016). Two days later a majority of active judges
voted to hear the OOP policy appeal en banc, and the
en banc panel denied DNC’s motion for an injunction
pending resolution of the appeal. See Feldman v. Ariz.
Sec’y of State’s Office, 840 F.3d 1165 (9th Cir. 2016)
(mem.) (per curiam) (en banc). As a result of these
proceedings, both H.B. 2023 and the OOP policy
remained in effect for the November 2016 election.
The en banc panel did not reach the merits of DNC’s
appeal of the district court’s denial of the preliminary
injunctions against H.B. 2023 and the OOP policy.5
DNC’s challenge proceeded in district court. DNC
argued that H.B. 2023 imposed undue burdens on the
right to vote, in violation of the First and Fourteenth
Amendments. DNC also claimed that H.B. 2023
violated § 2 of the VRA because it resulted in a
discriminatory burden on voting rights prohibited by
that section. Finally, DNC claimed that H.B. 2023
was enacted with discriminatory intent, in violation of
the Fifteenth Amendment. DNC raised similar claims
that the OOP policy imposed an unconstitutional
burden on the right to vote and violated § 2 of the VRA,
but did not claim that the OOP policy had a
discriminatory purpose.
The district court developed an extensive factual
record on all five claims. Over the course of a ten-day
bench trial in October 2017, the parties presented live
testimony from 7 expert witnesses and 33 lay
5

After the district court rendered its decision on the merits
and final judgment, the en banc panel dismissed the interlocutory
appeals of the denied preliminary injunctions as moot.

185a
witnesses, in addition to the testimony of 11 witnesses
by deposition. Reagan, 2018 WL 2191664, at *2–7.
The district court also considered over 230 exhibits
admitted into evidence.
Seven months later, on May 10, 2018, the district
court issued its amended 83-page findings of fact and
conclusions of law, holding that DNC had failed to
prove its constitutional and VRA claims. Reagan,
2018 WL 2191664.
DNC timely appealed that same day. Fed. R. App.
P. 4(a)(1)(B). It also moved for an injunction pending
resolution of its appeal. The en banc panel voted not
to exercise jurisdiction over the appeal, and the case
was assigned to the original three-judge panel. We
granted DNC’s motion to expedite the appeal in light
of the upcoming 2018 election.6
II
The district court exercised jurisdiction under 28
U.S.C. § 1331, and we have jurisdiction pursuant to 28
U.S.C. § 1291.
Following a bench trial, we review de novo the
district court’s conclusions of law and review its
findings of fact for clear error. Navajo Nation v. U.S.
Forest Serv., 535 F.3d 1058, 1067 (9th Cir. 2008) (en
banc). “The clear error standard is significantly
deferential.” Cohen v. U.S. Dist. Court, 586 F.3d 703,
708 (9th Cir. 2009). “[T]o be clearly erroneous, a
decision must . . . strike [a court] as wrong with the
force of a five-week old, unrefrigerated dead fish.”
6

We deferred consideration of DNC’s motion for an injunction
pending appeal. Because we affirm the district court, we now
DENY that motion as moot.

186a
Ocean Garden, Inc. v. Marktrade Co., Inc., 953 F.2d
500, 502 (9th Cir. 1991) (quoting Parts and Elec.
Motors, Inc. v. Sterling Elec., Inc., 866 F.2d 228, 233
(7th Cir. 1988)). “This standard plainly does not
entitle a reviewing court to reverse the finding of the
trier of fact simply because it is convinced that it would
have decided the case differently.” Bessemer City, 470
U.S. at 573. “If the district court’s account of the
evidence is plausible in light of the record viewed in its
entirety, the court of appeals may not reverse it even
though convinced that had it been sitting as the trier
of fact, it would have weighed the evidence
differently.” Id. at 573–74. That is, “[w]here there are
two permissible views of the evidence, the factfinder’s
choice between them cannot be clearly erroneous.” Id.
at 574.
III
We first address DNC’s challenges to H.B. 2023.
DNC argues that (1) H.B. 2023 unduly burdens the
right to vote, in violation of the First and Fourteenth
Amendments; (2) H.B. 2023 disproportionately
impacts minority voters in a manner that violates § 2
of the VRA; and (3) H.B. 2023 was enacted with
discriminatory intent, in violation of the Fifteenth
Amendment.7 We address each claim in turn.

7

DNC does not “specifically and distinctly” argue that H.B.
2023 was enacted with a discriminatory purpose in violation of
§ 2 of the VRA, and therefore we do not consider this issue.
Greenwood v. FAA, 28 F.3d 971, 977 (9th Cir. 1994).

187a
A
We begin with DNC’s claim that H.B. 2023 violates
Arizona voters’ First and Fourteenth Amendment
rights.
1
The Constitution vests the States with a “broad
power to prescribe the ‘Times, Places and Manner of
holding Elections for Senators and Representatives.’”
Clingman v. Beaver, 544 U.S. 581, 586 (2005) (quoting
U.S. Const., art. 1, § 4, cl. 1). This power under the
Elections Clause to regulate elections for federal
offices “is matched by state control over the election
process for state offices.”
Id.
“Governments
necessarily ‘must play an active role in structuring
elections,’” Pub. Integrity All., Inc. v. City of Tucson,
836 F.3d 1019, 1024 (9th Cir. 2016) (en banc) (quoting
Burdick v. Takushi, 504 U.S. 428, 433 (1992)), and “as
a practical matter, there must be a substantial
regulation of elections if they are to be fair and honest
and if some sort of order, rather than chaos, is to
accompany the democratic processes,” Storer v.
Brown, 415 U.S. 724, 730 (1974). However, when a
state exercises its power and discharges its obligation
“[t]o achieve these necessary objectives,” the resulting
laws “inevitably affect[]—at least to some degree—the
individual’s right to vote and his right to associate
with others for political ends.” Anderson v. Celebrezze,
460 U.S. 780, 788 (1983).
Because a state has the authority and obligation to
manage the election process, “not all election laws
impose constitutionally suspect burdens on that
right.” Short v. Brown, 893 F.3d 671, 676 (9th Cir.
2018). There is no “‘litmus-paper test’ that will

188a
separate valid from invalid restrictions.” Anderson,
460 U.S. at 789 (quoting Storer, 415 U.S. at 730).
Rather, “a more flexible standard applies.” Burdick,
504 U.S. at 434. “A court considering a challenge to a
state election law must weigh [1] ‘the character and
magnitude of the asserted injury to the rights
protected by the First and Fourteenth Amendments
that the plaintiff seeks to vindicate’ against [2] ‘the
precise interests put forward by the State as
justifications for the burden imposed by its rule,’
taking into consideration [3] ‘the extent to which those
interests make it necessary to burden the plaintiff’s
rights.’” Id. (quoting Anderson, 460 U.S. at 789). This
framework is generally referred to as the
Anderson/Burdick balancing test.
The first prong of this test, the magnitude of the
burden imposed on voters by the election law, “is a
factual question on which the plaintiff bears the
burden of proof.” Democratic Party of Haw. v. Nago,
833 F.3d 1119, 1122–24 (9th Cir. 2016) (citing Cal.
Democratic Party v. Jones, 530 U.S. 567 (2000));
Gonzalez, 485 F.3d at 1050 (noting that whether an
election law imposes a severe burden is an “intense[ly]
factual inquiry”). In addition to considering the
burden on the electorate as a whole, courts may also
consider whether the law has a heavier impact on
subgroups, Pub. Integrity All., 836 F.3d at 1025 n.2,
but only if the plaintiff adduces evidence sufficient to
show the size of the subgroup and quantify how the
subgroup’s special characteristics makes the election
law more burdensome. Thus, Crawford v. Marion
County Election Board acknowledged the argument
that a voter photo identification (ID) requirement
might impose a heavier burden on “homeless

189a
persons[,] persons with a religious objection to being
photographed,” and those “who may have difficulty
obtaining a birth certificate,” but declined to
undertake a subgroup analysis because the evidence
was insufficient to show the size of such subgroups or
to quantify the additional burden on those voters. 553
U.S. 181, 199, 200–03 (2008). Accordingly, it is an
error to consider “the burden that the challenged
provisions uniquely place” on a subgroup of voters in
the absence of “quantifiable evidence from which an
arbiter could gauge the frequency with which this
narrow class of voters has been or will become
disenfranchised as a result of [those provisions].” Ne.
Ohio Coal. for the Homeless v. Husted, 837 F.3d 612,
631 (6th Cir. 2016).
After determining the severity of the burden, the
court must then identify the state’s justifications for
the law, and consider whether those interests make it
“necessary to burden the plaintiff’s rights.” Anderson,
460 U.S. at 789. As we have emphasized, this inquiry
does not necessarily mean that the state is “required
to show that its system is narrowly tailored—that is,
is the one best tailored to achieve its purposes.”
Dudum v. Arntz, 640 F.3d 1098, 1114 (9th Cir. 2011).
Rather, this step involves a “balancing and means-end
fit framework.” Ariz. Green Party v. Reagan, 838 F.3d
983, 988 (9th Cir. 2016) (quoting Pub. Integrity All.,
836 F.3d at 1024). The severity of the burden dictates
the closeness of the fit required, and the more severe
the burden, the “more compelling the state’s interest
must be.” Id.
By contrast, “when a state election law provision
imposes
only
‘reasonable,
nondiscriminatory
restrictions’ upon the First and Fourteenth

190a
Amendment rights of voters, ‘the State’s important
regulatory interests are generally sufficient to justify’
the restrictions.” Burdick, 504 U.S. at 434 (quoting
Anderson, 460 U.S. at 788); see also Ariz. Green Party,
838 F.3d at 988. In conducting this analysis, we are
particularly deferential when “the challenge is to an
electoral system, as opposed to a discrete election rule.”
Dudum, 640 F.3d at 1114.
2
Applying the Anderson/Burdick framework, the
district court found that H.B. 2023 did not
unconstitutionally burden the right to vote. First, the
court found that H.B. 2023 posed only a minimal
burden on Arizona voters as a whole. Twenty percent
of Arizonans voted in person in the prior 2016 general
election, and so were wholly unaffected. Reagan, 2018
WL 2191664, at *12. As to the 80 percent of Arizonans
who voted by mail, the district court noted that there
were no records of the number of voters who returned
their ballots with the assistance of third parties. Id.
After presenting various witnesses on this issue,
DNC’s counsel’s “best estimate of the number of voters
affected by H.B. 2023 based on the evidence at trial”
was “thousands . . . but I don’t have a precise number
of that.” Id. The court found that the evidence
suggested that “possibly fewer than 10,000 voters are
impacted” out of over 2.3 million voters. Id. Therefore,
the vast majority of Arizona voters were unaffected by
the law. Id.
Second, the district court found that H.B. 2023
imposed a minimal burden on even the small number
of voters who had previously returned ballots with the
assistance of third parties. Because “[e]arly voters

191a
may return their own ballots, either in person or by
mail, or they may entrust a family member, household
member, or caregiver to do the same,” the burden
imposed by H.B. 2023 “is the burden of traveling to a
mail box, post office, early ballot drop box, any polling
place or vote center (without waiting in line), or an
authorized election official’s office, either personally or
with the assistance of a statutorily authorized proxy,
during a 27-day early voting period.” Id. Therefore,
the court found that H.B. 2023 “does not increase the
ordinary burdens traditionally associated with
voting.” Id.
The district court then considered whether DNC
had shown that H.B. 2023 had a more severe impact
on particular subgroups of Arizona voters who have
some common circumstance that would cause them to
face special difficulties in voting without ballot
collection services, such as “communities that lack
easy access to outgoing mail services; the elderly,
homebound, and disabled voters; socioeconomically
disadvantaged
voters
who
lack
reliable
transportation; [and] voters who have trouble finding
time to return mail because they work multiple jobs or
lack childcare services.”8 Id. at *14. The court
determined that the plaintiffs had not made such a
showing, because there was “insufficient evidence
from which to measure the burdens on discrete subsets
of voters” or to “quantify with any degree of certainty”
8

DNC also identified as a potential subgroup “voters who are
unfamiliar with the voting process and therefore do not vote
without assistance or tend to miss critical deadlines.” Reagan,
2018 WL 2191664, at *14. The district court found that
remembering relevant deadlines was not a burden on the right to
vote, and therefore not a basis for finding a special burden. Id.

192a
how many voters had previously used ballot collection
services. Id. Moreover, the district court could not
determine the number of those voters who used those
services merely “out of convenience or personal
preference, as opposed to meaningful hardship,” and
therefore could not evaluate whether any of them
would face a substantial burden in relying on other
means of voting offered by Arizona. Id.
Having identified these major gaps in DNC’s
evidence, the district court evaluated the evidence
presented. According to the district court, “the
evidence available largely shows that voters who have
used ballot collection services in the past have done so
out of convenience or personal preference.” Id. The
court discussed five voters who testified, Nellie Ruiz,
Carolyn Glover, Daniel Magos, Carmen Arias, and
Marva Gilbreath, explained their individual
circumstances and noted that each had successfully
returned their ballot except for Gilbreath, who simply
forgot to timely mail her ballot.9 Id. at *15. The
district court also found that Arizona provides
accommodations to subgroups of voters whose special
characteristics might lead them to place a greater
reliance on ballot collection. Id. at *14. Specifically,
for voters with mobility issues, Arizona requires
counties to provide special election boards, which,
upon timely request, will deliver a ballot to an ill or
disabled voter. Id. While finding that “relatively few
9

The district court expressed “concerns about the credibility”
of the deposition testimony of a deceased witness, Victor Vasquez.
Reagan, 2018 WL 2191664, at *16. “When findings are based on
determinations regarding the credibility of witnesses, Rule 52(a)
demands even greater deference to the trial court’s findings.”
Bessemer City, 470 U.S. at 575.

193a
voters are aware of this service,” the district court
pointed out that DNC could educate voters as to its
availability. Id. Further, Arizona permits polling
places to offer curbside voting, allowing voters to pull
up to the curb by a polling place and have an election
official assist them at their car. Id. Arizona law also
requires employers to give their employees time off to
vote in person if an employee is scheduled for an
Election Day shift without at least a three-hour
window to vote. Id. at *15. Finally, the district court
noted the many exceptions in H.B. 2023, allowing
voters to give their early ballots to family members,
household members, caregivers, or election officials.
Id.
Because the court found that H.B. 2023 imposed
only a minimal burden on Arizonans’ First and
Fourteenth Amendment rights, it held that
defendants had to show only that H.B. 2023 served
important regulatory interests. As summarized by the
district court, Arizona advanced two regulatory
interests: (1) “that H.B. 2023 is a prophylactic
measure intended to prevent absentee voter fraud by
creating a chain of custody for early ballots and
minimizing the opportunities for ballot tampering,
loss, and destruction”; and (2) “that H.B. 2023
improves and maintains public confidence in election
integrity.” Id. at *18. The court found that these
interests were important. Id. at *19.
Turning to a means-end fit, the court found that
given the de minimis nature of the burden imposed by
H.B. 2023, it did not need to be “the most narrowly
tailored provision,” so long as it reasonably advanced
the state’s interests. Id. at *20. Finding that it did so,

194a
the court held that H.B. 2023 did not violate the First
and Fourteenth Amendments. Id. at *18–20.
3
We conclude that the district court did not err in its
Anderson/Burdick analysis. First, the district court’s
determination that H.B. 2023 imposes only a de
minimis burden on Arizona voters was not clearly
erroneous. See Crawford, 553 U.S. at 198 (holding
that “the inconvenience” of the process of going to the
state Bureau of Motor Vehicles to obtain an ID “does
not qualify as a substantial burden on the right to
vote, or even represent a significant increase over the
usual burdens of voting”). DNC does not directly
dispute this conclusion.
Rather, DNC argues that H.B. 2023 imposes severe
burdens on subgroups of voters unable to vote without
the third-party ballot collection services prohibited by
H.B. 2023. This argument fails. The district court did
not clearly err in finding that there was “insufficient
evidence from which to measure the burdens on
discrete subsets of voters,” Reagan, 2018 WL 2191664,
at *14, which is a threshold requirement to conducting
a subgroup analysis. See Crawford, 553 U.S. at 200–
03. The record shows that DNC’s witnesses could not
specify how many voters would have been unable to
vote without ballot collection services. For instance, a
Maricopa County Democratic Party organizer, Leah
Gillespie, testified that some voters who used ballot
collection services told her that they had no other
means of voting, but her only example was of a friend
whose husband was supposed to deliver her ballot but

195a
forgot it at home.10 Similarly, Arizona State Senator
Martin Quezada stated that his campaign received
ballot collection requests after H.B. 2023 took effect
and had been unable to provide rides to the polling
place or other assistance to all such voters. But he did
not know “how many of those people had family
members who could have turned in their ballot,” and
could only give his sense “that several of them lacked
anybody” who could do so. Moreover, DNC failed “to
produce a single voter to testify that H.B. 2023’s
limitations on who may collect an early mail ballot
would make voting significantly more difficult for her.”
Only one voter (Marva Gilbreath) testified that she did
not vote in the 2016 general election, because she “was
in the process of moving,” had no mailbox key due to
“misunderstandings with the realtor and things like
that,” and “didn’t know where the voting place was.”
This witness’s highly idiosyncratic circumstances do
not indicate that H.B. 2023 imposes a severe burden
on an identifiable subgroup of voters. Rather, burdens
“arising from life’s vagaries are neither so serious nor
so frequent as to raise any question about the
constitutionality of [the challenged law].” Id. at 197.
In sum, DNC’s evidence falls far short of the
necessary “quantifiable evidence from which an
arbiter could gauge the frequency with which this
narrow class of voters has been or will become
disenfranchised as a result of [H.B. 2023].” Ne. Ohio
Coal., 837 F.3d at 631; cf. Crawford, 553 U.S. at 201–
02 (declining to conduct a subgroup analysis despite
10 Of course, had the husband not forgot, but had delivered the

vote, there would have been no violation of H.B. 2023, which
exempts family members. Ariz. Rev. Stat. § 16-1005(H)–(I).

196a
evidence of one indigent voter who could not (or would
not) pay for a birth certificate and one homeless
woman who was denied a photo ID card because she
lacked an address.).
The dissent disagrees, but its disagreement here—
as with the district court’s opinion generally—is based
on throwing out the district court’s factual findings,
reweighing the evidence, and reaching its own factual
conclusions. This approach is not only contrary to the
most basic principles of appellate review, but is an
approach that the Supreme Court has frequently
warned us to avoid. See Bessemer City, 470 U.S. at
574–75 (holding that the rationale for deference to the
trial court’s finding of fact is based not only on “the
superiority of the trial judge’s position to make
determinations of credibility,” but also on the judge’s
expertise in determination of fact, and ensuring that
“the trial on the merits should be ‘the main event . . .
rather than a tryout on the road’”) (quoting
Wainwright v. Sykes, 433 U.S. 72, 90 (1977)).
Here, for instance, the dissent seeks to revisit the
district court’s conclusion that DNC failed to carry its
burden of showing that H.B. 2023 imposed a heavy
burden on Native Americans. Dissent at 121–22.
Conducting its own factual evaluation, the dissent
claims that H.B. 2023 imposes a heavy burden on
Native Americans because a majority of them lack
home mail service. Dissent at 121. The dissent then
speculates that many Native Americans may have
trouble getting to post offices, and may have different
family relationships than are indicated in H.B. 2023.
Dissent at 121–22.
Of course, the dissent’s
determination that “it would have decided the case
differently” does not make the district court’s findings

197a
clearly erroneous. Bessemer City, 470 U.S. at 573.
Indeed, even evidence that third-party ballot collection
is more useful to Native Americans than to other
voters does not compel the conclusion that H.B. 2023
imposes a heavy burden on Native Americans’ ability
to vote.
Most tellingly, the dissent does not
meaningfully address the district court’s most notable
factual finding: that not a single voter testified at trial
that H.B. 2023’s limitations would make voting
significantly more difficult. Although the dissent
insists that there was evidence to this effect, Dissent
at 122, it cites only to the testimony of a third-party
ballot collector who conceded that his organization had
not attempted to determine whether the voters they
served could have returned their ballots some other
way. There is thus no basis for holding that the
district court’s findings were clearly erroneous, and
the dissent errs in arguing otherwise.
The dissent also faults the district court’s decision
not to conduct a subgroup analysis because it “could
not determine a precise number of voters that had
relied on ballot collection in the past or predict a likely
number in the future.” Dissent at 122. According to
the dissent, this decision was based on a
misunderstanding of Crawford, and therefore
constitutes legal error. We disagree. The district
court correctly relied on Crawford in concluding that
“on the basis of the evidence in the record it [was] not
possible to quantify either the magnitude of the
burden on this narrow class of voters or the portion of
the burden imposed on them that [was] fully justified.”
Reagan, 2018 WL 2191664, at *14 (quoting Crawford,
553 U.S. at 200). Accordingly, the court properly held

198a
that DNC did not carry its burden of showing the
existence of a relevant subgroup.
Nor did the district court clearly err in finding that
any burden imposed by H.B. 2023 was further
minimized by Arizona’s many accommodations
available for those subgroups of voters that DNC
claims are burdened by H.B. 2023.11 Reagan, 2018 WL
2191664, at *14. For instance, the district court
reasonably found that the subgroup of voters who are
“confined as the result of a continuing illness or
physical disability,” Ariz. Rev. Stat. § 16-549(C), could
request ballots from special election boards, and the
burden of doing so was minimal, see Short, 893 F.3d at
677 (“To the extent that having to register to receive a
mailed ballot could be viewed as a burden, it is an
extremely small one, and certainly not one that
demands serious constitutional scrutiny.”).
The
district court did not clearly err in finding that it was
irrelevant whether voters were widely aware of this
alternative, as nothing prevented DNC from informing
voters of and facilitating this procedure. Reagan, 2018
WL 2191664, at *14.
We conclude that the district court did not clearly
err in finding that DNC had failed both to quantify the
subgroups purportedly burdened by H.B. 2023 and to
show that Arizona’s alternatives did not ameliorate
any burden on them. Accordingly, there was no clear

11

Given that DNC did not meet its burden of showing how
large the subgroup of specially burdened voters might be, see
Democratic Party of Haw., 833 F.3d at 1122–24, its unsupported
claims that Arizona’s many accommodations cannot adequately
serve an unquantified number of voters are unpersuasive.

199a
error in the district court’s finding that H.B. 2023
imposed only a minimal burden.
4
Next, DNC and the dissent contend that the district
court clearly erred in finding that H.B. 2023 serves
Arizona’s important regulatory interests because
Arizona did not adduce any direct evidence of voter
fraud. We reject this argument.
DNC does not dispute—nor could it—that Arizona’s
interest in “a prophylactic measure intended to
prevent absentee voter fraud” and to maintain public
confidence are facially important. Id. at *18; see
Crawford, 553 U.S. at 196 (“There is no question about
the legitimacy or importance of the State’s interest in
counting only the votes of eligible voters.”); Purcell v.
Gonzalez, 549 U.S. 1, 4 (2006) (explaining that
“[c]onfidence in the integrity of our electoral processes
is essential to the functioning of our participatory
democracy” and noting “the State’s compelling interest
in preventing voter fraud”).
Further, a state “need not show specific local
evidence of fraud in order to justify preventive
measures,” Voting for Am., Inc. v. Steen, 732 F.3d 382,
394 (5th Cir. 2013), nor is such evidence required to
uphold a law that imposes minimal burdens under the
Anderson/Burdick framework, see Munro v. Socialist
Workers Party, 479 U.S. 189, 195 (1986) (explaining
that legislatures are “permitted to respond to potential
deficiencies in the electoral process with foresight
rather than reactively”). For example, in Crawford,
the challenged law addressed only in-person voter
fraud, and “[t]he record contain[ed] no evidence of any
such fraud actually occurring in Indiana at any time

200a
in its history.” 553 U.S. at 194. Yet the controlling
opinion concluded that the law served Indiana’s
interests in preventing fraud, citing evidence of inperson and absentee voter fraud in other jurisdictions
and in historical examples. Id. at 195–96 & nn.11–13.
Accordingly, H.B. 2023 serves Arizona’s important
interest in preventing voter fraud even without direct
evidence of ballot collection voter fraud in Arizona.12
The dissent proposes several meritless distinctions
between H.B. 2023 and the voter I.D. law in Crawford.
First, the dissent argues that unlike H.B. 2023,
Crawford’s voter I.D. law was “tied to ‘the state’s
interest in counting only the votes of eligible voters.’”
Dissent at 124 (quoting Crawford, 553 U.S. at 196).
But H.B. 2023’s regulation of third-party ballot
collectors is likewise tied to the state’s interest in
ensuring the integrity of the vote. As explained by the
district court, Arizona could reasonably conclude that
H.B. 2023 reduced “opportunities for early ballots to
be lost or destroyed” by limiting the possession of early
ballots to “presumptively trustworthy proxies,” and
also lessened the potential for pressure or intimidation
of voters, and other forms of fraud and abuse. Reagan,

12

DNC’s reliance on a vacated Sixth Circuit opinion is
unpersuasive. See Ohio State Conference of the NAACP v.
Husted, 768 F.3d 524 (6th Cir. 2014), vacated, No. 14-3877, 2014
WL 10384647 (6th Cir. Oct. 1, 2014). The Sixth Circuit has
explained that any persuasive value in Ohio State Conference’s
analysis of this point is limited to cases involving “significant
although not severe” burdens, Ohio Democratic Party v. Husted,
834 F.3d 620, 635 (6th Cir. 2016) (quoting Ohio State Conference,
768 F.3d at 539), and not those involving “minimal” burdens, id.
(explaining that the district court’s reliance on Ohio State
Conference was “not sound”).

201a
2018 WL 2191664, at *20; see infra at 32–33. Second
the dissent argues that Crawford is distinguishable
because the legislature in that case was motivated inpart by “legitimate concerns,” while here the Arizona
legislature was “motivated by discriminatory intent,”
or by solely partisan interests. Dissent at 124. Again,
we reject the dissent’s factual findings because the
district court found that the legislature was not
motivated by discriminatory intent and only partially
motivated by partisan considerations, and these
findings are not clearly erroneous. Moreover, a
legislature may act on partisan considerations without
violating the constitution. See infra at 53–54.
Similarly, a court can reasonably conclude that a
challenged law serves the state’s interest in
maintaining “public confidence in the integrity of the
electoral process,” even in the absence of any evidence
that the public’s confidence had been undermined.
Crawford, 553 U.S. at 197. As several other circuits
have recognized, it is “practically self-evidently true”
that implementing a measure designed to prevent
voter fraud would instill public confidence. Ohio
Democratic Party v. Husted, 834 F.3d 620, 633 (6th
Cir. 2016) (citing Crawford, 553 U.S. at 197); see Frank
v. Walker, 768 F.3d 744, 750 (7th Cir. 2014) (noting
that Crawford took “as almost self-evidently true” the
relationship between a measure taken to prevent voter
fraud and promoting voter confidence). The district
court did not clearly err in finding that H.B. 2023 also
serves this important state interest.
5
DNC next argues that Arizona could have used less
burdensome means to pursue its regulatory interests

202a
and H.B. 2023 could have been designed more
effectively.
This argument also fails.
Burdick
expressly declined to require that restrictions
imposing minimal burdens on voters’ rights be
narrowly tailored. See 504 U.S. at 433. Consistent
with Burdick, we upheld an election restriction that
furthered
the
interest
of
“ensuring
local
representation by and geographic diversity among
elected officials” even though less-restrictive means
could have achieved the same purposes. Pub. Integrity
All., 836 F.3d at 1028. Similarly, in Arizona Green
Party, we rejected the argument that the state must
adopt a system of voting deadlines “that is the most
efficient possible,” in light of the “de minimis burden”
imposed by the existing deadlines. 838 F.3d at 992
(citation omitted).
Here, the district court found that H.B. 2023
imposed a minimal burden, and that it was a
reasonable means for advancing the state’s interests.
It concluded that “[b]y limiting who may possess
another’s early ballot, H.B. 2023 reasonably reduces
opportunities for early ballots to be lost or destroyed.”
Reagan, 2018 WL 2191664, at *20. The district court
also observed that H.B. 2023 “closely follows,” id., the
recommendation of a bipartisan national commission
on election reform to “reduce the risks of fraud and
abuse in absentee voting by prohibiting ‘third-party’
organizations, candidates, and political party activists
from handling absentee ballots,” id. (quoting Building
Confidence in U.S. Elections § 5.2 (Sept. 2005)).13

13

The district court took judicial notice of the report of the
Commission on Federal Election Reform chaired by former
President Jimmy Carter and former Secretary of State James A.

203a
These findings were sufficient to justify the minimal
burden imposed by H.B. 2023. DNC’s reliance on
Common Cause Indiana v. Individual Members of the
Indiana Election, 800 F.3d 913, 928 (7th Cir. 2015) as
requiring a closer means-ends fit is misplaced. As the
Seventh Circuit concluded, the election law in that
case imposed a severe burden on the right to vote, and
therefore it was appropriate to apply strict scrutiny.
Id. at 927.

Baker III. Reagan, 2018 WL 2191664, at *20 n.12. The district
court noted that the report was cited favorably in Crawford,
which remarked that “[t]he historical perceptions of the CarterBaker Report can largely be confirmed.” 553 U.S. at 194 n.10.
The relevant portion of the report provides:
Fraud occurs in several ways. Absentee ballots remain the
largest source of potential voter fraud. . . . Absentee
balloting is vulnerable to abuse in several ways: . . .
Citizens who vote at home, at nursing homes, at the
workplace, or in church are more susceptible to pressure,
overt and subtle, or to intimidation. Vote buying schemes
are far more difficult to detect when citizens vote by mail.
States therefore should reduce the risks of fraud and abuse
in absentee voting by prohibiting “third-party”
organizations, candidates, and political party activists
from handling absentee ballots.
Building Confidence in U.S. Elections § 5.2 (Sept. 2005),
https://www.eac.gov/assets/1/6/Exhibit%20M.PDF. The district
court did not abuse its discretion in taking judicial notice of the
report publicly available on the website of the U.S. Election
Assistance Commission. See Anderson v. Holder, 673 F.3d 1089,
1094 n.1 (9th Cir. 2012) (“We may take judicial notice of records
and reports of administrative bodies.”) (internal quotation marks
and citation omitted). There is no dispute as to the report’s
authenticity or that it contained the cited recommendation, and
DNC was not unfairly surprised, given that counsel indicated at
trial that he was well acquainted with it and its contents.

204a
We therefore affirm the district court’s conclusion
that DNC did not succeed on its Anderson/Burdick
claim as to H.B. 2023.
B
We next consider DNC’s claim that H.B. 2023
violates § 2 of the VRA. We begin by providing some
necessary legal background.
1
“Inspired to action by the civil rights movement,”
Congress enacted the Voting Rights Act of 1965 to
improve enforcement of the Fifteenth Amendment.14
Shelby County v. Holder, 570 U.S. 529, 536 (2013).
Section 2 of the Act forbade all states from enacting
any “standard, practice, or procedure . . . imposed or
applied . . . to deny or abridge the right of any citizen
of the United States to vote on account of race or color.”
Id. (quoting Voting Rights Act of 1965, § 2, 79 Stat.
437). Section 5 of the Act prevented states from
making certain changes in voting procedures unless
the states obtained “preclearance” for those changes,
meaning they were approved by either the Attorney
General or a court of three judges. Id. at 537.
“At the time of the passage of the Voting Rights Act
of 1965, § 2, unlike other provisions of the Act, did not
provoke significant debate in Congress because it was
viewed largely as a restatement of the Fifteenth

14

The Fifteenth Amendment provides that “[t]he right of
citizens of the United States to vote shall not be denied or
abridged by the United States or by any State on account of race,
color, or previous condition of servitude,” and authorizes
Congress to enforce the provision “by appropriate legislation.”
U.S. Const. amend. XV.

205a
Amendment.” Chisom, 501 U.S. at 392. In 1980, black
residents of Mobile, Alabama challenged the city’s atlarge method of electing its commissioners on the
ground that it unfairly diluted their voting strength.
City of Mobile v. Bolden, 446 U.S. 55, 58 (1980). A
plurality of the Supreme Court held that the electoral
system did not violate § 2 of the VRA because there
was no showing of “purposefully discriminatory denial
or abridgment by government of the freedom to vote
‘on account of race, color or previous conditions of
servitude.’” Id. at 65.
In response to Bolden, “Congress substantially
revised § 2 to make clear that a violation could be
proved by showing discriminatory effect alone.”
Thornburg v. Gingles, 478 U.S. 30, 35 (1986). In order
to show actionable discriminatory effect, Congress
enacted the “results test,” applied by the Supreme
Court in White v. Regester, 412 U.S. 755 (1973), see
Gingles, 478 U.S. at 35, namely “whether the political
processes are equally open to minority voters.” S. Rep.
No. 97-417, at 2 (1982), as reprinted in 1982
U.S.C.C.A.N. 177, 205.
As amended, § 2 of the VRA provides:
§ 10301. Denial or abridgement of right to vote
on account of race or color through voting
qualifications or prerequisites; establishment
of violation
(a)
No voting qualification or prerequisite
to voting or standard, practice, or procedure
shall be imposed or applied by any State or
political subdivision in a manner which results
in a denial or abridgement of the right of any
citizen of the United States to vote on account

206a
of race or color, or in contravention of the
guarantees set forth in section 10303(f)(2) of
this title, as provided in subsection (b).
(b)
A violation of subsection (a) is
established if, based on the totality of
circumstances, it is shown that the political
processes leading to nomination or election in
the State or political subdivision are not
equally open to participation by members of a
class of citizens protected by subsection (a) in
that its members have less opportunity than
other members of the electorate to participate
in the political process and to elect
representatives of their choice. . . .
52 U.S.C. § 10301.
Thus, § 2(a) prohibits a state or political subdivision
from adopting a practice that “results in a denial or
abridgement” of any U.S. citizen’s right to vote on
account of race, color, or membership in a language
minority group, “as provided in subsection (b).” Id.
§ 10301(a). Subsection (b), in turn, provides that a
plaintiff can establish a violation of § 2(a) if “based on
the totality of circumstances,” the members of a
protected class identified in § 2(a) “have less
opportunity than other members of the electorate to
participate in the political process and to elect
representatives of their choice.” Id. § 10301(b).
Thornburg v. Gingles further clarified that in
analyzing whether a state practice violates § 2, a court
must engage in a two-step process. First, the court
must ask the key question set forth in § 2(b), whether
“as a result of the challenged practice or structure
plaintiffs do not have an equal opportunity to

207a
participate in the political processes and to elect
candidates of their choice.” 478 U.S. at 44 (quoting S.
Rep. No. 97-417, at 28). Second, a court must assess
the impact of the practice on such electoral
opportunities in light of the factors set forth in the
Senate Report, which accompanied the 1982
amendments and “elaborates on the nature of § 2
violations and on the proof required to establish these
violations.” Id. at 43–44.15
In the wake of Gingles, some lower courts
interpreted the key question set forth in § 2(b)
(whether as a result of the challenged practice
plaintiffs do not have an equal opportunity to
participate in the political process and to elect
15 As explained in Gingles, the Senate Factors include the
extent of any history of official discrimination, the use of election
practices or structures that could enhance the opportunity for
discrimination, the extent to which voting is racially polarized,
and the extent to which minorities bear the effects of
discrimination in education, employment and health. 478 U.S. at
36–37. The factors are not exclusive, and “the question whether
the political processes are equally open depends upon a searching
practical evaluation of the past and present reality, and on a
functional view of the political process.” Id. at 45 (quoting S. Rep.
No. 97-417, at 30 (1982), as reprinted in 1982 U.S.C.C.A.N. 177,
208). Because the “essence of a § 2 claim is that a certain
electoral law, practice, or structure interacts with social and
historical conditions to cause an inequality in the opportunities
enjoyed by black and white voters to elect their preferred
representatives,” 478 U.S. at 47, if a court determines that a
challenged practice does not cause unequal opportunities, it need
not consider the practice’s interaction with the Senate Factors.
Because we affirm the district court’s finding that DNC failed to
carry its burden of satisfying step one of the § 2 analysis for either
H.B. 2023 or the OOP policy, we do not review in detail its factual
findings that DNC also failed to carry its burdens at step two.

208a
candidates of their choice) as “provid[ing] two distinct
types of protection for minority voters.” Chisom, 501
U.S. at 396 (citing League of United Latin Am. Citizens
Council No. 4434 v. Clements, 914 F.2d 620, 625 (5th
Cir. 1990) (en banc)). These courts held that a “vote
denial” claim, meaning a claim that a particular state
election practice denied or abridged a minority group’s
right to vote, turned on whether members of that
protected class had “less opportunity . . . to participate
in the political process.” By contrast, a “vote dilution”
claim, meaning a claim that a state election practice
diluted the effectiveness of a minority group’s votes,
turned on whether those members had “less
opportunity . . . to elect representatives of their
choice.” Id. at 388, 395–96 (citing Clements, 914 F.2d
at 625).
The Supreme Court flatly rejected this
interpretation.
In Chisom, the Supreme Court
explained that § 2(b) “does not create two separate and
distinct rights.” Id. at 397. The Court reasoned that
if members of a protected class established that a
challenged practice abridged their opportunity to
participate in the political process, it would be
relatively easy to show they were also unable to elect
representatives of their choice, because “[a]ny
abridgment of the opportunity of members of a
protected class to participate in the political process
inevitably impairs their ability to influence the
outcome of an election.” Id. By contrast, evidence that
members of a protected class are unable to elect
representatives of their choice does not necessarily
prove they had less opportunity to participate in the
political process. Id. Accordingly, the Court concluded
that the two-pronged results test required by the 1982

209a
amendment “is applicable to all claims arising under
§ 2,” and “all such claims must allege an abridgment
of the opportunity to participate in the political
process and to elect representatives of one’s choice.”
Id. at 398; see also Ortiz v. City of Phila. Office of City
Comm’rs Voter Registration Div., 28 F.3d 306, 314 (3d
Cir. 1994) (“Section 2 plaintiffs must demonstrate that
they had less opportunity both (1) to participate in the
political process, and (2) to elect representatives of
their choice.” (emphasis added) (citing Chisom, 501
U.S. at 397)).
In reaching this conclusion, the Chisom majority
rejected Justice Scalia’s argument in dissent that
requiring a plaintiff to prove both less opportunity to
participate
and
less
opportunity
to
elect
representatives would prevent small numbers of
voters from bringing a § 2 claim. According to Justice
Scalia, the Court should have read “and” in § 2(b) to
mean “or,” so that if “a county permitted voter
registration for only three hours one day a week, and
that made it more difficult for blacks to register than
whites, blacks would have less opportunity ‘to
participate in the political process’ than whites, and
§ 2 would therefore be violated—even if the number of
potential black voters was so small that they would on
no hypothesis be able to elect their own candidate.”
Chisom, 501 U.S. at 408 (Scalia, J., dissenting). The
majority rejected this argument, however, stating that
it had “no authority to divide a unitary claim created
by Congress.” Id. at 398.16

16

The majority also rejected Justice Scalia’s “erroneous
assumption that a small group of voters can never influence the
outcome of an election,” Chisom, 501 U.S. at 397 n.24, although

210a
In light of Chisom, plaintiffs cannot establish a § 2
violation without showing that an electoral practice
actually gives minorities less opportunity to elect
representatives of their choice.
This requires
plaintiffs to show that the state election practice has
some material effect on elections and their outcomes.
As Gingles explained, “[i]t is obvious that unless
minority group members experience substantial
difficulty electing representatives of their choice, they
cannot prove that a challenged electoral mechanism
impairs their ability ‘to elect.’” 478 U.S. at 48 n.15
(quoting 52 U.S.C. § 10301(b)). It is “the usual
predictability of the majority’s success” which
distinguishes a structural problem “from the mere loss
of an occasional election.” Id. at 51. If an election
practice would generally “not impede the ability of
minority voters to elect representatives of their choice”
there is no § 2 violation; rather a “bloc voting majority
must usually be able to defeat candidates supported
by a politically cohesive, geographically insular
minority group.” Id. at 48–49.
In a § 2 challenge, a court’s focus must be on the
question whether minorities have less opportunity to
elect representatives of their choice; therefore,
evidence that a particular election practice falls more
heavily on minority than non-minority voters, or that
electoral outcomes are not proportionate to the
numbers of minorities in the population,17 is not
it did not explain what evidence would be necessary to establish
that an election practice that affected only a small group of voters
deprived minorities of an equal opportunity to elect candidates of
their choice.
17

The VRA itself states that “nothing in this section
establishes a right to have members of a protected class elected

211a
sufficient by itself to establish a § 2 violation. As we
have previously explained, “a bare statistical showing
of disproportionate impact on a racial minority does
not satisfy the § 2 ‘results’ inquiry.” Salt River, 109
F.3d at 595. Rather, “plaintiffs must show a causal
connection between the challenged voting practice and
[a] prohibited discriminatory result,” i.e., less
opportunity to participate in the political process and
elect representatives. Id. (quoting Ortiz, 28 F.3d at
312).
Because “[n]o state has exactly equal
registration rates, exactly equal turnout rates, and so
on, at every stage of its voting system,” Frank, 768
F.3d at 754, were it enough to merely point to “some
relevant statistical disparity” implicated by the
challenged law, Salt River, 109 F.3d at 595, then § 2
would “dismantle every state’s voting apparatus,”
Frank, 768 F.3d at 754.18
in numbers equal to their proportion in the population.”
U.S.C. § 10301(b).

52

18 Directly contrary to this longstanding precedent, the dissent

insists that if a challenged practice disproportionately impacts
members of a protected class, then it per se constitutes a violation
under the first step of the § 2 test. See Dissent at 83 (arguing
that because DNC showed that minorities are over-represented
among those who cast out-of-precinct ballots, “[t]he analysis at
step one of the § 2 results test ought to end at this point”); id. at
83–84 (asserting that the district court’s finding that “OOP ballot
rejection has no meaningfully disparate impact on the
opportunities of minority voters to elect their preferred
representatives” is “irrelevant to step one of § 2’s results test,
which focuses solely on the differences in opportunity and effect
enjoyed by groups of voters”); id. at 86 (arguing that under § 2, a
state must correct any disparities that can be attributed to
socioeconomic factors); id. at 118 (arguing that because H.B. 2023
imposes a disparate burden on members of protected classes, it
meets step one). The dissent’s argument is not only contrary to

212a
If a challenged election practice is not burdensome
or the state offers easily accessible alternative means
of voting, a court can reasonably conclude that the law
does not impair any particular group’s opportunity to
“influence the outcome of an election,” Chisom, 501
U.S. at 397 n.24, even if the practice has a
disproportionate impact on minority voters. For
instance, in Lee v. Virginia State Board of Elections,
plaintiffs argued that Virginia’s photo ID law violated
§ 2 because more minorities than non-minorities
lacked the necessary IDs, and “the process of obtaining
photo IDs requires those voters to spend time
traveling to and from a registrar’s office.” 843 F.3d
592, 600 (4th Cir. 2016). The Fourth Circuit rejected
this argument. Observing that the state provided the
option for voters without ID to cast a provisional ballot
and obtain a free ID to verify their identity, the Fourth
Circuit reasoned that “every registered voter in
Virginia has the full ability to vote when election day
arrives,” and therefore the election practice “does not
diminish the right of any member of the protected
class to have an equal opportunity to participate in the
political process.” Id.
In sum, in considering a § 2 claim, a court must
consider whether the challenged standard, practice, or
procedure gives members of a protected class less
opportunity than others both “to participate in the
our precedent, but is inconsistent with the plain language of § 2,
and to the Supreme Court’s interpretation of the VRA. Gingles,
478 U.S. at 51 (§ 2 plaintiffs must show more than “the mere loss
of an occasional election”); Chisom, 501 U.S. at 398 (“For all such
[§ 2] claims must allege an abridgement of the opportunity to
participate in the political process and to elect representatives of
one’s choice.”).

213a
political process and to elect representatives of their
choice.” Chisom, 501 U.S. at 397 (quoting 52 U.S.C.
§ 10301(b)).
The plaintiff must show a causal
connection between the challenged voting practice and
the lessened opportunity of the protected class to
participate and elect representatives; it is not enough
that the burden of the challenged practice falls more
heavily on minority voters. See Salt River, 109 F.3d at
595. Rather, the challenged practice must “influence
the outcome of an election,” Chisom, 501 U.S. at 397
n.24, and create some “substantial difficulty” for a
protected class to elect representatives of its choice,
not just the “mere loss of an occasional election.”
Gingles, 478 U.S. at 48 n.15, 51. If this sort of
discriminatory result is found, then the practice must
be considered in light of the Senate Factors, which are
“particularly” pertinent to vote dilution claims, but
“will often be pertinent” to other § 2 claims as well. Id.
at 44–45.19
19

Our two-step analysis, derived from the language
of § 2, and Supreme Court precedent, is consistent
with the two-step framework adopted by the Fourth,
Fifth, and Sixth Circuits (and, in part, the Seventh
Circuit):
[1] [T]he challenged standard, practice, or procedure must
impose a discriminatory burden on members of a protected
class, meaning that members of the protected class have
less opportunity than other members of the electorate to
participate in the political process and to elect
representatives of their choice, [and]
[2] [T]hat burden must in part be caused by or linked to
social and historical conditions that have or currently
produce discrimination against members of the protected
class.

214a
2
We now turn to the district court’s determination
here.
We review the district court’s legal
determinations de novo, Gonzalez v. Arizona, 677 F.3d
383, 406 (9th Cir. 2012), but defer to “the district
court’s superior fact-finding capabilities,” and review
its factual findings for clear error, Salt River, 109 F.3d
at 591.
In analyzing the first step of a § 2 claim, the district
court first found that DNC had provided no
quantitative or statistical evidence showing how many
people would be affected by H.B. 2023 and their
minority status, noting that it was “aware of no vote
denial case in which a § 2 violation has been found
without quantitative evidence measuring the alleged
disparate impact of a challenged law on minority
voters.” Reagan, 2018 WL 2191664, at *30. Despite
the lack of any statistical evidence establishing a
disproportionate impact of H.B. 2023 on minorities,
the court stated that it would not rule against DNC on
this ground. Id. at *31. Instead, it considered DNC’s
circumstantial and anecdotal evidence, and
tentatively concluded that “prior to H.B. 2023’s
enactment minorities generically were more likely
than non-minorities to return their early ballots with
the assistance of third parties,” emphasizing the

League of Women Voters of N.C. v. North Carolina, 769 F.3d 224,
240 (4th Cir. 2014) (citations and internal quotation marks
omitted); Veasey v. Abbott (Veasey I), 830 F.3d 216, 244 (5th Cir.
2016); Ohio Democratic Party, 834 F.3d at 637; Frank, 768 F.3d
at 754–55 (adopting the test “for the sake of argument”). The first
prong tracks the language of § 2, as interpreted by the Supreme
Court, and the second prong implicates the Senate Factors.

215a
caveat that it could not “speak in more specific or
precise terms than ‘more’ or ‘less.’” Id. at *33.
Having inferred, based on DNC’s circumstantial
and anecdotal evidence, that H.B. 2023 likely
impacted more minority voters than non-minority
voters, the district court nevertheless concluded that
DNC’s evidence did not establish that H.B. 2023 gave
members of a protected class less opportunity than
other members of the electorate both to participate in
the political process and to elect representatives of
their choice. Id. at *32–34. The district court provided
two reasons. First, the court reasoned that the
evidence presented indicated that only “a relatively
small number of voters” used ballot collection services
at all. Id. at *33. By logical extension, that meant that
only a small number of minorities used ballot
collection services to vote, and the vast majority of
minority voters “vote without the assistance of thirdparties who would not fall within H.B. 2023’s
exceptions.” Id. Because only a small number of
minority voters were affected to any degree by H.B.
2023, the court found “it is unlikely that H.B. 2023’s
limitations on who may collect an early ballot cause a
meaningful inequality in the electoral opportunities of
minorities as compared to non-minorities.” Id.
Second, the court reasoned that even for the small
number of minority voters who were affected by H.B.
2023 (i.e., who would use third-party ballot collectors
no longer permitted by H.B. 2023 if they could), the
evidence did not show that H.B. 2023 gave minorities
less opportunity than other members of the electorate
to participate in the political process and elect
representatives. Id. at *34. While H.B. 2023 might
make it “slightly more difficult or inconvenient for a

216a
small, yet unquantified subset of voters to return their
early ballots,” the court found that there was no
evidence that H.B. 2023 “would make it significantly
more difficult to vote,” particularly given that no
individual voter had testified that H.B. 2023 had this
impact. Id. Therefore, the district court found that
DNC had not carried its burden at the first step of the
§ 2 analysis. Id.
Although the district court did not need to reach the
second step, it nonetheless reviewed the relevant
Senate Factors in order to develop the record and
concluded that DNC had likewise failed to carry its
burden at step two. Id. at *36–40.20
3
The district court’s conclusion that the burden on a
protected class of voters is so minimal that it would
not give them less opportunity to elect representatives
of their choice is not clearly erroneous. DNC produced
anecdotal testimony that various sources collected
between fifty and a few thousand ballots but DNC’s
counsel could not articulate an estimate more precise
than that “thousands” of people used this opportunity.
Id. at *12. Accordingly, the district court did not
clearly err in estimating that fewer than 10,000 voters
used ballot collection services in each election.
Moreover, the district court even considered a more
generous, although “unjustified,” number of 100,000
20

As noted above, supra at 37 n.15, because the district court
correctly determined that H.B. 2023 does not satisfy step one of
the § 2 analysis, we need not evaluate the district court’s analysis
of these factors in detail. Nevertheless, the district court’s factual
conclusions were not clearly erroneous, and as explained below,
see infra at 72 n.32, we reject the dissent’s factual reevaluations.

217a
voters, but nonetheless found that this was “relatively
small” in relation to the 1.4 million early mail ballots
and 2.3 million total voters. Id. The district court’s
view was, at minimum, a permissible view of the
evidence. See Bessemer City, 470 U.S. at 573. Given
these small numbers, the district court did not clearly
err in concluding that the unavailability of third party
ballot collection would have minimal effect on the
opportunity of minority voters to elect representatives
of their choice.
Further, as explained in the Anderson/Burdick
analysis, the evidence available indicated that the
burden on even those few minority voters who used
third-party ballot collection was minimal, because
those voters had “done so out of convenience or
personal preference, or because of circumstances that
Arizona law adequately accommodates in other ways,”
rather than from necessity.
Reagan, 2018 WL
2191664, at *14. As the district court pointed out, not
a single voter testified at trial that H.B. 2023 made it
significantly more difficult to vote, despite the fact
that H.B. 2023 was in place for two 2016 elections. Id.
at *34.21
In challenging the district court’s conclusion, DNC
and the dissent argue that under § 2, the total number
of votes affected is not the relevant inquiry; the proper
test is whether any minority votes are burdened. This
argument is meritless. As we have explained, a “bare
statistical showing” that an election practice “has a
disproportionate impact on a racial minority does not
21

In arguing that H.B. 2023 had a disparate impact on the
ability of minorities to participate in the political process, the
dissent fails to address this key fact.

218a
satisfy the § 2 ‘results’ inquiry.” Salt River, 109 F.3d
at 595. Rather, the test under § 2 is whether the
“members [of a class of protected citizens] have less
opportunity than other members of the electorate to
participate in the political process and to elect
representatives of their choice.” 52 U.S.C. § 10301(b)
(emphasis added).22
To determine whether a
challenged law will result in members of a class having
less opportunity to elect representatives of their
choice, a court must necessarily consider the severity
and breadth of the law’s impacts on the protected
class.
Accordingly, we affirm the district court’s ruling
that DNC failed to establish that H.B. 2023 results in
less opportunity for minority voters to participate in
the political process and to elect representatives of
their choice, and therefore H.B. 2023 did not violate
§ 2 of the VRA.
C
Finally, we consider DNC’s claim that H.B. 2023
violated the Fifteenth Amendment.
1
Plaintiffs can challenge a state’s election practice as
violating their Fifteenth Amendment rights by
showing that “a state law was enacted with
discriminatory intent.” Abbott v. Perez, 138 S. Ct.
2305, 2324 (2018). Discriminatory intent “implies
22

While DNC cites extensively to the dissent in Chisom in
arguing that they need not prove members of a protected class
have less opportunity to elect representatives of their choice, we
are bound by the majority, which rejected this argument. 501
U.S. at 397 & n.24.

219a
more than intent as volition or intent as awareness of
consequences.” Pers. Adm’r of Mass. v. Feeney, 442
U.S. 256, 279 (1979). Rather, plaintiffs must show
that a state legislature “selected or reaffirmed a
particular course of action at least in part ‘because of,’
not merely ‘in spite of,’ its adverse effects upon an
identifiable group.”
Id.
Thus, although racial
discrimination need not be the “dominant” or
“primary” factor underlying a legislative enactment, it
must be a “motivating factor.” Vill. of Arlington
Heights v. Metro. Hous. Dev. Corp., 429 U.S. 252, 265–
66 (1977).
A law is not infected by discriminatory intent
merely “because it may affect a greater proportion of
one race than of another.” Washington v. Davis, 426
U.S. 229, 242 (1976). Rather, “[d]etermining whether
invidious discriminatory purpose was a motivating
factor demands a sensitive inquiry into such
circumstantial and direct evidence of intent as may be
available.” Arlington Heights, 429 U.S. at 266. This
inquiry is guided by factors set forth in Arlington
Heights. Id. at 266–68; see Bolden, 446 U.S. at 62, 72–
74 (holding that a facially neutral law “violates the
Fifteenth Amendment only if motivated by a
discriminatory purpose” and applying Arlington
Heights in an analysis of discriminatory intent).
Under the Arlington Heights framework, “the
following, non-exhaustive factors” are relevant “in
assessing whether a defendant acted with
discriminatory purpose: (1) the impact of the official
action and whether it bears more heavily on one race
than another; (2) the historical background of the
decision; (3) the specific sequence of events leading to
the challenged action; (4) the defendant’s departures

220a
from normal procedures or substantive conclusions;
and (5) the relevant legislative or administrative
history.” Arce v. Douglas, 793 F.3d 968, 977 (9th Cir.
2015). Because of “the presumption of good faith that
must be accorded legislative enactments” and the
“evidentiary difficulty” in determining whether race
was a motivating factor, courts must “exercise
extraordinary caution” when engaging in this inquiry.
Miller v. Johnson, 515 U.S. 900, 916 (1995).
Discriminatory intent “is a pure question of fact”
subject to review for clear error. Pullman-Standard,
456 U.S. at 287–88; Abbott, 138 S. Ct. at 2326. “It is
not a question of law and not a mixed question of law
and fact.” Pullman-Standard, 456 U.S. at 288.
Given this standard, we must determine whether
the district court’s finding that the Arizona legislature
did not have discriminatory intent is clearly
erroneous. We consider the district court’s findings on
each Arlington Heights factor.
2
We start with two of the Arlington Heights factors,
the historical background and legislative history of the
enactment. Arce, 793 F.3d at 977. According to the
district court, Arizona’s history was “a mixed bag of
advancements and discriminatory actions.” Reagan,
2018 WL 2191664, at *38. Although there was
evidence of discrimination and racially polarized
voting, there was also evidence of improvement. While
Arizona was subject to § 5 preclearance, “the DOJ did
not issue any objections to any of [Arizona’s] statewide
procedures for registration or voting.” Id. at *37.
Moreover,
Arizona
enacted
an
Independent
Redistricting Commission to combat problems with

221a
discrimination in drawing statewide redistricting
plans. Id. at *38.
The district court also noted the relevant legislative
history of H.B. 2023, including “farfetched allegations
of ballot collection fraud” made by one legislator,
Arizona State Senator Don Shooter, id. at *41, and a
video (referred to as the “LaFaro Video”) which
“showed surveillance footage of a man of apparent
Hispanic heritage appearing to deliver early ballots,”
id. at *38.23 However, the court concluded that the
legislature was not motivated by discriminatory
intent. Rather, the court found that “Shooter’s
allegations and the LaFaro Video were successful in
convincing H.B. 2023’s proponents that ballot
collection presented opportunities for fraud that did
not exist for in-person voting, and these proponents
appear to have been sincere in their beliefs that this
was a potential problem that needed to be addressed.”
Id. at *41.
The district court’s conclusion is well supported by
the legislative record, which shows that legislative
discussion focused on the danger of fraud. For
example, the bill’s sponsor, Senator Michelle UgentiRita, stated that H.B. 2023 was designed to “limit
fraud” in ballot collection, which “is important to
maintaining integrity in our electoral process” because
the ballot collection practice “is ripe to be taken
23

The district court found that the narration by Maricopa
County Republican Chair A.J. LaFaro “contained a narration of
‘Innuendos of illegality . . . [and] racially tinged and inaccurate
commentary by . . . LaFaro.’” Reagan, 2018 WL 2191664, at *38.
The video was first introduced in 2014, but became “prominent in
the debates over H.B. 2023.” Id. at *39.

222a
advantage of.” Senator Steve Smith testified that
ballot fraud is “certainly happening,” and Michael
Johnson, an African American who had served on the
Phoenix City Council, testified that he had
constituents call to complain about ballot collectors in
minority communities. Senator Smith cited this
testimony in a speech supporting the law. Senator
Sylvia Allen expressed concern that “we do not know
what happens between the time the ballots are
collected and when they’re finally delivered.” This
concern was confirmed by State Election Director Eric
Spencer, who testified that “there is a huge imbalance
in the amount of security measures that are in place
for polling place voting compared to early voting.”
Even though “77 percent of all the votes cast in
Arizona” are early votes, there are “almost no
prophylactic security procedures in place to govern
that practice, whereas, at the polling place, where only
23 percent of the votes are taking place, we have every
security measure in the world.”
The legislature also heard testimony that other
states had implemented similar security measures
related to ballot collection. According to the legislative
record, at the time H.B. 2023 was considered by the
Arizona legislature, “California, New Mexico,
Colorado, [and] Nevada all ha[d] laws that restrict or
prohibit ballot collection,” and therefore Arizona was
“a little bit out of the norm especially among our
neighbors.” The legislature also heard that the
California law was more draconian than H.B. 2023: it
prohibited all ballot collection except by members of
the household, family members, and spouses, and did
not count votes in ballots that had been improperly
collected.

223a
DNC and the dissent claim that the district court
erred in giving weight to this evidence because there
was no evidence of actual fraud. According to DNC,
this evidentiary gap established that the legislators’
expressed concerns regarding fraud in ballot collection
were merely a facade for racial discrimination. This
argument fails. The Arizona legislature was free to
enact prophylactic measures even when the legislative
record “contains no evidence of any such fraud actually
occurring.” Crawford, 553 U.S. at 194. Moreover, as
the district court noted, “H.B. 2023 found support
among some minority officials and organizations,”
including Michael Johnson, the African American
councilman, and the Arizona Latino Republican
Association for the Tucson Chapter, which
undermines DNC’s claim that concerns about fraud
were a mere front for discriminatory motives. Reagan,
2018 WL 2191664, at *41.
DNC argues that the district court erred in not
giving sufficient weight to the evidence that the
LaFaro video had racial overtones. The district court’s
decision to give this evidence less weight was not a
legal error, however, because the district court was not
obliged to impute the motives of a few legislators to the
entire Arizona legislature that passed H.B. 2023. See
Arlington Heights, 429 U.S. at 265–66.
“What
motivates one legislator to make a speech about a
statute is not necessarily what motivates scores of
others to enact it.” United States v. O’Brien, 391 U.S.
The Sixth Circuit recently
367, 384 (1968).24

24

DNC relies on Masterpiece Cakeshop, Ltd. v. Colorado Civil
Rights Commission, 138 S. Ct. 1719 (2018), for the principle that
courts should put more weight on discriminatory statements of

224a
recognized this point, holding that the clearly
discriminatory statements and motive of one legislator
did not show that the enacting legislature “acted with
racial animus.” Ne. Ohio Coal., 837 F.3d at 637.
The district court also did not err in giving little
weight to evidence that “some individual legislators
and proponents were motivated in part by partisan
interests.” Reagan, 2018 WL 2191664, at *43. The
record shows that State Senator Shooter’s concerns
about ballot collection arose after he won a close
election, that Michael Johnson complained that ballot
collection put candidates without an effective get-outthe-vote effort at a disadvantage, and a 2014
Republican candidate for the Arizona House of
Representatives claimed that he lost his election
because of ballot collection activities. Id. Although
DNC and the dissent seem to argue that, as a matter
of law, legislators should be deemed to have a
discriminatory intent for Fifteenth Amendment
purposes when they are motivated by partisan
interests to enact laws that disproportionately burden
individual decisionmakers, but that case is not on point. In
holding that statements of individual commissioners were
relevant to determine whether a law intentionally discriminated
on the basis of religion, the Court distinguished the adjudicatory
context from the legislative context. See id. at 1730. Masterpiece
Cakeshop explained that while “[m]embers of the Court have
disagreed on the question whether statements made by
lawmakers may properly be taken into account in determining
whether a law intentionally discriminates on the basis of
religion,” the remarks in this case were made “in a very different
context—by an adjudicatory body deciding a particular case.” Id.
Because our case involves a legislature enacting a general
statute, rather than adjudicating a specific case, Masterpiece
Cakeshop is not applicable.

225a
minorities, this is incorrect. Fifteenth Amendment
plaintiffs must show that the legislature acted with
racial motives, not merely partisan motives. See, e.g.,
Cooper v. Harris, 137 S. Ct. 1455, 1473 (2017) (“[A]
trial court has a formidable task: It must . . . assess
whether the plaintiffs have managed to disentangle
race from politics and prove that the former drove a
district’s lines.”); Easley v. Cromartie, 532 U.S. 234,
243 (2001) (evaluating the district court’s critical
finding “that race rather than politics” motivated the
districting map).
The “intent to preserve
incumbencies” is not equivalent to raciallydiscriminatory intent, and only the latter supports a
finding of intentional discrimination. Garza v. County
of Los Angeles, 918 F.2d 763, 771 & n.1 (9th Cir. 1990).
Even when “racial identification is highly correlated
with political affiliation,” Cooper, 137 S. Ct. at 1473
(quoting Easley, 532 U.S. at 243), plaintiffs must still
carry their burden of showing that the former was a
motivating factor. Id. Accordingly, the determination
whether racial or political interests motivated a
legislature is one of fact subject to review for clear
error. See Cooper, 137 S. Ct. at 1473–74. Here the
district court disentangled racial motives from
partisan motives, and its factual finding that even
those few legislators harboring partisan interests did
not act with a discriminatory purpose is not clearly
erroneous.25 Therefore, the historical and legislative
history factors support the district court’s conclusion.
25

Contrary to the dissent, the district court did not find that
“partisan self-interest [] absolve[d] discriminatory intent.”
Dissent at 110. Rather, the district court determined that the
Arizona legislature did not act with discriminatory intent, and
passed H.B. 2023 in spite of any potential disparate-impact on

226a
3
We next turn to the Arlington Heights factors of the
“sequence of events” leading to the challenged action
and “departures from normal procedures.” Arce, 793
F.3d at 977. First, the district court found that the
Arizona legislature followed its normal course in
enacting H.B. 2023, and therefore the legislative
process itself did not raise an inference of
discriminatory intent. Reagan, 2018 WL 2191664, at
*42–43. This conclusion is supported by the record;
there is no evidence that the legislature used unusual
procedures or unprecedented speed to pass a law, N.C.
State Conference of NAACP v. McCrory, 831 F.3d 204,
214, 228 (4th Cir. 2016), which other courts have
deemed raise such an inference, see, e.g., Veasey I, 830
F.3d at 238 (holding that the Texas legislature’s
unwonted procedure of designating the bill “as
emergency legislation,” cutting debates short, passing
it without the ordinary committee process, and
suspending a two-thirds voting rule to get the bill
passed, weighed in favor of a finding of discriminatory
intent).
Second, in considering the historical sequence of
events, the district court held that neither of the two
prior efforts to limit ballot collection, S.B. 1412
(enacted in 2011) and H.B. 2305 (enacted in 2013),
weighed in favor of finding that the legislature had a
discriminatory intent in enacting H.B. 2023. Reagan,
2018 WL 2191664, at *42–43. The record showed that
S.B. 1412 was subject to § 5 preclearance, and that
after the DOJ requested additional information
minority voters, not because of it. Reagan, 2018 WL 2191664, at
*41.

227a
regarding the ballot collection provision, the Arizona
Attorney General voluntarily withdrew the provision.
Id. at *42. Two years later, the legislature enacted
H.B. 2305, which also regulated ballot collection. Id.
After citizen groups organized referendum efforts
against the law, the legislature repealed it. Id. The
court held that while these circumstances were
somewhat suspicious, they “have less probative value
because they involve different bills passed during
different legislative sessions by a substantially
different composition of legislators.” Id.
The district court did not clearly err in giving little
weight to these prior enactments. Even if the bills had
been informed by a discriminatory intent, the
Supreme Court has made clear that “[p]ast
discrimination cannot, in the manner of original sin,
condemn governmental action that is not itself
unlawful.” Abbott, 138 S. Ct. at 2324 (quoting Bolden,
446 U.S. at 74). The intent of a prior legislature
cannot be imputed to a new legislature enacting a
different bill “notwithstanding the previous drafter’s
intent.” Veasey v. Abbott (Veasey II), 888 F.3d 792, 802
(5th Cir. 2016). Indeed, it is a clear error to presume
that any invidious intent behind a prior bill
“necessarily carried over to and fatally infected” the
law at issue. Id. Further, “meaningful alterations” in
an amended statute may render even a previously
discriminatory statute valid. Id. (citation omitted).
Because Arizona’s previous laws on ballot collection
were different rules, passed by different legislatures,
and H.B. 2023 is “more lenient than its predecessors
given its broad exceptions for family members,
household members, and caregivers,” these prior
enactments do not materially bear on the legislature’s

228a
intent in enacting H.B. 2023.
2191664, at *43.

Reagan, 2018 WL

Moreover, the district court did not err in finding
that neither S.B. 1412 or H.B. 2305 was enacted with
racially discriminatory intent. Regarding S.B. 1412,
the record shows only that the DOJ requested more
information, but its primary concern was the law’s
“impact on minority voters,” Feldman III, 843 F.3d at
369 (emphasis added), not the intent of the legislature
in enacting it.26 And as to H.B. 2305, the record does
not disclose why citizens opposed the law or whether
the referendum sought to combat a discriminatory
purpose. The lack of evidence of past discrimination
further undermines DNC’s argument that the
legislature had discriminatory intent in passing H.B.
2023.
4
In reviewing the final Arlington Heights factor
(whether the law would have a disparate impact on a
particular racial group), Arce, 793 F.3d at 977, the

26

To support its claim, DNC points to Representative Ruben
Gallego’s statements to the DOJ that S.B. 1412 was motivated by
discriminatory intent. But Gallego opposed S.B. 1412, and “[t]he
Supreme Court has . . . repeatedly cautioned—in the analogous
context of statutory construction—against placing too much
emphasis on the contemporaneous views of a bill’s opponents” in
determining a legislature’s intent. Veasey I, 830 F.3d at 234
(quoting Butts v. City of New York, 779 F.2d 141, 147 (2d Cir.
1985)). DNC also points to statements by Amy Chan (formerly
Amy Bjelland) to the DOJ, but the district court reasonably
interpreted her statements as merely explaining that the impetus
for S.B. 1412 was an accusation of voter fraud in San Luis, a
predominately Hispanic area in the southern portion of Arizona.
Feldman III, 843 F.3d at 384.

229a
district court found that “the legislature enacted H.B.
2023 in spite of its impact on minority [get out the
vote] efforts, not because of that impact,” and
concluded that “proponents of the bill seemed to view
these concerns as less significant because of the
minimal burdens associated with returning a mail
ballot,” Reagan, 2018 WL 2191664, at *43.
The district court did not clearly err in reaching this
conclusion. Multiple senators expressed their view
that H.B. 2023 imposes only a slight burden on voters.
For instance, Senator Michelle Ugenti-Rita stated
that voters have “[l]ots of opportunities” to vote in the
27 day early-voting window, and expressed her view
that there is no reason to presume a voter who
previously used ballot collection would have trouble
voting. Given that these voters have already asked
“that their ballot be mailed to them,” Senator UgentiRita stated “logic would tell you they are perfectly
capable and understand that, in order to then get their
ballot in, they need to put it back in to the mailbox or
drop it off.” Another proponent of the bill, John
Kavanaugh, expressed a similar view: “The only way
you get an early ballot is to have it delivered to you by
mail, and the way you’re supposed to return an early
ballot is to reverse that process. And it’s hard to
imagine how, when you have an early ballot,
somewhere in the area of 30 days, you somehow can’t
do that.” Again, the record does not contain the sort of
evidence that has led other courts to infer the
legislature was acting with discriminatory intent,
such as evidence that the legislators studied minority
data and targeted the voting methods most used by
minority voters. Cf. McCrory, 831 F.3d at 220. In fact,
no voters, minority or non-minority, testified that they

230a
faced a substantial obstacle to voting because of H.B.
2023. Accordingly, we find no clear error in the court’s
holding that “[b]ased on the totality of the
circumstances,” DNC had “not shown that the
legislature enacted H.B. 2023 with the intent to
suppress minority votes.” Reagan, 2018 WL 2191664,
at *43.
In sum, the district court carefully weighed the
evidence of discriminatory purpose and found the
Arizona legislature was not motivated by an intent to
discriminate. The findings supporting this conclusion
are not clearly erroneous, and neither was the
ultimate balancing of the Arlington Heights factors.
5
Because discriminatory intent is a “pure question of
fact,” a court must defer to the district court’s factfinding unless it is clearly erroneous. PullmanStandard, 456 U.S. at 288. But the dissent once again
reviews the record de novo, reweighs the evidence, and
reaches its own conclusion. For instance, the district
court referenced Senator Shooter’s allegations and the
LaFaro video, but concluded, based on its review of the
record, that the legislature was not motivated by
discriminatory intent. Reagan, 2018 WL 2191664, at
*41.
The dissent simply reaches the opposite
conclusion, based on the same evidence. Dissent at
111–13. Similarly, the dissent claims “the district
court was wrong to determine that a law is not racially
motivated if any people of color support it.” Dissent at
113. But that mischaracterizes the district court’s
holding. Rather, after reviewing the evidence in the
record, the district court found that H.B. 2023 was
supported by minority officials and organizations.

231a
Reagan, 2018 WL 2191664, at *41. The district court
did not err in considering that fact, among others, in
determining whether the supporters of H.B. 2023 were
motivated by racial discrimination, and the district
court need not have concluded, as does the dissent,
that such evidence “simply demonstrates that people
of color have diverse interests.” Dissent at 113. The
Supreme Court has long held that an appellate court
may not reject a district court’s findings as clear error
even when the court is “convinced that had it been
sitting as the trier of fact, it would have weighed the
evidence differently.” Bessemer City, 470 U.S. at 574.
The dissent’s approach contradicts this rule.
Further, the dissent supports its conclusion that
“H.B. 2023 was enacted for the purpose of suppressing
minority votes” by creating its own per se rules that a
legislature’s anti-fraud motive is pretextual when
there is no direct evidence of voter fraud, and that a
legislature’s partisan motives are evidence of racial
discrimination. Dissent at 107, 110–12. The dissent
cites no support for these new rules, likely because
Supreme Court precedents contradict them: Crawford
rejected the idea that actual evidence of voter fraud
was needed to justify restrictions preventing voter
fraud, 553 U.S. at 195–96 & nn.11–13; and Cooper
made clear plaintiffs must “disentangle race from
politics and prove that the former drove” the
legislature, 137 S. Ct. at 1473. The dissent’s attempt
to reframe the evidence does not make the district
court’s resolution of this purely factual question
clearly erroneous. Pullman-Standard, 456 U.S. at
287–88.

232a
IV
We now turn to DNC’s challenges to the OOP policy.
DNC argues that (1) the OOP policy violates the First
and Fourteenth Amendment; and (2) the OOP policy
violates § 2 of the VRA.
A
We begin with DNC’s claims that the OOP policy
violates the First and Fourteenth Amendment by
imposing an unconstitutional burden under the
Anderson/Burdick test.
1
As an initial matter, we agree with the district
court’s characterization of these claims as constituting
a challenge to the precinct voter system. As discussed,
most Arizona counties use a precinct-based system for
the 20 percent of voters who vote in person on Election
Day. In-person voters must cast their ballots in their
assigned precinct, or their votes will not be counted.
See Ariz. Rev. Stat. §§ 16-122, 16-135, 16-584 (codified
in 1979); 1970 Ariz. Sess. Laws, ch. 151, § 64
(amending Ariz. Rev. Stat. § 16-895); Ariz. Rev. Stat.
§ 16-102 (1974). This rule does not apply to voters who
cast their ballots in a county that use a vote center
system, or who use other methods to vote.
On appeal, DNC argues that it is not challenging
the rule requiring voting within a precinct, but rather
Arizona’s enforcement of the rule by not counting
ballots cast in the wrong precinct (which it calls
disenfranchisement).27 This argument is sophistical;
27

This is a misnomer. A state disenfranchises voters (for
example, pursuant to a felon disenfranchisement law) by
depriving certain individuals of their right to vote, not by

233a
it conflates the burden of complying with an election
rule with the consequence of noncompliance. As the
Supreme Court has recognized, a state has an
obligation to structure and organize the voting process
within the state through a system of election rules.
Storer, 415 U.S. at 730. For instance, states typically
have election rules that require voters to register to
vote and to cast their votes in person during the hours
when polls are open. These rules impose certain
minimal burdens on voters—the ordinary burdens of
registering to vote and showing up on time. If voters
fail to comply, they may be unable to vote or their
ballots may not be counted. But it is the election rules
that impose a burden on the voter—not the
enforcement of those rules. Under DNC’s theory, a
state could not enforce even a rule requiring
registration, because the state’s failure to count the
vote of a non-registered voter would “disenfranchise”
the noncompliant voter.
Rather than adopt DNC’s fallacious approach, we
are guided by the Supreme Court’s approach in
Crawford. Crawford considered a state’s election rule
which provided that in-person voters who did not have
valid photo ID, and did not thereafter verify their
identities, were unable to have their votes counted.
553 U.S. at 186. In conducting its Anderson/Burdick
analysis, Crawford held that this photo ID rule
imposed the burden of obtaining the requisite
requiring voters to comply with an election rule in order to have
their votes counted. As the Supreme Court has explained, an
election rule, such as the requirement to have a valid photo ID in
order to vote, may be valid, even if a voter’s noncompliance with
such a rule means that the voter’s ballot will not be counted.
Crawford, 553 U.S. at 187, 189.

234a
identification by “making a trip to the [issuing
agency], gathering the required documents, and
posing for a photograph,” id. at 198, and potentially
could impose a heavier burden on subgroups, such as
the homeless or those lacking birth certificates, id. at
199. The Court’s analysis would make little sense if
the relevant burden were the state’s enforcement of
the photo ID rule; under that view, all voters would be
subject to the same burden—that of having their noncompliant votes discounted. Accordingly, like the
district court, we conclude that the appropriate
analysis is whether compliance with the voter
requirement in question—here, the requirement to
vote in an assigned precinct—imposes an undue
burden. See also Serv. Emps. Int’l Union Local 1 v.
Husted, 698 F.3d 341, 344 (6th Cir. 2012) (explaining
that courts cannot “absolve[] voters of all
responsibility for voting in the correct precinct or
correct polling place by assessing voter burden solely
on the basis of the outcome—i.e. the state’s ballot
validity determination”).
2
Applying the Anderson/Burdick framework to the
proper characterization of DNC’s challenge, the
district court found that the precinct voting rule did
not unconstitutionally burden the right to vote. As
with H.B. 2023, the district court first observed that
Arizona’s OOP policy has no impact on the vast
majority of Arizona voters because 80 percent of them
cast their ballots through early mail voting. Reagan,
2018 WL 2191664, at *21. The court also noted that
the policy has no impact on voters in Graham,
Greenlee, Cochise, Navajo, Yavapai, and Yuma

235a
counties, rural counties that adopted the vote center
model. Id.
As to those few Arizonans who vote in person
outside of the vote center counties, the district court
found that the burden of voting in the correct precinct
was minimal. The district court acknowledged that
people who move frequently may fail to update their
voter registration in a timely manner and, as a result,
may not have their early ballot forwarded to their new
address, and that “changes in polling locations from
election to election, inconsistent election regimes used
by and within counties, and placement of polling
locations all tend to increase OOP voting rates,” as
well as incorrect information provided by poll workers.
Id. at *22. The district court nevertheless concluded
that “the burdens imposed on voters to find and travel
to their assigned precincts are minimal and do not
represent significant increases in the ordinary
burdens traditionally associated with voting.” Id. at
*24. Moreover, the district court found, “Arizona does
not make it needlessly difficult for voters to find their
assigned precincts,” citing the myriad ways Arizona
provides that information to voters: direct mailings,
multiple state and county websites, town halls, live
events, and social media and other advertising. Id. at
*23–24 This information is generally provided in both
English and Spanish. Id. at *24. Further, the court
found that “for those who find it too difficult to locate
their assigned precinct, Arizona offers generous early
mail voting alternatives.” Id. In light of these
measures, the district court did not clearly err in
finding that the burden of voting in the correct
precinct was minimal.

236a
Considering the electorate as a whole, the court
found that the number of out-of-precinct votes was
“small and ever-dwindling.” Id. Only 14,885 of the
2,320,851 Arizonan votes cast in the 2008 general
election were cast outside of the correct precinct—just
0.64 percent of total votes. Id. at *21. That number
dropped to 10,979 ballots in the 2012 general
election—0.47 percent of total votes. Id. By the 2016
general election, only 3,970 votes were cast in the
wrong precinct in Arizona—just 0.15 percent of the
2,661,497 total votes. Id. The small and decreasing
number of out-of-precinct votes confirms the district
court’s conclusion that the burden of identifying the
correct precinct is minimal.
We conclude that the district court’s finding that the
requirement to vote in the correct precinct is a
minimal burden is not clearly erroneous. As the
district court noted, precinct-based voting is an
established method of conducting elections and is used
in a majority of states. Id. at *8; see also Serv. Emps.,
698 F.3d at 344 (precinct-voting system); Sandusky
Cty. Democratic Party v. Blackwell, 387 F.3d 565, 568
(6th Cir. 2004) (per curiam) (“One aspect common to
elections in almost every state is that voters are
required to vote in a particular precinct. Indeed, in at
least 27 of the states using a precinct voting system,
including Ohio, a voter’s ballot will only be counted as
a valid ballot if it is cast in the correct precinct.”). And
a majority of the states that use precinct voting do not
count out-of-precinct ballots.
Reagan, 2018 WL
2191664, at *8. The requirement to use mail voting or
locate the correct precinct and then travel to the
correct precinct to vote does not “represent a

237a
significant increase over the usual burdens of voting.”
Crawford, 553 U.S. at 198.
DNC’s arguments to the contrary are meritless.
First, DNC argues that the burden imposed by
Arizona’s policy of not counting ballots cast outside of
the proper precinct is not minimal because the ratio of
Arizona voters who cast ballots outside of the correct
precinct compared to total votes cast in-person on
Election Day is higher than in any other state. This
statistic is misleading, because the vast majority of
Arizonans vote early by mail—not in-person on
Election Day. Reagan, 2018 WL 2191664, at *21.
More important, the relative difference between
Arizona and other states does not shed any light on the
only relevant issue: the size of the burden imposed by
Arizona’s precinct voter system.28
Second, DNC points to the evidence in the record
regarding the external factors that contribute to outof-precinct voting in Arizona, such as residential
mobility, polling place locations, and pollworker
training, and argues that such external factors impose
28

The dissent offers similarly misleading statistics to support
its assertion that “Arizona voters are far likelier to vote [out of
precinct] than voters of other states.” Dissent at 77. The dissent’s
graph, Dissent at 78, shows only that the small subset of Arizona
voters who cast their ballots in-person on Election Day are more
likely to vote outside their precinct than voters in other states.
Dissent at 78. The vast majority of Arizona voters, however, vote
early by mail. Reagan, 2018 WL 2191664, at *21. Further, the
dissent mentions the total number of votes cast out of precinct in
the 2012 election, but not the more recent data from the 2016
election, which supports the district court’s conclusion that the
number of votes cast out of precinct is an “ever-decreasing
fraction of the overall votes cast in any given election.” Reagan,
2018 WL 2191664, at *35.

238a
a heavier burden on minorities.29 But even if DNC
presented evidence showing that the burden of finding
the correct precinct fell more heavily on minorities
than nonminorities, such evidence would not establish
that the burden is any more than de minimis. DNC
does not cite evidence that would allow a court “to
quantify either the magnitude of the burden on [any
such] class of voters or the portion of the burden
imposed on them that is fully justified,” id. at 200; nor
does DNC directly contest the evidence on which the
district court relied in determining the burden was
minimal.
For instance, the district court cited
substantial evidence in the record showing that in
“Arizona counties with precinct-based systems, voters
generally are assigned to precincts near where they
live, and county officials consider access to public
transportation when assigning polling places,” and
that “Arizona voters also can learn of their assigned
precincts in a variety of ways,” by accessing multiple
websites operated by Arizona or various counties, by
being mailed notice of any changes in polling places,
or by calling the county recorder, among numerous
other methods. Reagan, 2018 WL 2191664, at *23.
Further, the district court relied on a 2016 Survey of
Performance of American Elections in which no
Arizona respondents stated that it was “very difficult”
to find their polling place, and 94 percent of Arizona
respondents reported that it was “very easy” or
“somewhat easy” to find their polling place. Id.
29

As the district court noted, DNC did not challenge the
manner in which individual counties locate polling places, or the
manner in which Arizona trains its poll workers or informs voters
of their assigned precincts, thus undercutting any argument that
such practices violated § 2. Reagan, 2018 WL 2191664, at *23.

239a
Accordingly, we decline the invitation by DNC and the
dissent to reweigh the same evidence considered by
the district court and reach the opposite conclusion.
See Bessemer City, 470 U.S. at 573. Instead, we affirm
the district court’s determination that the Arizona
precinct voter rule imposed only minimal burdens.
3
We next consider the district court’s conclusion that
Arizona had important regulatory interests for
requiring precinct-based voting. The court found that
this precinct system serves an important planning
function by allowing counties to estimate the number
of voters who may be expected at any particular
precinct, allowing for better allocation of resources and
personnel. Reagan, 2018 WL 2191664, at *24. A wellrun election increases voter confidence and reduces
wait times. Id. Second, the precinct voting system
ensures that each voter receives a ballot reflecting
only the races for which that person is entitled to vote,
which “promotes voting for local candidates and issues
and helps make ballots less confusing by not providing
voters with ballots that include races for which they
are not eligible to vote.” Id.
The court concluded that the OOP policy was
sufficiently justified by Arizona’s important interests
in light of the minimal burdens it imposes, and held
that Arizona’s practice did not need to be the
narrowest means of enforcement. Id. at *24–26. The
court therefore rejected DNC’s arguments that
Arizona should be required to adopt a more narrowly
tailored rule and partially count ballots that were cast
out-of-precinct, i.e., “counting only the offices for which
the OOP voter is eligible to vote.” Id. at *25.

240a
Moreover, the court concluded that such a
requirement would have significant impacts.
If
Arizona no longer enforced in-precinct voting, the
court reasoned, people would “have far less incentive
to vote in their assigned precincts and might decide to
vote elsewhere.” Id. at *25. Voters could also “be
nefariously directed to vote elsewhere,” id., as detailed
in N.C. State Conference of NAACP v. McCrory, 182 F.
Supp. 3d 320, 461 (M.D.N.C. 2016), rev’d on other
grounds, 831 F.3d 204 (4th Cir. 2016). Further,
partially counting ballots would burden candidates for
local office, who would have to persuade voters to vote
in-precinct. Reagan, 2018 WL 2191664, at *25.
Finally, it would “impose a significant financial and
administrative burden on Maricopa and Pima
Counties because of their high populations.” Id.
Accordingly, the court concluded that Arizona’s
rejection of ballots cast out-of-precinct does not violate
the First and Fourteenth Amendments.
We agree with the district court’s analysis. The
interests served by precinct-based voting are well
recognized. As the Sixth Circuit has explained:
The advantages of the precinct system are
significant and numerous: it caps the number of
voters attempting to vote in the same place on
election day; it allows each precinct ballot to list
all of the votes a citizen may cast for all pertinent
federal, state, and local elections, referenda,
initiatives, and levies; it allows each precinct
ballot to list only those votes a citizen may cast,
making ballots less confusing; it makes it easier
for election officials to monitor votes and prevent
election fraud; and it generally puts polling
places in closer proximity to voter residences.

241a
Sandusky Cty. Democratic Party, 387 F.3d at 569.
DNC does not dispute these legitimate interests, but
argues that the OOP policy is not justified because it
is administratively feasible to count ballots cast outof-precinct, pointing to 20 other states which partially
count out-of-precinct ballots. But restrictions such as
the OOP policy that impose minimal burdens on
voters’ rights need not be narrowly tailored, see
Burdick, 504 U.S. at 433, and thus Arizona is not
required to show that its electoral system “is the one
best tailored to achieve its purposes.” Dudum, 640
F.3d at 1114. Moreover, as the district court pointed
out, DNC’s “requested relief essentially would
transform
Arizona’s
precinct-based
counties,
including its two most populous, into quasi-vote-center
counties.” Reagan, 2018 WL 2191664, at *26. The
mere fact that a minority of jurisdictions adopt a
different system does not mean that Arizona’s choice
is unjustified. Where, as here, the plaintiff “effectively
ask[s] the court to choose between electoral systems,”
we ordinarily reject such challenges. See Dudum, 640
F.3d at 1115. “[A]bsent a truly serious burden on
voting rights,” we have held that we must have
“respect for governmental choices in running
elections,” particularly where “the challenge is to an
electoral system, as opposed to a discrete election rule
(e.g., voter ID laws, candidacy filing deadlines, or
restrictions on what information can be included on
ballots).” Id. at 1114–15 (emphasis omitted). As we
have recognized, such variations are “the product of
our democratic federalism, a system that permits
states to serve ‘as laboratories for experimentation to
devise various solutions where the best solution is far
from clear.’” Pub. Integrity All., 836 F.3d at 1028

242a
(quoting Ariz. State Legislature v. Ariz. Indep.
Redistricting Comm’n, 135 S. Ct. 2652, 2673 (2015)).
DNC also contends that there is insufficient
evidence that more voters will vote out-of-precinct if
Arizona began partially counting out-of-precinct
ballots. But just as with fraud prevention, Arizona
does not need to produce “elaborate, empirical
verification of the weightiness of [its] asserted
justifications.” Timmons v. Twin Cities Area New
Party, 520 U.S. 351, 364 (1997); see also Munro, 479
U.S. at 195 (“To require States to prove actual voter
confusion, ballot overcrowding, or the presence of
frivolous candidacies as a predicate to the imposition
of reasonable ballot access restrictions would
invariably lead to endless court battles over the
sufficiency of the ‘evidence’ marshaled by a State to
prove the predicate.”). Courts wisely do not require
“that a State’s political system sustain some level of
damage” before it can impose “reasonable restrictions”
on the electoral process.30 Munro, 479 U.S. at 195.
Therefore, we affirm the district court’s holding that
the OOP policy is valid under the Anderson/Burdick
framework.

30

The dissent also challenges the wisdom of Arizona’s OOP
policy, labeling as “illogical” Arizona’s concern that without the
policy voters may not have an incentive to identify and vote in
their correct precinct. Dissent at 104. In reaching this
conclusion, the dissent relies only on its own view of proper policy,
a view that contradicts a majority of states, which each adopt the
same approach as Arizona. Reagan, 2018 WL 2191664, at *8. We
therefore reject this argument.

243a
B
Finally, we address DNC’s claim that the OOP
policy violates § 2 of the VRA.
As noted above, at the first step, DNC must carry its
burden of showing that the challenged practice (here
Arizona’s requirement that in-person voters vote in
the correct precinct) gives members of a protected
class less opportunity than other members of the
electorate both “to participate in the political process
and to elect representatives of their choice.” Chisom,
501 U.S. at 397 (quoting 52 U.S.C. § 10301(b)).
The district court held that DNC did not carry its
burden at the first step of its § 2 claim. Although
finding that “minorities are over-represented among
the small number of voters casting OOP ballots,”31 the
court also found that out-of-precinct “ballots
represent . . . a small and ever-decreasing fraction of
the overall votes cast in any given election.” Reagan,
2018 WL 2191664, at *34–35. As noted above, only
3,970 out of 2,661,497 total votes, or 0.15 percent, were
cast in the wrong precinct during the 2016 general
election.
Id. at *35.
Further, as in its
31

For example, among all counties that reported out-ofprecinct ballots in the 2016 general election, roughly 99 percent
of Hispanic, African American, and Native American voters cast
ballots in the correct precinct, while the other 1 percent voted in
the wrong precinct. Reagan, 2018 WL 2191664, at *34. By
comparison, 99.5 percent of non-minority voters voted in the
correct precinct, with 0.5 percent casting out-of-precinct ballots.
Id. While this data shows, as Arizona notes, that minority voters
were “twice as likely” to cast OOP ballots as non-minority voters,
the relative percentages of voters in each group who vote in the
correct and incorrect precincts are far more meaningful. See
Frank, 768 F.3d at 752 n.3.

244a
Anderson/Burdick analysis, the court found that the
burden of identifying the correct precinct was
minimal.
The court noted that DNC had not
challenged “the manner in which Arizona counties
allocate and assign polling places or Arizona’s
requirement that voters re-register to vote when they
move.” Id. Nor had DNC claimed that there was
“evidence of a systemic or pervasive history” of
disproportionately
giving
minority
voters
misinformation as to precinct locations, or evidence
“that precincts tended to be located in areas where it
would be more difficult for minority voters to find
them, as compared to non-minority voters.” Id.
Because the number of votes cast out of precinct by
any voters was small and decreasing, and because the
burden of finding the correct precinct was minimal
(and the state had not made the burden more difficult
for minorities), the district court concluded that the
OOP policy did not give minority voters less
opportunity than the rest of the electorate to
participate in the political process and elect their
preferred representatives. Id. at *36. Therefore, the
court concluded that DNC had failed to carry its
burden at the first step of § 2.32
32

Having reached this conclusion, the district court did not
need to reach step two, but nonetheless analyzed both challenged
election practices together and found that, although some of the
Senate Factors were present, DNC’s causation theory was too
tenuous to meet its burden. Reagan, 2018 WL 2191664, at *36–
40. These findings are not clearly erroneous. In arguing to the
contrary, the dissent again engages in appellate fact-finding,
emphasizing some parts of the extensive record and ignoring
others. For example, the district court found that DNC did not
carry its burden of proving that “there is a significant lack of
responsiveness on the part of elected officials to the

245a
The district court did not clearly err in reaching this
conclusion. Although DNC argues that minorities are
more likely to cast out-of-precinct ballots, and that
there have been close elections where out-of-precinct
ballots could have made a difference, the fact that a
practice falls more heavily on minorities is not
sufficient to make out a § 2 violation. Salt River, 109
F.3d at 595. Rather, there must be a showing that the
challenged practice causes a material impact on the
opportunity provided to minorities to participate in
the political process and to elect representatives of
their choice. “[U]nless minority group members
experience
substantial
difficulty
electing
representatives of their choice, they cannot prove that
a challenged electoral mechanism impairs their ability
‘to elect.’” Gingles, at 48 n.15 (quoting 52 U.S.C.
§ 10301(b)). A precinct voting system, by itself, does
not have such a causal effect. Such a common electoral
practice is a minimum requirement, like the practice
of registration, that does not impose anything beyond
particularized needs of the members of the minority groups.” Id.
at *27. This conclusion is supported by substantial evidence in
the record, including evidence of outreach efforts by the Arizona
Citizens Clean Elections Commission to increase minority voter
education and participation, and evidence that Arizona had the
sixteenth-highest minority representation ratio in the country.
Although the dissent points to other evidence in the record, e.g.,
evidence that Arizona has the fourth-poorest health insurance
coverage for children, and is ranked second-lowest overall perpupil spending for Fiscal Year 2014, Dissent at 94–95, our proper
role is to determine whether “the district court’s account of the
evidence is plausible in light of the record viewed in its entirety,”
Bessemer City, 470 U.S. at 574, not to substitute our own
evaluation of the record. Here, the district court’s view of the
evidence was clearly permissible, and we therefore disregard the
dissent’s impermissible reweighing of the evidence.

246a
“the usual burdens of voting.” Crawford, 553 U.S. at
198. As with other laws that impose such minimal
burdens, a court can reasonably conclude that this
background requirement, on its own, does not cause
any particular group to have less opportunity to
“influence the outcome of an election.” Chisom, 501
U.S. at 397. Indeed, DNC has not adduced any
evidence to the contrary.
In arguing that the district court erred, the dissent
relies primarily on its erroneous view that any
disparate impact on minorities constitutes a violation
of step one of § 2. See supra at 41 n.18. Based on this
misunderstanding, the dissent argues that “the
district court legally erred in determining that a
critical mass of minority voters must be
disenfranchised before § 2 is triggered.”33 Dissent at
84. But it is the dissent that errs in arguing that
evidence that an election rule has any disparate
impact on minorities is sufficient to succeed on a § 2
claim. Dissent at 88. As the Supreme Court pointed
out, to meet the language of § 2, “all such claims must
allege an abridgement of the opportunity to
participate in the political process and to elect
representatives of one’s choice,” Chisom, 501 U.S. at
398, and must prove more than “the mere loss of an
occasional election.” Gingles, 478 U.S. at 51. Here,

33

Of course, as explained above, supra at 61 n.27, an election
rule requiring voters to identify their correct precinct in order to
have their ballots counted does not constitute a
“disenfranchisement” of voters.

247a
the district court was faithful to the language of § 2.
52 U.S.C. § 10301 (b).34
This is not to say that plaintiffs could never carry
their burden of showing a precinct-based voting
system gave minority voters less opportunity. For
instance, it is possible that a state could implement
such a system in a manner that makes it more difficult
for a significant number of members of a protected
group to discover the correct precinct in order to cast a
ballot. This could occur, for instance, if the state did
not provide necessary information in the language
best understood by a language minority. But here, the
district court found that DNC did not present any
evidence of this sort of practice. Reagan, 2018 WL
2191664, at *23–24. DNC does not contest this finding
on appeal, nor does it challenge any other elements of
Arizona’s precinct voting system, such as individual
counties’ location of polling places, as unlawful.

34

In the alternative, the dissent argues that “in this instance,
a critical mass has been shown.” Dissent at 84 n.2. The record
provides no support for this statement. Rather, the evidence
shows that approximately 99 percent of Hispanic, African
American, and Native American voters cast ballots in their
correct precinct. Reagan, 2018 WL 2191664, at *34. In 2016 only
3,970 votes were cast out of precinct—0.15 percent of the total
votes cast—and the record is silent on what number of those
ballots were cast by minority voters. Reagan, 2018 WL 2191664,
at *34–35. The dissent’s only support for its claim is its brief
reference to the dissent in Feldman II, 842 F.3d at 634, which in
turn references two close primary elections in Arizona (one
Republican, one Democrat) in 2012 and 2014, and five other close
races over the course of the past 100 years (from 1916 to 2012).
Dissent at 84 n.2. This certainly does not compel a conclusion
that the district court’s view of the relevant evidence was clearly
erroneous.

248a
Therefore, the district court correctly determined
that the precinct voter system did not lessen the
opportunities of minorities to participate in the
political process and to elect representatives of their
choice, and did not clearly err in rejecting DNC’s
argument that it need not provide evidence of this
factor so long as there is evidence of some disparity in
out-of-precinct voting.
V
After an exhaustive ten-day bench trial involving
the testimony of 51 witnesses and over 230 exhibits,
the district court made two key factual findings. First,
it found that neither Arizona’s precinct voter system
nor H.B. 2023 imposed more than a minimal burden
on voters or increased the ordinary burdens
traditionally associated with voting. Second, it found
that the Arizona state legislature was not motivated
by a discriminatory purpose in enacting H.B. 2023.
These findings, which were not clearly erroneous,
effectively preclude DNC’s claims. The finding that
Arizona’s two election practices place only the most
minimal burden on voters necessarily leads to the
conclusion that the practices did not result in less
opportunity for minority voters to participate in the
political process and elect representatives of their
choice for purposes of § 2 of the VRA. Further, in light
of the court’s finding that the burden imposed on
voters by the two election practices was minimal,
Arizona easily carried its burden under the
Anderson/Burdick test to show that its election
practices were reasonably tailored to achieve the
State’s important regulatory interests. Finally, the
court’s finding that the legislature had no
discriminatory purpose in enacting H.B. 2023

249a
effectively eviscerates DNC’s Fifteenth Amendment
claim. Accordingly, we affirm the district court’s
determination that Arizona’s election practices did not
violate the First and Fourteenth Amendments or § 2
of the VRA, and H.B. 2023 did not violate the Fifteenth
Amendment.
AFFIRMED.

250a
THOMAS, Chief Judge, dissenting:
“No right is more precious in a free country than
that of having a voice in the election of those who make
the laws under which, as good citizens, we must live.”
Wesberry v. Sanders, 376 U.S. 1, 17 (1964). Our right
to vote benefits government as much as it benefits us:
a representative democracy requires participation,
and the people require representatives accountable to
them. Arizona’s electoral scheme impedes this ideal
and has the effect of disenfranchising Arizonans of
African American, Hispanic, and Native American
descent.
Arizona’s policy of wholly discarding—rather than
partially counting—votes cast out-of-precinct has a
disproportionate effect on racial and ethnic minority
groups. It violates § 2 of the Voting Rights Act
(“VRA”), and it unconstitutionally burdens the right to
vote guaranteed by the First Amendment and
incorporated against the states under the Fourteenth
Amendment.
H.B. 2023, which criminalizes most ballot collection,
serves no purpose aside from making voting more
difficult, and keeping more African American,
Hispanic, and Native American voters from the polls
than white voters.
I respectfully dissent.
I
No state rejects more out-of-precinct (“OOP”) votes
than Arizona. As the district court recognized,
Arizona voters are far likelier to vote OOP than voters
of other states. Democratic Nat’l Comm. v. Reagan,
No. CV-16-01065-PHX-DLR, 2018 WL 2191664, at *21
(D. Ariz. May 10, 2018) (hereinafter Reagan). Indeed,

251a
“[i]n 2012 alone more than one in every five Arizona
in-person voters was asked to cast a provisional ballot,
and over 33,000 of these—more than 5 percent of all
in-person ballots cast—were rejected.” Id. (internal
quotation marks and alterations omitted).
The
following graph compares the rate at which Arizona
rejects OOP ballots to that of other states, showing
just how much of an outlier Arizona is:

Arizona voters are likely to vote OOP for a
constellation of reasons, the most striking of which is
the frequency with which polling locations change,
particularly in the highly populated urban areas. Id.
at *22. Between 2006 and 2008, at least 43 percent of
all polling places in Maricopa County—where
approximately two-thirds of Arizona’s registered
voters live—changed locations, and 40 percent moved
again between 2010 and 2012. Id. In 2016, Maricopa
County went from 60 vote centers for the presidential
preference election to 122 polling locations for the May

252a
special election to over 700 assigned polling locations
in the August primary and November general
elections. Id. In other words, the paths to polling
places in the Phoenix area is much like the changing
stairways at Hogwarts, constantly moving and
sending everyone to the wrong place. The effect?
Voters whose polling location changed were forty
percent likelier to vote OOP. Id.
Additionally,
polling
locations
are
often
counterintuitive, further driving up OOP rates. Polls
are likely to be placed on the edge of the precinct, and
they are frequently clustered together—sometimes
even in the same building. Unsurprisingly, voters who
live further from their assigned polling location than
from a location nearest to them or who are close to
more than one location are likelier to end up casting a
discarded ballot. Indeed, one-quarter of OOP voters
cast their ballots in locations closer than their
assigned polling place to their homes.
Worse, voters left confused by Arizona’s
labyrinthian system often miss out on the opportunity
to cast a ballot in their assigned location, where it will
be counted. At trial, all but one of the affected
witnesses testified that they were never informed that
they were voting OOP and that their ballot would not
be counted. And the one witness who was given this
crucial information was nonetheless unable to vote; he
could not make it to his assigned location before the
polls closed.
There is no question that Arizona’s practice of
discarding OOP ballots is also a practice of
disproportionately discarding ballots cast by minority
voters. The district court recognized as much. Id. at

253a
*4, *34. Indeed, although rates of OOP voting
decreased in the last election, the disparity between
white and minority voters remains constant. In the
2016 general election, Hispanic, African American,
and Native American voters were twice as likely as
white voters to vote OOP. Id. at *34.
Race and ethnicity intersect with the socioeconomic
conditions that drive up OOP voting. It is frequently
more difficult for minority voters to locate and vote in
their assigned polling locations. As the district court
noted, “OOP voting is concentrated in relatively dense
precincts that are disproportionately populated with
renters and those who move frequently. These groups,
in turn, are disproportionately composed of
minorities.” Id. at *35.
Moreover, minority voters are far likelier to face
significant barriers in traveling to the polls, barriers
that compound the difficulty faced by the voter who is
informed that she is in the wrong location and
therefore needs to travel to a different precinct. The
evidence showed that African American, Hispanic,
and Native American voters in Arizona are more likely
to work multiple jobs and to lack reliable
transportation and childcare resources. Id. at *31.
Given that voters may wait as long as five hours in line
just to cast a ballot, it is not difficult to see how
socioeconomic
conditions
may
increase
the
significance of barriers to ballot access.
Native American voters, many of whom live on
sovereign lands, face unique challenges. Navajo
voters in Northern Apache County, for example, are
not assigned standard addresses; their polling
locations are assigned according to “guesswork.” Id. at

254a
*35. And they often have different polling locations for
tribal elections and state and federal elections. Id.
Despite these startling indicators, the district court
concluded that Arizona’s policy of discarding OOP
ballots violates neither § 2 of the VRA nor the First
Amendment, applicable to the states pursuant to the
Fourteenth Amendment. I respectfully disagree on
both counts.
II
Arizona’s practice of discarding OOP ballots violates
§ 2 of the VRA. The practice “results in a denial or
abridgement of the right of any citizen of the United
States to vote on account of race or color,” 52 U.S.C.
§ 10301(a), and, “based on the totality of
circumstances,” members of protected classes “have
less opportunity than other members of the electorate
to participate in the political process and to elect
representatives of their choice,” id. § 10301(b).
The VRA “should be interpreted in a manner that
provides ‘the broadest possible scope’ in combating
racial discrimination.” Chisom v. Roemer, 501 U.S.
380, 403 (1991) (quoting Allen v. State Bd. of Elections,
393 U.S. 544, 567 (1969)). There are two routes to
vindication of a § 2 claim—a plaintiff may satisfy
either the “intent test” or the “results test.” Thornburg
v. Gingles, 478 U.S. 30, 35, 44 (1986). DNC has not
alleged that the challenged practice was initiated for a
discriminatory purpose, as required to satisfy the
intent test. Rogers v. Lodge, 458 U.S. 613, 618 (1982)
(requiring a showing of “invidious discriminatory
purpose”).
Thus, the operative question is whether, under “the
totality of circumstances,” members of a racial or

255a
ethnic minority “have less opportunity than other
members of the electorate to participate in the political
process and to elect representatives of their choice,” 52
U.S.C. § 10301(b).1
Under the results test, a
challenged law or practice violates § 2 of the VRA if:
(1) it “impose[s] a discriminatory burden on members
of a protected class, meaning that members of the
protected class have less opportunity than other
members of the electorate to participate in the political
process and to elect representatives of their choice”;
and (2) that burden is “in part . . . caused by or linked
to social and historical conditions that have or
currently produce discrimination against members of
the protected class.” League of Women Voters of N.C.
v. North Carolina, 769 F.3d 224, 240 (4th Cir. 2014)
(internal quotation marks omitted) (quoting Ohio
1

The use of the conjunction “and” in the quoted language did
not create a new and more rigorous two-part test, as the
majority’s reading of Chisom v. Roemer, 501 U.S. 380 (1991)
suggests. See Op. 38–42. Rather, in Chisom, the Court explained
why it rejected the notion that voters could not bring a vote
dilution claim for judicial elections. Chisom, 501 U.S. at 396–97.
The Court clearly understood that the VRA does not demand a
showing that the challenged provision may be outcomedeterminative: “Any abridgment of the opportunity of members
of a protected class to participate in the political process
inevitably impairs their ability to influence the outcome of an
election.” Id. at 397. Indeed, the Court wrote that it was a
relatively “mere[ ]” thing to show that voters are denied the
ability to influence an election’s outcome; the greater hurdle is to
show that voters are not allowed to fully participate. Id. at 396–
97 (rejecting the position that “a . . . practice . . . which has a
disparate impact on black voters’ opportunity to cast their ballots
under § 2, may be challenged even if a different practice that
merely affects their opportunity to elect representatives of their
choice to a judicial office may not.”).

256a
State Conf. of the NAACP v. Husted, 768 F.3d 524, 553
(6th Cir. 2014)); accord Veasey v. Abbott, 830 F.3d 216,
244 (5th Cir. 2016); Ohio Democratic Party v. Husted,
834 F.3d 620, 637 (6th Cir. 2016).
Our responsibility is to interpret the law in
accordance with Congress’s “broad remedial purpose
of ‘ridding the country of racial discrimination in
voting,’” Chisom, 501 U.S. at 403 (alteration omitted)
(quoting South Carolina v. Katzenbach, 383 U.S. 301,
315 (1966)). Here, we know that African American,
Hispanic, and Native American Arizonan voters are
twice as likely as white voters to be disenfranchised by
Arizona’s OOP policy, and we know that the problem
could be easily remedied. I would hold the challenged
practice in violation of § 2 and enjoin Arizona from
wholly discarding OOP ballots.
A
As the district court recognized, DNC “provided
quantitative and statistical evidence of disparities in
OOP voting.” Reagan, 2018 WL 2191664, at *34. That
evidence was “credible and shows that minorities are
over-represented among the small number of voters
casting OOP ballots.” Id. Indeed, in 2016, whites were
half as likely to vote OOP as African Americans,
Hispanics, or Native Americans, a pattern displayed
in all counties save one, which is predominately white.
Id. The analysis at step one of the § 2 results test
ought to end at this point, as DNC clearly met its
burden of demonstrating that Arizona’s practice of
discarding OOP ballots places a “discriminatory
burden” on African Americans, Hispanics, and Native
Americans. League of Women Voters, 769 F.3d at 240.

257a
The district court discredited this disparity, writing:
“Considering OOP ballots represent such a small and
ever-decreasing fraction of the overall votes cast in any
given election, OOP ballot rejection has no
meaningfully disparate impact on the opportunities of
minority
voters
to
elect
their
preferred
representatives.” Reagan, 2018 WL 2191664, at *35.
However, this consideration is irrelevant to step one of
§ 2’s results test, which focuses solely on the
differences in opportunity and effect enjoyed by groups
of voters. 52 U.S.C. § 10301. Thus, the district court
legally erred in determining that a critical mass of
minority voters must be disenfranchised before § 2 is
triggered.2 See Chisom, 501 U.S. at 397 (“Any
abridgment of the opportunity of members of a
protected class to participate in the political process
inevitably impairs their ability to influence the
outcome of an election.”).
The district court also determined that, “as a
practical matter, the disparity between the proportion
of minorities who vote at the wrong precinct and the
proportion of non-minorities who vote at the wrong
precinct does not result in minorities having unequal
access to the political process.” Reagan, 2018 WL
2191664, at *35.
But when, as a result,
proportionately fewer of the ballots cast by minorities

2 What is more, in this instance, a critical mass has been
shown. As I wrote when this case was last before us, regarding
DNC’s request for a preliminary injunction, the record
demonstrates vote margins as thin as 27 votes in a 2016 partisan
primary and about 10,000 votes in the 2002 gubernatorial
general election. Feldman v. Ariz. Sec’y of State’s Office, 842 F.3d
613, 634 (9th Cir. 2016).

258a
are counted than those cast by whites, that is precisely
what it means.
Under the standard applied by the district court, a
poll tax or literacy test—facially neutral, evenly
applied across racial and ethnic lines—could
withstand scrutiny. After all, regardless of race,
individuals who pay the tax or pass the test get to vote.
However, the § 2 results test rejects this line of
thinking. Gingles, 478 U.S. at 44 (quoting S. Rep. No.
97-417, at 28 (1982), as reprinted in 1982 U.S.C.C.A.N.
177, 206) (“The ‘right’ question, . . . is whether ‘as a
result of the challenged practice or structure plaintiffs
do not have an equal opportunity to participate in the
political processes and to elect candidates of their
choice.’”).
Similarly, it is inappropriate to require, as the
district court did, that DNC demonstrate a causal
connection between Arizona’s policy of not counting
OOP ballots and the disparate rates of OOP voting.
Reagan, 2018 WL 2191664, at *35–36. The district
court misstated the burden by concluding that DNC is
challenging the voters’ own behavior rather than the
state’s policy of not counting OOP ballots. Because the
challenged practice is Arizona’s wholesale rejection of
OOP ballots, it does not matter whether such rejection
increases the rates of OOP voting.3
Moreover, the VRA does not demand the causal
connection required by the district court. Rather, it is
violated by a law that “impose[s] a discriminatory
3

For the same reason, I disagree that we must be more
deferential to the State on the grounds that “the challenge is to
an electoral system, as opposed to a discrete election rule.” Op.
20 (quoting Dudum v. Arntz, 640 F.3d 1098, 1114 (9th Cir. 2011)).

259a
burden on members of a protected class” when that
burden is “in part . . . caused by or linked to”
discriminatory conditions. League of Women Voters,
769 F.3d at 240. The district court flipped the
requisite connection between the burden alleged and
the conditions of discrimination by demanding DNC to
show that the burden of having votes go uncounted
leads to the socioeconomic disparities that in turn lead
to OOP voting.
Applying the appropriate causation requirement
leads to a different conclusion. The evidence showed
the existence of a “causal connection between the
challenged voting practice and [a] prohibited
discriminatory result.” Smith v. Salt River Project
Agr. Imp. & Power Dist., 109 F.3d 586, 595 (9th Cir.
1997) (quoting Ortiz v. City of Phila. Office of City
Comm’rs Voter Registration Div., 28 F.3d 306, 312 (3d
Cir. 1994)); see also id. at 595 (“Only a voting practice
that results in discrimination gives rise to § 2
liability.”) (emphasis added). Here, the challenged
practice—not counting OOP ballots—results in “a
prohibited discriminatory result”; a substantially
higher percentage of minority votes than white votes
are discarded. Id. at 586.
The district court recognized that socioeconomic
disparities between whites and minorities increase the
likelihood of OOP voting. In the district court’s words,
“OOP voting is concentrated in relatively dense
precincts that are disproportionately populated with
renters and those who move frequently. These groups,
in turn, are disproportionately composed of
minorities.” Reagan, 2018 WL 2191664, at *35. It also
recognized that “Hispanics, Native Americans, and
African Americans . . . are significantly less likely than

260a
non-minorities to own a vehicle, more likely to rely
upon public transportation, [and] more likely to have
inflexible work schedules.” Id. at *32.
I cannot accept the proposition that, under § 2, the
State is absolved of any responsibility to correct
disparities if they can be attributed to socioeconomic
factors. See Gingles, 478 U.S. at 63 (“[T]he reasons
black and white voters vote differently have no
relevance to the central inquiry of § 2.”). When we look
at the evidence through this lens, the district court’s
findings give rise to certain logical inferences. For one,
when a polling location is situated on one end of a
precinct—as often occurs—it is disproportionately
difficult for minorities to get to that location. And, in
the event that a poll worker informs the voter that she
is in the wrong precinct and her ballot will be
uncounted, she is likelier to have the opportunity to
successfully travel to and vote at her assigned polling
location if she is white. The district court erred by
requiring DNC to show that “Arizona’s policy to not
count OOP ballots is . . . the cause of the disparities in
OOP voting.” Reagan, 2018 WL 2191664, at *35. The
VRA imposes no such requirement.
The district court also erred by discounting the
significance of its determination that “[p]olling place
locations present additional challenges for Native
American voters.” Id. As the trial court itself noted:
Navajo voters in Northern Apache County lack
standard addresses, and their precinct
assignments for state and county elections are
based upon guesswork, leading to confusion
about the voter’s correct polling place.
Additionally, boundaries for purposes of tribal

261a
elections and Apache County precincts are not
the same. As a result, a voter’s polling place for
tribal elections often differs from the voter’s
polling place for state and county elections.
Inadequate transportation access also can make
travelling to an assigned polling place difficult.
Id. Remedying the legal error committed by the trial
court in imposing an overly onerous burden on the
plaintiffs, the court’s own findings demonstrate that
African American, Hispanic, and Native American
voters are far likelier than white voters to vote OOP
and see their votes go uncounted.
In sum, I take no issue with the district court’s
findings of fact.
Rather, I disagree with the
application of law to the facts, and the conclusions
drawn from them. In particularly, I respectfully
disagree with the conclusion that the findings—which
conclusively demonstrate the existence of disparate
burdens on African American, Hispanic, and Native
American voters—can be discounted on the grounds
that there are not enough disenfranchised voters to
matter. See Salt River Project, 109 F.3d at 591
(citation and internal quotation marks omitted)
(noting “the [court’s] power to correct errors of law,
including those that may infect a so-called mixed
finding of law and fact, or a finding of fact that is
predicated on a misunderstanding of the governing
rule of law”).
B
As required at step two of the results test, DNC has
shown that, under the “totality of circumstances,” 52
U.S.C. § 10301(b), the disparate burden of
disenfranchisement is “in part . . . caused by or linked

262a
to social and historical conditions that have or
currently produce discrimination against members of
the protected class,” League of Women Voters, 769 F.3d
at 240 (citation and internal quotation marks
omitted). This step “provides the requisite causal link
between the burden on voting rights and the fact that
this burden affects minorities disparately because it
interacts with social and historical conditions that
have produced discrimination against minorities
currently, in the past, or both.” Veasey, 830 F.3d at
244. “[T]he second step asks not just whether social
and historical conditions ‘result in’ a disparate impact,
but whether the challenged voting standard or
practice causes the discriminatory impact as it
interacts with social and historical conditions.”
Husted, 834 F.3d at 638 (emphasis removed).
In 1982, Congress amended the VRA in response to
Mobile v. Bolden, 446 U.S. 55 (1980), in which the
Supreme Court held that the VRA—like the Civil
Rights Amendments—was indifferent to laws with a
disparate impact on minority voters. Gingles, 478 U.S.
at 35. Consistent with Congress’s intent, courts
consider a non-exhaustive list of factors outlined in the
Senate Report accompanying the 1982 amendments.
Id. As relevant here, courts consider: (1) the history
of official discrimination connected to voting;
(2) racially polarized voting patterns; (3) whether
systemic discrimination disproportionately affects
minority group’s access to the polls; (4) racial appeals
in political campaigns; (5) the number of minorities in
public office; (6) officials’ responsiveness to the needs
of minority groups; and (7) the importance of the policy
underlying the challenged restriction. Id. at 36–37
(citing S. Rep. No. 97417, at 28–29).

263a
Here, each of the listed factors weigh in DNC’s
favor.
1
Courts are to consider “the extent of any history of
official discrimination in the state . . . that touched the
right of the members of the minority group to register,
to vote, or otherwise to participate in the democratic
process.” Gingles, 478 U.S. at 36–37 (1986) (quoting
S. Rep. No. 97-417, at 28–29). The district court
classified this factor as a “mixed bag,” but the
evidence—even as it was described by the court—
points overwhelmingly in the DNC’s favor.
The district court recognized Arizona’s “history of
discrimination against Native Americans, Hispanics,
and African Americans” throughout the entirety of its
statehood. Reagan, 2018 WL 2191664, at *36–38. For
example, Native Americans could not legally vote until
1948, when the Arizona Supreme Court held the
disenfranchisement
of
Native
Americans
unconstitutional. Id. at *36. From the state’s
inception until Congress passed the VRA, literacy
tests enacted specifically to limit “the ignorant
Mexican
vote”
prevented
Hispanics,
Native
Americans, and African Americans from full
participation in the electoral franchise. Id. The state
discriminates against minorities in other ways which
ultimately limit voting participation, too, particularly
by undereducating nonwhite residents and refusing to
offer appropriate Spanish translations, practices that
continue into the present day and likely serve to widen
the racial and ethnic gaps in OOP voting. Id. at *37.
The district court noted that “discrimination
against minorities in Arizona has not been linear.” Id.

264a
However, the fact that “[d]iscriminatory action has
been more pronounced in some periods of state history
than others . . . [and] each party (not just one party)
has led the charge in discriminating against
minorities over the years” does not support the district
court’s conclusion that this factor is inconclusive. Id.
at *38. Rather, despite some advancements, most of
which were mandated by courts or Congress, Arizona’s
history is marred by discrimination. What is more,
while evidence of sustained improvement must be
considered, “sporadic[] and serendipitous[]” indicators
of improvement are not grounds for discounting a long
history of discrimination. Gingles, 478 U.S. at 76.
Additionally, the district court discounted some
evidence on the grounds that “[m]uch of the
discrimination that has been evidenced may well have
in fact been the unintended consequence of a political
culture that simply ignores the needs of minorities.”
Reagan, 2018 WL 2191664, at *38. The results test
avoids such a chicken-or-the-egg inquiry. Gingles, 478
U.S. at 63. When Congress amended the VRA in 1982,
it did so in recognition that discrimination need not be
intentional to disenfranchise minority groups.
2
Courts are also tasked with considering “the extent
to which voting in the elections of the state . . . is
racially polarized.” Gingles, 478 U.S. at 37 (quoting S.
Rep. No. 97417, at 28–29). The district court correctly
concluded that “Arizona has a history of racially
polarized voting, which continues today.” Reagan,
2018 WL 2191664, at *38. This factor was never in
dispute.

265a
However, it bears mentioning the degree to which
Arizona politics are racially polarized. In reasonably
contested elections, 59% of white Arizonans vote
Republican, in contrast to 35% of Hispanic Arizonans
and an undetermined minority of African American
and Native American voters. Arizona politics are even
more polarized along the lines of the candidate’s
ethnicity; in non-landslide district-level contests
between a Hispanic Democratic candidate and a white
Republican candidate, 84% of Hispanic voters, 77% of
Native American voters, 52% of African American
voters, and only 30% of white voters select the
Hispanic candidate.
3
Similarly, there is no dispute that “members of the
minority groups[s] in the state . . . bear the effects of
discrimination in such areas as education,
employment and health, which hinder their ability to
participate effectively in the political process[.]”
Gingles, 478 U.S. at 37 (quoting S. Rep. No. 97-417, at
28–29).
As the district court noted, “[r]acial
disparities between minorities and non-minorities in
socioeconomic
standing,
income,
employment,
education, health, housing, transportation, criminal
justice, and electoral representation have persisted in
Arizona.”
Reagan, 2018 WL 2191664, at *38.
Although the district court’s order only briefly
mentions this factor, the evidence is overwhelming.
Indeed, compared to white Arizonans, black Arizonans
are over twice as likely to live in poverty, Hispanic
Arizonans are nearly three times as likely, and Native
Americans are almost four times as likely. Id. at *31.

266a
4
Arizona politicians have a long history of making
“overt or subtle racial appeals,” and that history
extends to the present day. Gingles, 478 U.S. at 37
(quoting S. Rep. No. 97417, at 28–29). As the district
court noted, candidates have relied on racial appeals
since the 1970s. Reagan, 2018 WL 2191664, at *38.
For example, during Raul Castro’s successful
gubernatorial run in the 1970s, his opponent’s
supporters called on the electorate to choose the
candidate who “looked like a governor,” and a
newspaper printed Fidel Castro’s face below a
headline reading, “Running for governor of Arizona.”
Id.
More recently, too, during his winning campaign for
State Superintendent of Public Office, John
Huppenthal, a white candidate running against a
Hispanic competitor, ran an ad touting that he was
“one of us,” that he was opposed to bilingual education,
and that he “will stop La Raza,” an influential
Hispanic civil rights organization. Id. And when
former Maricopa County Attorney Andrew Thomas
ran for governor, one of his ads included an image of
the Mexican flag with a red line striking through it.
Id. Moreover, as I discuss at length below, racial
appeals were made specifically in regard to H.B. 2023.
These racial appeals “lessen to some degree the
opportunity of [minorities] to participate effectively in
the political processes and to elect candidates of their
choice.” Gingles, 478 U.S. at 40.
5
Also relevant is “the extent to which members of the
minority group[s] have been elected to public office in

267a
the jurisdiction.” Gingles, 478 U.S. at 37 (quoting S.
Rep. No. 97-417, at 28–29). The district court noted
that “the disparity in the number of minority elected
officials in Arizona has declined.” Reagan, 2018 WL
2191664, at *39. However, a “decline” does not
translate to equity. Gingles, 478 U.S. at 76. While
nonwhites compose 44% of Arizona’s total population,
only two minority statespersons—one Hispanic
governor in 1974 and one African American
Corporation Commissioner in 2008—have been
elected to statewide positions in the last 50 years. Id.
There are currently no minorities in statewide office.
Minorities hold only 22% of state congressional seats
and 9% of judgeships.
Minorities are seriously underrepresented in public
office in Arizona, and the problem is most severe at the
statewide level. Significantly, because Arizona could
not be required to count votes for which an OOP voter
is not qualified to vote, Arizona’s practice of wholly
discarding OOP ballots only has an effect on top-ofthe-ticket races, where representation is at its lowest.
6
A § 2 claim is likelier to succeed where “there is a
significant lack of responsiveness on the part of elected
officials to the particularized needs of the members of
the minority group[s].” Gingles, 478 U.S. at 37
(quoting S. Rep. No. 97-417, at 28–29). The district
court found that DNC’s evidence was “insufficient to
establish a lack of responsiveness on the part of
elected officials to particularized needs of minority
groups.” Reagan, 2018 WL 2191664, at *39. It
bolstered its conclusion with evidence that the Arizona
Citizens Clean Elections Commission engages in

268a
outreach with minority populations, but engagement
by one entity is not conclusive, especially in the face of
overwhelming
evidence
of
government
nonresponsiveness.
The district court ignored evidence that Arizona
underserves minority populations. For example, it
failed to recognize that Arizona was the last state in
the nation to join the Children’s Health Insurance
Program, which may explain, in part, why forty-six
states have better health insurance coverage for
children. Similarly, it ignored evidence that Arizona’s
public schools are drastically underfunded; in fact, in
2016 Arizona ranked 50th among the states and the
District of Columbia in per pupil spending on public
elementary and secondary education. Given the welldocumented evidence that minorities are likelier to
depend on public services—evidence generally
credited by the district court—Arizona’s refusal to
provide adequate state services demonstrates its
nonresponsiveness to minority needs.4
Indeed, the district court’s finding is directly
contradicted by its recognition, later in its order, that
Arizona has a “history of advancing partisan
objectives with the unintended consequence of
4

Rather than discuss the evidence supporting DNC, the
district court simply discredited the testimony of one of DNC’s
experts, Dr. Allan Lichtman, on the grounds that he “ignored
various topics that are relevant to whether elected officials have
shown responsiveness, and he did not conduct research on the
issues in Arizona.” Reagan, 2018 WL 2191664, at *39. However,
the court also found “Dr. Lichtman’s underlying sources,
research, and statistical information [to be] useful.” Id. at *2.
Thus, my analysis incorporates only Dr. Lichtman’s “underlying
sources, research, and statistical information.”

269a
ignoring minority interests.”
Reagan, 2018 WL
2191664, at *43. And, as I discuss below, there is
significant specific evidence of the legislature’s
disregard for minority needs in the legislative history
leading to the passage of H.B. 2023. The district court
failed to consider important facts and overstated the
significance of one minor item of evidence. It clearly
erred in finding that this factor does not support DNC.
See, e.g., Myers v. United States, 652 F.3d 1021, 1036
(9th Cir. 2011) (holding that the district court clearly
erred when it ignored evidence contradicting its
findings).
7
Courts may also consider “whether the policy
underlying the state . . . practice . . . is tenuous.”
Gingles, 478 U.S. at 37 (quoting S. Rep. No. 97-417, at
28). In its analysis of this factor, the district court
erroneously misstated the inquiry as whether the
precinct-based system—rather than the practice of
wholly discarding OOP votes—is justified. Finding
the precinct-based system well-supported, the district
court determined only that “Arizona’s policy to not
count OOP ballots is one mechanism by which it
strictly enforces this system to ensure that precinctbased counties maximize the system’s benefits.”
Reagan, 2018 WL 2191664, at *39. However, the
district court attempted no further explanation, fully
adopting the state’s explanation for its practice of
discarding votes without considering its logic.
Arizona’s OOP policy does not serve any purpose
beyond administrative ease. Simply put, it takes
fewer resources to count fewer ballots. There is no
indication that there is any correlation between the

270a
precinct-based model and the OOP policy. Because the
analysis of this factor is essentially no different than
the analysis under step two of the Anderson/Burdick
test, I will not discuss it at length here. Because it
misstated DNC’s challenge, the district court clearly
erred in its finding regarding the justifications for the
OOP policy. There is no indication that the precinctbased electoral scheme runs more effectively because
Arizona refuses to count OOP votes.
8
Summing up its analysis, the district court found
that “[some] of the germane Senate Factors . . . are
present in Arizona and others are not.” Reagan, 2018
WL 2191664, at *40. Because DNC showed that each
of the relevant factors was satisfied, the district court’s
characterization of the evidence was clearly erroneous.
Further, the district court took issue with the
Senate Factors themselves, writing that DNC’s
“causation theory is too tenuous to support [its] VRA
claim because, taken to its logical conclusion, virtually
any aspect of a state’s election regime would be suspect
as nearly all costs of voting fall heavier on
socioeconomically disadvantaged voters.”
Id.
However, the results test was not on trial here;
Congress specifically amended the VRA in response to
such concerns. Gingles, 478 U.S. at 43–44 (“The
Senate Report which accompanied the 1982
amendments . . . dispositively rejects the position of
the plurality in Mobile v. Bolden, 446 U.S. 55 (1980),
which required proof that the contested electoral
practice or mechanism was adopted or maintained
with the intent to discriminate against minority
voters.”).

271a
DNC demonstrated that Arizona’s practice of not
counting OOP ballots “results in a denial or
abridgement of the right of any citizen of the United
States to vote on account of race or color,” 52 U.S.C.
§ 10301(a), and that, “based on the totality of
circumstances,” members of protected classes “have
less opportunity than other members of the electorate
to participate in the political process and to elect
representatives of their choice,” id. § 10301(b).
III
Arizona’s practice of wholly discarding OOP votes
also violates the First Amendment, which applies to
the states pursuant to the Fourteenth Amendment. In
deciding otherwise, the district court made several
legal errors, discussed below. Upon correcting the
district
court’s
errors
and
applying
the
Anderson/Burdick test to the uncontested facts, the
record compels a contrary conclusion. See United
States v. Silverman, 861 F.2d 571, 576 (9th Cir. 1998)
(citation omitted) (clear error standard met when
appellate court is left with the “definite and firm
conviction” that a mistake was made). Arizona
unconstitutionally infringes upon the right to vote by
disenfranchising voters unable to find or travel to the
correct precinct, even as to those contests for which the
voter is qualified to vote.
The First and Fourteenth Amendments protect
individual voting rights by limiting state interference
with those rights. Reynolds v. Sims, 377 U.S. 533,
554–55 (1964); Tashjian v. Republican Party of Conn.,
479 U.S. 208, 217 (1986). While “the right[s] to vote in
any manner and . . . to associate for political purposes”
are not “absolute,” Burdick v. Takushi, 504 U.S. 428,

272a
433 (1992), neither is the state’s constitutionally
designated authority to regulate the “Times, Places
and Manner of holding Elections for Senators and
Representatives,” U.S. Const. art. I, § 4, cl. 1;
Williams v. Rhodes, 393 U.S. 23, 29 (1968) (a state’s
power to regulate elections is “subject to the limitation
that [it] may not be exercised in a way that violates
other . . . provisions of the Constitution.”). Thus, “[t]he
power to regulate the time, place, and manner of
elections does not justify, without more, the
abridgment of fundamental rights, such as the right to
vote.” Tashjian, 479 U.S. at 217.
Courts apply the Anderson/Burdick test, a
“flexible” balancing test, to determine whether a
voting regulation runs afoul of the First Amendment
right to associate. Burdick, 504 U.S. at 434. The
Court must “weigh ‘the character and magnitude of
the asserted injury to the rights . . . that the plaintiff
seeks to vindicate’ against ‘the precise interests put
forward by the State as justifications for the burden
imposed by its rule,’ taking into consideration ‘the
extent to which those interests make it necessary to
burden the plaintiff’s rights.’” Id. (quoting Anderson
v. Celebrezze, 460 U.S. 780, 789 (1983)). There is no
substitute for the “balancing and means-end fit
framework” required under Anderson/Burdick; even
if a burden is minimal, it must be justified. Pub.
Integrity All., Inc. v. City of Tucson, 836 F.3d 1019,
1025 (9th Cir. 2016) (en banc).
A
The burden imposed by Arizona’s refusal to count
OOP votes is severe. The district court and the
majority mischaracterize that burden as the burden of

273a
complying with the State’s general requirement that
individuals vote in their assigned precinct. However,
the burden here is the burden of disenfranchisement
suffered by those voters whose votes are discarded
even as to those elections in which the voter is
qualified to vote. DNC brought suit alleging that
Arizona’s practice of discarding OOP ballots
unconstitutionally infringes upon individual voting
rights. They sought an injunction barring Arizona
from continuing that practice. They did not challenge
Arizona’s precinct-based system in its entirety.
1
The defendants and intervenors rely on semantics,
casting the discarding of OOP ballots as the
“consequence” of Arizona’s precinct system. However,
wholly discarding OOP ballots is not a fundamental
requirement of—or even a logical corollary to—a
precinct-based model. Instead, Arizona’s practice of
discarding such ballots is exactly that—a practice.
And it can change.5
The district court legally erred when it restated the
burden along the lines urged by the defendants and
intervenors.6 Concluding that the burden was that of
5

Indeed, the district court determined in its analysis of
standing, which has not been contested on appeal, that the
alleged injury—not counting OOP ballots—is redressable.
Reagan, 2018 WL 2191664, at *10.
6

I respectfully disagree with the majority that the district
court rightly restated DNC’s challenge because “under DNC’s
theory, a state could not enforce even a rule requiring
registration, because the state’s failure to count the vote of a nonregistered voter would ‘disenfranchise’ the noncompliant voter.”
Op. 61–62. The Anderson/Burdick test is a balancing test. If a

274a
voting in the correct precinct, the district court
determined that Arizona’s voters are themselves
partially responsible for any burden because they are
so likely to change residences and to rent rather than
own their homes. Reagan, 2018 WL 2191664, at *22.
However, if such a consideration were permissible, a
poll tax could be upheld on the grounds that poor
voters could simply earn more money or spend the
money that they do earn differently—propositions that
have, thankfully, been rejected.
See Harper v.
Virginia State Board of Elections, 383 U.S. 663 (1966).
The court also rejected DNC’s challenge because
“there is no evidence that it will be easier for voters to
identify their correct precincts if Arizona eliminated
its prohibition on counting OOP ballots.” Reagan,
2018 WL 2191664, at *23. But the problem is not with
the voters, who are dealing with a system insensitive
to their needs; the problem is with an electoral system
that refuses to acknowledge and respond to the needs
of the State’s voting population.
A democracy
functions only to the degree that it fosters
participation.
The district court also legally erred when it equated
Arizona’s policy of discarding OOP votes with similar
policies in other states, policies which were not on trial
in this lawsuit. Voting rights claims demand an
“intensely local appraisal.” Gingles, 478 U.S. at 78
(quoting White v. Regester, 412 U.S. 755, 769 (1973)).
basic registration requirement imposes a burden on voters—and
it does—it will still be upheld if that burden is justified—and it
is. DNC has merely asked us to apply the Anderson/Burdick
framework to its challenge; it has not asked for a per se rule
striking any policy or law under which votes go uncounted.

275a
What is more, the constitutionality of these other
states’ policies has not been affirmatively decided.
Thus, the fact that those other states also have policies
of not counting votes cast OOP is not indicative of the
constitutionality of Arizona’s policy.
Thus, the district court erred as a matter of law in
determining that “[t]hough the consequence of voting
OOP might make it more imperative for voters to
correctly identify their precincts, it does not increase
the burdens associated with doing so.” Reagan, 2018
WL 2191664, at *22. The burden identified by DNC
and faced by the voter is disenfranchisement.
2
The burden is severe. Because the district court
misstated the burden, it also miscalculated its
severity. For example, the district court determined
that the burden is slight based on its finding that
“there is no evidence that it will be easier for voters to
identify their correct precincts if Arizona eliminated
its prohibition on counting OOP ballots.” Id. at *23.
But that reasoning turns the appropriate legal
framework on its head.
Under the first prong of the Anderson/Burdick test,
the issue is the severity of the burden faced by voters
whose ballots are discarded because they voted OOP.
Pub. Integrity Alliance, 836 F.3d at 1024 n.2 (“[C]ourts
may consider not only a given law’s impact on the
electorate in general, but also its impact on subgroups,
for whom the burden, when considered in context, may
be more severe.”). Perhaps Arizona’s electoral scheme
justifies that burden, no matter its severity. If so,
however, that determination comes in under step two
of the Anderson/Burdick analysis.

276a
For those whose votes go uncounted, “there can be
no do-over and no redress.” League of Women Voters,
769 F.3d at 247. To determine the burden, the Court
looks not to the voters unaffected by the practice, as
the district court did, Reagan, 2018 WL 2191664, at
*21 (“Arizona’s rejection of OOP ballots . . . has no
impact on the vast majority of Arizona voters.”), but to
those who suffer the burden, Crawford v. Marion Cty.
Election Bd., 553 U.S. 181, 186 (2008) (plurality
opinion); Pub. Integrity All., 836 F.3d at 1024 n.2. And
those voters are effectively rendered unable to vote in
elections for which they are qualified and in which
they cast otherwise legitimate ballots. There is no
burden more severe in the voting rights context.
However, even if the district court had properly
stated the burden alleged, its ultimate finding would
be clearly erroneous. The district court found that
Arizona makes it easy for voters to find their precincts.
Reagan, 2018 WL 2191664, at *23. The district court’s
finding is inconsistent with the evidence presented
and generally credited by the court.
The government bears responsibility for the high
rate of OOP voting. First, precincts appear to change
polling locations and practices even more often than
residents change homes. Id. at *22 (“[I]n Maricopa
County, between 2006 and 2008 at least 43 percent of
polling locations changed from year to the next[.]”).
Second, polling places are often in counterintuitive
locations, far from some residents’ homes. Id. And
third, the district court noted (and did not discredit)
evidence that election workers fail to inform voters
that they are in the wrong precinct and that a
provisional ballot will not be counted. Id. Thus, the

277a
district court clearly erred in determining that
Arizona does all it should to prevent OOP voting.
B
The severe burden faced by OOP voters is not
outweighed by a sufficiently important government
interest. Pub. Integrity All., 836 F.3d at 1024.
Because the district court misstated the burden, it also
overstated the government interest by focusing on the
“numerous and significant advantages” of a precinctbased voting model. Reagan, 2018 WL 2191664, at
*24. The inquiry should instead be whether the state
can justify the interests served by the challenged
practice of not counting OOP ballots. It cannot.
As the district court itself found, “[c]ounting OOP
ballots is administratively feasible.” Id. at *25. This
is demonstrated by: (1) the methods used by the 20
states that use a precinct based system and
nonetheless count OOP ballots; and (2) Arizona’s
readily transferable method “to process certain types
of ballots that cannot be read by an optical scan voting
machine” and “some provisional ballots cast by voters
who are eligible to vote in federal elections, but whom
Arizona does not permit to vote in state elections.” Id.
Certainly, Arizona can count the votes cast by all
qualified voters.
The district court determined that, although OOP
votes could be counted, Arizona nonetheless could
justify its policy on the basis of assumptions regarding
what could happen if the state counted all of the
ballots that it received. Voters may “decide to vote”
out of precinct or “incorrectly believe that they can
vote at any location and receive the correct ballot.” Id.
Worse, they could “be nefariously directed to vote

278a
elsewhere.” Id. This reasoning is illogical and
unsupported by the facts. There is no demonstrated
increase in OOP voting in states where those votes are
counted than in Arizona (where, of course, OOP voting
is at its highest level). And “nefarious” interests would
be far better served by misdirecting voters if their outof-precinct vote would not be counted at all than if it
were partially tallied.7
Arizona’s interest in administrative ease does not
justify the severe burden of disenfranchisement. I
would hold Arizona’s practice of discarding OOP
ballots unconstitutional.
IV
Next, DNC challenges a recently enacted law, H.B.
2023, which criminalizes most ballot collection. Under
the law, a person who collects another’s ballot commits
a felony unless the collector is an official engaged in
official duties or the voter’s family member, household
member, or caregiver. Ariz. Rev. Stat. § 16-1005(H)–
(I).
H.B. 2023 was not Arizona’s first attempt to limit
ballot collection. Prior to Shelby County v. Holder, 570
U.S. 529 (2013), Arizona was subject to the VRA’s § 5
preclearance requirements. In 2011, Arizona passed
S.B. 1412, which criminalized the collection of more
than ten ballots by any one individual. Reagan, 2018
WL 2191664, at *42. Arizona submitted the bill to the
7

Under the current system, for example, a Democrat could
conceivably misdirect likely Republican voters to the wrong
precinct in order to render their ballots null. However, if OOP
ballots counted, the Democrat would have less incentive, as the
Republicans’ choices for statewide and federal office would still
register.

279a
DOJ for preclearance, and the DOJ “precleared all
provisions except for the provision regulating ballot
collection,” about which the DOJ requested further
information in order to ensure that the provision had
neither the purpose nor the effect of limiting minority
participation in voting. Id. Arizona did not proffer the
requested information, instead withdrawing the
provision before formally repealing the law. Id. With
good reason: the State Elections Director, who helped
draft the bill, told the DOJ that the law was “targeted
at voting practices . . . in predominantly Hispanic
areas” and that state officials were expecting § 5
review. Withdrawing a provision was not standard
procedure for Arizona, which fully or partially
withdrew only 6 of its 773 preclearance provisions. Id.
In 2013, the legislature tried a new approach. It
passed H.B. 2305 “along nearly straight party lines in
the waning hours of the legislative session.” Id. The
law “banned partisan ballot collection and required
other ballot collectors to complete an affidavit stating
that they had returned the ballot.” Id. The public
outcry was immediate, with “citizen groups
organiz[ing] a referendum effort and collect[ing] more
than 140,000 signatures to place H.B. 2305 on the
ballot for a straight up-or-down vote” in the next
election. Id. “Rather than face a referendum,” which
would have barred further related legislation without
a supermajority vote, “Republican legislators again
repealed their own legislation along party lines.” Id.
At the time, then-State Senator Michele Reagan (now
Secretary of State and defendant to this action), who
sponsored the bill, stated that the legislature would
reintroduce the bill, but in smaller fragments. Id.

280a
As the district court noted, H.B. 2023 was passed
not only “on the heels of” these earlier bills, but also
“in the context of racially polarized voting” and
“increased use of ballot collection as a Democratic [getout-the-vote] strategy in . . . minority communities.”
Id. at *41. Legislators supporting the bill were
particularly motivated by two items of evidence: the
wildly irrational testimony of then-State Senator Don
Shooter, and a racist video prepared by former
Maricopa Republican Party Chair A.J. LaFaro, in
which LaFaro claims that a Hispanic man engaged in
a lawful get-out-the-vote ballot collection effort is a
“thug” breaking the law. Id. at *38–39, *41.
DNC brings three challenges to H.B. 2023. It
argues that the provision was motivated by racial
animus, in violation of the Fourteenth and Fifteenth
Amendments and § 2 of the VRA. It claims that it has
a discriminatory effect, also in violation of § 2. And,
finally, it contends that the law unreasonably burdens
voters’ First Amendment rights. I agree on all counts
and would hold the provision invalid under the VRA
and the United States Constitution.
V
H.B. 2023 was enacted for the purpose of
suppressing minority votes, in violation of § 2 of the
VRA and the Fourteenth and Fifteenth Amendments.
Although lawmakers were also motivated by
partisanship, their intent to reduce the total number
of Democratic votes does not render the law
constitutional.
Under the Fourteenth and Fifteenth Amendments
and § 2 of the VRA, a law passed with the intent to
discriminate against racial or ethnic minorities cannot

281a
stand. The law imposes a high burden on plaintiffs,
who must show “[p]roof of racially discriminatory
intent or purpose.” Vill. of Arlington Heights v. Metro.
Hous. Dev. Corp., 429 U.S. 252, 265 (1977). Voting
regulations are unconstitutional when they are
“‘conceived or operated as purposeful devices to
further racial discrimination’ by minimizing,
cancelling out or diluting the voting strength of racial
elements in the voting population.” Rogers, 458 U.S.
at 617 (quoting Whitcomb v. Chavis, 403 U.S. 124, 149
(1971)). A plaintiff need not show that officials acted
solely to further a racially motivated agenda,
Arlington Heights, 429 U.S. at 265, but the ultimate
issue is whether “the legislature enact[ed] a law
‘because of,’ and not ‘in spite of,’ its discriminatory
effect,” N.C. State Conf. of NAACP v. McCrory, 831
F.3d 204, 220 (2016) (quoting Pers. Adm’r of Mass. v.
Feeney, 442 U.S. 256, 279 (1979)).
“Necessarily, an invidious discriminatory purpose
may often be inferred from the totality of the relevant
facts . . . .” Rogers, 458 U.S. at 618 (quoting
Washington v. Davis, 426 U.S. 229, 242 (1976)). “Thus
determining the existence of a discriminatory purpose
‘demands a sensitive inquiry into such circumstantial
and direct evidence of intent as may be available.’” Id.
(quoting Arlington Heights, 429 U.S. at 266). Courts
consider the Arlington Heights factors, a nonexhaustive list of considerations, to determine
whether a law was enacted to satisfy a motive to
discriminate:
(1) the historical background and
sequence of events leading to enactment;
(2) substantive or procedural departures from the
normal legislative process; (3) relevant legislative

282a
history; and (4) the impact of the law on a particular
racial group. Arlington Heights, 429 U.S. at 266–68.
Here, all four factors weigh in favor of DNC.
A
The historical background of a challenged provision
is an important evidentiary source, “particularly if it
reveals a series of official actions taken for invidious
purposes.” Id. at 267. As the district court recognized,
“H.B. 2023 emerged in the context of racially polarized
voting, increased use of ballot collection as a
Democratic [get-out-the-vote] strategy in low-efficacy
minority communities, and on the heels of several
prior efforts to restrict ballot collection.” Reagan, 2018
WL 2191664, at *41. And as discussed below, in my
analysis of § 2’s results test, a longer view of history
similarly weighs in favor of DNC. Quite simply, the
historical background suggests that the restriction
was enacted in order to prevent minority ballots from
being counted.
The fact that the minority votes would help
Democratic candidates does not alter the analysis. See
id. (suggesting that because “some individual
legislators and proponents were motivated in part by
partisan interests”8 they were not motivated by
racially discriminatory interests). Indeed, if that were
the case, consideration for racially polarized voting
patterns—a constant in VRA and constitutional voting
8

The majority concludes that the district court “did not err in
giving little weight to evidence that ‘some individual legislators
and proponents were motivated in part by partisan interests.’”
Op. 53 (quoting Reagan, 2018 WL 2191664, at *43). But the court
did not discredit this evidence. Rather it relied on it to show proof
of nondiscrimination.

283a
regulation challenges—would be impermissible or
weigh in favor of upholding a regulation. By nature of
the
political
process,
an
unconstitutionally
discriminatory voting regulation is a law enacted by
the political party in power in order to maintain power
by preventing minorities from voting, assuredly
because they belong to the other political party.
The first Arlington
discriminatory motive.

Heights

factor

suggests

B
Under Arlington Heights courts consider “the
defendant’s departures from its normal procedures or
substantive conclusions.” Pac. Shores Props., LLC v.
City of Newport Beach, 730 F.3d 1142, 1159 (9th Cir.
2013) (citing Arlington Heights, 429 U.S. at 266–68).
The district court recognized that “the circumstances
surrounding” H.B. 2023 were “somewhat suspicious.”
Reagan, 2018 WL 2191664, at *42. This is an
understatement. H.B. 2023 flowed directly out of the
Arizona legislature’s two prior attempts to limit ballot
collection.9 The law enacted does not cure the intent
to discriminate demonstrated by its precursors;
rather, H.B. 2023 was part of the same general
strategy of limiting the minority vote by limiting ballot
collection.

9 While it is true that discriminatory intent as to an earlier
law does not necessarily carry through to any other provision on
the subject, Op. 56, we do not have to suspend common sense.
The recency of the earlier provisions, coupled with relevant public
statements and the weak legislative record supporting H.B. 2023,
places H.B. 2023 on one end of an unbroken line beginning just a
few years earlier with S.B. 1412.

284a
This
Arlington
Heights
discriminatory motive.

factor

suggests

C
“The legislative . . . history may be highly relevant,
especially where there are contemporary statements
by members of the decisionmaking body . . . .”
Arlington Heights, 429 U.S. at 267. The district court
found evidence of racial animus in the legislative
history but discounted its significance, suggesting that
any initial discriminatory motive was cured because
some legislators acted either out of self-interest or an
unfounded but sincere belief that voter fraud was
likely.
The district court’s reasoning is clearly erroneous.
First,
partisan
self-interest
cannot
absolve
discriminatory intent. If we were to allow racially
motivated voting schemes whenever those schemes
serve partisan interests, the exception would swallow
the rule, and there would be no prohibition on enacting
laws in order to discriminate. Second, the sincerity of
the legislators’ belief in a wholly theoretical risk of
voter fraud is—as the district court itself suggested—
indicative of discriminatory intent. Reagan, 2018 WL
2191664, at *41 (describing legislators’ motives as
“perhaps implicitly informed by racial biases”).
Moreover, the district court’s own specific factual
findings belie its ultimate conclusion on the third
Arlington Heights factor.
The district court
determined that the proponents of H.B. 2023 voted for
the bill in response to two pieces of evidence: (1) the
“demonstrably false,” “unfounded and often farfetched
allegations of ballot collection fraud” made by former
Arizona State Senator Don Shooter; and (2) a “racially-

285a
tinged” video created by Maricopa County Republican
Chair A.J. LaFaro (the “LaFaro Video”). Id. Because
there was “no direct evidence of ballot collection
fraud . . . presented to the legislature or at trial,” the
district court understood that Shooter’s allegations
and the LaFaro Video were the reasons the bill passed.
Id. (“Shooter’s allegations and the LaFaro Video were
successful in convincing H.B. 2023’s proponents that
ballot collection presented opportunities for fraud that
did not exist for in-person voting . . . .”).
Both of these evidentiary items demonstrate racial
animus. As the district court made clear, Senator
Shooter’s testimony regarding the existence and
prevalence of voter fraud was not only incorrect but in
fact “unfounded and often farfetched.” Id. If Senator
Shooter was sincere, his distorted view of reality is
explainable only by what the district court
downplayed as being “implicitly informed by racial
biases,”—or, in starker terms, by racism. Id. An
unfounded and exploited fear that members of
minority groups are “engage[d] in nefarious activities,”
id., supports a finding of racial animus. And if Senator
Shooter was insincere, he purposefully distorted facts
in order to prevent Hispanics—who generally
preferred his opponent—from voting. Id. (“Due to the
high degree of racial polarization in his district,
Shooter was in part motivated by a desire to eliminate
what had become an effective Democratic [get-out-thevote] strategy. . . . Indeed, Shooter’s 2010 election was
close: he won with 53 percent of the total vote,
receiving 83 percent of the non-minority vote but only
20 percent of the Hispanic vote.”).
The LaFaro Video is even more damning. The video
shows a Hispanic man, a volunteer with a get-out-the-

286a
vote organization, delivering early ballots to the polls.
The video is itself wholly mundane; it is eight
soundless minutes of a man moving completed ballots
from a cardboard box to the ballot box. It markedly
“did not show any obviously illegal activity.” Id. at
*39.
However, LaFaro provided a voice-over
narration, “includ[ing] statements that the man was
acting to stuff the ballot box; that LaFaro did not know
if the person was an illegal alien, a dreamer, or citizen,
but knew that he was a thug; and that LaFaro did not
follow him out to the parking lot to take down his tag
number because he feared for his life.” Id. at *38. It
is LaFaro’s narration—not the dull raw material
showing a Hispanic man dropping off ballots—that
“became quite prominent in the debates over H.B.
2023.” Id. at *39. As the district court recognized, the
LaFaro Video evidences racial animus.
After recognizing the existence of discriminatory
intent, the district court seems to have determined
that intent was later cured because the bill “found
support among some minority officials and
organizations” and because some lawmakers opposed
H.B. 2023 for reasons other than that it being
grounded in racial discrimination. Id. at *41. The
district court’s reasoning is incorrect. As the Supreme
Court has stated, there is no room for judicial
deference “[w]hen there is . . . proof that a
discriminatory purpose has been a motivating factor
in the decision.” Arlington Heights, 429 U.S. at 265–
66.
Moreover, the district court was wrong to determine
that a law is not racially motivated if any people of
color support it. Rather, the evidence that particular
Hispanic and African American Arizonans supported

287a
H.B. 2023 simply demonstrates that people of color
have diverse interests, some of which may outweigh
potential concerns that a law was enacted with the
intent to discriminate. And although one lawmaker
“testified that she has no reason to believe H.B. 2023
was enacted with the intent to suppress Hispanic
voting,” the district court also recognized that “some
Democratic lawmakers accused their Republican
counterparts of harboring partisan or racially
discriminatory motives.” Reagan, 2018 WL 2191664,
at *41. Again, a diversity of perspectives is neither
surprising nor particularly telling, especially when the
operative legal test recognizes that a law may be
unconstitutionally discriminatory even if it is not
driven solely by racial animus: “legislators . . . are
properly concerned with balancing numerous
competing considerations.” Arlington Heights, 429
U.S. at 265.
The district court’s concerns were also assuaged
because Shooter’s “demonstrably false” allegations
and “the racially-tinged LaFaro Video . . . spurred a
larger debate in the legislature about the security of
early mail voting as compared to in-person voting.”
Reagan, 2018 WL 2191664, at *41. The court’s finding
is neither here nor there. The legislature did not act
to limit all early voting, but it targeted a specific
practice known to be popular among minority voters,
despite the absence of any evidence that ballot
collection was less secure than other early voting
methods.
This Arlington Heights factor weighs in favor of
DNC.

288a
D
“The impact of the official action whether it ‘bears
more heavily on one race than another’” is “important”
to the analysis of whether a law was enacted to serve
a discriminatory motive. Arlington Heights, 429 U.S.
at 266 (quoting Davis, 426 U.S. at 242.) The district
court wholly failed to measure H.B. 2023’s impact on
minority voters in its discussion of Arlington Heights.
Rather, it counterintuitively concluded that concerns
about the law’s effect on minority groups “show[] only
that the legislature enacted H.B. 2023 in spite of its
impact on minority [get-out-the-vote] efforts, not
because of that impact.” Reagan, 2018 WL 2191664,
at *43. The district court’s determination is not only
illogical but also out of place in its discussion of the
fourth Arlington Heights factor. As I will discuss in
my analysis of the § 2 results test, H.B. 2023
disproportionately affects minority voters.
Like the first three factors considered, the fourth
and final factor supports a conclusion that the law is
motivated by racial animus. Thus, under the purpose
test of § 2 of the VRA and the Fourteenth and
Fifteenth Amendments, H.B. 2023 cannot survive.
VI
Like Arizona’s practice of discarding OOP votes,
H.B. 2023 imposes an unlawful discriminatory burden
on minority voters. As discussed above, § 2 of the VRA
provides that “[n]o voting . . . standard, practice, or
procedure shall be imposed or applied . . . in a manner
which results in a denial or abridgement of the right
of any citizen of the United States to vote on account
of race or color.” 52 U.S.C. § 10301(a).

289a
Under the results test, “[t]he essence of a § 2 claim
is that a certain electoral law, practice, or structure
interacts with social and historical conditions to cause
an inequality in the opportunities enjoyed by
[minority] and white voters to elect their preferred
representatives.” Gingles, 478 U.S. at 47. The test is
one of the “totality of circumstances.” 52 U.S.C.
§ 10301(b); Gingles, 478 U.S. at 43. In this instance,
the totality of the circumstances conclusively
demonstrates that H.B. 2023 disproportionately
burdens minority voters, and that burden can be
traced directly to historical and social conditions of
discrimination. League of Women Voters, 769 F.3d at
240.
A
The first prong of the results test “inquires about
the nature of the burden imposed and whether it
creates a disparate effect.” Veasey, 830 F.3d at 244.
The district court suggested that DNC’s challenge
ought to fail at step one because of a lack of
quantitative evidence, but it ultimately based its
disposition on its determination that “Plaintiffs’
circumstantial and anecdotal evidence is insufficient
to establish a cognizable disparity under § 2.” Reagan,
2018 WL 2191664, at *31. The district court erred as
a matter of law when it determined that although,
“prior to H.B. 2023’s enactment minorities generally
were more likely than non-minorities to give their
early ballots to third parties,” id., it could not find for
DNC because it could not “speak in more specific or
precise terms than ‘more’ or ‘less.’” Id. at *33.
While it is true that a plaintiff bears the burden of
demonstrating the existence and extent of a disparity,

290a
Gonzalez v. Arizona, 677 F.3d 383, 406 (9th Cir. 2012)
(en banc), it is not true that the plaintiff is required to
do so with statistical evidence, 52 U.S.C. § 10301(b)
(providing that relevant inquiry is into “the totality of
circumstances”). The question is simply whether
members of the affected ethnic and racial minority
groups “have less opportunity than other members of
the electorate to participate in the political process
and to elect representatives of their choice.” Id.
§ 10301(b).
The evidence presented at trial weighed
overwhelmingly in DNC’s favor. For political and
socioeconomic reasons, H.B. 2023 is far likelier to
affect African American, Hispanic, and Native
American Arizonan voters than white voters. As the
district court recognized, minority voters used ballot
collection services more than white voters. Reagan,
2018 WL 2191664, at *31. The disparity is not caused
solely by geography, as the socioeconomic conditions
leading minority voters to depend on ballot collection
“exist in both urban and rural areas.” Id. at *32.
The witnesses with direct experience in collecting
ballots, without exception, testified at trial that racial
and ethnic minority voters were far likelier to vote
with the help of ballot collection services. For
example, one individual who worked in several ballot
collection groups testified that “the overwhelming
majority” of voters with whom he worked were
Hispanic or African American. Another stated that
the “vast majority of the ballot pickups” done by the
Maricopa County Democratic Party are in “[m]ajorityminority districts.” Democratic State Senator Martin
Quezada described requests for ballot collection,
testifying that “[t]he large majority of those requests

291a
came from the lower income and the neighborhoods
that were a larger percentage Latino than others.”
No one had a clear statistical analysis of the
disparity. Nor could anyone, as the state would be the
only entity in a position to collect such evidence, and
it has not done so. However, one ballot collector
testified as to what she termed a “case study” showing
the extent of the disparity. In 2010, she and her fellow
organizers collected “somewhere south of 50 ballots” in
one particular district. The area was redistricted
before the next election to add a heavily Hispanic
neighborhood, Sunnyslope, and in 2012, the
organization “pulled in hundreds of ballots, vast
majority from that Sunnyslope area.”
Not only is there no evidence in the record of any
significant reliance on ballot collection by white
voters, but the evidence is also replete with evidence
explaining why a disparity is natural. For example, in
rural Somerton and San Luis, both of which are over
95% Hispanic, voters lack home mail service and are
unlikely to have access to reliable transportation. Id.
at *32. In urban areas, too, Hispanic voters are less
likely to have access to mail services and, due to mail
theft, less likely to trust mail-in voting. Id.
As the district court rightfully noted, the “problems
are particularly acute in Arizona’s Native American
communities.” Id. Indeed, uncontroverted expert
testimony showed that “the majority of Native
Americans in nonmetropolitan Arizona do not have
home mail delivery” and that non-Hispanic white
voters are 350% more likely to have home mail service
than Native American voters. Id. In fact, only 18% of
Native Americans outside of Pima and Maricopa

292a
Counties have home mail service—in contrast to 86%
of non-Hispanic whites. And residents of sovereign
nations often must travel 45 minutes to 2 hours just to
get to a mailbox. In the district court’s words, “for
many Native Americans living in rural locations,
especially on reservations, voting is an activity that
requires the active assistance of friends and
neighbors.” Id.
In contrast, none of the evidence discussed by the
district court suggested that there was no disparate
burden or that any such disparity was minor. In short,
the district court summarized the overwhelming
evidence showing a disparate burden and then
concluded that because it couldn’t pin down the
difference with exactitude, it could not find for DNC.
The district court also suggested that it could not
find for DNC because too few voters rely on ballot
collection for a restriction on ballot collection to
matter. Id. at *33–34. To the degree that this finding
matters, it is a consideration under the
Anderson/Burdick analysis, not under step one of the
VRA analysis. Moreover, the district court’s analysis
ignores that the VRA exists to protect minority
groups—those groups least likely to have their voices
heard. Thus, the precise number of affected voters is
not particularly helpful.
Because it misstated the legal requirements for
establishing a disparity, the district court clearly erred
in concluding that DNC failed to meet their burden. I
would hold that H.B. 2023 imposes a disparate burden
on members of protected classes.

293a
B
As detailed earlier, within my application of the § 2
results test to the OOP policy, the Senate Factors
demonstrate the existence of social and historical
conditions of discrimination in Arizona.
Those
determinations have equal force here, and I will not
belabor the point by repeating my analysis here.
Instead, I will focus on the ways in which H.B. 2023 is
directly
connected
to
those
conditions
of
discrimination.
For example, one of the Senate Factors considers
the state’s history of racial discrimination. Gingles,
478 U.S. at 36–37. Not only does Arizona have a
history of official discrimination, as I have discussed,
but the history of H.B. 2023—passed after one
provision was rejected under § 5 of the VRA and after
the people of Arizona demonstrated concern with
another—powerfully links the statute to that history.
Similarly, as to racially polarized voting patterns, as
the district court noted, one of the most vocal
proponents for criminalizing ballot collection, Senator
Shooter, did so in part because he was facing a close
election in which Hispanic voters were highly unlikely
to vote for him.
Perhaps most significantly, there is direct evidence
of racial appeals being made in the context of this very
issue. Gingles, 478 U.S. at 36–37. In the LaFaro
video, a Hispanic get-out-the-vote volunteer gives no
indication that he is violating election law but is
nonetheless described as a “thug” likely to physically
harm a white political figure. Reagan, 2018 WL
2191664, at *38–39. That video figured “prominently”
in public debates about voter fraud and ballot

294a
collection, even though it showed no illegal activity.
Id. at *39. The Senate Factors clarify that even
“subtle” racial appeals are significant under the § 2
analysis, but the subtext of the LaFaro video does not
demand decoding. Gingles, 478 U.S. at 37 (1986)
(quoting S. Rep. No. 97-417, at 28–29).
Additionally, the legislative record demonstrates a
“significant lack of responsiveness on the part of
elected officials to the particularized needs of the
members of the minority group[s].” Gingles, 478 U.S.
at 37 (1986) (quoting S. Rep. No. 97-417, at 28–29).
Legislators were apprised of concerns that H.B. 2023
would place an especial burden on minority voters.
Their response? In the words of the bill’s sponsor: “not
my problem.” And in those of another state senator
supporting the measure, “I don’t know why we have to
spoon-fe[e]d and baby them over their vote.”
H.B. 2023 “interacts with social and historical
conditions to cause an inequality in the opportunities
enjoyed by [minority] and white voters to elect their
preferred representatives.” Gingles, 478 U.S. at 47.
DNC has conclusively met its burden of showing that
H.B. 2023 limits African American, Hispanic, and
Native American Arizonan voters’ ability to fully
participate in the political process and to elect
representatives of their choice.
VII
Finally, H.B. 2023 cannot be reconciled with the
First Amendment, which applies to the states under
the Fourteenth Amendment and which guarantees
that the right to vote will not be unreasonably
burdened. Burdick, 504 U.S. at 434.

295a
A
The burden is identified by looking to those affected
by the challenged provision. Crawford, 553 U.S. at
198 (“The burdens that are relevant to the issue before
us are those imposed on persons who are eligible to
vote but do not possess a current photo identification
that complies with the requirements.”). Here, then,
the relevant burden is that faced by individuals who
vote with the assistance of others who are not family
members, household members, or caregivers.
“[C]ourts may consider not only a given law’s impact
on the electorate in general, but also its impact on
subgroups, for whom the burden, when considered in
context, may be more severe.” Pub. Integrity All., 836
F.3d at 1024 n.2. And, indeed, the Court recognized
this principle in Crawford by noting that “a somewhat
heavier burden may be placed on a limited number of
persons.” 553 U.S. at 199. A determination of the
severity of that burden takes into account
socioeconomic situations. Id. (considering “persons
who because of economic or other personal limitations
may find it difficult either to secure a copy of their
birth certificate or to assemble the other required
documentation
to
obtain
a
state-issued
identification”).
Here, there is a heavy burden on, at minimum,
Native Americans living in rural Arizona, 82% of
whom lack home mail service. Reagan, 2018 WL
2191664, at *32. Many of these individuals without
home mail access may have serious difficulties getting
to the post office due to distance, socioeconomic
conditions, and lack of reliable transportation. Id.
Additionally, as the district court recognized, the

296a
State’s definition of a family relationship, codified in
H.B. 2023, does not track with family relationships in
Indian Country. Id. at *33.
The district court erred by failing to consider a
significant body of evidence demonstrating the
burdens faced by voters. The district court wrote that
it “ha[d] insufficient evidence from which to measure
the burdens on discrete subsets of voters” because it
could not determine a precise number of voters that
had relied on ballot collection in the past or predict a
likely number in the future. Id. at *14. Its reliance on
Crawford for this assertion is legally erroneous. In
Crawford, the Court did not set forth a rigorous
evidentiary standard requiring the production of
quantifiable evidence; instead, the Court simply said
that DNC did not produce anything sufficiently
reliable to demonstrate who would be burdened or to
what degree. 553 U.S. at 200–02.
DNC presented a much better case than the
plaintiffs in Crawford.
First, here, unlike in
Crawford, the district court did not reject the
plaintiff’s evidence as “utterly incredible and
unreliable.” Crawford, 553 U.S. at 200. Second, also
distinguishable from Crawford, here, there is evidence
that some will be unable to vote under H.B. 2023. For
example, an individual who collected ballots for the
Maricopa County Democratic Party testified that even
though the organization only collected ballots for
voters with “no other option,” she nonetheless
witnessed its collection of 1,200 to 1,500 ballots. Here,
there was no evidentiary failure.
That said, even if the district court properly
classified the burden as minimal at step one of the

297a
Anderson/Burdick analysis, H.B. 2023 nonetheless
fails at step two.
B
H.B. 2023 was and is not supported by the
“adequate justification” of “reduc[ing] opportunities
for early ballot loss or destruction,” Reagan, 2018 WL
2191664, at *40, or of “maintain[ing] public confidence
in election integrity,” id. at *18. Rather, the legislative
history uncontrovertedly indicates that the best
justification offered by the legislators voting for the
measure was a generic concern regarding voter
fraud—a solution in search of a problem. Even after
the bill was passed and a trial was held, the trial court
could find “no direct evidence that the type of ballot
collection fraud the law is intended to prevent or deter
has occurred.” Id.10 H.B. 2023’s foundation is not only
shaky, it’s illusory.
Even if the district court had been correct to classify
the burden imposed by H.B. 2023 as minimal, the law
does not withstand scrutiny under the First
Amendment.
“However slight [a] burden may
appear, . . . it must be justified by relevant and
legitimate state interests ‘sufficiently weighty to
justify the limitation.” Crawford, 553 U.S. at 191
(quoting Norman v. Reed, 502 U.S. 279, 288–89
(1992)). “‘[E]venhanded restrictions that protect the
integrity and reliability of the electoral process itself
are not invidious and satisfy the standard.” Crawford,

10

Nor was there any suggestion that legislators had reason to
believe that public faith in the system had been shaken, as the
district court notes. Reagan, 2018 WL 2191664, at *18.

298a
553 U.S. 181, 189–90 (quoting Anderson, 460 U.S. at
788). Here, no legitimate interest justifies H.B. 2023.
Crawford is not a blank check for legislators seeking
to restrict voting rights with baseless cries of “voter
fraud.” In Crawford, the Court held that the state’s
interest in deterring voter fraud was legitimate
despite the record’s absence of “evidence of any [inperson] fraud actually occurring . . . at any time in its
history,” but the case is distinguishable for at least two
reasons. Id. at 194. First, the voter I.D. restriction
considered in Crawford was tied to “the State’s
interest in counting only the votes of eligible voters,”
particularly given the extreme disorganization of
Indiana’s voter rolls. Id. at 196. On the other hand,
the nature of the relationship between the voter and
the person submitting a ballot has no similar logical
connection to that interest. The same safeguards—
e.g., “tamper evident envelopes and a rigorous voter
signature verification procedure”—are in place for
voters who give their ballots to their sister as for those
who participate in a get-out-the-vote effort. Reagan,
2018 WL 2191664, at *19.
Second, the Court in Crawford was untroubled by
its determination that the legislature was motivated
by partisanship because it determined that the
legislature was also motivated by legitimate concerns.
Crawford, 553 U.S. at 204 (“[I]f a nondiscriminatory
law is supported by valid neutral justifications, those
justifications should not be disregarded simply
because partisan interests may have provided one
motivation for the votes of individual legislators.”).
Here, however, the legislature was motivated by
discriminatory intent, as I have discussed.

299a
Moreover, even in the absence of discriminatory
intent, given the precision of H.B. 2023 toward
Democratic get-out-the-vote operations, “partisan
considerations” did not simply “play[] a significant role
in the decision to enact [the law]” but rather “provided
the only justification for [the restriction on ballot
collection].” Id. at 203. In Crawford, the plurality
“assume[d]” that such a law would be held
unconstitutional. Id. The Court’s assumption was
based in Harper v. Virginia State Board of Elections,
383 U.S. 663, in which the Court struck a poll tax
requirement. Harper is instructive. There, the Court
wrote that “the interest of the State, when it comes to
voting, is limited to the power to fix qualifications.” Id.
at 668. Just as “[w]ealth, like race, creed, or color, is
not germane to one’s ability to participate intelligently
in the electoral process[,]” neither is political
affiliation. Id. at 668.
VIII
As I said in the previous appeal in this case, voting
should be easy in America. It is not in Arizona, and
the burden falls most heavily on minority voters. In
my view, the district court should have granted an
injunction as to both of DNC’s challenges. Arizona’s
practice of discarding OOP votes violates § 2 of the
VRA and the First and Fourteenth Amendments. And
H.B. 2023 cannot withstand scrutiny under § 2 and
the First, Fourteenth, and Fifteenth Amendments.
I respectfully dissent.

300a

APPENDIX C

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ARIZONA
Democratic National
Committee, DSCC, and
Arizona Democratic
Party,
Plaintiffs,
v.
Michele Reagan and
Mark Brnovich,

No. CV-16-01065-PHXDLR
AMENDED
FINDINGS OF FACT
AND CONCLUSIONS
OF LAW1

Defendants.
Plaintiffs challenge two aspects of Arizona’s election
system: (1) Arizona’s policy to not count provisional
ballots cast in the wrong precinct, which derives from
the collective effect of A.R.S. §§ 16-122, -135, -584, and
related rules in the Arizona Election Procedures
Manual; and (2) Arizona House Bill 2023 (“H.B.
2023”), codified at A.R.S. § 16-1005(H)-(I), which
1 This order amends the Court’s May 8, 2018 order (Doc. 412)
to: (1) correct five non-substantive typographical errors on pages
50 at line 5, 61 at lines 18 and 23, 64 at line 6, and 69 at line 10
of the original order; and (2) replace the words “qualitative” and
“qualitatively” on pages 56, 58, and 62 of the original order with
more accurate and precise modifiers. The substance of the order
remains the same.

301a
makes it a felony for anyone other than the voter to
possess that voter’s early mail ballot, unless the
possessor falls within a statutorily enumerated
exception. Plaintiffs allege that the challenged laws
violate § 2 of the Voting Rights Act of 1965 (“VRA”) by
adversely and disparately impacting the electoral
opportunities of Hispanic, African American, and
Native American Arizonans, who Plaintiffs claim are
among their core constituencies.
Plaintiffs also
contend that these provisions violate the First and
Fourteenth Amendments to the United States
Constitution by severely and unjustifiably burdening
voting and associational rights. Lastly, Plaintiffs
claim that H.B. 2023 violates § 2 of the VRA and the
Fifteenth Amendment to the United States
Constitution because it was enacted with the intent to
suppress voting by Hispanic and Native American
voters. (Doc. 360 at 4–7.)2 Plaintiffs seek (1) a
declaration that the challenged election practices are
unlawful and (2) a permanent injunction requiring
Defendants to partially count out-of-precinct (“OOP”)
provisional ballots for races for which the voter
otherwise was eligible to cast a vote and enjoining
Defendants from implementing, enforcing, or giving
any effect to H.B. 2023. (Doc. 233 at 41–42.)
The Court presided over a ten-day bench trial
beginning October 3, 2017 and ending October 18,
2017. Pursuant to Federal Rule of Civil Procedure 52,
2

For purposes of this order, “Doc.” refers to documents on the
Court’s electronic docket, “Ex.” to trial exhibits, “Tr.” to the
official trial transcript, and “Dep.” to designated deposition
transcripts. Record citations offer examples of supporting
evidence, but are not intended to be exhaustive of all evidence
supporting a proposition.

302a
and for the following reasons, the Court finds against
Plaintiffs and in favor of Defendants on all claims.3
I. PARTIES
Plaintiffs are the Democratic National Committee
(“DNC”), the Democratic Senatorial Campaign
Committee (“DSCC”), and the Arizona Democratic
Party (“ADP”). The DNC is a national committee
dedicated to electing local, state, and national
candidates of the Democratic Party to public office.
The DSCC is a Democratic political committee
dedicated to encouraging the election of Democratic
Senate candidates to office and is comprised of sitting
Democratic members of the United States Senate. The
ADP is a state committee dedicated to electing
candidates of the Democratic Party to public office
throughout Arizona.
Defendants are Arizona Secretary of State Michele
Reagan and Arizona Attorney General Mark Brnovich.
Secretary Reagan is Arizona’s chief elections officer.
Attorney General Brnovich is Arizona’s chief legal
officer, charged with enforcing state criminal statutes,
including H.B. 2023 and other election-related
offenses. Secretary Reagan drafts, and Attorney
General Brnovich (in conjunction with the Governor of
Arizona) approves, the Election Procedures Manual.
A.R.S. §§ 41-191 et seq, 16-1021, -452.
The Court also permitted the following parties to
intervene as defendants: (1) the Arizona Republican
Party (“ARP”), a state committee dedicated to electing
3

Defendants’ oral motion, made during trial, for judgment on
partial findings pursuant to Federal Rule of Civil Procedure 52(c)
is denied as moot. (Doc. 384.)

303a
candidates of the Republican Party to public office; (2)
Debbie Lesko, who at the time of intervention was an
Arizona State Senator representing Arizona’s 21st
legislative district and Precinct Committeewoman for
Arizona’s 21st legislative district, and who recently
was elected to represent Arizona’s 8th congressional
district in the United States House of Representatives;
(3) Tony Rivero, a member of the Arizona House of
Representatives
representing
Arizona’s
21st
legislative district; (3) Bill Gates, who at the time of
intervention served as a City of Phoenix Councilman
and Precinct Committeeman for Arizona’s 28th
legislative district, and who now serves as a member
of the Maricopa County Board of Supervisors
representing district 3; and (4) Suzanne Klapp, a City
of
Scottsdale
Councilwoman
and
Precinct
Committeewoman for Arizona’s 23rd legislative
district. (Docs. 39, 44, 56, 126.)
II. OVERVIEW OF TRIAL TESTIMONY
A. Plaintiffs’ Expert Witnesses
1. Dr. Allan Lichtman
Dr. Allan Lichtman is a Distinguished Professor of
History at American University in Washington, D.C.,
where he has been employed for 42 years.
Dr. Lichtman formerly served as Chair of the History
Department and Associate Dean of the College of Arts
and Sciences at American University. He received his
B.A. in History from Brandeis University in 1967 and
his Ph.D. in History from Harvard University in 1973,
with a specialty in the mathematical analysis of
historical data. Dr. Lichtman’s areas of expertise
include political history, electoral analysis, and

304a
historical and quantitative methodology. (Ex. 91 at 3–
4.)
Dr. Lichtman has worked as a consultant or expert
witness for plaintiffs and defendants in more than 80
voting and civil rights cases, including League of
United Latin American Citizens (LULAC) v. Perry, 548
U.S. 399 (2006), in which Justice Kennedy’s majority
opinion
authoritatively
cited
Dr. Lichtman’s
statistical work. Dr. Lichtman also has testified
several times for plaintiffs and defendants on issues of
intentional discrimination and application of Section 2
in VRA cases. (Ex. 91 at 4.)
Dr. Lichtman opined, generally, that under the
totality of the circumstances H.B. 2023 causes
minority voters to have less opportunity to participate
in the political process than non-minority voters, and
that the law was passed with the intent to suppress
minority voters.4 He supported his opinions with the
standard sources used in political and historical
analysis, including scholarly books, articles, reports,
newspapers, voter registration and turnout data, and
scientific surveys.
Dr. Lichtman’s underlying sources, research, and
statistical information are useful. The surveys and
data he supplied reveal significant socioeconomic
disparities between non-minorities and minorities,
including in areas of poverty, unemployment,
education, transportation, and health. (Ex. 91 at 3–4.)
His report also contains evidence that Arizona exhibits
4

For ease, the Court uses the terms “minority” to refer to the
racial minorities alleged to be adversely impacted by the
challenge laws, and “non-minority” to refer to non-Hispanic white
voters.

305a
racially polarized voting and has a history of racial
appeals in political campaigns that continue to this
day. (Ex. 91 at 30, 44–45.) Dr. Lichtman opined that
the strong ties between race and partisanship in
Arizona make targeting minorities the most effective
and efficient way for Republicans to advance their
political prospects. (Ex. 93 at 4–5.)
Although the Court finds Dr. Lichtman’s curation of
material facts surrounding the legislative history and
his underlying research to be helpful and reliable, the
Court did not find Dr. Lichtman’s ultimate opinions
useful.
Dr. Lichtman applied the law as he
interpreted it to the data he assembled. In this
respect, his opinions presented more like an attorney’s
closing argument than an objective analysis of data,
and the credibility of his trial testimony was
undermined by his seeming effort to advocate a
position rather than answer a question. Moreover,
applying law to facts is this Court’s duty, and it is one
the Court can do without the assistance of an expert
opining on how he interprets the law and thinks it
should be applied. The Court also has not considered
Dr. Lichtman’s opinions on the ultimate issue of
legislative intent, both because this issue is not the
proper subject of expert testimony and because it
invades the province of the Court.
2. Dr. David Berman
Dr. David Berman is a Professor Emeritus of
Political Science and a Senior Research Fellow at the
Morrison Institute for Public Policy at Arizona State
University. As a political science professor, he has
taught undergraduate survey courses in American
government and politics, state and local politics, and

306a
Arizona government and politics, as well as more
specialized
courses,
including
undergraduate
seminars on Arizona politics during which students
interacted with state and local office holders and
political participants. He has also taught advanced
graduate courses focusing on research methods in
these areas. (Ex. 89 at 3.)
As a Senior Research fellow with the Morrison
Institute, Dr. Berman specializes in research and
writing on governance and election issues in Arizona,
including redistricting, direct democracy, and
campaign finance. He has been a professor at Arizona
State University since 1966, and his previous work
experience was as a Research Associate at the
National League of Cities in Washington, D.C. from
1964 to 1966. (Ex. 89 at 3–4.)
Dr. Berman opined that Arizona has a long history
of discrimination against the voting rights of Native
Americans, Hispanics, and African Americans, and
that this discrimination is part of a more general
pattern
of
political,
social,
and
economic
discrimination against minority groups in areas such
as school segregation, educational funding and
programming, equal pay and the right to work, and
immigration.
The Court finds Dr. Berman credible. His opinions
were well-researched and rendered using standard
sources and methodologies in his field of expertise, and
his sources were well-identified. Dr. Berman has
authored ten books and over 70 published papers, book
chapters, or refereed articles dealing with state and
local government, politics, and public policy, and his
opinions were based substantially on these prior

307a
works. In particular, Dr. Berman drew heavily upon
his book Arizona Politics and Government: The Quest
for Autonomy, Democracy, and Development
(University of Nebraska Press, 1998) and his review of
archival papers and collections. (Ex. 89 at 3–4.) The
Court affords great weight to Dr. Berman’s opinions.
3. Dr. Jonathan Rodden
Dr. Jonathan Rodden is a tenured Professor of
Political Science at Stanford University and the
founder and director of the Stanford Spatial Social
Science Lab, a center for research and teaching with a
focus on the analysis of geo-spatial data in the social
sciences. Students and faculty members affiliated
with the lab are engaged in a variety of research
projects involving large, fine-grained, geo-spatial data
sets, including individual records of registered voters,
Census data, survey responses, and election results at
the level of polling. Prior to joining the Stanford
faculty, Dr. Rodden was the Ford Professor of Political
Science at the Massachusetts Institute of Technology.
He received his Ph.D. from Yale University and his
B.A. from the University of Michigan, Ann Arbor, both
in political science. (Ex. 95 at 5–6.)
Dr. Rodden has expertise in the use of large data
sets and geographic information systems to analyze
aspects of political representation. He has developed
a national data set of geo-coded precinct-level election
results that has been used extensively in policyoriented research related to redistricting and
representation. He also has worked extensively with
Census data from the United States and other
countries.

308a
Dr. Rodden has published papers on political
geography and representation in a variety of academic
journals and has been featured in popular publications
like the Wall Street Journal, the New York Times, and
Boston Review. Dr. Rodden has testified as an expert
witness in three recent election law cases. (Ex. 95 at
6.)
Here, Dr. Rodden analyzed the rates and causes of
OOP voting in Arizona during the 2012, 2014, and
2016 general elections. The Court finds his use of a
combination of individual-level and aggregate data
analyses, both of which have been accepted in previous
cases analyzing questions under the VRA, to be valid
and generally trustworthy, and affords them great
weight. (Ex. 97 at 7–9.)
Dr. Rodden found that Hispanic, Native American,
and African American voters cast OOP ballots at
statistically higher rates than their non-minority
counterparts. (Ex. 95 at 3–4; Ex. 97 at 2–4.) Focusing
on Maricopa County in the 2012 election, Dr. Rodden
found that the rate of OOP voting was “131 percent
higher for Hispanics, 74 percent higher for African
Americans, and 39 percent higher for Native
Americans than whites.” (Ex. 95 at 3–4.)
Further, Dr. Rodden found that OOP voters are
substantially more likely to be young and to live in
neighborhoods characterized by large numbers of
renters and with high rates of transience, and that the
rate of OOP voting was 65 percent higher for
Democratic voters than for Republican voters in
Maricopa County, and 56 percent higher in Pima
County. Dr. Rodden found that “changes in polling
place locations are associated with higher rates of out-

309a
of-precinct voting,” and that “African Americans and
Hispanics are substantially more affected by this than
whites.
In particular, the impact of precinct
consolidation, while statistically significant for all
groups, is more than twice as large for Hispanics and
African Americans as for non-Hispanic whites.”
(Ex. 95 at 3–4.) When analyzing Arizona’s nonmetropolitan counties, Dr. Rodden found that OOP
voting is “negligible in majority-white precincts, but
increases dramatically in precincts where Hispanics
and Native Americans make up majorities.” (Ex. 96 at
58.)
In addition to his analysis of OOP voting,
Dr. Rodden employed standard and accepted methods
in his field to analyze the “mailability” of Arizona’s
non-metropolitan counties in order to estimate the
populations that likely would be most affected by H.B.
2023’s ballot collection restrictions. Though somewhat
imprecise, the Court finds his method of analysis to be
creative given the lack of direct data available on the
subject, generally reliable, and based on sufficient
data given the circumstances. Dr. Rodden found that
“[o]utside of Maricopa and Pima counties” “around 86
percent of non-Hispanic whites have home mail
service,” but “only 80 percent of Hispanics do, and only
18 percent of Native Americans have such access.”
(Ex. 97 at 4.)
Dr. Rodden’s error rate is unknown, however, due to
the lack of direct data. Also, his analysis did not
include Arizona’s metropolitan counties and therefore
does not reveal whether, on a statewide basis,
minorities have disparate access to home mail service
as compared to non-minorities. Further, mail access
is an imprecise proxy for determining the number and

310a
demographics of voters who use or rely on ballot
collection services. Simply because a voter lacks home
mail access does not necessarily mean that she uses or
relies on a ballot collector to vote, let alone a ballot
collector who does not fall into one of H.B. 2023’s
exceptions.
Accordingly, although Dr. Rodden’s
analysis provided useful insight into home mail access
in non-metropolitan counties, the Court is mindful of
its limitations and affords these opinions moderate
weight.
B. Plaintiffs’ Lay Witnesses
Plaintiffs called the following lay witnesses to
testify at trial: Carmen Arias, Michael Blair, Delilah
Correa, Charlene Fernandez, LeNora Fulton, Steve
Gallardo, Kate Gallego, Kathleen Giebelhausen,
Marva Gilbreath, Leah Gillespie, Carolyn Glover,
Leonard Gorman, Shari Kelso, Scott Konopasek,
Joeseph Larios, Daniel Magos, Lori Noonan, Patrick
O’Connor, Martin Quezada, Nellie Ruiz, Spencer
Scharff, Sam Shaprio, Ken Clark, and John Powers.
These
witnesses
include
individual
voters,
representatives from state, county, and municipal
governments, community advocates who have
collected ballots as part of get-out-the-vote (“GOTV”)
efforts, community advocates focusing of Native
American issues, Democratic Party operatives, a
California state elections official, and a former United
States Department of Justice (“DOJ”) official.
C. Defendants’ Expert Witnesses
1. Dr. Donald Critchlow
Dr. Donald Critchlow works at Arizona State
University as the Director of the Center for Political
Thought and Leadership, an organization funded by a

311a
grant from the Charles Koch Foundation. (Tr. 1533–
37.) He opined on the relationship between racial
discrimination and voting in Arizona. Dr. Critchlow
made credible observations that discrimination in
Arizona has not been linear and that Arizona has
taken effective action to combat discrimination and
encourage participation in voting.
With that said, Dr. Critchlow has never published a
book or article focused specifically on Arizona history,
nor has he taught courses in Arizona history or
politics. (Tr. 1531–32.) Further, in many respects he
offered one-sided opinions of Arizona’s history, ignored
incidents of discrimination, and failed to address the
key political shift between the Democratic and
Republican parties during the Civil Rights Movement.
For example, he either was unfamiliar with or totally
discounted the Republican strategy of confrontation of
minority voters at the polls during “Operation Eagle
Eye” in the 1960s.
(Ex. 89 at 16; Tr. 1549.)
Additionally, although Dr. Critchlow acknowledged
that Arizona has a history of discrimination, his report
appears to attribute past racial discrimination in
Arizona only to the Democratic Party and claims that
discrimination has not existed since the 1960s (in the
Republican era). (Ex. 521 at 4.) For these reasons, the
Court affords little weight to Dr. Critchlow’s opinions
2. Sean Trende
Sean Trende critiqued Dr. Lichtman’s analysis of
Arizona’s voting patterns and history of racial
discrimination, but offered no new information or
analysis. Though the Court found some of his
criticisms worth considering, overall they were
insignificant. For example, although Trende generally

312a
agreed with Dr. Lichtman that Arizona experiences
racially polarized voting, he made much of the
irrelevant fact that Arizona voting is not as racially
polarized as voting in Alabama.
(Tr. 1837.)
Additionally, Trende’s opinions on the weight to give
certain evidence and on the proper interpretation and
application of the law and evidence—like those of
Dr. Lichtman’s—were not helpful and invade the
province of the Court. Moreover, Trende does not have
a Ph.D and has never written a peer-reviewed article.
He has spent most of his professional career working
as a lawyer or political commentator. He is not a
historian and says nothing about the historical
methods Dr. Lichtman utilized. (Tr. 1861–62.) For
these reasons, the Court affords Trende’s opinions
little weight.
3. Dr. M.V. Hood
Dr. M.V. Hood is a Professor of Political Science at
the University of Georgia. Dr. Hood responded to the
reports of Drs. Lichtman, Rodden, and Berman.
(Ex. 522 at 2–3.) For a number of reasons, the Court
affords little weight to Dr. Hood’s opinions.
Dr. Hood criticizes Dr. Berman’s use of older
historical information. Yet Dr. Critchlow, another
expert retained by Defendants, agrees with
Dr. Berman that older historical information is
relevant to understanding patterns. (Ex. 521 at 8–10;
Ex. 522 at 11.) Moreover, Dr. Hood admitted at trial
that he examines historical information going back 50
to 200 years. (Tr. 2122–23.)
Dr. Hood opined that H.B. 2023 does not hinder
Native American voting because the rates of early
voting on the Navajo Nation increased from 2012 to

313a
2016. He based that opinion on early votes cast in
three counties. This opinion is not reliable. Dr. Hood’s
analysis did not include an assessment of racial
disparities and turnout. He also conceded that myriad
factors could affect turnout. (Tr. 2111–14.)
Dr. Hood prepared a cross-state comparative
analysis of ballot collection laws and policies related to
counting OOP ballots. Although his analysis offered
some insight, it overall was not useful because he did
not address statutory differences and nuances, and his
analysis reflected an incomplete understanding of the
laws he categorized. For example, some of the states
he labeled as prohibiting ballot collection do not have
laws comparable to H.B. 2023 because they prohibit
only the delivery of the ballot, not the collection and
mailing of the ballot on someone else’s behalf. (Ex. 92
at 52–53.)
The Court also notes that Dr. Hood’s testimony
either has been rejected or given little weight in
numerous other cases due to concerns over its
reliability. See Ne. Ohio Coal. for the Homeless v.
Husted, No. 2:06-CV-896, 2016 WL 3166251, at *24
(S.D. Ohio June 7, 2016), aff’d in part, rev’d in part,
837 F.3d 612 (6th Cir. 2016); Veasey v. Perry, 71 F.
Supp. 3d 627, 663 (S.D. Tex. 2014); Frank v. Walker,
17 F. Supp. 3d 837, 881–84 (E.D. Wis. 2014), rev’d on
other grounds, 768 F.3d 744 (7th Cir. 2014); Fla. v.
United States, 885 F. Supp. 2d 299, 324 (D.D.C. 2012);
Common Cause/Ga. v. Billups, No. 4:05-cv-0201, 2007
WL 7600409, at *14 (N.D. Ga. Sept. 6, 2007).
Additionally, most of Dr. Hood’s work has been as an
expert on behalf of states defending against
allegations that their laws violated the Constitution or
the VRA. (Tr. 2123–25.)

314a
4. Dr. Janet Thornton
Dr. Janet Thornton is a Managing Director at
Berkeley Research Group. Dr. Thornton did not
conduct her own analysis, but instead offered her
opinion that Dr. Rodden’s statistical work is flawed.
(Ex. 525 at 1.)
For example, she challenged
Dr. Rodden’s approaches to measuring racial
disparities in OOP voting.
One approach uses
individual surname data and geographic coordinates
to infer race. Among Dr. Thornton’s critiques was the
presence of measurement error, which is well-taken.
Indeed, even Dr. Rodden concedes measurement error
exists, especially as it pertains to African American
probabilities.
Dr. Thornton did not critique the
Hispanic probabilities assessed by Dr. Rodden,
however, and Dr. Rodden credibly explained that the
measurement error for Hispanic probabilities leads
only to the under-estimation of racial disparities.
The second approach that Dr. Rodden employed
relied on data collected by the Census Department on
race and ethnicity at the lowest possible level of
geographic aggregation. Dr. Thornton’s challenge to
the aggregate approach was neither about the data nor
the presence of racial disparities in OOP voting, but
rather the statistical model employed by Dr. Rodden.
Dr. Rodden, however, credibly showed that results
similar to those reported by his analysis are obtained
using the alternative model specification or
measurement
strategies
recommended
by
Dr. Thornton.
Dr. Thornton’s opinion that there should have been
a systematic decline in the number of ballots cast in
Arizona’s 13 non-metropolitan counties during 2016 if

315a
the limits on ballot collection impacted the ability of
rural and minority persons to vote is simplistic and not
credible.
The statistical evidence suggests that
increased turnout in rural counties for the 2016
election was driven by non-minority voters, not Native
American and Hispanic voters. (Ex. 98 at 21–26.)
Moreover, many factors impact voter turnout,
including controversial candidates and partisan
mobilization efforts, all of which might drown out the
potentially deleterious effects of H.B. 2023. Overall,
the Court finds that Dr. Thornton’s critiques do not
significantly undermine Dr. Rodden’s opinions and
therefore affords them less weight.
D. Defendants’ Lay Witnesses
Defendants called the following lay witnesses to
testify at trial: Brad Nelson, Eric Spencer, Helen
Purcell, James Drake, Michael Johnson, Michelle
Ugenti-Rita, Amy Chan (formerly Amy Bjelland),
Tony Rivero, and Scott Freeman. These witnesses
include current and former lawmakers, elections
officials, and law enforcement officials.
E. Witnesses Testifying By Deposition
In addition to the live testimony, the following
witnesses testified by deposition: Sheila Healy, Randy
Parraz, Samantha Pstross, Secretary Reagan, Spencer
Scharff, Donald Shooter, Eric Spencer, Robyn
Stallworth-Pouquette,
Alexis
Tameron,
Victor
Vasquez, and Dr. Muer Yang. The parties each raised
admissibility objections to certain of these deposition
designations. The Court addresses these objections,
along with other outstanding evidentiary matters, in
a separate order.

316a
III. OVERVIEW OF CHALLENGED ELECTIONS
PRACTICES
A. H.B. 2023
Voting in Arizona involves a flexible mixture of
early in-person voting, early voting by mail, and
traditional, in-person voting at polling places on
Election Day. Arizona voters do not need an excuse to
vote early and Arizona permits early voting both in
person and by mail during the 27 days before an
election. A.R.S. § 16-541. For those voters who prefer
to vote early and in-person, all Arizona counties
operate at least one in-person early voting location.
Some of these locations are open on Saturdays. (Doc.
361 ¶ 59.)
Arizona has allowed early voting by mail for over 25
years, and it has since become the most popular
method of voting, accounting for approximately 80
percent of all ballots cast in the 2016 election. In 2007,
Arizona implemented permanent no-excuse early
voting by mail, known as the Permanent Early Voter
List (“PEVL”). Arizonans now may vote early by mail
either by requesting an early ballot on an election-byelection basis, or by joining the PEVL, in which case
they will be sent an early ballot as a matter of course
no later than the first day of the 27-day early voting
period. A.R.S. §§ 16-542, -544. In 2002, Arizona also
became the first state to make available an online
voter registration option, allowing voters to register
online through Arizona’s Motor Vehicle Division
(“MVD”) website, www.servicearizona.com. When
registering online through the MVD, voters can enroll
in the PEVL by clicking a box. (Doc. 361 ¶ 56.)

317a
To be counted, an early ballot must be received by
the county recorder by 7:00 p.m. on Election Day.
A.R.S. § 16-548(A). Early ballots contain instructions
that inform voters of the 7:00 p.m. deadline. Voters
may return their early ballots by mail postage-free,
but they must mail them early enough to ensure that
they are received by this deadline. Additionally, some
Arizona counties provide special drop boxes for early
ballots, and voters in all counties may return their
early ballots in person at any polling place, vote
center, or authorized election official’s office without
waiting in line. (Doc. 361 ¶¶ 57, 61.)
Since 1997, it has been the law in Arizona that
“[o]nly the elector may be in possession of that elector’s
unvoted early ballot.” A.R.S. § 16-542(D). In 2016,
Arizona amended A.R.S. § 16-1005 by enacting H.B.
2023, which limits who may collect a voter’s voted or
unvoted early ballot:
H. A person who knowingly collects voted or
unvoted early ballots from another person is
guilty of a class 6 felony. An election official, a
United States postal service worker or any other
person who is allowed by law to transmit United
States mail is deemed not to have collected an
early ballot if the official, worker or other person
is engaged in official duties.
I. Subsection H of this section does not apply to:
1. An election held by a special taxing district
formed pursuant to title 48 for the purpose of
protecting or providing services to agricultural
lands or crops and that is authorized to conduct
elections pursuant to title 48.

318a
2. A family member, household member or
caregiver of the voter. For the purposes of this
paragraph:
(a) “Caregiver” means a person who provides
medical or health care assistance to the voter in
a residence, nursing care institution, hospice
facility, assisted living center, assisted living
facility, assisted living home, residential care
institution, adult day health care facility or adult
foster care home.
(b) “Collects” means to gain possession or control
of an early ballot.
(c) “Family member” means a person who is
related to the voter by blood, marriage, adoption
or legal guardianship.
(d) “Household member” means a person who
resides at the same residence as the voter.
A.R.S. § 16-1005(H)-(I). Voters therefore may entrust
a caregiver, family member, household member, mail
carrier, or elections official to return their early
ballots, but may not entrust other, unauthorized third
parties to do so.
B. Rejection of OOP Ballots
Since at least 1970, Arizona has required voters who
choose to vote in person on Election Day to cast their
ballots in their assigned precinct and has enforced this
system by counting only those ballots cast in the
correct precinct. (Doc. 361 ¶ 46.) Because elections
involve many different overlapping jurisdictions, the
precinct-based system ensures that each voter
receives a ballot reflecting only the races for which
that person is entitled to vote. (Ex. 95 at 10.) If a voter

319a
arrives at a precinct but does not appear on the
precinct register, Arizona allows the voter to cast a
provisional ballot. A.R.S. §§ 16-122, -135, -584. After
Election Day, county elections officials review all
provisional ballots. If a voter’s address is determined
to be within the precinct, the provisional ballot is
counted. Arizona does not count any portion of a
provisional ballot cast outside of a voter’s correct
precinct. A majority of states do not count OOP
ballots, putting Arizona well within the mainstream
on this issue.5 Indeed, at no point has the DOJ
objected to this practice, and Plaintiffs object to it for
the first time in this case.
In 2011, Arizona amended its elections code to allow
counties to choose whether to conduct elections under
the traditional precinct model or to use a “vote center”
system. 2011 Ariz. Legis. Serv. Ch. 331 (H.B. 2303)
(April 29, 2011) (amending A.R.S. § 16-411). Unlike
the precinct-based system, the vote center model
requires each vote center to be equipped to print a
5

See Ala. Code §§ 17-9-10, -10-2, -10-3; Ark. Code Ann. §§ 7-5306(b), -308(d)(2); Conn. Gen. Stat. §§ 9-19j, -232n; Del. Code
Ann. tit. 15, § 4948(b), h(7); Fla. Stat. § 101.048(1),(2); Haw.
Admin. Rules § 3-172-140; Ind. Code §§ 3-11.7-2-1, -11-8-2, and 11.7-5-3; Iowa Code §§ 49.9, 49.79(2)(c), 49.80, 49.81, 53.23; Tit.
31 Ky. Admin. Regs. § 6:020(1),(14); Mich. Comp. Laws
§§ 168.523a(1),(5),(7), 168.813(1); Miss. Code, Ann. § 23-15573(1),(3)(b); Mo. Rev. Stat. § 115.430(2),(3),(6); Mont. Code
§§ 13-15-107(1),(3), 13-2-512, 13-13-114(1)(a),(2); Neb. Rev. Stat.
§§ 32-915(1), -1002(5)(b),(e); Nev. Rev. Stat. § 293.3081(1),
293.3085(4); N.Y. U.C.C. Law §§ 8-302(3)(e), § 9-209; Ohio Rev.
Stat. §§ 3505.181(A)(1), 3505.183(B)(1), (4)(a); S.C. Code Ann.
§§ 7-13-820, 7-13-830; S.D. Sess. Laws § 12-18-39, 12-20-5.1;
Tenn. Code Ann. § 2-7-112(a)(3)(A),(B); Tex. Elec. Code Ann.
§§ 63.001(c),(g), 63.011(a),(b); Tex. Admin. Code § 81.172.

320a
specific ballot, depending on each voter’s particular
district, that includes all races for which that voter is
eligible to vote. Thus, under a vote center system,
voters may cast their ballots at any vote center in the
county in which they reside and receive the
appropriate ballot. A.R.S. § 16-411(B)(4). Graham,
Greenlee, Cochise, Navajo, Yavapai, and Yuma
counties have adopted the vote center model. These
counties are mostly rural and sparsely populated.
Precinct-based voting requirements, such as Arizona’s
policy to not count OOP ballots, have no impact on
voters in these counties. By comparison, the most
populous counties in Arizona, such as Maricopa, Pima,
and Pinal, currently adhere to the traditional precinctbased model.
IV. PRELIMINARY ISSUES
A. Standing
Article III of the United States Constitution limits
federal
courts
to
resolving
“Cases”
and
“Controversies,” one element of which is standing. To
have standing to litigate in federal court, a plaintiff
“must have suffered or be imminently threatened with
a concrete and particularized ‘injury in fact’ that is
fairly traceable to the challenged action of the
defendant and likely to be redressed by a favorable
judicial decision.” Lexmark Int’l, Inc. v. Static Control
Components, Inc., — U.S. —, 134 S. Ct. 1377, 1386
(2014) (citing Lujan v. Defenders of Wildlife, 504 U.S.
555, 560–61 (1992)). Only one plaintiff needs to have
standing when only injunctive relief is sought.
Crawford v. Marion Cty. Election Bd., 472 F.3d 949,
951 (7th Cir. 2007), aff’d, 553 U.S. 181, 189 n.7 (2008).

321a
Plaintiffs have organizational standing to challenge
the election regulations at issue. Ballot collection was
a GOTV strategy used primarily by the Democratic
Party to increase electoral participation by otherwise
low-efficacy voters. (Tr. 416–26, 632–33, 659, 902,
930; Healy Dep. 28:15–29:13.) H.B. 2023’s limitations
will require Democratic organizations, such as the
ADP, to retool their GOTV strategies and divert more
resources to ensure that low-efficacy voters are
returning their early mail ballots. Additionally,
credible expert testimony shows that minority voters,
who tend to vote disproportionately for Democratic
candidates, vote OOP at higher rates than nonminority voters. Thus, Arizona’s policy to not count
OOP ballots places a greater imperative on
organizations like the ADP to educate their voters.
These are sufficiently concrete and particularized
injuries that are fairly traceable to the challenged
provisions. See Crawford, 472 F.3d at 951 (“Thus the
new law injures the Democratic Party by compelling
the party to devote resources to getting to the polls
those of its supporters who would otherwise be
discouraged by the new law from bothering to vote.”);
One Wis. Inst., Inc. v. Nichol, 186 F. Supp. 3d 958, 967
(W.D. Wis. 2016) (finding expenditure of resources for
educating voters about how to comply with new state
voter registration requirements sufficient to establish
standing).
Plaintiffs also have associational standing to
challenge these provisions on behalf of their members.
[A]n association has standing to bring suit on
behalf of its members when: (a) its members
would otherwise have standing to sue in their
own right; (b) the interests it seeks to protect are

322a
germane to the organization’s purpose; and (c)
neither the claim asserted nor the relief
requested requires the participation of individual
members in the lawsuit.
Hunt v. Wash. State Apple Adver. Comm’n, 432 U.S.
333, 343 (1977).
A number of self-identified
Democratic voters testified either that they have used
ballot collection services in the past, or that they have
voted OOP. The voting rights of such individuals are
germane to Plaintiffs’ goal of electing Democratic
candidates to local, state, and federal offices. Further,
neither the claims asserted nor the relief requested
requires individual members to participate in this
lawsuit.
Finally, Plaintiffs’ asserted injuries can be
redressed by a favorable decision of this Court.
“[W]hen a plaintiff challenges the constitutionality of
a rule of law, it is the state official designated to
enforce that rule who is the proper defendant[.]” Am.
Civil Liberties Union v. The Fla. Bar, 999 F.2d 1486,
1490 (11th Cir. 1993). Here, county officials are
responsible for counting ballots and verifying proper
voter registration, see A.R.S. §§ 16-621(A), -584(E),
but Secretary Reagan and Attorney General Brnovich
also play a role in determining how OOP ballots are
counted. Arizona law requires Secretary Reagan,
after consulting with county officials, to “prescribe
rules to achieve and maintain the maximum degree of
correctness, impartiality, uniformity and efficiency on
the procedures for early voting and voting, and of
producing,
distributing,
collecting,
counting,
tabulating and storing ballots.” A.R.S. § 16-452(A).
These rules are prescribed in the Election Procedures
Manual and have the force of law. A.R.S. § 16-452(B)-

323a
(C). “Any person who does not abide by the Secretary
of State’s rules is subject to criminal penalties,” Ariz.
Libertarian Party, Inc. v. Bayless, 351 F.3d 1277, 1280
(9th Cir. 2003) (citing A.R.S. § 16-452(C)), and
Attorney General Brnovich is authorized to prosecute
such violations, A.R.S. § 16-1021. Although county
officials are responsible for physically counting ballots,
they are not empowered to count or reject ballots at
their discretion. Rather, “[a]ll proceedings at the
counting center shall be under the direction of the
board of supervisors or other officer in charge of
elections and shall be conducted in accordance with
the approved instructions and procedures manual[.]”
A.R.S. § 16-621(A).
Though the Court cannot require Secretary Reagan
and Attorney General Brnovich to physically count
OOP ballots for races for which the voter was
otherwise eligible to cast a vote, it can require them to
prescribe such a procedure in the Election Procedures
Manual, which county election officials then would be
bound by law to follow. Further, Attorney General
Brnovich can ensure compliance with such a directive
because he is authorized to prosecute county officials
who violate it.
Likewise, Attorney General Brnovich is empowered
to enforce state election laws like H.B. 2023. He is not
the only official with such authority; Attorney General
Brnovich is authorized to enforce Arizona’s election
laws “[i]n any election for state office, members of the
legislature, justices of the supreme court, judges of the
court of appeals or statewide initiative or referendum,”
but in elections for “county, city or town office,
community college district governing board, judge or a
county, city, or town initiative or referendum,” that

324a
authority resides with “the appropriate county, city or
town attorney[.]” A.R.S. § 16-1021. But most elections
will include statewide races and therefore Attorney
General Brnovich likely will share enforcement
authority in most circumstances. Moreover, although
Attorney General Brnovich might lack authority to
direct the enforcement activities of county and
municipal prosecutors, there is no reason to believe
that these local law enforcement officials will attempt
to enforce H.B. 2023 should the Court declare it
unconstitutional or unlawful under the VRA.
Lastly, although there is no evidence that Secretary
Reagan or other state or local elections officials play a
direct role in the enforcement of H.B. 2023, Secretary
Reagan has some indirect involvement in the law’s
implementation by virtue of her responsibility for
drafting the Election Procedures Manual. If the Court
were to enjoin H.B. 2023’s implementation and
enforcement, the Election Procedures Manual would
need to reflect as much.
B. Effect of Preliminary Appellate
Proceedings
On September 23, 2016, the Court denied Plaintiffs’
motion to preliminarily enjoin enforcement of H.B.
2023. (Doc. 204.) On October 4, 2016, the Court also
denied Plaintiffs’ motion to preliminary enjoin
enforcement of H.B. 2023 pending Plaintiffs’ appeal of
the Court’s September 23 order. (Doc. 213.) Plaintiffs
thereafter moved the Ninth Circuit Court of Appeals
for an injunction pending appeal, which was denied by
a three-judge motions panel. Later, on October 28,
2016, a divided three-judge merits panel affirmed the

325a
Court’s order denying Plaintiffs’ preliminary
injunction motion. Chief Judge Thomas dissented.
On November 2, 2016, a majority the Ninth Circuit’s
non-recused active judges voted to rehear the case en
banc. Two days later, a majority of the en banc panel
voted to preliminarily enjoin enforcement of H.B. 2023
pending the panel’s rehearing, essentially for the
reasons provided in Chief Judge Thomas’ dissent.6
This preliminary injunction was short-lived, however,
as the United States Supreme Court stayed the order
on November 5, 2016, pending the Ninth Circuit’s final
disposition of the appeal.
In light of this history, the parties disagree over the
effect that Chief Judge Thomas’ dissent should have
on the Court’s post-trial analysis. As explained during
the final pretrial conference, although the Court has
considered Chief Judge Thomas’ dissent, the Court is
not bound by its factual analysis. To date, all
appellate proceedings have occurred at the
preliminary injunction stage on a less developed
factual record. Findings and conclusions rendered at
the preliminary injunction stage are just that—
preliminary. They do not necessarily preclude the
Court from making different findings or conclusions
after thorough factual development and a full trial on
the merits. Accordingly, although the Court is mindful
of Chief Judge Thomas’ critiques and their
preliminary adoption by a majority of the en banc
panel, the Court is not bound to make identical

6

The en banc panel technically issued a stay of the Court’s
order denying Plaintiffs’ preliminary injunction motion, but the
stay had the practical effect of an injunction pending appeal.

326a
findings and conclusions as those made at a
preliminary phase of the litigation.
And with that, the Court proceeds to the merits.
V. FIRST AND FOURTEENTH AMENDMENTS7
“[T]he Constitution of the United States protects the
right of all qualified citizens to vote, in state as well as
in federal elections.” Reynolds v. Sims, 377 U.S. 533,
554 (1964). Relatedly, the First and Fourteenth
Amendments protect the right of the people to
associate for political purposes.
Tashjian v.
Republican Party of Conn., 479 U.S. 208, 214 (1986).
“It does not follow, however, that the right to vote in
any manner and the right to associate for political
purposes . . . are absolute.” Burdick v. Takushi, 504
U.S. 428, 433 (1992).
Rather, the Constitution
empowers states to regulate the “Times, Places and
Manner of holding Elections for Senators and
Representatives,” U.S. Const. art. I, § 4, cl. 1, and
states retain “control over the election process for state
offices,” Tashjian, 479 U.S. at 217. “Common sense, as
well as constitutional law, compels the conclusion that
government must play an active role in structuring
elections.” Burdick, 504 U.S. at 433. “[A]s a practical
matter, there must be a substantial regulation of
elections if they are to be fair and honest and if some
sort of order, rather than chaos, is to accompany the
democratic processes.” Storer v. Brown, 415 U.S. 724,
730 (1974).
7

Because Plaintiffs challenge state election laws, their claims
technically arise under the Fourteenth Amendment, which
applies the First Amendment’s protections against states and
their political subdivisions. See City of Ladue v. Gilleo, 512 U.S.
43, 45 n.1 (1994).

327a
Like an individual’s voting and associational rights,
however, a state’s power to regulate elections is not
absolute; it is “subject to the limitation that [it] may
not be exercised in a way that violates other . . .
provisions of the Constitution.” Williams v. Rhodes,
393 U.S. 23, 29 (1968); see Wash. State Grange v.
Wash. State Republican Party, 552 U.S. 442, 451
(2008).
But because all election regulations
“invariably impose some burden upon individual
voters,” Burdick, 504 U.S. at 433, “not every voting
regulation is subject to strict scrutiny,” Pub. Integrity
Alliance, Inc. v. City of Tucson, 836 F.3d 1019, 1024
(9th Cir. 2016).
Instead, . . . a more flexible standard applies. A
court considering a challenge to a state election
law must weigh “the character and magnitude of
the asserted injury to the rights protected by the
First and Fourteenth Amendments that the
plaintiff seeks to vindicate” against “the precise
interests put forward by the State as
justifications for the burden imposed by its rule,”
taking into consideration “the extent to which
those interests make it necessary to burden the
plaintiff’s rights.”
Burdick, 504 U.S. at 434 (quoting Anderson v.
Celebrezze, 460 U.S. 780, 789 (1983)). This framework
commonly is referred to as the Anderson/Burdick test,
after the two Supreme Court decisions from which it
derives.
Under this framework, the degree to which the
Court scrutinizes “the propriety of a state election law
depends upon the extent to which a challenged
regulation burdens First and Fourteenth Amendment

328a
rights.” Id. A law that imposes severe burdens is
subject to strict scrutiny, meaning it must be narrowly
tailored to serve a compelling state interest. Id.
“Regulations imposing . . . [l]esser burdens, however,
trigger less exacting review, and a State’s ‘important
regulatory interests’ will usually be enough to justify
‘reasonable,
nondiscriminatory
restrictions.’”
Timmons v. Twin Cities Area New Party, 520 U.S. 351,
358 (1997) (quoting Burdick, 504 U.S. at 434); see also
Pub. Integrity Alliance, 836 F.3d at 1024 (“Applying
these precepts, ‘[w]e have repeatedly upheld as ‘not
severe’ restrictions that are generally applicable,
evenhanded, politically neutral, and protect the
reliability and integrity of the election process.’”
(quoting Dudum v. Arntz, 640 F.3d 1098, 1106 (9th
Cir. 2011)).
Additionally, when applying
Anderson/Burdick, the Court considers the state’s
election regime as a whole, including aspects that
mitigate the hardships that might be imposed by the
challenged provisions. See Ohio Democratic Party v.
Husted, 834 F.3d 620, 627 (6th Cir. 2016); see also
Crawford v. Marion Cty. Election Bd., 553 U.S. 181,
199 (2008) (considering mitigating aspects of Indiana’s
election laws).
A. Application to H.B. 2023
1. Burden on Voting Rights
At most, H.B. 2023 minimally burdens Arizona
voters as a whole. In fact, the vast majority of Arizona
voters are unaffected by the law. Although voting by
early mail ballot has steadily increased in Arizona, in
any given election there remains a subset of voters
who choose to vote in person, either early at a
designated early voting site or on Election Day. In-

329a
person voters are not impacted by limitations on who
may collect early mail ballots. For example, 2,323,579
registered voters cast ballots during the 2012 general
election. (Ex. 543 at 2.) Of these, 1,542,855 submitted
early mail ballots, over 99 percent of which were
counted. (Ex. 95 at 17.) Thus, roughly a third of all
Arizonans voted in person during the 2012 general
election. Similarly, approximately 80 percent of the
2,661,497 Arizonans who voted during the 2016
general election cast an early ballot, meaning about 20
percent voted in person on Election Day. (Tr. 1925;
Ex. 543.) H.B. 2023 has no impact on these voters.
Further, even under a generous interpretation of
the evidence, the vast majority of voters who choose to
vote early by mail do not return their ballots with the
assistance of a third-party collector who does not fall
within H.B. 2023’s exceptions. There are no records of
the numbers of voters who, in any given election,
return their ballots with the assistance of third
parties. The ADP collected “a couple thousand” ballots
in 2014. (Tameron Dep. 52:12–17.) According to
Secretary Reagan, community advocate Randy Parraz
testified before the Arizona Senate Elections
Committee that he had once collected 4,000 ballots.
(Regan Dep. 101:12–21.) During closing argument,
the Court asked Plaintiffs’ counsel for his best
estimate of the number of voters affected by H.B. 2023
based on the evidence at trial, to which he responded:
“Thousands . . . but I don’t have a precise number of
that.” (Tr. 2268.) An estimate of “thousands” offers
little guidance for determining where, on the scale of
1,000 to 999,999, the number falls, but the evidence
and Counsel’s response suggests that possibly fewer
than 10,000 voters are impacted.

330a
Purely as a hypothetical, if the Court were to draw
the unjustified inference that 100,000 early mail
ballots were collected and returned by third parties
during the 2012 general election, that estimate would
leave over 1.4 million early mail ballots that were
returned without such assistance. The point, of
course, is that H.B. 2023’s limitations have no effect
on the vast majority of voters who vote by early mail
ballot because, even under generous assumptions,
relatively few early voters give their ballots to
individuals who would be prohibited by H.B. 2023
from possessing them.
On its face, H.B. 2023 is generally applicable and
does not increase the ordinary burdens traditionally
associated with voting. The law merely limits who
may possess, and therefore return, a voter’s early mail
ballot. Early voters may return their own ballots,
either in person or by mail, or they may entrust a
family member, household member, or caregiver to do
the same. Thus, the burden H.B. 2023 imposes is the
burden of traveling to a mail box, post office, early
ballot drop box, any polling place or vote center
(without waiting in line), or an authorized election
official’s office, either personally or with the assistance
of a statutorily authorized proxy, during a 27-day
early voting period.8
8

Throughout this case, Plaintiffs have conflated the burden
imposed by H.B. 2023 with the circumstances that might make
that burden harder to surmount for certain voters. That is,
Plaintiffs conflate the burden with its severity. For example,
during closing argument the Court asked Plaintiffs’ counsel to
summarize the precise burdens that H.B. 2023 imposes.
(Tr. 2262.) Counsel responded that the burdens include lack of
mail access, inadequate transportation, disabilities, low

331a
Even with H.B. 2023’s limitations, the burden on
early voters to return their early mail ballots is less
severe than the burden on in-person voters, who must
travel to a designated polling place or vote center on
Election Day, often necessitating taking time off work
and waiting in line. Indeed, the burden on early mail
voters is less severe even than the burden on early inperson voters, who must travel to a designated early
voting location during the 27-day early voting period.
Plaintiffs do not contend that the more onerous travel
required of in-person voters is unconstitutionally
burdensome, nor would the law support such an
argument.
For example, in Crawford the Supreme Court
considered whether Indiana’s voter identification law,
which required in-person voters to present photo
identification, unconstitutionally burdened the right
to vote. 553 U.S. at 185. A voter who had photo
identification but was unable to present it on Election
Day, or a voter who was indigent or had a religious
objection to being photographed, could cast a
provisional ballot, which then would be counted if the
voter traveled to the circuit court clerk within ten days

education attainment, and residential instability. (Tr. 2263.)
But H.B. 2023 does not impose these conditions on any voter. The
sole burden H.B. 2023 imposes is the burden of traveling to a mail
box, post office, early ballot drop box, polling place or vote center,
or authorized election official’s office, either personally or with
authorized assistance, during a 27-day early voting period. The
socioeconomic circumstances cited by Plaintiffs might explain
why this process is more difficult for some voters than others, but
those circumstances are not themselves the burden imposed by
the challenged law.

332a
after the election and either presented photo
identification or executed an affidavit. Id. at 185–86.
In his controlling opinion upholding the
constitutionality of the challenged law, Justice
Stevens explained “[t]he burdens that are relevant to
the issue before us are those imposed on persons who
are eligible to vote but do not possess a current photo
identification that complies with the requirements of”
the challenged law.
Id. at 198.
The Court
characterized these burdens as “the inconvenience of
making a trip to the [Indiana Bureau of Motor
Vehicles], gathering the required documents, and
posing for a photograph,” to obtain the required
identification, and concluded that this process “does
not qualify as a substantial burden on the right to
vote, or even represent a significant increase over the
usual burdens of voting.”9 Id. The Court also reasoned
that “[t]he severity of that burden is . . . mitigated by
the fact that, if eligible, voters without photo
identification may cast provisional ballots that will
ultimately be counted,” although to do so voters would
need to make two trips: one to vote in the first
instance and another to the circuit court clerk’s office.
Id. at 199.
At most, H.B. 2023 requires only that early mail
voters make the first trip described in Crawford—the
trip to vote. Further, the trip H.B. 2023 requires
voters to make is less burdensome because an Arizona
9

The Supreme Court did not characterize the burdens
imposed by Indiana’s photo identification law as the
circumstances of particular voters that made it harder to obtain
the required identification. Rather, those conditions informed
the analysis of the severity of the burden on discrete subgroups.

333a
early mail voter has 27 days in which to make it, can
choose between traveling to the nearer and most
convenient of either a personal mailbox, post office,
early ballot drop box, polling place or vote center, or
authorized election official’s office, and can have a
family member, household member, or caregiver make
the trip on her behalf. Voting early by mail in Arizona
is far easier than traditional, in-person voting on
Election Day, and if laws that do not “represent a
significant increase over the usual burdens of voting”
do not severely burden the franchise, id. at 198, it is
illogical to conclude that H.B. 2023 imposes a severe
burden on Arizona voters.
For
these
reasons,
Plaintiffs’
Fourteenth
Amendment challenge is best understood as follows:
H.B. 2023 has no impact on the vast majority of
Arizona voters, but its limitations on who may return
a voter’s early mail ballot present special difficulties
for a small subset of socioeconomically disadvantaged
voters. When evaluating the severity of burdens
imposed by a challenged law, “courts may consider not
only a given law’s impact on the electorate in general,
but also its impact on subgroups, for whom the burden,
when considered in context, may be more severe.”
Pub. Integrity Alliance, 836 F.3d at 1024 n.2 (citing
Crawford, 553 U.S. at 199–203, 212–17 (Souter, J.,
dissenting)). But to do so, the challengers must
present sufficient evidence to enable the court to
quantify the magnitude of the burden imposed on the
subgroup. Id.; see also Ne. Ohio Coal. for the Homeless
v. Husted, 837 F.3d 612, 631–32 (6th Cir. 2016)
(explaining that, even under this “more liberal
approach to burden measuring,” the record must
contain “quantifiable evidence from which an arbiter

334a
could gauge the frequency with which this narrow
class of voters has been or will become disenfranchised
as a result of” the challenged law).
Thus,
in
Crawford
the
Supreme
Court
acknowledged that Indiana’s voter identification law
might place “a somewhat heavier burden . . . on a
limited number of persons,” such as “elderly persons
born out of State, who may have difficulty obtaining a
birth certificate; persons who because of economic or
other personal limitations may find it difficult either
to secure a copy of their birth certificate or to assemble
the other required documentation to obtain a stateissued identification; homeless persons; and persons
with a religious objection to being photographed.” 553
U.S. at 199. But the Court declined to consider these
burdens because “on the basis of the evidence in the
record it [was] not possible to quantify either the
magnitude of the burden on this narrow class of voters
or the portion of the burden imposed on them that
[was] fully justified.” Id. at 200.
Like in Crawford, this Court has insufficient
evidence from which to measure the burdens on
discrete subsets of voters. The Court cannot quantify
with any degree of certainty “the number of registered
voters” who, in past elections, returned early mail
ballots with the assistance of ballot collectors who do
not fall within H.B. 2023’s exceptions. Id. at 200. The
Court therefore cannot determine how frequently
voters will be impacted by H.B. 2023’s limitations.
And of the nebulous “thousands” who, in past
elections, have entrusted their ballots to third parties,
there is insufficient “concrete evidence” for the Court
to gauge the magnitude of that burden or the portion
of it that is justified. Id. at 201. Stated differently, it

335a
is not enough to know roughly how many voters have
used ballot collection services—which, in any event,
the Court cannot determine on this record. The Court
also needs to know why voters used these services so
that it may determine whether those voters did so out
of convenience or personal preference, as opposed to
meaningful hardship, and whether other aspects of
Arizona’s election system adequately mitigate those
burdens.
The evidence available largely shows that voters
who have used ballot collection services in the past
have done so out of convenience or personal
preference, or because of circumstances that Arizona
law adequately accommodates in other ways. Joseph
Larios, a community advocate who has collected
ballots in past elections, testified that in his
experience returning early mail ballots presents
special challenges for communities that lack easy
access to outgoing mail services; the elderly,
homebound, and disabled voters; socioeconomically
disadvantaged
voters
who
lack
reliable
transportation; voters who have trouble finding time
to return mail because they work multiple jobs or lack
childcare services; and voters who are unfamiliar with
the voting process and therefore do not vote without
assistance or tend to miss critical deadlines. (Tr. 416–
26, 432–39.)
As to this latter category of voters who, due either
to forgetfulness or unfamiliarity with the voting
process, choose not to vote or neglect to mail their
ballots in time for them to reach the county recorder
by 7:00 p.m. on Election Day, H.B. 2023 does not
impose a severe burden. Remembering relevant
election deadlines “does not qualify as a substantial

336a
burden on the right to vote, or even represent a
significant increase over the usual burdens of voting.”
Crawford, 553 U.S. at 198. Moreover, nothing in H.B.
2023 prohibits Plaintiffs or other organizations from
educating voters and offering assistance in
understanding and completing a ballot.
As for the other types of voters Larios identified,
Arizona accommodates many of the circumstances
that tend to make voting in general (and not just early
mail voting) more difficult for them. For example, all
counties must provide special election boards for
voters who cannot travel to a polling location because
of an illness or disability. A.R.S. § 16-549. If an ill or
disabled voter timely requests an accommodation, the
county recorder must arrange for a special election
board to deliver a ballot to the voter in person.
Although relatively few voters are aware of this
service (Tr. 864–65), nothing in H.B. 2023 prevents
Plaintiffs from educating voters about the special
election board option and assisting them in making
those arrangements. Arizona also allows curbside
voting at polling places, where election officials will go
out to a vehicle to assist voters as necessary.10
For working voters, Arizona law requires employers
to give an employee time off to vote if the employee is
scheduled to work a shift on Election Day that

10 It is of no moment that entrusting a ballot to a volunteer is
relatively more convenient than arranging a special election
board. In Crawford, voting without the required identification
certainly would have been easier than voting provisionally and
then travelling to the circuit court clerk’s office within ten days.
Nonetheless, the controlling opinion found this option to be an
adequate mitigating alternative.

337a
provides fewer than three consecutive hours between
either the opening of the polls and the beginning of the
shift, or the end of the shift and the closing of the polls.
A.R.S. § 16-402. An employer is prohibited from
penalizing an employee for exercising this right. If
voters nonetheless feel uncomfortable requesting time
off, they have a 27-day window to vote in person at an
on-site early voting location. Additionally, even under
H.B. 2023 voters with transportation difficulties or
time limitations may entrust their early ballots to
family members, household members, caregivers, or
elections officials.
The testimony of individual voters who have used
ballot collection services in past elections largely
confirms that H.B. 2023 does not impose significant
burdens. Five voters testified at trial about their
personal experiences with ballot collectors: Nellie
Ruiz, Carolyn Glover, Daniel Magos, Carmen Arias,
and Marva Gilbreath. None of these voters would be
severely burdened by H.B. 2023’s limitations.
Ruiz, a 71-year-old early mail voter in Phoenix,
testified that she typically asks her neighbor to return
her ballot because her rheumatoid arthritis and
deteriorating eyesight make it difficult for her to
return it personally. Ruiz lives with her adult son and
daughter-in-law.
Although Ruiz has a personal
mailbox, she prefers not to mail important documents,
like bill payments and ballots. Instead, her son
delivers her bill payments whenever he delivers his
own mail. Ruiz testified that she preferred to give her
ballot to her neighbor because she “didn’t want to
impose on [her] children,” but could not explain why
her son could not return her ballot the same way he
returns her bills, or why asking him to deliver a ballot

338a
was any more of an imposition than asking him to
deliver her bills. Ruiz also was not aware that her son
could drop off her ballot when he goes to the polls to
vote in person. Ruiz testified that she was not able to
give her early mail ballot to her neighbor during the
2016 general election because of H.B. 2023.
Nonetheless, Ruiz successfully returned her ballot by
mailing it from her home mailbox. (Tr. 93–96, 98–100,
102–103, 111.)
H.B. 2023 does not burden voters like Ruiz. She
admittedly was able to mail her ballot in 2016 without
relying on her neighbor and lives with her adult son
who is capable of returning her ballots, either by mail
the same way he returns her bill payments, or at a
polling place when he votes in person.
Glover, a retired voter with mobility issues who
resides in a senior citizens apartment complex in
Phoenix, testified that prior to the 2016 general
election persons affiliated with the Democratic Party
would collet her early mail ballot. Glover initially
testified that her sister returned her ballot for her
during the 2016 election, but on cross-examination
Glover claimed her ballot was returned by her “sister
from church,” rather than a family member. Glover
testified that her apartment building has outgoing
mail, but the slots are too small for the ballot.
Although a postal worker collects mail at the building,
Glover sometimes forgets to give the postal worker her
outgoing mail. Glover testified that others in the
community have caregivers, but that she would not
feel comfortable giving her ballot to a caregiver.
Glover also testified that she was unaware she could
request to vote via a special election board. (Tr. 222–
25, 228–230, 232–33.)

339a
H.B. 2023 does not severely burden voters like
Glover, who admittedly can hand her ballot to a postal
worker, provided she remembers to do so. Further, if
Glover’s mobility issues make it difficult for her to
travel to a post office, she can request to vote via a
special election board. Nothing in H.B. 2023 prevents
volunteers from the Democratic Party from assisting
her with making those arrangements.
Magos is a 72-year-old Phoenix resident who prefers
to vote by mail. He has a home mailbox but prefers
not to use it to send important items because his
mailbox has been tampered with in the past. Magos
once gave his ballot to a collector because a flood
impacted his home and he did not want to leave his
wife alone. But in most elections, he either takes his
ballot to the post office or drops it off at a polling place.
Magos is capable of driving to a polling place and
voting in person, and he has family members who
could return his ballot if he found himself in need of
such a service, though he testified that he “would hate
to burden them with one more duty” because “they
already do enough for” him. Magos successfully voted
in 2016, even though H.B. 2023 was in effect. (Tr. 235,
238–40, 242, 247, 250.)
Arias is a registered voter in Phoenix who testified
that she once gave her ballot to a collector because her
vehicle had broken down. Additionally, Arias voted by
early ballot in the 2016 presidential preference and
general elections by driving to Democratic Party
headquarters and dropping her voted early ballots off
there, presumably so volunteers could later deliver
those ballots to an appropriate destination. Although
Arias testified that the postal service in her
neighborhood is unreliable, she did not explain why

340a
she could drive her ballots to Democratic Party
headquarters but not to a post office, early ballot drop
box, polling location, or elections office. (Tr. 1166–68,
1173.)
The only early mail voter who testified that she did
not vote during the 2016 general election was
Gilbreath, a 72-year-old Laveen resident. Gilbreath
testified that she has mobility issues due to her
arthritis. During the 2014 election, Gilbreath gave her
early mail ballot to a friend because she waited too
long to mail it.
Gilbreath voted in the 2016
presidential preference election by mailing her early
ballot herself. She received an early mail ballot for the
general election but did not return it because she
waited too long to mail it and was not sure where to go
to deliver it in person. Thus, Gilbreath has access to a
mailbox; she simply must remember to timely mail her
ballot.11 (Tr. 128, 130, 133, 135, 142.)
In addition to these voters, Plaintiffs designated for
admission portions of the deposition testimony of
Victor Vasquez, who said that he suffered a heart
attack during the 2014 general election and asked a
hospital nurse to return his early ballot for him, but
she refused. Accordingly, he checked himself out of
the hospital on Election Day and had a friend drive
him to a polling place, where he cast a provisional
ballot that ultimately was not counted because
Vasquez was not in his assigned precinct. (Vasquez
Dep. 15:18–18:13; 25:7–25.) The Court has concerns
11

Plaintiffs do not challenge Arizona’s requirement that early
mail ballots be received by the county recorder by 7:00 p.m. on
Election Day, which appears to cause more problems for voters
than H.B. 2023’s limitations on ballot collection.

341a
about the credibility of Vasquez’s account. If Vasquez
had already completed an early mail ballot, it is not
clear why he completed an entirely new, provisional
ballot at the polling place rather than simply drop off
the early ballot he previously completed. Vasquez also
stated that in a prior election he gave his ballot to a
friend to mail at the post office because he does not
trust the outgoing mail service where he lives, but he
did not explain whether he easily can go to the post
office on his own.
In sum, though for voters like those who testified at
trial H.B. 2023 might have eliminated a preferred or
convenient way of returning an early mail ballot, it
does not follow that what H.B. 2023 expects them to
do instead is burdensome. The Constitution does not
demand “recognition and accommodation of such
variable personal preferences, even if the preferences
are shown to be shared in higher numbers by members
of certain identifiable segments of the voting public.”
Ohio Democratic Party, 834 F.3d at 630. Nor does it
require states to prioritize voter convenience above all
other regulatory considerations. Id. at 629. H.B. 2023
has no impact on the vast majority of Arizona voters,
and the Court lacks sufficient evidence to assess
whether the law imposes a more severe burden for
discrete subsets of voters. The evidence that was
adduced at trial, however, indicates that, for many,
ballot collection is used out of convenience and not
because the alternatives are particularly difficult.
2. Burden on Associational Rights
In Count V of their Second Amended Complaint,
Plaintiffs alleged that H.B. 2023 unjustifiably
infringes upon Plaintiffs’ associational rights, as

342a
distinct from voting rights. (Doc. 233 ¶¶ 112–115.)
The parties’ joint proposed pretrial order, however,
does not include this claim as a contested issue of fact
and law. Instead, the proposed pretrial order states
that Plaintiffs challenge H.B. 2023 under the
Fourteenth Amendment only “because it imposes
burdens on voters that outweigh the state’s interest in
this policy.” (Doc. 360 at 7.) Although Plaintiffs’
pretrial brief asserts that H.B. 2023 “infringes on the
right to associate,” it does not elaborate further on the
issue. (Doc. 359 at 6.) Moreover, Plaintiffs’ proposed
findings of fact and conclusions of law contain no
proposed factual findings or legal conclusions
regarding H.B. 2023’s impact on associational rights.
(Doc. 362 ¶ 131.) Defendants did not brief the
associational rights issue because, based on the
parties’ joint description of contested issues in the
joint proposed pretrial order, they understood that
Plaintiffs would not be seeking to prove that claim at
trial. (Doc. 356 at 11 n.6.) Plaintiffs did not seriously
advance this issue at trial, though when asked
whether the claim still is at issue, Plaintiffs’
responded affirmatively and explained that the claim
is “part and parcel of our Anderson/Burdick claim.”
(Tr. 1500.)
To the extent this claim has not been abandoned,
Plaintiffs have offered no evidence or argument that
would lead the Court to deviate from the conclusion it
reached at the preliminary injunction stage, where
Plaintiffs argued that H.B. 2023 burdens the
associational rights of groups that encourage and
facilitate voting through ballot collection. (Doc. 85 at
16–18.) The Anderson/Burdick framework applies to
Plaintiff’s First Amendment claim. Timmons, 520

343a
U.S. at 358.
As the party invoking the First
Amendment’s protection, however, Plaintiffs bear the
additional, threshold burden of proving that it applies.
See Clark v. Cmty. for Creative Non-Violence, 468 U.S.
288, 293 n.5 (1984).
Conduct, such as collecting a ballot, is not “speech”
for purposes of the First Amendment simply because
“the person engaging in the conduct intends thereby to
express an idea.” U.S. v. O’Brien, 391 U.S. 367, 376
(1968). Rather, the First Amendment extends “only to
conduct that is inherently expressive.” Rumsfeld v.
Forum for Acad. & Institutional Rights, Inc., 547 U.S.
47, 66 (2006). The Court continues to find persuasive
the Fifth Circuit’s opinion in Voting for Am. v. Steen,
732 F.3d 382 (5th Cir. 2013), which considered a
challenge to various Texas laws that regulated the
receipt and delivery of completed voter registration
applications. The Fifth Circuit rejected the argument
that collecting and delivering voter registration
applications were inherently expressive activities
protected by the First Amendment. Id. at 392. In
doing so, the court agreed that “some voter
registration activities involve speech—’urging’
citizens to register; ‘distributing’ voter registration
forms; ‘helping’ voters fill out their forms; and ‘asking’
for information to verify registrations were processed
successfully.” Id. at 389. It determined, however, that
“there is nothing inherently expressive about
receiving a person’s completed [voter registration]
application and being charged with getting that
application to the proper place.” Id. at 392 (internal
quotation and citation omitted). Likewise, though
many GOTV activities involve First Amendment
protected activity, there is nothing inherently

344a
expressive or communicative about collecting a voter’s
completed early ballot and delivering it to the proper
place.
Moreover, assuming that H.B. 2023 implicates
protected associational rights, it does not impose
severe burdens. Nothing in H.B. 2023 prevents
Plaintiffs from encouraging, urging, or reminding
people to vote, informing and reminding them of
relevant election deadlines, helping them fill out early
ballots or request special election boards, or arranging
transportation to on-site early voting locations, post
offices, county recorder’s offices, or polling places. See
id. at 393 (noting that voter registration volunteers
remained “free to organize and run the registration
drive, persuade others to register to vote, distribute
registration forms, and assist others in filling them
out”); League of Women Voters of Fla. v. Browning, 575
F. Supp. 2d 1298, 1322 (S.D. Fla. 2008) (“[The
challenged law] does not place any restrictions on who
is eligible to participate in voter registration drives or
what methods or means third-party voter registration
organizations may use to solicit new voters and
distribute registration applications.
Instead, [it]
simply regulates an administrative aspect of the
electoral process—the handling of voter registration
applications by third-party voter registration
organizations after they have been collected from
applications.”). H.B. 2023 merely regulates who may
possess, and therefore return, another’s early ballot.
Accordingly, H.B. 2023 no more than minimally
burdens Plaintiffs’ associational rights.

345a
3. Justifications
Because H.B. 2023 no more than minimally burdens
Plaintiffs’ First and Fourteenth Amendment rights,
Defendants must show only that it serves important
regulatory interests. Wash. State Grange, 552 U.S. at
452. Defendants advance two justifications for H.B.
2023.
First, they claim that H.B. 2023 is a
prophylactic measure intended to prevent absentee
voter fraud by creating a chain of custody for early
ballots and minimizing the opportunities for ballot
tampering, loss, and destruction. Second, Defendants
argue that H.B. 2023 improves and maintains public
confidence in election integrity.
Fraud prevention and preserving public confidence
in election integrity are facially important state
regulatory interests. Purcell v. Gonzalez, 549 U.S. 1,
4 (2006) (“Confidence in the integrity of our electoral
process is essential to the functioning of our
participatory democracy. Voter fraud drives honest
citizens out of the democratic process and breeds
distrust of our government.”); Eu v. S.F. Cty.
Democratic Cent. Comm., 489 U.S. 214, 231 (1989) (“A
State indisputably has a compelling interest in
preserving the integrity of its election process.”); see
also Crawford, 553 U.S. at 195 (“There is no question
about the legitimacy or importance of the State’s
interest in counting only the votes of eligible voters. . . .
While the most effective method of preventing election
fraud may well be debatable, the propriety of doing so
is perfectly clear.”). Plaintiffs do not argue otherwise.
Instead, they argue that H.B. 2023 is unjustified
because (1) there is no evidence of absentee voter fraud
perpetrated by ballot collectors or of widespread public
perception that ballot collection leads to fraud and (2)

346a
H.B. 2023 is not an appropriately tailored means of
accomplishing Arizona’s objectives.
On the first point, there has never been a case of
voter fraud associated with ballot collection charged in
Arizona. (Tr. 1682, 1981, 2198.) Although three
specific allegations of ballot collection voter fraud have
been investigated in Arizona, none of the incidents
resulted in a criminal prosecution. (Tr. 834–37 1659,
1680–81, 2163–68, 2185–87, 2202–05; Exs. 81, 372,
400.) No specific, concrete example of voter fraud
perpetrated through ballot collection was presented by
or to the Arizona legislature during the debates on
H.B. 2023 or its predecessor bills. No Arizona county
produced evidence of confirmed ballot collection fraud
in response to subpoenas issued in this case, nor has
the Attorney General’s Office produced such
information. (Ex. 44, 65.)
The Republican National Lawyers Association
(“RNLA”) performed a study dedicated to uncovering
cases of voter fraud between 2000 and 2011.
(Tr. 1868.) The study found no evidence of ballot
collection or delivery fraud, nor did a follow-up study
through May 2015. (Ex. 91 at 19–20.) Although the
RNLA reported instances of absentee ballot fraud,
none were tied to ballot collection and delivery.
(Tr. 1368–69.)
Likewise, the Arizona Republic
conducted a study of voter fraud in Maricopa County
and determined that, out of millions of ballots cast in
Maricopa County from 2005 to 2013, a total of 34 cases
of fraud were prosecuted. Of these, 18 involved a felon
voting without her rights first being restored.
Fourteen involved non-Arizona citizens voting. The
study uncovered no cases of fraud perpetrated though
ballot collection. (Ex. 91 at 19.)

347a
As for public perception of fraud, the legislative
record contains no evidence of widespread public
concern that ballot collectors were engaging in voter
fraud.
(Ex. 91 at 19.)
H.B. 2023’s sponsor,
Representative Michelle Ugenti-Rita, was not aware
of any polling data indicating that Arizonans lacked
confidence in the State’s election system at the time
she introduced the bill. (Tr. 1805.)
Although there is no direct evidence of ballot
collection fraud or of widespread public perception
that ballot collection undermined election integrity,
Arizona’s legislature is not limited to reacting to
problems as they occur, nor is it required to base the
laws it passes on evidence that would be admissible in
court. See Voting for Am., 732 F.3d at 394 (explaining
that states “need not show specific local evidence of
fraud in order to justify preventative measures”). A
more exacting review of the evidence supporting
Arizona’s concerns might be appropriate if H.B. 2023
severely burdened the franchise. But because H.B.
2023’s burdens are at most minimal, the Court’s
review is less exacting. Timmons, 520 U.S. at 358.
For example, in Crawford the Supreme Court
upheld Indiana’s voter identification requirement as a
measure designed to prevent in-person voter fraud
even though “[t]he record contain[ed] no evidence of
any such fraud actually occurring in Indiana at any
time in its history.” 553 U.S. at 195. Similarly, in
Munro v. Socialist Workers Party, the Supreme Court
upheld a Washington law requiring all minor party
candidates for partisan office to receive at least one
percent of all votes cast during the primary election in
order to appear on the general election ballot. 479 U.S.
189 (1986).
Washington argued that the law

348a
prevented voter confusion from ballot overcrowding by
ensuring candidates appearing on the general election
ballot had sufficient community support. Id. at 194.
In upholding the law, the Supreme Court explained:
“We have never required a State to make a
particularized showing of the existence of voter
confusion, ballot overcrowding, or the presence of
frivolous candidates prior to the imposition of
reasonable restrictions on ballot access.” Id. at 194–
95. Rather, “[l]egislatures . . . should be permitted to
respond to potential deficiencies in the electoral
process with foresight rather than reactively[.]” Id. at
195; see also Lee v. Va. State Bd. of Elections, 188 F.
Supp. 3d 577, 609 (E.D. Va. 2016) (“Outlawing
criminal activity before it occurs is not only a wise
deterrent, but also sound public policy.”), aff’d, 843
F.3d 592 (4th Cir. 2016).
Furthermore, many courts have recognized that
absentee voting presents a greater opportunity for
fraud. See Crawford, 553 U.S. at 225 (Souter, J.
dissenting) (noting that “absentee-ballot fraud . . . is a
documented problem in Indiana”); Griffin v. Roupas,
385 F.3d 1128, 1131 (7th Cir. 2004) (“Voting fraud . . .
is facilitated by absentee voting.”); Qualkinbush v.
Skubisz, 826 N.E.2d 1181, 1197 (Ill. App. Ct. 2004) (“It
is evident that the integrity of the vote is even more
susceptible to influence and manipulation when done
by absentee ballot.”). Indeed, mail-in ballots by their
very nature are less secure than ballots cast in person
at polling locations. Accordingly, the Court finds that
the regulatory interests Arizona seeks to advance are
important.
The question then becomes one of means-end
tailoring. Because H.B. 2023 does not impose severe

349a
burdens, it need not be narrowly tailored to achieve
the State’s goals. Nevertheless, the Court still must
take into consideration the extent to which Arizona’s
important regulatory interests make it necessary to
impose those minimal burdens. Burdick, 504 U.S. at
434.
Plaintiffs contend that H.B. 2023 is not necessary
because Arizona law already includes measures
designed to ensure the security of early mail ballots,
and because H.B. 2023 is unlikely to be a useful tool to
prevent or deter voter fraud or to preserve public
confidence in election integrity. For example, ballot
tampering, vote buying, or discarding someone else’s
ballot all were illegal prior to the passage of H.B. 2023.
(Shooter Dep. 51:16–52:5.) Arizona law has long
provided that any person who knowingly collects voted
or unvoted ballots and does not turn those ballots in to
an elections official is guilty of a class 5 felony. A.R.S.
§ 16-1005. Further, Arizona has long made all of the
following class 5 felonies: “knowingly mark[ing] a
voted or unvoted ballot or ballot envelope with the
intent to fix an election;” “receiv[ing] or agree[ing] to
receive any consideration in exchange for a voted or
unvoted ballot;” possessing another’s voted or unvoted
ballot with intent to sell; “knowingly solicit[ing] the
collection of voted or unvoted ballots by
misrepresenting [one’s self] as an election official or as
an official ballot repository or . . . serv[ing] as a ballot
drop off site, other than those established and staffed
by election officials;” and “knowingly collect[ing] voted
or unvoted ballots and . . . not turn[ing] those ballots
in to an election official . . . or any . . . entity permitted
by law to transmit post.” A.R.S. §§ 16-1005(a)–(f). The
early voting process also includes a number of other

350a
safeguards, such as tamper evident envelopes and a
rigorous voter signature verification procedure.
(Tr. 834–35, 1563–66, 1752, 1878, 2209.)
Plaintiffs also note that, to the extent Arizona
wanted to create a chain of custody for early ballots,
the legislature rejected a less restrictive amendment
to H.B. 2023 proposed by Representative Ken Clark
and Senator Martin Quezada, which would have
allowed ballot collection if the collector issued a
tracking receipt. (Shooter Dep. at 50:21–23; Ex. 91 at
12; Ex. 16 at 54.) As enacted, H.B. 2023 is less
effective at creating a chain of custody because it
allows certain individuals to possess another’s voted
early ballot but does not require a record of that
collection. (Reagan Dep. 83:25–85:20.) H.B. 2023 also
is not enforced by county recorders. (Ex. 526 at 5 n.15;
Ex. 75.) Instead, county recorders will accept all
ballots, even those returned by prohibited possessors
under H.B. 2023.
Plaintiffs raise fair concerns about whether, as a
matter of public policy, H.B. 2023 is the best way to
achieve Arizona’s stated goals. If H.B. 2023 severely
burdened the franchise, and Arizona consequently was
required to narrowly tailor the law to achieve
compelling ends, Plaintiffs’ arguments would carry
more weight. But because H.B. 2023’s burdens are
minimal, and the Court’s review consequently less
exacting, H.B. 2023’s means-end fit can be less precise.
Defendants contend that one of H.B. 2023’s
purposes is to reduce the opportunity for early mail
ballot fraud by limiting who may possess a voter’s
early ballot. They also use the term “fraud” broadly to
encompass not just vote tampering, which is amply

351a
addressed by other provisions of Arizona law, but also
early ballot loss or destruction. By limiting who may
possess another’s early ballot, H.B. 2023 reasonably
reduces opportunities for early ballots to be lost or
destroyed.
Although Arizona’s legislature arguably could have
addressed this concern through a more narrowly
tailored, but also more complex, system of training and
registering ballot collectors and requiring tracking
receipts or other proof of delivery, the Constitution
does not require Arizona to erect such a bureaucracy
if the alternative it has chosen is not particularly
burdensome.
Arizona reasonably chose to limit
possession of early ballots to the voter herself, and to
a handful of presumptively trustworthy proxies, such
as family and household members. Indeed, H.B. 2023
closely follows the recommendation of the bipartisan
Commission on Federal Election Reform, chaired by
former President Jimmy Carter and former Secretary
of State James A. Baker III, which in 2005 wrote:
Fraud occurs in several ways. Absentee ballots
remain the largest source of potential voter
fraud. . . . Absentee balloting is vulnerable to
abuse in several ways: . . . Citizens who vote at
home, at nursing homes, at the workplace, or in
church are more susceptible to pressure, overt
and subtle, or to intimidation. Vote buying
schemes are far more difficult to detect when
citizens vote by mail. States therefore should
reduce the risks of fraud and abuse in absentee
voting by prohibiting “third-party” organizations,
candidates, and political party activists from
handling absentee ballots.

352a
Building Confidence in U.S. Elections § 5.2 (Sept.
2005)
(“Carter-Baker
Report”),
available
at
12
https://www.eac.gov/assets/1/6/Exhibit%20M.PDF.
Though it might not be the most narrowly tailored
provision, H.B. 2023 is one reasonable way to advance
what are otherwise important state regulatory
interests. Accordingly, H.B. 2023 does not violate the
First and Fourteenth Amendments.
B. Application to OOP Ballot Policy
1. Burden on Voting Rights
Arizona consistently is at or near the top of the list
of states that collect and reject the largest number of
provisional ballots each election. (Ex. 95 at 23–25.) In
2012 alone “[m]ore than one in every five [Arizona inperson] voters . . . was asked to cast a provisional
ballot, and over 33,000 of these—more than 5 percent
of all in-person ballots cast—were rejected. No other
state rejected a larger share of its in-person ballots in
2012.” (Ex. 95 at 24–25.) Interstate comparisons of
12

The Carter-Baker Report was not offered into evidence by
either party. It was part of the record in Crawford, however, and
the Supreme Court cited it favorably. 553 U.S. at 193. It also
was cited favorably by Judge Bybee in his dissent from the en
banc Ninth Circuit panel’s November 4, 2016 order temporarily
enjoining enforcement of H.B. 2023 pending en banc review of
this Court’s order denying a preliminary injunction. See Feldman
v. Ariz. Sec. of State’s Office, 843 F.3d 366, 414 (9th Cir. 2016)
(Bybee, J. dissenting). The Court may take judicial notice of the
Carter-Baker Report’s recommendations pursuant to Federal
Rule of Evidence 201. The Carter-Baker Report is a government
document publicly available on the United States Election
Assistance Commission’s website. Though Plaintiffs might
disagree with the Carter-Baker Report’s recommendations, their
continued validity, or their relevance to this case, there is no
question that this recommendation was made and is authentic.

353a
provisional voting are complicated, however, because
states use provisional ballots in different ways, and
some states do not utilize provisional voting in any
form.
For example, nationwide a much higher
proportion of provisional votes are rejected for reasons
not specified or because the voter voted in an incorrect
jurisdiction, as compared to Arizona. Moreover, the
overall number of provisional ballots in Arizona, both
as a percentage of the registered voters and as a
percentage of the number of ballots cast, has
consistently declined.
One of the most frequent reasons that provisional
ballots are rejected in Arizona is because they are cast
OOP. (Ex. 95 at 22–29.) Arizona’s rejection of OOP
ballots, however, has no impact on the vast majority of
Arizona voters. Early mail voting is the most popular
method of voting in Arizona, accounting for
approximately 80 percent of all ballots cast in the 2016
election. Voters who cast early mail ballots are
unaffected by Arizona’s policy to not count OOP
ballots. Likewise, this policy has no impact on voters
in Graham, Greenlee, Cochise, Navajo, Yavapai, and
Yuma counties, which have adopted the vote center
model.
Moreover, the vast majority of in-person voters
successfully vote in their assigned precincts, and OOP
voting has consistently declined as a percentage of the
total ballots cast in Arizona. In the 2008 general
election, Arizona voters cast 14,885 OOP ballots out of
the 2,320,851 ballots cast statewide, meaning OOP
ballots constituted 0.64 percent of all votes cast in that
election. In the 2012 general election, Arizona voters
cast 10,979 OOP ballots out of the 2,323,579 ballots
cast statewide, accounting for 0.47 percent of all votes

354a
cast. In that same election, 1,542,855 Arizona voters
submitted early ballots, and more than 99 percent
were counted. In the 2016 general election, Arizona
voters cast 3,970 OOP ballots out of the 2,661,497
ballots cast statewide, representing 0.15 percent of all
votes cast. Since 2008, OOP voting during general
presidential elections has declined 73 percent
statewide, dropping from 14,885 in 2008 to 3,970 in
the 2016 election. (Tr. 1927–32; Exs. 578, 581.)
OOP voting has declined in midterm elections, as
well. In the 2010 general election, Arizona voters cast
4,919 OOP ballots out of the 1,750,840 ballots cast
statewide, constituting 0.28 percent of all votes cast.
By comparison, in the 2014 general election, Arizona
voters cast 3,582 OOP ballots out of the 1,537,671
ballots cast statewide, constituting 0.23 percent of all
votes cast. During this same period, the number of
registered voters in Arizona increased as follows:
2,987,451 in 2008; 3,146,418 in 2010; 3,124,712 in
2012; 3,235,963 in 2014; and 3,588,466 in 2016. (Exs.
577, 578.)
These trends also hold true at the county level. For
example, Maricopa County (Arizona’s most populous)
has experienced a consistent decline in the number of
OOP ballots, both in terms of raw numbers and as a
percentage of the total ballots cast. In the 2008
general election, Maricopa County voters cast 9,159
OOP ballots out of the 1,380,571 ballots cast
countywide, accounting for 0.66 percent of the all votes
cast. In the 2012 general election, Maricopa County
voters cast 7,529 OOP ballots out of the 1,390,836
ballots cast countywide, representing 0.54 percent of
all votes. In the 2016 general election, Maricopa
County voters cast 2,197 OOP ballots out of the

355a
1,608,875 ballots cast countywide, representing 0.14
percent of all votes cast. Likewise, in the 2010 general
midterm election, Maricopa County voters cast 3,527
OOP ballots out of the 1,004,125 ballots cast
countywide, accounting for 0.35 percent of all votes. In
the 2014 general election, Maricopa County voters cast
2,781 OOP ballots out of the 877,187 ballots cast
countywide, constituting 0.32 percent of all votes.
Between 2008 and 2016, Maricopa County had a
staggering decrease of 76 percent in the raw number
of OOP ballots. During this same period, the number
of registered voters in Maricopa County increased as
follows:
1,730,886 in 2008; 1,851,956 in 2010;
1,817,832 in 2012; 1,935,729 in 2014; and 2,161,716 in
2016. (Exs. 579, 582.)
Pima County (Arizona’s second most populous) also
has experienced a consistent decline in OOP voting. In
the 2008 general election, Pima County voters cast
3,227 OOP ballots out of the 397,503 ballots cast
countywide, accounting for 0.81 percent of all votes. In
the 2012 general election, Pima County voters cast
2,212 OOP ballots out of the 385,725 ballots cast
countywide, accounting for 0.57 percent of all votes. In
the 2016 general election, Pima County voters cast
1,150 OOP ballots out of the 427,102 ballots cast
countywide, representing 0.27 percent of all votes. As
for Pima County midterm elections, in the 2010
general election Pima County voters cast 641 OOP
ballots out of the 318,995 ballots cast countywide, or
0.20 percent of all votes. By comparison, in the 2014
general election, Pima County voters cast just 371
OOP ballots out of the 274,449 ballots cast
countywide, constituting 0.14 percent of the total
ballots. The raw number of OOP ballots thus dropped

356a
by 64 percent in Pima County between 2008 and 2016.
During this same period, the number of registered
voters in Pima County increased as follows: 498,777
in 2008; 486,697 in 2010; 494,630 in 2012; 497,542 in
2014; and 544,270 in 2016. (Exs. 580, 583.)
In light of these figures, and much like their H.B.
2023 claim, Plaintiffs’ challenge to Arizona’s
treatment of OOP ballots is best described as follows:
Arizona’s rejection of OOP ballots has no impact on the
vast majority of Arizona voters, though a small subset
of voters is affected more often because of their special
circumstances.
But Plaintiffs’ contention that
Arizona’s rejection of OOP ballots severely burdens
this small subset of voters is unavailing for two
independent reasons.
First, Plaintiffs do not directly challenge the
electoral practices actually responsible for higher
rates of OOP voting. For example, high rates of
residential mobility are associated with higher rates of
OOP voting. Almost 70 percent of Arizonans have
changed their residential address in the decade
between 2000 and 2010, the second highest rate of any
state. The vast majority of Arizonans who moved in
the last year moved to another address within their
current city of residence and, compared with other
states, Arizona has the second highest rate of withincity moves. Most of these within-city moves took place
in Maricopa and Pima Counties. (Ex. 95 at 11–12.)
Relatedly, rates of OOP voting are higher in
neighborhoods where renters make up a larger share
of householders. (Ex. 96 at 41.) One significant reason
residential mobility tends to result in higher rates of
OOP voting is because voters who move sometimes
neglect to timely update their voter registration. (See,

357a
e.g., Tr. 602–06.) Relatedly, voters registered for
PEVL who move and do not update their address
information will not have their early ballot forwarded
to their new address. Arizona in-person voters are
more likely to vote OOP if they have signed up for the
PEVL and have moved. (See, e.g., Tr. 124, 987–89.)
Additionally, changes in polling locations from
election to election, inconsistent election regimes used
by and within counties, and placement of polling
locations all tend to increase OOP voting rates.
(Ex. 95 at 12–15, 26–27, 44–52, 54–58.) In Maricopa
County, between 2006 and 2008 at least 43 percent of
polling locations changed from one year to the next.
Likewise, approximately 40 percent of Maricopa
County’s active registered voters’ polling locations
changed between 2010 and 2012.
Changes in
Maricopa County polling locations and election
regimes continued to occur in 2016, when Maricopa
County experimented with 60 vote centers for the
presidential preference election, then reverted to a
precinct-based system with 122 polling locations for
the May special election, and then implemented over
700 assigned polling places in the August primary and
November general elections. The OOP voting rate was
40 percent higher for voters who had experienced such
polling place changes. (Ex. 95 at 14–15, 56–57.)
Further, some individual voters testified that they
arrived at an incorrect polling place but were not
redirected by poll workers to the correct location, nor
were the implications of casting a provisional ballot
explained. These voters stated that they would have
gone to the correct polling location had they been so
advised. (Tr. 120, 265–66, 352–54, 493, 935–36.)

358a
Plaintiffs do not challenge as unconstitutional the
manner in which Arizona and its counties allocate or
relocate polling places, inform voters of their assigned
precincts, or train poll workers. They do not challenge
Arizona’s requirement that voters update their voter
registrations after moving to a new address. Nor do
Plaintiffs challenge Arizona’s use of the precinct-based
system, though the logical implication of their
argument is that Arizona may utilize a precinct-based
system but cannot enforce it as to races for which an
OOP voter otherwise would be eligible to vote (usually
so-called “top of the ticket” races). (Tr. 1495–96.)
Instead, Plaintiffs challenge what Arizona does with
OOP ballots after they have been cast. But there is no
evidence that it will be easier for voters to identify
their correct precincts if Arizona eliminated its
prohibition on counting OOP ballots. Though the
consequence of voting OOP might make it more
imperative for voters to correctly identify their
precincts, it does not increase the burdens associated
with doing so.
Second, the burdens imposed by precinct-based
voting—a system which, again, Plaintiffs do not
directly challenge—are not severe. Precinct-based
voting merely requires voters to locate and travel to
their assigned precincts, which are ordinary burdens
traditionally associated with voting.13 See Colo.
13 Plaintiffs again conflate the burdens imposed by the
(indirectly) challenged practice with the socioeconomic
circumstances that can make those burdens more difficult for
certain subsets of voters to surmount. Arizona’s precinct-based
system does not impose residential instability, transportation
difficulties, or informational deficits on any voter. These
circumstances exist independent of the precinct-based system.

359a
Common Cause v. Davidson, No. 04CV7709, 2004 WL
2360485, at *14 (Colo. Dist. Ct. Oct. 18, 2004) (“[I]t
does not seem to be much of an intrusion into the right
to vote to expect citizens, whose judgment we trust to
elect our government leaders, to be able to figure out
their polling place.”); see also Serv. Emps. Int’l Union
Local 1 v. Husted, 698 F.3d 341, 344 (6th Cir. 2012)
(explaining that voters cannot be absolved “of all
responsibility for voting in the correct precinct or
correct polling place by assessing voter burden solely
on the basis of the outcome—i.e., the state’s ballot
validity determination”).
Moreover, Arizona does not make it needlessly
difficult for voters to find their assigned precincts.
Indeed, a 2016 Survey of Performance of American
Elections (“SPAE”) found that none of the survey
respondents for Arizona reported that it was “very
difficult” to find their polling places. By comparison,
several other states had respondents who reported
that it was very difficult to find their polling places.
The 2016 SPAE also reported that approximately 94
percent of the Arizona respondents thought it was very
easy or somewhat easy to find their polling places.
(Tr. 1350–51.)
In Arizona counties with precinct-based systems,
voters generally are assigned to precincts near where
they live, and county officials consider access to public
transportation when assigning polling places.
(Tr. 1570–73.) Arizona voters also can learn of their
Instead, the precinct-based system imposes on voters the burden
of locating and travelling to an assigned precinct, which might be
more difficult for some voters to do because of their
circumstances.

360a
assigned precincts in a variety of ways. (See Ex. 526
at 11–18.)
If precincts or polling places have been altered since
the previous election, registered voters are sent a
mailing informing them of this fact and of where their
new polling places are located. (Tr. 1575–76.) State
law requires that election officials send each
household with a registered voter who is not on the
PEVL a sample ballot at least eleven days prior to
election day, A.R.S. § 16-510(C), which contains
instructions and identifies their polling location. (Doc.
361 ¶ 52.) The Secretary of State’s Office operates
several websites that make voter-specific polling place
information available and allow the Secretary’s staff
to respond directly to voter inquiries. The Secretary of
State’s Office also mails a publicity pamphlet to voters,
which includes information on how to locate their
correct precincts. This information is provided in
English and Spanish. The Secretary also uses social
media, town halls, and live events (such as county and
state fairs) to register voters and answer questions.
In addition, several Arizona counties, including
Maricopa and Pima Counties, operate online polling
place locators that are available in English and
Spanish. Voters also can learn their assigned polling
locations by calling the office of the county recorder for
the county in which they reside. Counties spread
awareness about polling place locations and the
consequences of OOP voting through news and social
media. This information is communicated in both
English and Spanish. Some counties—including the
state’s most populous, Maricopa and Pima—post signs
at polling places informing voters that OOP ballots
will not be counted. (Tr. 1586–88; Ex. 368.) Poll

361a
workers also are trained to direct voters who appear
at an incorrect polling location to their correct polling
location and to notify such voters that their votes will
not be counted if they vote with a provisional ballot at
the wrong location.
The Arizona Citizens Clean Elections Commission
(“CCEC”) operates a website in English and Spanish
that provides a tool for voters to determine their
polling place. The CCEC also engages in advertising
to help educate voters on where to vote. Partisan
groups, such as the ADP and political campaigns, also
help educate voters on how to find their assigned
polling places. (Tr. 1575–76.)
In sum, Arizona’s rejection of OOP ballots has no
impact on the vast majority of voters. Although a
small and ever-dwindling subset of voters still vote
OOP, how Arizona treats OOP ballots after they have
been cast does not make it difficult for these voters to
find and travel to their correct precincts. To the extent
Plaintiffs’ claim may properly be considered as an
indirect challenge to Arizona’s strictly enforced
precinct-based system, the burdens imposed on voters
to find and travel to their assigned precincts are
minimal and do not represent significant increases in
the ordinary burdens traditionally associated with
voting. Moreover, for those who find it too difficult to
locate their assigned precinct, Arizona offers generous
early mail voting alternatives.14

14

If a voter is capable of travelling to an incorrect precinct,
she certainly is capable of mailing an early ballot. Moreover,
early mail voters may drop their ballots off at any polling place,
even one to which they are not assigned.

362a
2. Justifications
Weighing against the minimal burdens imposed by
precinct-based voting are numerous important state
regulatory interests. Precinct-based voting serves an
important planning function for Arizona counties by
helping them estimate the number of voters who may
be expected at any particular precinct, which allows
for better allocation of resources and personnel. In
turn, orderly administration of elections helps to
increase voter confidence in the election system and
reduces wait times. (Tr. 1608–10, 1896–913.) Because
elections involve many different overlapping
jurisdictions, the precinct-based system also ensures
that each voter receives a ballot reflecting only the
races for which that person is entitled to vote.
Precincts must be created, and ballots printed, so that
the residential address of every voter is connected to
the correct assortment of local elected officials. The
system thus promotes voting for local candidates and
issues and helps make ballots less confusing by not
providing voters with ballots that include races for
which they are not eligible to vote. (Ex. 95 at 10; Doc.
361 ¶ 47.)
Indeed, other courts have recognized
numerous and significant advantages:

these

[Precinct-based voting] caps the number of voters
attempting to vote in the same place on election
day; it allows each precinct ballot to list all of the
votes a citizen may cast for all pertinent federal,
state, and local elections, referenda, initiatives,
and levies; it allows each precinct ballot to list
only those votes a citizen may cast, making
ballots less confusing; it makes it easier for

363a
election officials to monitor votes and prevent
election fraud; and it generally puts polling
places in closer proximity to voter residences.
Sandusky Cty. Democratic Party v. Blackwell, 387
F.3d 565, 569 (6th Cir. 2004).
Plaintiffs do not quarrel with the importance or
legitimacy of these interests or contest that precinctbased voting brings significant advantages. Instead,
they argue that Arizona need not reject OOP ballots in
their entirety to accomplish these goals. Plaintiffs
contend that Arizona can just as easily accomplish
these goals and reap these benefits by partially
counting OOP ballots, accepting votes in races for
which the voter is eligible to vote and rejecting votes
in races for which the voter is not.
Counting OOP ballots is administratively feasible.
Twenty states partially count OOP ballots. (Ex. 94 at
32–33.) These include the neighboring states of
California, Utah, and New Mexico. Cal. Elec. Code
§§ 14310(a)(3), 14310 (c)(3), 15350; Utah Code Ann.
§ 20A-4-107(1)(b)(iii), 2(a)(ii), 2(c); N.M. Stat. Ann § 112-25.4(F); N.M. Admin. Code 1.10.22.9(N). Elections
administrators in these and other states have
established processes for counting only the offices for
which the OOP voter is eligible to vote. Some states,
such as New Mexico, use a hand tally procedure,
whereby a team of elections workers reviews each
OOP ballot, determines the precinct in which the voter
was qualified to vote, and marks on a tally sheet for
that precinct the votes cast for each eligible office. See
N.M. Admin Code 1.10.22.9(H)–(N). Other states,
such as California, use a duplication method, whereby
a team of elections workers reviews each OOP ballot,

364a
determines the precinct in which the voter was
qualified to vote, obtains a new paper ballot for the
correct precinct, and duplicates the votes cast on the
OOP ballot onto the ballot for the correct precinct.
Only the offices that appear on both the OOP ballot
and the ballot for the correct precinct are copied. The
duplicated ballot then is scanned through the optical
scan voting machine and electronically tallied.
(Tr. 777–81.)
Arizona has a similar duplication procedure that it
uses to process certain types of ballots that cannot be
read by an optical scan voting machine, such as ballots
that are damaged, marked with the wrong color pen,
or submitted to the county recorder by a military or
overseas voter via facsimile. (Tr. 1564–66; Ex. 455 at
177–78.) Arizona also uses the duplication procedure
to process some provisional ballots cast by voters who
are eligible to vote in federal elections, but whom
Arizona does not permit to vote in state elections.
(Ex. 455 at 187.) This duplication procedure takes
about twenty minutes per ballot. (Tr. 1604–606.)
If strict scrutiny applied and Arizona were required
to narrowly tailor its precinct enforcement to achieve
compelling state interests, Plaintiffs’ critiques might
carry more weight. But in light of the minimal
burdens associated with the precinct-based system,
Arizona’s policy need not be the narrowest means of
enforcement.
Moreover, Plaintiffs are incorrect that Arizona can
accomplish all of its goals without its strict
enforcement regime.
If voters in precinct-based
counties can have their ballots counted for statewide
and countywide races even if they vote in the wrong

365a
precinct, they will have far less incentive to vote in
their assigned precincts and might decide to vote
elsewhere. Other voters might incorrectly believe that
that they can vote at any location and receive the
correct ballot. Voters might also be nefariously
directed to vote elsewhere. North Carolina, for
example, has experienced a problem with “political
organizations intentionally transporting voters to the
wrong precinct.” See N.C. State Conf. of the NAACP v.
McCrory, 182 F. Supp. 3d 320, 461 (M.D.N.C. 2016)
rev’d on other grounds, 831 F.3d 204 (4th Cir. 2016).
This, in turn, would undermine both the ability of
Arizona counties to accurately estimate the number of
voters who may be expected at any particular precinct
and allocate appropriate resources and personnel, and
Arizona’s goal of promoting voting for local candidates.
Consequently, if OOP ballots are partially counted in
Arizona, candidates for local office will have to expend
resources to educate voters on why it nevertheless is
important to vote within their assigned precincts.
Moreover, requiring counties to review all OOP ballots
for any given election and determine the specific
contests in which each voter was eligible to vote would
impose a significant financial and administrative
burden on Maricopa and Pima Counties because of
their high populations.
Plaintiffs’ requested relief essentially would
transform
Arizona’s
precinct-based
counties,
including its two most populous, into quasi-vote-center
counties. But the vote-center model is not appropriate
for every jurisdiction. Compared to precinct-based
polling places, it can be difficult for counties to predict
the number of voters at each vote center.
Consequently, vote centers can cause voter wait times

366a
to increase, with corresponding decreases in turnout,
due to the potential for uneven distribution of voters.
(Tr. 1607–611, 1896–913.) Plaintiffs’ requested relief
therefore would deprive precinct-based counties of the
full range of benefits that correspond with the
precinct-based system.
Precinct-based voting is a quintessential time,
place, and manner election regulation. Arizona’s
policy to not count OOP ballots is one mechanism by
which it enforces and administers this precinct-based
system to ensure that it reaps the full extent of its
benefits. This policy is sufficiently justified in light of
the minimal burdens it imposes.
Accordingly,
Arizona’s rejection of OOP ballots does not violate the
Fourteenth Amendment.
VI. SECTION 2 OF THE VOTING RIGHTS ACT
(RESULTS TEST)
“Inspired to action by the civil rights movement,
Congress responded in 1965 with the Voting Rights
Act.” Shelby Cty. v. Holder, 570 U.S. 529, 536 (2013).
In its original form, § 2 of the VRA prohibited all states
from enacting any “standard, practice, or procedure . . .
imposed or applied . . . to deny or abridge the right of
any citizen of the United States to vote on account of
race or color.” Id. (quoting § 2, 79 Stat. 437).
“At the time of passage of the Voting Rights Act of
1965, § 2, unlike other provisions of the Act, did not
provoke significant debate in Congress because it was
viewed largely as a restatement of the Fifteenth
Amendment.” Chisom v. Roemer, 501 U.S. 380, 392
(1991). The Supreme Court took a similar view,
holding in a 1980 plurality opinion that “the language
of § 2 no more than elaborates upon that of the

367a
Fifteenth Amendment,” and therefore § 2 is violated
only if a state enacted the challenged law with the
intent to discriminate on account of race or color. City
of Mobile v. Bolden, 446 U.S. 55, 60–62 (1980)
(plurality opinion).
In 1982, in response to the Supreme Court’s opinion
in Bolden, “Congress substantially revised § 2 to make
clear that a violation could be proved by showing
discriminatory effect alone[.]” Thornburg v. Gingles,
478 U.S. 30, 35 (1986). In its current form, § 2
provides:
(a) No voting qualification or prerequisite to
voting or standard, practice, or procedure shall be
imposed or applied by any State or political
subdivision in a manner which results in a denial
or abridgement of the right of any citizen of the
United States to vote on account of race or color,
or in contravention of the guarantees set forth in
section 10303(f)(2) of this title, as provided in
subsection (b).
(b) A violation of subsection (a) is established if,
based on the totality of circumstances, it is shown
that the political processes leading to nomination
or election in the State or political subdivision are
not equally open to participation by members of
a class of citizens protected by subsection (a) in
that its members have less opportunity than
other members of the electorate to participate in
the political process and to elect representatives
of their choice.
52 U.S.C. § 10301. To succeed on a § 2 claim, a
plaintiff now may show either that the challenged law
was enacted with the intent to discriminate on account

368a
of race or color, or that “under the totality of the
circumstances, a challenged election law or procedure
ha[s] the effect of denying a protected minority equal
chance to participate in the electoral process.”
Gingles, 478 U.S. at 44 n.8. “The essence of a § 2
claim” brought under the so-called “effects” or “results
test” “is that a certain electoral law, practice, or
structure interacts with social and historical
conditions to cause an inequality in the opportunities
enjoyed by [minority and non-minority] voters to elect
their preferred representatives.” Id. at 47.
When determining whether, under the totality of
the circumstances, a challenged voting practice
interacts with social and historical conditions to cause
inequality in the electoral opportunities of minority
and non-minority voters, courts may consider, as
relevant, the following factors derived from the Senate
Report accompanying the 1982 amendments to the
VRA (“Senate Factors”):
1.
the extent of any history of official
discrimination in the state or political
subdivision that touched the right of the
members of the minority group to register, to
vote, or otherwise to participate in the democratic
process;
2. the extent to which voting in the elections of
the state or political subdivision is racially
polarized;
3. the extent to which the state or political
subdivision has used unusually large election
districts, majority vote requirements, anti-single
shot provisions, or other voting practices or

369a
procedures that may enhance the opportunity for
discrimination against the minority group;
4. if there is a candidate slating process, whether
the members of the minority group have been
denied access to that process;
5. the extent to which members of the minority
group in the state or political subdivision bear the
effects of discrimination in such areas as
education, employment and health, which hinder
their ability to participate effectively in the
political process;
6.
whether political campaigns have been
characterized by overt or subtle racial appeals;
[and]
7. the extent to which members of the minority
group have been elected to public office in the
jurisdiction.
Id. at 36–37 (quoting S. Rep. No. 97-417, at 28–29
(1982)). Courts also may consider “whether there is a
significant lack of responsiveness on the part of elected
officials to the particularized needs of the members of
the minority group,” and “whether the policy
underlying the state or political subdivision’s use of
such voting qualification, prerequisite to voting, or
standard, practice or procedure is tenuous.” Id.; see
also Houston Lawyers’ Ass’n v. Attorney Gen. of Tex.,
501 U.S. 419, 426–27 (1991) (explaining that courts
may consider a state’s “justification for its electoral
system”).
“[T]here is no requirement that any
particular number of factors be proved, or that a
majority of them point one way or the other.” Gingles,
478 U.S. at 45.

370a
Until relatively recently, “Section 2’s use . . . has
primarily been in the context of vote-dilution cases,”
which “‘involve challenges to methods of electing
representatives—like
redistricting
or
at-large
districts—as having the effect of diminishing
minorities voting strength.’” League of Women Voters
of N.C. v. N.C., 769 F.3d 224, 239 (4th Cir. 2014)
(quoting Ohio State Conference of N.A.A.C.P. v.
Husted, 768 F.3d 524, 554 (6th Cir. 2014), vacated on
other grounds by 2014 WL 10384647 (6th Cir. 2014)).
Gingles itself was a vote dilution case. “While votedilution jurisprudence is well-developed, numerous
courts and commentators have noted that applying
Section 2’s ‘results test’ to vote-denial claims is
challenging, and a clear standard for its application
has not been conclusively established.”15
Ohio
Democratic Party, 834 F.3d at 636; see also Veasey v.
Abbott, 830 F.3d 216, 243–44 (5th Cir. 2016)
(“Although courts have often applied the Gingles
factors to analyze claims of vote dilution . . . there is
little authority on the proper test to determine
whether the right to vote has been denied or abridged
on account of race.”); League of Women Voters, 769
F.3d at 239 (“[T]here is a paucity of appellate case law
evaluating the merits of Section 2 claims in the votedenial context.”); Ohio State Conference, 768 F.3d at
554 (“A clear test for Section 2 vote denial claims . . .
has yet to emerge.”); Simmons v. Galvin, 575 F.3d 24,
41–42 n.24 (1st Cir. 2009) (“‘While Gingles and its
progeny have generated a well-established standard
for vote dilution, a satisfactory test for vote denial
15

A “vote denial” claim generally refers “to any claim that is
not a vote dilution claim.” Ohio State Conference, 768 F.3d at 554.

371a
cases under Section 2 has yet to emerge . . . [and] the
Supreme Court’s seminal opinion in Gingles . . . is of
little use in vote denial cases.’” (quoting Daniel P.
Tokaji, The New Vote Denial: Where Election Reform
Meets the Voting Rights Act, 57 S.C. L. Rev. 689, 709
(2006))); Janai S. Nelson, The Causal Context of
Disparate Vote Denial, 54 B.C. L. Rev. 579, 595 (2013)
(“[T]he legal contours of vote denial claims remain
woefully underdeveloped as compared to vote dilution
claims.”). Indeed, some of the Senate Factors cited by
the Gingles Court as relevant to the totality of the
circumstances inquiry do not seem particularly
germane to vote denial claims. Cf. Gingles, 478 U.S.
at 45 (“While the enumerated factors will often be
pertinent to certain types of § 2 violations, particularly
to vote dilution claims, other factors may also be
relevant and considered.”); see Frank v. Walker, 768
F.3d 744, 752¬55 (7th Cir. 2014) (questioning
usefulness of Senate Factors in vote denial claims);
Ohio Democratic Party, 834 F.3d at 638 (explaining
that totality of circumstances inquiry in vote denial
cases is “potentially informed by the ‘Senate Factors’
discussed in Gingles” (emphasis added)).
Several circuit courts that recently have analyzed
vote denial claims have adopted the following two-part
framework based on the text of § 2 and the Supreme
Court’s guidance in Gingles:
First, the challenged standard, practice, or
procedure must impose a discriminatory burden
on members of a protected class, meaning that
members of the protected class have less
opportunity than other members of the electorate
to participate in the political process and to elect
representatives of their choice.

372a
Second, that burden must in part be caused by or
linked to social and historical conditions that
have or currently produce discrimination against
members of the protected class.
League of Women Voters, 769 F.3d at 240 (internal
quotations and citations omitted); see also Veasey, 830
F.3d at 244; Ohio Democratic Party, 834 F.3d at 636;
Frank, 768 F.3d at 754–55 (adopting two-park
framework for sake of argument but expressing
skepticism of the second step “because it does not
distinguish between discrimination by [the state] from
other persons’ discrimination”). The Ninth Circuit
likewise endorsed this two-part framework in the
context of this case. Feldman v. Ariz. Sec. of State’s
Office, 840 F.3d 1057, 1070 (9th Cir. 2016); id. at 1091
(Thomas, C.J. dissenting); Feldman, 843 F.3d at 367.
“The first part of this two-prong framework inquires
about the nature of the burden imposed and whether
it creates a disparate effect[.]” Veasey, 830 F.3d at 244.
Drawing on the Supreme Court’s guidance in Gingles,
“[t]he second part . . . provides the requisite causal link
between the burden on voting rights and the fact that
this burden affects minorities disparately because it
interacts with social and historical conditions that
have produced discrimination against minorities
currently, in the past, or both.” Id. That is, “the
second step asks not just whether social and historical
conditions ‘result in’ a disparate impact, but whether
the challenged voting standard or practice causes the
discriminatory impact as it interacts with social and
historical conditions.” Ohio Democratic Party, 834
F.3d at 638 (emphasis in original).

373a
Although proving a violation of § 2 does not
require a showing of discriminatory intent, only
discriminatory results, proof of a causal
connection between the challenged voting
practice and a prohibited result is crucial. Said
otherwise, a § 2 challenge based purely on a
showing of some relevant statistical disparity
between minorities and whites, without any
evidence that the challenged voting qualification
causes that disparity, will be rejected.
Gonzales v. Arizona, 677 F.3d 383, 405 (9th Cir. 2012)
(internal quotations and citations omitted); see also
Smith v. Salt River Project Agric. Improvement &
Power Dist., 109 F.3d 586, 595 (9th Cir. 1997).
A close reading of the decisions of courts that
recently have grappled with vote denial claims reveals
two important nuances of the results test. The first
bears on the meaning of “disparity” as it has been used
in vote denial cases. “No state has exactly equal
registration rates, exactly equal turnout rates, and so
on, at every stage of its voting system.” Frank, 768
F.3d at 754. Perfect racial parity is unlikely to exist
in any aspect of a state’s election system, which is to
say it is unlikely that minorities and non-minorities
will be impacted by laws in perfect proportion to their
representation in the overall voting population.
Unless the VRA is to be interpreted to sweep away all
elections
regulations,
some
degree
of
disproportionality must be tolerable.
Therefore, not every disparity between minority and
non-minority voters is cognizable under the VRA.
Rather, to be cognizable the disparity must be
meaningful enough to work “an inequality in the

374a
opportunities enjoyed by [minority as compared to
non-minority] voters to elect their preferred
representatives.”
Gingles, 478 U.S. at 47; see
Gonzales, 677 F.3d at 405 (suggesting that disparity
must be “relevant”). For example, the Seventh Circuit
rejected the notion that:
if whites are 2% more likely to register than
blacks, then the registration system top to
bottom violates § 2; and if white turnout on
election day is 2% higher, then the requirement
of in-person voting violates § 2. Motor-voter
registration, which makes it simple for people to
register by checking a box when they get drivers’
licenses, would be invalid, because black and
Latino citizens are less likely to own cars and
therefore less likely to get drivers’ licenses. . . .
Yet it would be implausible to read § 2 as
sweeping away almost all registration and voting
rules. It is better to understand § 2(b) as an
equal-treatment requirement (which is how it
reads) than as an equal-outcome command[.]
Frank, 768 F.3d at 754.
The second nuance bears on the definition of
“impact” or “effect.” To be cognizable, the challenged
voting practice must “impose a discriminatory
burden,” League of Women Voters, 769 F.3d at 240, and
not merely result in a “disproportionate impact,” Salt
River Project, 109 F.3d at 595. Section 2 “does not
sweep away all election rules that result in a disparity
in the convenience of voting.” Lee v. Va. State Bd. of
Elections, 843 F.3d 592, 601 (4th Cir. 2016). A
contrary interpretation would require the Court to
accept:

375a
an unjustified leap from the disparate
inconveniences that voters face when voting to
the denial or abridgment of the right to vote.
Every decision that a State makes in regulating
its elections will, inevitably, result in somewhat
more inconvenience for some voters than for
others. For example, every polling place will, by
necessity, be located closer to some voters than to
others. To interpret § 2 as prohibiting any
regulation
that
imposes
a
disparate
inconvenience would mean that every polling
place would need to be precisely located such that
no group had to spend more time traveling to vote
than did any other. Similarly, motor-voter
registration would be found to be invalid [if]
members of [a] protected class were less likely to
possess a driver’s license. Yet, courts have also
correctly rejected that hypothetical.
Id.; see also N.E. Ohio Coal. for the Homeless, 837 F.3d
at 628 (“A law cannot disparately impact minority
voters if its impact is insignificant to begin with.”);
Ohio Democratic Party, 834 F.3d at 623 (“[W]hile the
challenged regulation may slightly diminish the
convenience of registration and voting, it applies evenhandedly to all voters, and, despite the change, Ohio
continues to provide generous, reasonable, and
accessible voting options to all Ohioans. The issue is
not whether some voter somewhere would benefit from
six additional days of early voting or from the
opportunity to register and vote at the same time.
Rather, the issue is whether the challenged law
results in a cognizable injury under the Constitution
or the Voting Rights Act.”); Frank, 843 F.3d at 753
(“[U]nless the State of Wisconsin made it ‘needlessly

376a
hard’ to obtain the requisite photo identification for
voting, this requirement did not result in a ‘denial’ of
anything by Wisconsin, as § 2(a) requires.”);
Jacksonville Coal. for Voter Prot. v. Hood, 351 F. Supp.
2d 1326, 1335 (M.D. Fla. 2004) (“While it may be true
that having to drive to an early voting site and having
to wait in line may cause people to be inconvenienced,
inconvenience does not result in a denial of
‘meaningful access to the political process.’” (quoting
Osburn v. Cox, 369 F.2d 1283, 1289 (11th Cir. 2004));
Glover v. S.C. Democratic Party, No. C/A 4-04-CV2171–25, 2004 WL 3262756, at *6 (D.S.C. Sept. 3,
2004) (“[T]he Court does not find that difficulty voting
equates with a ‘denial or abridgment’ of the right to
vote.”).
With these principles in mind, the Court first will
apply step one of the two-part vote denial framework
to each of the challenged voting practices to determine
whether either disparately burdens minority voters.
The Court then will discuss step two and the Senate
Factors.
A. Step One (Disparate Impact)
1. H.B. 2023
H.B. 2023 is facially neutral. It applies to all
Arizonans regardless of race or color. Plaintiffs
nonetheless allege that H.B. 2023 disparately burdens
Hispanic, Native American, and African American
voters as compared to non-minority voters because
these groups disproportionately rely on others to
collect and return their early ballots. But there are no
records of the numbers of people who, in past elections,
have relied on now-prohibited third parties to collect
and return their early mail ballots, and of this

377a
unknown number Plaintiffs have provided no
quantitative or statistical evidence comparing the
proportion that is minority versus non-minority.
This evidentiary hole presents a practical problem.
Disparate impact analysis is a comparative exercise.
To determine whether a practice disparately impacts
minorities, the Court generally must know
approximately: (1) how many people will be affected
by the practice, and (2) their racial composition.
Without this information, it becomes difficult to
compare the law’s impact on different demographic
populations and to determine whether the disparities,
if any, are meaningful. That is, it might be true that
minorities broadly have used ballot collection services
more often than non-minorities, but the discrepancy
might be slight enough that it does not meaningfully
deny minorities an equal opportunity to participate in
the political process and elect their preferred
representatives. See Frank, 768 F.3d at 754.
Indeed, the Court is aware of no vote denial case in
which a § 2 violation has been found without
quantitative evidence measuring the alleged disparate
impact of a challenged law on minority voters. Rather,
the standards developed for analyzing § 2 vote denial
cases suggest that proof of a relevant statistical
disparity might be necessary at step one, even though
it is not alone sufficient to prove a § 2 violation because
of the causation requirement at step two.16 See
16

In vote dilution cases the Senate Factors “are sometimes
used as a non-statistical proxy . . . to link disparate impacts to
current or historical conditions of discrimination.”
Ohio
Democratic Party, 834 F.3d at 637 n.11. But to use the Gingles
factors to prove the existence of a disparity essentially would
collapse the step one and step two inquiries. That is, a plaintiff

378a
Gonzales, 677 F.3d at 405; Veasey, 830 F.3d at 244
(noting that “courts regularly utilize statistical
analyses to discern whether a law has a
discriminatory impact”). Further, in other contexts
courts have “recognized the necessity of statistical
evidence in disparate impact cases.” Budnick v. Town
of Carefree, 518 F.3d 1109, 1118 (9th Cir. 2008) (Fair
Housing Act); Pottenger v. Potlatch Corp., 329 F.3d
740, 749 (9th Cir. 2003) (Age Discrimination in
Employment Act); Cooper v. S. Co., 390 F.3d 695, 716
(11th Cir. 2004), overruled on other grounds by Ash v.
Tyson Foods, Inc., 546 U.S. 454 (2006) (Title VII);
Rollins v. Alabama Cmty. Coll. Sys., No. 2:09-CV-636WHA, 2010 WL 4269133, at *9 (M.D. Ala. Oct. 25,
2010) (Equal Pay Act); Davis v. City of Panama City,
Fla., 510 F. Supp. 2d 671, 689 (N.D. Fla. 2007) (Title
VII and 42 U.S.C. § 1983).
The Court is not suggesting that quantitative
evidence of a challenged voting practice’s actual effect
is needed in vote denial cases. As Chief Judge Thomas
noted in his dissent during the preliminary appellate
phase of this case, “quantitative evidence of the effect
of a rule on voting behavior is only available after an
election has occurred, at which point the remedial
purpose of the Voting Rights Act is no longer served.”
Feldman, 840 F.3d at 1092 n.5 (Thomas, C.J.
dissenting). But quantitative evidence of the number
of voters who used ballot collection before H.B. 2023’s
enactment, together with similar evidence of those
could simply assume that the challenged law causes a meaningful
disparity between minorities and non-minorities because of social
and historical discrimination in the state. This perhaps is
another illustration of how the Gingles vote-dilution framework
is an imperfect fit for vote denial claims.

379a
voters’ demographics, would permit the Court to
reasonably infer how many voters would be affected by
H.B. 2023’s limitations in future elections, and
whether those voters disproportionately would be
minorities.17 As one commentator has argued:
It can be difficult to document the racial
composition of those who use a voting
opportunity . . . , given that election and other
public records often do not include racial or
ethnic data. There is no getting around this
problem. But given that § 2 forbids the denial or
abridgement of the vote on account of race, it is
reasonable that plaintiffs be required to make a
threshold showing they are disproportionately
burdened by the challenged practice, in the sense
that it eliminates an opportunity they are more
likely to use or imposes a requirement they are
less likely to satisfy.
Daniel P. Tokaji, Applying Section 2 to the New Vote
Denial, 50 Harv. C.R.-C.L. L. Rev. 439, 476 (2015).
The Court is mindful, however, that no court has
explicitly required quantitative evidence to prove a
vote denial claim, and a majority of the en banc Ninth
Circuit panel reviewing the preliminary phase of this
case appears to have rejected such a rule. The Court
therefore does not find against Plaintiffs on this basis.
Rather, the Court finds that Plaintiffs’ circumstantial

17

Notably, the trial in this matter occurred after H.B. 2023
had been in effect for two major elections—the 2016 presidential
preference election and the 2016 general election—yet Plaintiffs
still were unable to produce data on the law’s impact.

380a
and anecdotal evidence is insufficient to establish a
cognizable disparity under § 2.
To overcome the lack of quantification, Plaintiffs
attempt to prove the existence of a meaningful
disparity through two general categories of
circumstantial evidence. First, lawmakers, elections
officials, and community advocates testified that
ballot collection tends to be used more by communities
that lack easy access to secure, outgoing mail services;
the elderly, homebound, and disabled; the poor; those
who lack reliable transportation; those who work
multiple jobs or lack childcare; and less educated
voters who are unfamiliar with or more intimidated by
the voting process. In turn, data shows that these
socioeconomic circumstances are disproportionately
reflected in minority communities. (See Ex. 97 at 57;
Tr. 59–60, 416–26, 432–39, 629–35, 895–900.) It
stands to reason, then, that prior to H.B. 2023’s
enactment minorities generally were more likely than
non-minorities to give their early ballots to third
parties.
For example, relative to non-minorities, Hispanics
and African Americans are nearly two times more
likely to live in poverty, and the poverty rate for
Native Americans is over three times higher. (Ex. 93
at 15.) Wages and unemployment rates for Hispanics,
African
Americans,
and
Native
Americans
consistently
have
exceeded
non-minority
unemployment rates for the period of 2010 to 2015.
(Ex. 91 at 40; Ex. 93 at 15.) According to the 2015
American Community Survey 1-year estimates,
unemployment rates were 10.5 percent for African
Americans, 7.7 percent for Hispanics, 16.8 percent for
Native Americans, and only 5.6 percent for non-

381a
minorities. In Arizona, 68.9 percent of non-minorities
own a home, whereas only 32.3 percent of African
Americans, 49 percent of Hispanics, and 56.1 percent
of Native Americans do so. (Ex. 93 at 15, 17; Ex. 98 at
33.)
Non-minorities remain more likely than Hispanics,
Native Americans, and African Americans to graduate
from high school, and are nearly three times more
likely to have a bachelor’s degree than Hispanics and
Native Americans. Additionally, in a recent survey,
over 22.4 percent of Hispanics and 11.2 percent of
Native Americans rated themselves as speaking
English less than “very well,” as compared to only 1.2
percent of non-minorities. (Ex. 93 at 16.) Due to their
lower levels of literacy and education, minority voters
are more likely to be unaware of certain technical
rules, such as the requirement that early ballots be
received by the county recorder, rather than merely
postmarked, by 7:00 p.m. on Election Day. (Ex. 91 at
38.)
As of 2015, Hispanics, Native Americans, and
African Americans fared worse than non-minorities on
a number of key health indicators. (Ex. 93 at 18.)
Native Americans in particular have much higher
rates of disability than non-minorities, and Arizona
counties with large Native American populations have
much higher rates of residents with ambulatory
disabilities. For example, “17 percent of Native
Americans are disabled in Apache County, 22 percent
in Navajo County, and 30 percent in Coconino
County.” Further, “11 percent [of individuals] have
ambulatory difficulties in Apache County, 13 percent
in Navajo County, and 12 percent in Coconino County,

382a
all of which contain significant Native American
populations and reservations.” (Ex. 97 at 60.)
Hispanics, Native Americans, and African
Americans also are significantly less likely than nonminorities to own a vehicle, more likely to rely upon
public transportation, more likely to have inflexible
work schedules, and more likely to rely on income from
hourly wage jobs. (Ex. 93 at 12–18; Ex. 97 at 51–52;
Tameron Dep. 155:5–20; Pstross Dep. 34:11–22.)
Ready access to reliable and secure mail service is
nonexistent in some minority communities. (Ex. 97 at
57; Ex. 98 at 18; Tr. 506.)
These disparities exist in both urban and rural
areas.
For example, Representative Charlene
Fernandez described a lack of home mail service in
rural San Luis, a city that is 98 percent Hispanic.
Almost 13,000 residents rely on a post office located
across a major highway. With no mass transit, a
median income of $22,000, and many people not
owning cars, receiving and sending mail in San Luis
can be more difficult than in other communities.
(Tr. 40–46.) A surprising number of voters in the
Hispanic community also distrust returning their
voted ballot via mail, particularly in low-income
communities where mail theft is common. Although a
lack of outgoing mail presents a problem for rural
minority voters, unsecure mailboxes are an
impediment for urban minorities who distrust the
mail service and prefer instead to give their ballots to
a volunteer. (Tr. 98, 238–39, 896–97, 1170; Healy Dep.
97:18–24; Scharff Dep. 92:5–17.)
These problems are particularly acute in Arizona’s
Native American communities, in which vehicle

383a
ownership is significantly lower than non-minority
Arizonans. (Ex. 91 at 42.) Between one quarter and
one half of all households on Native American
reservations lack access to a vehicle. (Ex. 98 at 16.)
Moreover, according to Dr. Rodden, “the extent to
which rural Native Americans lack mail service is
quite striking.” “[T]he majority of Native Americans
in non-metropolitan Arizona do not have residential
mail service.” “Only 18 percent of Native American
registered voters have home mail delivery. . . . The
rate at which registered voters have home mail service
is over 350 percent higher for non-Hispanic whites
than for Native Americans.” As such, most Native
American registered voters must travel to a town to
retrieve their mail, “[y]et rates of vehicle access are
quite low.” (Ex. 97 at 57.) On the Navajo Reservation,
most people live in remote communities, many
communities have little to no vehicle access, and there
is no home incoming or outgoing mail, only post office
boxes, sometimes shared by multiple families.
(Tr. 172–75, 297–98.)
There is no home delivery in the Tohono O’odham
Nation, where there are 1,900 post office boxes and
some cluster mail boxes. The postmaster for the
Tohono O’odham Nation anecdotally related to
Representative Fernandez that she observes residents
come to the post office every two or three weeks to get
their mail. Due to the lack of transportation, the
condition of the roads, and health issues, some go to
post office only once per month. (Tr. 52–58, 315–17.)
Thus, “for many Native Americans living in rural
locations, especially on reservations, voting is an
activity that requires the active assistance of friends
and neighbors.” (Ex. 97 at 60.) LeNora Fulton—a

384a
member of the Navajo Nation, former representative
of the Fort Defiance Chapter of the Navajo National
Council, member of the Navajo Election Board of
Supervisors, and the Apache County Recorder from
2004 through 2016, where her responsibilities
included overseeing voter registration, early voting
and voter outreach—explained that people in the
Navajo Nation trust non-family members to deliver
their early ballots because “[i]t’s part of the culture. . . .
[T]here is a clan system. They may not be related by
blood, but they are related by clan. Everyone on the
Navajo Nation is related one way or another through
the clan system.” Ballot collection and delivery by
those with the means to travel “was the standard
practice with the Apache County . . . but also with the
Nation[.]” “We have many people that would come into
our office in St. Johns that help individuals that not
are not able to get a ballot, you know, to the office.
They would bring it in. And so it was just a standard
practice . . . It was a norm for us.” According to Fulton,
limiting who may collect and deliver early ballots
“would be a huge devastation . . . . The laws are
supposed to be helpful to people, but in this instance,
it’s harmful.” (Tr. 283–85, 300, 322–324.)
The second category of circumstantial evidence
concerns those who tend to offer ballot collection
services. Within the last decade, ballot collection has
become a larger part of the Democratic Party’s GOTV
strategy. The Democratic Party and community
advocacy organizations have focused their ballot
collection efforts on low-efficacy voters, who trend
disproportionately minority. In turn, minorities in
Arizona tend to vote for Democratic candidates.
(Ex. 93 at 4–6, 11; Tr. 92, 283, 309, 416–26, 632–33,

385a
659, 902–03, 1143, 1191–96, 1200, 1407, 1770–71,
1843–44; Healy Dep. 28:15–29:13.) Individuals who
have collected ballots in past elections observed that
minority voters, especially Hispanics, were more
interested in utilizing their services. Indeed, Helen
Purcell, who served as the Maricopa County Recorder
for 28 years from 1988 to 2016, observed that ballot
collection was disproportionately used by Hispanic
voters. (Tr. 417¬19, 635, 642, 866, 895–900, 931–32,
1039–40, 1071, 1170.)
In contrast, the Republican Party has not
significantly engaged in ballot collection as a GOTV
strategy. The base of the Republican Party in Arizona
trends non-minority. On average, non-minorities in
Arizona vote 59 percent for Republican candidates, as
compared with 35 percent of Hispanic voters.
Individuals who have collected ballots in past elections
have observed that voters in predominately nonminority areas were not as interested in ballot
collection services. (Tr. 430–31, 898, 1170, 1192, 1408;
Ex. 91 at 31.)
Based on this evidence, the Court finds that prior to
H.B. 2023’s enactment minorities generically were
more likely than non-minorities to return their early
ballots with the assistance of third parties. The Court,
however, cannot speak in more specific or precise
terms than “more” or “less.” Although there are
significant
socioeconomic
disparities
between
minorities and non-minorities in Arizona, these
disparities are an imprecise proxy for disparities in
ballot collection use. Plaintiffs do not argue that all or
even most socioeconomically disadvantaged voters use
ballot collection services, nor does the evidence
support such a finding.
Rather, the anecdotal

386a
estimates from individual ballot collectors indicate
that a relatively small number of voters have used
ballot collection services in past elections.
It
reasonably follows, then, that even among
socioeconomically disadvantaged voters, most do not
use ballot collection services to vote. Considering the
vast majority of Arizonans, minority and non-minority
alike, vote without the assistance of third-parties who
would not fall within H.B. 2023’s exceptions, it is
unlikely that H.B. 2023’s limitations on who may
collect an early ballot cause a meaningful inequality in
the electoral opportunities of minorities as compared
to non-minorities.
Moreover, H.B. 2023 does not impose burdens
beyond those traditionally associated with voting.
Although, for some voters, ballot collection is a
preferred and more convenient method of voting, H.B.
2023 does not deny minority voters meaningful access
to the political process simply because the law makes
it slightly more difficult or inconvenient for a small,
yet unquantified subset of voters to return their early
ballots. In fact, no individual voter testified that H.B.
2023’s limitations on who may collect an early ballot
would make it significantly more difficult to vote. The
Court therefore finds that Plaintiffs have not carried
their burden at step one of the vote denial framework.
2. OOP Voting
Unlike their H.B. 2023 challenge, Plaintiffs
provided quantitative and statistical evidence of
disparities in OOP voting through the expert
testimony of Dr. Rodden. Because Arizona does not
track the racial demographics of its voters, Dr. Rodden
used an open-source software algorithm that he found

387a
online to predict each voter’s race. (Tr. 378–414, 520–
24.) Specifically, Dr. Rodden placed the names of
individuals who cast ballots in particular elections
into Census blocks and tracts, for which racial data is
available from the Census, and then combined that
information with surname data to estimate the race of
each voter. This approach has become common in
academic studies, as well as VRA litigation.
Dr. Rodden added further precision to his estimates by
conditioning them on not just surnames and
neighborhood race statistics, but also on additional
information found in the voter file, such as the
individual’s age and party.18 (Ex. 97 at 10–15.)
Dr. Rodden’s analysis is credible and shows that
minorities are over-represented among the small
number of voters casting OOP ballots. For example,
in Maricopa County—which accounts for 61 percent of
Arizona’s population—non-minority voters accounted
for only 56 percent of OOP ballots cast during the 2012
general election, despite casting 70 percent of all inperson votes. In contrast, African American and
18

Dr. Thornton criticized Dr. Rodden’s analysis of racial
disparities in OOP voting among the smallest minority groups in
Arizona’s smaller counties, but when Dr. Rodden conducted an
analysis addressing Dr. Thornton’s criticisms he reached the
same results. Dr. Thornton also was critical of Dr. Rodden’s
analysis because the application of the algorithm to Arizona
voters includes unidentifiable measurement error. But because
there is no concrete racial data for individual voters, Dr. Rodden
has no means to compare his estimates. Indeed, if such concrete
data existed, there would have been no need for Dr. Rodden’s
estimates. Moreover, as Dr. Rodden explains in his Second
Expert Report, his methods lead to more conservative estimates
of disparities, a fact not challenged by Dr. Thornton. (Ex. 98 at
3, 8–11.)

388a
Hispanic voters made up 10 percent and 15 percent of
in-person voters, but accounted for 13 percent and 26
percent of OOP ballots, respectively. Native American
voters accounted for 1.1 percent of in-person voters,
and 1.3 percent of OOP ballots. Dr. Rodden observed
similar results for Pima County. (Ex. 91 at 52; Ex. 95
at 31–33, 37, 43.)
Similarly, minority voters cast a disproportionate
share of OOP ballots during the 2016 general election.
In Maricopa County, estimated rates of OOP voting
were twice as high for Hispanics, 86 percent higher for
African Americans, and 73 percent higher for Native
Americans than for their non-minority counterparts.
In Pima County, rates of OOP voting were 150 percent
higher for Hispanics, 80 percent higher for African
Americans, and 74 percent higher for Native
Americans than for non-minorities. Moreover, in
Pima County the overall rate of OOP voting was
higher, and the racial disparities larger, in 2016 than
in 2014. Among all counties that reported OOP ballots
in the 2016 general election, a little over 1 in every 100
Hispanic voters, 1 in every 100 African-American
voters, and 1 in every 100 Native American voters cast
an OOP ballot. For non-minority voters, the figure
was around 1 in every 200 voters. Racial disparities in
OOP voting were found in all counties except La Paz
County, which has a small minority population.
(Ex. 97 at 3, 19–21, 28–34.)
Although Dr. Rodden’s race estimation is credible,
his analysis paints an incomplete picture of the
practical impact of OOP voting because the majority of
Arizonans successfully vote by mail and therefore are
unaffected by precinct requirements. For example, in
the 2012 general election Arizona voters cast 10,979

389a
OOP ballots out of the 2,323,579 ballots cast
statewide, accounting for 0.47 percent of all votes cast.
In Maricopa County, 1,390,836 total ballots were cast,
of which 7,529 (or 0.54 percent) were rejected for being
cast out of the voter’s assigned precinct. OOP ballots
cast by non-minority voters therefore accounted for
only 0.3 percent of all votes cast in Maricopa County
during the 2012 election, whereas OOP ballots cast by
Hispanic and African American voters accounted only
for approximately 0.14 percent and 0.07 percent,
respectively. These figures dropped substantially in
the 2016 general election, during which only 3,970
Arizonans voted OOP out of the 2,661,497 ballots cast
statewide, representing only 0.15 percent of all votes
cast. In Maricopa County, 1,608,875 total ballots were
cast, of which only 2,197 (or 0.14 percent) were cast
OOP. (Tr. 1927–32; Exs. 578–79, 581.)
Considering OOP ballots represent such a small and
ever-decreasing fraction of the overall votes cast in any
given election, OOP ballot rejection has no
meaningfully disparate impact on the opportunities of
minority
voters
to
elect
their
preferred
representatives.
To be clear, the Court is not
suggesting that the votes of individuals who show up
at the wrong precinct are unimportant. But, as a
practical matter, the disparity between the proportion
of minorities who vote at the wrong precinct and the
proportion of non-minorities who vote at the wrong
precinct does not result in minorities having unequal
access to the political process. See Fed. Judicial Ctr.,
Reference Manual on Scientific Evidence 252 (3d ed.
2011) (discussing difference between statistical
significance and practical significance). No state has
exactly equal rates at every stage of its voting system,

390a
and in the end the vast majority of all votes in
Arizona—cast by minority and non-minority voters
alike—are counted. See Frank, 768 F.3d at 754.
Moreover, Arizona’s policy to not count OOP ballots
is not the cause of the disparities in OOP voting.
Dr. Rodden’s analysis confirms that OOP voting is
concentrated in relatively dense precincts that are
disproportionately populated with renters and those
who move frequently. These groups, in turn, are
disproportionately composed of minorities. (Ex. 97 at
16–18.) Because minority voters in Arizona have
disproportionately higher rates of residential mobility,
they are more likely to need to renew their voter
registration and reeducate themselves about their new
voting locations. (Ex. 91 at 39; Ex. 93 at 17; Ex. 95 at
4, 7–12; Ex. 98 at 33.)
Polling place locations present additional
challenges for Native American voters. For example,
Navajo voters in Northern Apache County lack
standard addresses, and their precinct assignments
for state and county elections are based upon
guesswork, leading to confusion about the voter’s
correct polling place. Additionally, boundaries for
purposes of tribal elections and Apache County
precincts are not the same. As a result, a voter’s
polling place for tribal elections often differs from the
voter’s polling place for state and county elections.
Inadequate transportation access also can make
travelling to an assigned polling place difficult.
(Ex. 97 at 51–54; Tr. 299–301.)
Plaintiffs, however, do not challenge the manner in
which Arizona counties allocate and assign polling
places or Arizona’s requirement that voters re-register

391a
to vote when they move. Plaintiffs also offered no
evidence of a systemic or pervasive history of minority
voters being given misinformation regarding the
locations of their assigned precincts, while nonminority voters were given correct information. Nor
have they shown that precincts tend to be located in
areas where it would be more difficult for minority
voters to find them, as compared to non-minority
voters. To the contrary, there are many ways for
voters in Arizona to locate their assigned precincts,
and state, county, and local elections officials engage
in substantial informational campaigns and voter
outreach. Plaintiffs, instead, have challenged what
Arizona does with OOP ballots after they have been
cast, which does not cause the observed disparities in
OOP voting.
In sum, Plaintiffs have not carried their burden at
step one of the vote denial framework for two
independent reasons. First, they have not shown that
Arizona’s policy to not count OOP ballots causes
minorities to show up to vote at the wrong precinct at
rates higher than their non-minority counterparts.
Second, given that OOP ballots account for such a
small fraction of votes cast statewide, Plaintiffs have
not shown that the racial disparities in OOP voting are
practically significant enough to work a meaningful
inequality in the opportunities of minority voters as
compared to non-minority voters to participate in the
political process and elect their preferred
representatives.
B. Step Two (Senate Factors)
Step two of the results test is informed by the
Senate Factors and asks whether the disparate

392a
burdens imposed by the challenged voting practices
are in part caused by or linked to social and historical
conditions within the state that have or currently
produce discrimination against the affected
minorities. The Court does not need to reach this step
because Plaintiffs have not shown at step one that the
challenged voting practices impose meaningfully
disparate burdens on minority voters as compared to
non-minority voters. Cf. Ohio Democratic Party, 834
F.3d at 638 (“If this first element is met, the second
step comes into play, triggering consideration of the
‘totality of the circumstances,’ potentially informed by
the ‘Senate Factors’ discussed in ‘Gingles.’”).
Nonetheless, to ensure that the record is fully
developed, the Court will address below the evidence
pertinent to the Senate Factors. The Court will not
discuss factors three and four, however, because they
are not germane to the challenged voting practices and
there is insufficient evidence to warrant discussion.
1.

Relevant
History
Discrimination

of

Official

Arizona has a history of discrimination against
Native Americans, Hispanics, and African Americans.
Such discrimination began as early as 1912, when
Arizona became a state, and continued into the
modern era.
In 1975, Arizona’s history of
discrimination resulted in it becoming one of only nine
states to be brought wholly under § 5 of the VRA as a
“covered jurisdiction.” In addition to being covered
under § 5, it was one of only three states to be covered
under § 4(f)(4) of the Act for Spanish Heritage. (Ex. 89
at 5–24; Ex. 91 at 2, 24–30; Ex. 521 at 43–45; Doc. 361
¶ 42.)

393a
When Arizona became a state in 1912, Native
Americans were excluded from voting. Even after
Congress acknowledged that Native Americans were
citizens in 1924, thereby affording them the right to
vote, Arizona’s Constitution continued to deny Native
Americans that right. (Ex. 89 at 17; Ex. 521 at 43.) It
was not until 1948—24 years after federal law allowed
Native Americans to vote—that the Arizona Supreme
Court found the State’s disenfranchisement of Native
Americans was unconstitutional and finally granted
Native Americans the right to vote. (Doc. 361 ¶ 17;
Ex. 89 at 17; Ex. 521 at 45.); Harrison v. Laveen, 196
P.2d 456, 463 (Ariz. 1948).
Despite this ruling, Native Americans, as well as
Hispanics and African Americans, continued to face
barriers to participation in the franchise.
For
example, in 1912 Arizona enacted an English literacy
test for voting. The test was enacted specifically to
limit “the ignorant Mexican vote,” but it also had the
effect of reducing the ability of African Americans and
Native Americans to register and vote, as registrars
applied the test to these communities as well. Well
into the 1960s, white Arizonans challenged minority
voters at the polls by asking them to read and explain
literacy cards. (Doc. 361 ¶ 14; Ex. 89 at 14–17; Ex. 521
at 44–45.)
In 1970, Congress amended the VRA to enact a
nationwide ban on literacy tests after finding that they
were used to discriminate against voters on account of
their race or ethnicity. In reaching that finding,
Congress cited evidence that showed application of the
literacy test had significantly lowered the
participation rates of minorities. It specifically found
that in Arizona “only two counties out of eight with

394a
Spanish surname populations in excess of 15% showed
a voter registration equal to the state-wide average.”
It also noted that Arizona had a serious deficiency in
Native American voter registrations. Rather than
comply with the VRA and repeal its literacy test,
Arizona challenged the ban, arguing that it could not
be enforced to the extent that it was inconsistent with
the State’s literacy requirement. Even after the
Supreme Court upheld Congress’s ban, Arizona waited
an additional two years to formally repeal its literacy
test. (Ex. 89 at 14–18; Ex. 91 at 24); see Or. v. Mitchell,
400 U.S. 112, 118 (1970).
The effects of Arizona’s literacy test were
compounded by the State’s history of discrimination in
the education of its Hispanic, Native American, and
African American citizens. (Doc. 361 ¶¶ 2–4; Ex. 89 at
9–10; Ex. 91 at 5.) From 1912 until the Supreme
Court’s decision in Brown v. Board of Education, 347
U.S. 483 (1954), segregated education was widespread
throughout Arizona and sanctioned by both the courts
and the state legislature. (Ex. 521 at 35–39; Ex. 89 at
9–12); see also Dameron v. Bayless, 126 P. 273 (Ariz.
1912); Gonzales v. Sheely, 96 F. Supp. 1004, 1008–09
(D. Ariz. 1951) (enjoining segregation of Mexican
school children in Maricopa County). In fact, the
Tucson Public Schools only recently reached a consent
decree with the DOJ over its desegregation plan in
2013. (Ex. 91 at 27.) The practice of segregation also
extended beyond schools; it was common place to have
segregated public spaces such as restaurants,
swimming pools, and theaters. (Ex. 89 at 15; Ex. 521
at 34.) Even where schools were not segregated,
Arizona enacted restrictions on bilingual education.
As recently as 2000, Arizona banned bilingual

395a
education with the passage of Proposition 203. (Ex. 89
at 20; Ex. 91 at 47.)
Arizona has a record of failing to provide adequate
funding to teach its non-English speaking students.
This under-funding has taken place despite multiple
court orders instructing Arizona to develop an
adequate funding formula for its programs, including
a 2005 order in which Arizona was held in contempt of
court for refusing to provide adequate funding for its
educational programs. (Ex. 91 at 46–47); Flores v.
Arizona, 405 F. Supp. 2d 1112 (D. Ariz. 2005), vacated,
204 Fed. App’x 580 (9th Cir. 2006). “According to the
Education Law Center’s latest National Report Card
that provided data for 2013, Arizona ranked 47th
among the states in per-student funding for
elementary and secondary education.” (Ex. 91 at 47.)
Along with the State’s hostility to bilingual
education, Maricopa County has sometimes failed to
send properly translated education materials to its
Spanish speaking residents, resulting in confusion
and distrust from Hispanic voters. For example, in
2012, Maricopa County misprinted the date of the
election on over 2,000 Spanish language information
cards and bookmarks, some of which were distributed
into the community. (Ex. 89 at 22; Ex. 91 at 51; Healy
Dep. 114:1–22.)
With that said, discrimination against minorities in
Arizona has not been linear. (Ex. 521 at 4.) For
example, Arizona was subject to § 5 preclearance
requirements until 2013. In Shelby, however, the
Supreme Court found the formula used to determine
which states were subject to preclearance
requirements unconstitutional because it was “based

396a
on 40-year-old facts having no logical relation to the
present day.” 570 U.S. at 553–54. Moreover, during
the time that Arizona was under preclearance
requirements (1975–2013), the DOJ did not issue any
objections to any of its statewide procedures for
registration or voting.
From 1982 to 2002, the DOJ objected to four of
Arizona’s statewide redistricting plans. Arizona acted
to avoid the politics of racially discriminatory
redistricting when, in 2000, the Arizona Independent
Redistricting Commission (“AIRC”) was formed
pursuant to a voter initiative (Proposition 106). The
AIRC is composed of two Republicans, two Democrats,
and an Independent, and it is tasked with redrawing
of legislative and congressional district lines following
each decennial Census. According to its enacting
constitutional provisions, the AIRC considers the
following six criteria when redistricting: (a) equal
population; (b) compactness and contiguousness; (c)
compliance with the Constitution and the VRA; (d)
respect for communities of interest; (e) incorporation
of visible geographic features, including city, town and
county boundaries, as well as undivided census tracts;
and (f) creation of competitive districts where there is
no significant detriment to other goals. (Doc. 361
¶ 44.) The most recent AIRC set a goal to pass
preclearance with its first submittal to DOJ. The AIRC
did this by ensuring the competitiveness of legislative
and congressional districts and ensuring that
minorities have the opportunity to elect candidates of
their choice. See Harris v. Ariz. Indep. Redistricting
Comm’n, — U.S. —, 136 S. Ct. 1301, 1308 (2016). The
Commission succeeded, and the DOJ approved
Arizona’s new maps on April 9, 2012 without objection.

397a
In sum, “[d]iscriminatory action has been more
pronounced in some periods of state history than
others . . . [and] each party (not just one party) has led
the charge in discriminating against minorities over
the years.” Sometimes, however, partisan objectives
are the motivating factor in decisions to take actions
detrimental to the voting rights of minorities. “[M]uch
of the discrimination that has been evidenced may
well have in fact been the unintended consequence of
a political culture that simply ignores the needs of
minorities.” (Ex. 90 at 8.) Arizona’s recent history is
a mixed bag of advancements and discriminatory
actions.
2. Racially Polarized Voting
Arizona has a history of racially polarized voting,
which continues today. (Ex. 91 at 30–33, 44–45). In
the most recent redistricting cycle, experts for the
AIRC found that at least one congressional district
and five legislative districts clearly exhibited racially
polarized voting. (Ex. 91 at 29–33.) Exit polls for the
2016 general election demonstrate that voting
between non-minorities and Hispanics continues to be
polarized along racial lines. (Ex. 91 at 29–33, 44–45;
Ex. 92 at 12, 14; Ex. 94 at 4); see also Gonzalez, 677
F.3d at 407.
3. Socioeconomic Effects of Discrimination
Racial disparities between minorities and nonminorities in socioeconomic standing, income,
employment,
education,
health,
housing,
transportation, criminal justice, and electoral
representation have persisted in Arizona. (Ex. 89 at
7–8, 12, 23; Ex. 91 at 39–43; Ex. 93 at 12–18, 21, 24;
Ex. 95 at 4, 9–11; Ex. 97 at 46–52, 56–58; Ex. 98 at 16,

398a
18, 33; Tameron Dep. 155:5–20; Pstross Dep. 34:11–
22; Tr. 506.) Of these, disparities in transportation,
housing, and education are most pertinent to the
specific burdens imposed by the challenged laws.
4. Racial Appeals in Political Campaigns
Arizona’s racially polarized voting has resulted in
racial appeals in campaigns. For example, when Raul
Castro ran for governor in the 1970s, his opponents
urged support for the white candidate because “he
looked like a governor.” In that same election, a
newspaper published a picture of Fidel Castro with a
headline that read “Running for governor of Arizona.”
(Ex. 89 at 19.) In a 2010 bid for State Superintendent
of Public Education, John Huppenthal “ran an
advertisement in which the announcer said that
Huppenthal was ‘one of us.’ The announcer noted that
Huppenthal voted against bilingual education and
‘will stop La Raza.’” Similarly, when running for
governor in 2014, Maricopa County Attorney Andrew
Thomas ran an ad describing himself as “the only
candidate who has stopped illegal immigration” while
“simultaneously show[ing] a Mexican flag with a red
strikeout line through it superimposed over the
outline of Arizona.” (Ex. 91 at 44.)
Moreover, racial appeals have been made in the
specific context of legislative efforts to limit ballot
collection. During the legislative hearings on earlier
bills to criminalize ballot collection, Republican
sponsors and proponents expressed beliefs that ballot
collection fraud regularly was occurring but struggled
with the lack of direct evidence substantiating those
beliefs. In 2014, the perceived “evidence” arrived in
the form of a racially charged video created by

399a
Maricopa County Republican Chair A.J. LaFaro (the
“LaFaro Video”) and posted on a blog. (Ex. 121.) The
LaFaro Video showed surveillance footage of a man of
apparent Hispanic heritage appearing to deliver early
ballots. It also contained a narration of “Innuendos of
illegality . . . [and] racially tinged and inaccurate
commentary by . . . LaFaro.” (Ex. 91 at 18 n.40;
Ex. 524 at 23¬24.) LaFaro’s commentary included
statements that the man was acting to stuff the ballot
box; that LaFaro did not know if the person was an
illegal alien, a dreamer, or citizen, but knew that he
was a thug; and that LaFaro did not follow him out to
the parking lot to take down his tag number because
he feared for his life. The LaFaro Video goes on to tell
about ballot parties where people gather en mass and
give their un-voted ballots to operatives of
organizations so they can not only collect them, but
also vote them illegally. (Ex. 91 at 18; Ex. 121.)
The LaFaro Video did not show any obviously illegal
activity and there is no evidence that the allegations
in the narration were true. Nonetheless, it “became
quite prominent in the debates over H.B. 2023.”
(Tr. 1154.) The LaFaro video also was posted on
Facebook and YouTube, shown at Republican district
meetings, and was incorporated into a television
advertisement—entitled “Do You Need Evidence
Terry?”—for Secretary Reagan when she ran for
Secretary of State. (Ex. 91 at 18; Ex. 107.) In the ad,
the LaFaro Video plays after a clip of then-Arizona
Attorney General Terry Goddard stating he would like
to see evidence that there has been ballot collection
fraud. While the video is playing, Secretary Reagan’s
narration indicates that the LaFaro Video answers
Goddard’s request for evidence of fraud. The LaFaro

400a
Video, however, merely shows a man of apparent
Hispanic heritage dropping off ballots and not
obviously violating any law.19 (Ex. 107.)
5. Minority Representation in Public
Offices
Notwithstanding racially polarized voting and
racial appeals, the disparity in the number of minority
elected officials in Arizona has declined. Arizona has
been recognized for improvements in the number of
Hispanics and Native Americans registering and
voting, as well as in the overall representation of
minority elected officials in the State. (Ex. 521 at 27–
28.) “Nonwhites make up 25 percent of Arizona’s
elected office holders, compared to 44 percent of the
total population. This gives [Arizona] the 16th best
representation ratio in the country.” (Ex. 524 at 44.)
Nevertheless, Arizona has seen only one Hispanic
and one African American elected to statewide office,
and Arizona has never elected a Native American to
statewide office. No Native American or African
American has been elected to represent Arizona in the
United States House of Representatives. Further, no
Hispanic, Native American, or African American has
ever served as a United States Senator representing
Arizona or as Arizona Attorney General. (Ex. 91 at 45;
Ex. 93 at 19–20; Ex. 89 at 19, 22.)

19

Notably, LaFaro was not called as a witness in this case,
Defendants do not rely on the LaFaro Video as evidence of fraud,
and, despite the implications of her campaign advertisement,
Secretary Reagan testified in deposition that “I have never
accused anyone collecting ballots as doing fraudulent
activities[.]” (Reagan Dep. 91:2–3.)

401a
6. Lack of Responsiveness to Minority
Needs
Plaintiffs’ evidence on this factor, presented
through the analysis and opinions of Dr. Lichtman, is
insufficient to establish a lack of responsiveness on the
part of elected officials to particularized needs of
minority groups. Dr. Lichtman ignored various topics
that are relevant to whether elected officials have
shown responsiveness, and he did not conduct
research on the issues in Arizona when considering
this factor.
Notably, the CCEC engages in outreach to various
communities, including the Hispanic and Native
American
communities,
to
increase
voter
participation. The CCEC develops an annual voter
education plan in consultation with elections officials
and stakeholders, and the current Chairman of the
CCEC is Steve Titla, an enrolled member of the San
Carlos Apache Tribe, who has been particularly vocal
in supporting CCEC outreach to Native Americans.
7. Justifications for Challenged Provisions
Precinct-based voting helps Arizona counties
estimate the number of voters who may be expected at
any particular precinct, allows for better allocation of
resources
and
personnel,
improves
orderly
administration of elections, and reduces wait times.
The precinct-based system also ensures that each
voter receives a ballot reflecting only the races for
which that person is entitled to vote, thereby
promoting voting for local candidates and issues and
making ballots less confusing. Arizona’s policy to not
count OOP ballots is one mechanism by which it
strictly enforces this system to ensure that precinct-

402a
based counties maximize the system’s benefits. This
justification is not tenuous.
As for H.B. 2023, there is no direct evidence that the
type of ballot collection fraud the law is intended to
prevent or deter has occurred.
Although the
justifications for H.B. 2023 are weaker than the
justifications for the State’s OOP ballot policy, Arizona
nonetheless has a constitutionally adequate
justification for the law: to reduce opportunities for
early ballot loss or destruction.
8. Overall Assessment
In sum, of the germane Senate Factors, the Court
finds that some are present in Arizona and others are
not. Plaintiffs have shown that past discrimination in
Arizona has had lingering effects on the socioeconomic
status of racial minorities. But Plaintiffs’ causation
theory is too tenuous to support their VRA claim
because, taken to its logical conclusion, virtually any
aspect of a state’s election regime would be suspect as
nearly all costs of voting fall heavier on
socioeconomically disadvantaged voters. Such a loose
approach to causation, which potentially would sweep
away any aspect of a state’s election regime in which
there is not perfect racial parity, is inconsistent with
the Ninth Circuit’s repeated emphasis on the
importance of a “causal connection between the
challenged voting practice and a prohibited
discriminatory result.” Salt River Project, 109 F.3d at
595. For these reasons, the Court concludes that
Plaintiffs have not carried their burden at either step
of the § 2 results test.

403a
VII.

FIFTEENTH AMENDMENT/§ 2
(INTENTIONAL DISCRIMINATION)

Lastly, Plaintiffs contend that H.B. 2023 violates § 2
and the Fifteenth Amendment because it was enacted
with the intent to suppress minority votes. The
Fifteenth Amendment provides that “[t]he right of
citizens of the United States to vote shall not be denied
or abridged by the United States or by any State on
account of race, color, or previous condition of
servitude,” and authorizes Congress to enforce this
mandate “by appropriate legislation.” Section 2 is
such legislation. Although Congress amended the
VRA in 1982 to add the results test, § 2 continues to
prohibit intentional discrimination in a manner
coextensive with the Fifteenth Amendment.
Consequently, the standards for both the statutory
and the constitutional claim overlap.
The parties agree that the standard for finding
unconstitutional, intentional racial discrimination is
governed by the Supreme Court’s decision in Village of
Arlington
Heights
v.
Metropolitan
Housing
Development Corp., 429 U.S. 252 (1977). There, the
Supreme Court explained that “official action will not
be held unconstitutional solely because it results in a
racially disproportionate impact.” Id. at 264–65.
Rather, “[p]roof of racially discriminatory intent or
purpose is required to show a violation” of the
Constitution. Id. at 265.
Discriminatory purpose must be “a motivating
factor in the decision,” but it need not be the only
factor. Id. at 265–66. “Determining whether invidious
discriminatory purpose was a motivating factor
demands a sensitive inquiry into such circumstantial

404a
and direct evidence of intent as may be available.” Id.
at 266. “[A]n invidious discriminatory purpose may
often be inferred from the totality of the relevant facts,
including the fact, if it is true, that the law bears more
heavily on one race than another.” Wash. v. Davis, 426
U.S. 229, 242 (1976). “But the ultimate question
remains: did the legislature enact a law ‘because of,’
and not just ‘in spite of,’ its discriminatory effect.”
N.C. St. Conf. of NAACP v. McCrory, 831 F.3d 204, 200
(4th Cir. 2016) (quoting Pers. Adm’r of Mass. v.
Fenney, 442 U.S. 256, 279 (1979)).
To guide this inquiry, the Arlington Heights Court
articulated a non-exhaustive list of factors courts
should consider. These so-called “Arlington Heights
Factors” include: (1) the historical background and
sequence of events leading to enactment; (2)
substantive or procedural departures from the normal
legislative process; (3) relevant legislative history; and
(4) whether the law has a disparate impact on a
particular racial group. Arlington Heights, 429 U.S. at
266–68. If “racial discrimination is shown to have
been a ‘substantial’ or ‘motivating’ factor behind
enactment of the law, the burden shifts to the law’s
defenders to demonstrate that the law would have
been enacted without this factor.”
Hunter v.
Underwood, 471 U.S. 222, 228 (1985). This same
framework applies to § 2 claims based on allegations
of discriminatory purpose. See Garza v. Cty. of L.A.,
918 F.2d 763, 766 (9th Cir. 1990).
Having considered these factors, the Court finds
that H.B. 2023 was not enacted with a racially
discriminatory purpose. Though some individual
legislators and proponents of limitations on ballot
collection harbored partisan motives—perhaps

405a
implicitly informed by racial biases about the
propensity of GOTV volunteers in minority
communities to engage in nefarious activities—the
legislature as a whole enacted H.B. 2023 in spite of
opponents’ concerns about its potential effect on GOTV
efforts in minority communities, not because of that
effect. Despite the lack of direct evidence supporting
their concerns, the majority of H.B. 2023’s proponents
were sincere in their belief that ballot collection
increased the risk of early voting fraud, and that H.B.
2023 was a necessary prophylactic measure to bring
early mail ballot security in line with in-person voting.
Beginning with the historical background, H.B.
2023 emerged in the context of racially polarized
voting, increased use of ballot collection as a
Democratic GOTV strategy in low-efficacy minority
communities, and on the heels of several prior efforts
to restrict ballot collection, some of which were
spearheaded by former Arizona State Senator Don
Shooter.20 Due to the high degree of racial polarization
in his district, Shooter was in part motivated by a
desire to eliminate what had become an effective
Democratic GOTV strategy.
(Tr. 1061–63, 1200,
1687–88, 2158–62; Ex. 89 at 24; Ex. 91 at 52–55;
Ex. 92 at 2–10; Ex. 93 at 2; Shooter Dep. at 117:5–16.)
Indeed, Shooter’s 2010 election was close: he won with
53 percent of the total vote, receiving 83 percent of the
non-minority vote but only 20 percent of the Hispanic
vote. (Ex. 94 at 4.)

20

Shooter most recently was a member of the Arizona House
of Representatives but served as a state senator during the
relevant time period.

406a
Shooter’s efforts to limit ballot collection were
marked by unfounded and often farfetched allegations
of ballot collection fraud. (Tr. 1064, 2162, 2194, 2205;
Ex. 3 at 7¬8; Ex. 10 at 3–9; Ex. 25 at 22–23; Ex. 91 at
19–20; Ex. 123.)
Though his allegations were
demonstrably false, they—along with the raciallytinged LaFaro Video—spurred a larger debate in the
legislature about the security of early mail voting as
compared to in-person voting.21 (Tr. 1644, 1687, 2158–
59, 2161–62; Ex. 10 at 49–53; Ex. 17 at 15–16; Ex. 23
at 83–84.)
Turning to the relevant legislative history,
proponents of H.B. 2023 repeatedly voiced concerns
that mail-in ballots were less secure than in-person
voting, and that ballot collection created opportunities
for fraud. Although no direct evidence of ballot
collection fraud was presented to the legislature or at
trial, Shooter’s allegations and the LaFaro Video were
successful in convincing H.B. 2023’s proponents that
ballot collection presented opportunities for fraud that
did not exist for in-person voting, and these
proponents appear to have been sincere in their beliefs
that this was a potential problem that needed to be
addressed. (Ex. 17 at 11–13, 17–75, 83–84; Ex. 19 at
56–57; Ex. 21 at 11; Ex. 23 at 36; Tr. 1450, 1805,
1822–23.) Notably, H.B. 2023 found support among
some minority officials and organizations.
For
example, the measure was supported by the Arizona
Latino Republican Association for the Tucson
21

Although the video referenced by various proponents of
ballot collection limitations was not always identified as such, it
is plain from their descriptions that they were describing the
LaFaro video.

407a
Chapter, which expressed concerns that elderly people
in the Latino community were being taken advantage
of by ballot collectors. (Ex. 17 at 71–75.) Likewise,
Michael Johnson, an African American who had
served on the Phoenix City Council, strongly favored
H.B 2023 and expressed concern about stories of ballot
collectors misrepresenting themselves as election
workers. (Ex. 17 at 45–50.) Further, although some
Democratic lawmakers accused their Republican
counterparts of harboring partisan or racially
discriminatory motives, this view was not shared by
all of H.B. 2023’s opponents. (Tr. 697.) For example,
Representative Fernandez testified that she has no
reason to believe H.B. 2023 was enacted with the
intent to suppress Hispanic voting. (Tr. 83.)
As for departures from the normal legislative
process, Plaintiffs cite two prior efforts to limit ballot
collection as examples of procedural discrepancies.
First, in 2011 Arizona enacted S.B. 1412, which
required any person who delivered more than ten
early ballots to provide a copy of her photo
identification to the receiving elections official. If a
ballot collector could not produce a copy of her photo
identification, the elections official was directed to
record the information from whatever identification
that the ballot collector had available. Within 60 days
of each election, the Secretary of State was to compile
a public statewide report listing the identities and
personal information of all ballot collectors. (Ex. 2 at
16–19; Ex. 91 at 6–7.)
When S.B. 1412 became law, Arizona still was
subject to § 5 preclearance. Accordingly, S.B. 1412
could not go into effect until the law had been
precleared by the DOJ or a federal court. The Arizona

408a
Attorney General submitted the law for preclearance
on April 26, 2011, and on June 27, 2011 the DOJ
precleared all provisions except for the provision
regulating ballot collection. (Ex. 41; Ex. 91 at 6–7.) As
to that provision, the DOJ stated that “the information
sent [wa]s insufficient to enable us to determine that
the proposed changes have neither the purpose nor
will have the effect of denying or abridging the right to
vote on account of race, color, or membership in a
language minority group.” The DOJ asked for more
information and stated that “if no response is received
within sixty days of this request, the Attorney General
may object to the proposed changes.” (Ex. 41.) Rather
than respond to the DOJ’s request for more
information, the Attorney General chose to voluntarily
withdraw the ballot collection provision on July 28,
2011, rendering the law unenforceable. (Ex. 91 at 6–
7; Ex. 42.) “Of 773 preclearance submissions this was
one of only 6 that were fully or partially withdrawn in
Arizona.” (Ex. 91 at 7.) Arizona formally repealed the
law shortly thereafter. (Ex. 5.)
Second, Republican legislators again tried to
restrict ballot collection in 2013 with the enactment of
H.B. 2305, which banned partisan ballot collection and
required other ballot collectors to complete an affidavit
stating that they had returned the ballot. Violation of
the law was a misdemeanor. H.B. 2305 was passed
along nearly straight party lines in the waning hours
of the legislative session. (Ex. 7; Ex. 91 at 7–10.)
Shortly after its enactment, citizen groups organized a
referendum effort and collected more than 140,000
signatures to place H.B. 2305 on the ballot for a
straight up-or-down vote. (Tr. 1071–72; Ex. 91 at 11.)
Had H.B. 2305 been repealed by referendum, the

409a
legislature could not have enacted related legislation
except on a supermajority vote, and only to “further[]
the purposes” of the referendum. Ariz. Const. art. 4,
pt. 1, § 1(6)(C), (14). Rather than face a referendum,
Republican legislators again repealed their own
legislation along party lines. The bill’s primary
sponsor, Secretary Reagan (who, at the time, was a
State Senator), admitted that the legislature’s goal
was to break the bill into smaller pieces and
reintroduce individual provisions “a la carte.” (Ex. 91
at 11.)
Although the circumstances surrounding these
prior bills are somewhat suspicious, these departures
have less probative value because they involve
different bills passed during different legislative
sessions by a substantially different composition of
legislators. See Burton v. City of Belle Glade, 178 F.3d
1175, 1195 (11th Cir. 1999) (“[W]e fail to see how
evidence of . . . a [city’s] prior refusal to annex [a
housing project] standing alone establishes any intent,
let alone a discriminatory one” for later annexation
decision); Kansas City, Mo. v. Fed. Pac. Elec. Co., 310
F.2d 271, 278 (8th Cir. 1962) (noting the “questionable
import that the rejection of prior bills may have in
determining congressional intent as to subsequently
enacted legislation”).
Plaintiffs also claim that H.B. 2023 represents a
substantive deviation from normal legislative
processes because it differs from these prior bills. But
the fact that different bills from different sponsors and
different legislative sessions did not have the same
substance is not alone surprising, nor is it particularly
probative of discriminatory intent.
Moreover,
although Plaintiffs argue that the legislature made

410a
H.B. 2023 harsher than previous ballot collection bills
by imposing felony penalties, they ignore that H.B.
2023 in other respects is more lenient than its
predecessors given its broad exceptions for family
members, household members, and caregivers.
Finally, Plaintiffs highlight the law’s impact on
minority voters. As previously noted, ballot collection
was used as a GOTV strategy in mostly low-efficacy
minority communities, though the Court cannot say
how often voters used ballot collection, nor can it
measure the degree or significance of any disparities
in its usage. The legislature was aware that the law
could impact GOTV efforts in low-efficacy minority
communities; numerous democratic lawmakers
speaking in opposition to the bill expressed concerns
that it would adversely impact minority GOTV efforts.
(Ex. 17 at 74; Ex. 19 at 17–18, 20, 35–37; Ex. 23 at 89–
91; Ex. 25 at 27–28.) But this evidence shows only
that the legislature enacted H.B. 2023 in spite of its
impact on minority GOTV efforts, not because of that
impact. Indeed, proponents of the bill seemed to view
these concerns as less significant because of the
minimal burdens associated with returning a mail
ballot. (See, e.g., Ex. 23 at 81–82.)
Based on the totality of the circumstances, Plaintiffs
have not shown that the legislature enacted H.B. 2023
with the intent to suppress minority votes. Rather,
some individual legislators and proponents were
motivated in part by partisan interests. Shooter, for
example, first raised concerns about ballot collection
after winning a close election. In addition to raising
concerns about ballot collectors impersonating election
workers, Johnson complained that ballot collection put
candidates “who don’t have accessibility to large

411a
groups to go out and collect those ballots” at a
disadvantage.
Likewise, Richard Hopkins, a
proponent of the bill and a 2014 Republican candidate
for the Arizona House of Representatives, claimed that
he lost his election because of “ballot harvesting.”
(Ex. 17 at 17, 45–49.) In opposing ballot collection
restrictions, Democratic Senator Steve Farley stated
“[t]he problem we’re solving is that one party is better
at collecting ballots than the other one.” (Ex. 25 at 35.)
But partisan motives are not necessarily racial in
nature, even though racially polarized voting can
sometimes blur the lines. Importantly, both the
Fifteenth Amendment and § 2 of the VRA—upon
which Plaintiffs’ intentional discrimination claims are
based—address racial discrimination, not partisan
discrimination. That some legislators and proponents
harbored partisan interests, rather than racially
discriminatory motives, is consistent with Arizona’s
history of advancing partisan objectives with the
unintended consequence of ignoring minority
interests. (Ex. 90 at 8.)
Moreover, partisan motives did not permeate the
entire legislative process. Instead, many proponents
acted to advance facially important interests in
bringing early mail ballot security in line with inperson voting security, notwithstanding the lack of
direct evidence that ballot collection fraud was
occurring. Though Plaintiffs might disagree with the
manner in which the legislature chose to address its
concerns about early ballot security, “the propriety of
doing so is perfectly clear,” and the legislature need
not wait until a problem occurs to take proactive steps
it deems appropriate. Crawford, 553 U.S. at 196; see
also Lee, 188 F. Supp. 3d at 609.

412a
The Court therefore finds that the legislature that
enacted H.B. 2023 was not motivated by a desire to
suppress minority voters.
The legislature was
motivated by a misinformed belief that ballot
collection fraud was occurring, but a sincere belief that
mail-in ballots lacked adequate prophylactic
safeguards as compared to in-person voting. Some
proponents also harbored partisan motives. But, in
the end, the legislature acted in spite of opponents’
concerns that the law would prohibit an effective
GOTV strategy in low-efficacy minority communities,
not because it intended to suppress those votes.
VIII. CONCLUSION
Plaintiffs have not carried their burden to show that
the challenged election practices severely and
unjustifiably burden voting and associational rights,
disparately impact minority voters such that they
have less opportunity than their non-minority
counterparts to meaningfully participate in the
political process, or that Arizona was motivated by a
desire to suppress minority turnout when it placed
limits on who may collect early mail ballots. Plaintiffs
have raised fair concerns about the wisdom of H.B.
2023 and Arizona’s treatment of OOP ballots as
matters of public policy. The Court, however, is not
charged with second-guessing the prudence of
Arizona’s laws. The Court’s authority extends only to
determining whether, in exercising its constitutional
authority to regulate the times, places, and manner of
elections, Arizona has acted within permissible
constitutional and statutory bounds. In exercising
this duty, the Court also is constrained by decisions of
the Supreme Court, including those standing for the
proposition that legislatures may act prophylactically

413a
rather than upon specific evidence of a documented
problem, and those finding that prevention of voter
fraud and preservation of public confidence in election
integrity are important state interests. See Purcell,
549 U.S. at 4; Crawford, 553 U.S. at 195; Munro, 479
U.S. at 194–95; Eu, 489 U.S. at 231. Based on a
careful review of the evidence and governing case law,
the Court concludes that the challenged provisions
contravene neither the Constitution nor the VRA.
Therefore,
IT IS ORDERED as follows:
1. Defendants’ oral motion for judgment on partial
findings (Doc. 384) is DENIED as moot.
2. The Court finds in favor of Defendants and
against Plaintiffs on all claims.
3. The Clerk of the Court shall enter judgment
accordingly and terminate this case.
Dated this 10th day of May, 2018.

414a

APPENDIX D

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
THE DEMOCRATIC
NATIONAL COMMITTEE; et
al.,
Plaintiff-Appellants,
v.
KATIE HOBBS, in her official
capacity as Secretary of State of
Arizona; MARK BRNOVICH,
Attorney General, in his official
capacity as Arizona Attorney
General,
Defendants-Appellees,

No. 18-15845
D.C. No. 2:16-cv01065-DLR
District of
Arizona, Phoenix
ORDER

THE ARIZONA REPUBLICAN
PARTY; et al.
Intervenor-DefendantsAppellees.
Before: THOMAS, Chief Judge, and O’SCANNLAIN,
W. FLETCHER, BERZON, RAWLINSON, CLIFTON,
BYBEE, CALLAHAN, MURGUIA, WATFORD and
OWENS, Circuit Judges.

415a
Defendant-Appellee Arizona Attorney General
Mark Brnovich’s motion to stay the issuance of this
Court’s mandate pending application for writ of
certiorari (Dkt. 124), filed January 31, 2020, is
GRANTED. Fed. R. App. P. 41(b).
The mandate is stayed for a period not to exceed 90
days pending the filing of the petition for writ of
certiorari in the Supreme Court. Should DefendantAppellee file for a writ of certiorari, the stay shall
continue until final disposition by the Supreme Court.

416a

APPENDIX E

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
THE DEMOCRATIC
NATIONAL COMMITTEE;
DSCC, AKA Democratic
Senatorial Campaign
Committee; THE ARIZONA
DEOCRATIC PARTY,
Plaintiffs-Appellants,

No. 18-15845
D.C. No. 2:16-cv01065-DLR

v.
MICHELE REAGAN, in her
official capacity as Secretary of
State of Arizona; MARK
BRNOVICH, Attorney
General, in his official capacity
as Arizona Attorney General
Defendants-Appellees,
THE ARIZONA
REPUBLICAN PARTY; BILL
GATES, Councilman;
SUZANNE KLAPP,
Councilwoman; DEBBIE
LESKO, Sen.; TONY RIVERO,
Rep.,

District of
Arizona,
Phoenix
ORDER

417a
Intervenor-DefendantsAppellees.
THOMAS, Chief Judge:
Upon the vote of a majority of nonrecused active
judges, it is ordered that this case be reheard en banc
pursuant to Federal Rule of Appellate Procedure 35(a)
and Circuit Rule 35-3. The three-judge panel opinion
shall not be cited as precedent by or to any court of the
Ninth Circuit.
Judges Kozinski and McKeown did not participate
in the deliberations or vote in this case.

418a

APPENDIX F

A.R.S. § 16-122. Registration and records
prerequisite to voting
No person shall be permitted to vote unless such
person’s name appears as a qualified elector in both
the general county register and in the precinct register
or list of the precinct and election districts or proposed
election districts in which such person resides, except
as provided in §§ 16-125, 16-135 and 16-584.
A.R.S. § 16-135. Change of residence from
one address to another
A. An elector who is correcting the residence address
shown on the elector’s voter registration record shall
reregister with the new residence address or correct
the voter registration record as prescribed by this
section.
B. An elector who moves from the address at which he
is registered to another address within the same
county and who fails to notify the county recorder of
the change of address before the date of an election
shall be permitted to correct the voter registration
records at the appropriate polling place for the voter’s
new address. The voter shall present a form of
identification that includes the voter’s given name and
surname and the voter’s complete residence address
that is located within the precinct for the voter’s new
residence address. The voter shall affirm in writing

419a
the new residence address and shall be permitted to
vote a provisional ballot.
C. When an elector completes voting a provisional
ballot, the election official shall place the ballot in an
envelope for provisional ballots and shall deposit the
envelope in the ballot box designated for provisional
ballots.
D. Within ten calendar days after a general election
that includes an election for a federal office and within
five business days after any other election, a
provisional ballot shall be compared to the signature
roster for the precinct in which the voter was listed
and if the voter’s signature does not appear on the
signature roster for that election and if there is no
record of that voter having voted early for that
election, the provisional ballot shall be counted. If the
signature roster or early ballot information indicates
that the person did vote in that election, the
provisional ballot for that person shall remain
unopened and shall not be counted.
E. An elector may also correct the residence address
on the elector’s voter registration record by requesting
the address change on a written request for an early
ballot that is submitted pursuant to § 16-542 and that
contains all of the following:
1. A request to change the voter registration record.
2. The elector’s new residence address.
3. An affirmation that the information is true and
correct.
4. The elector’s signature.

420a
A.R.S. § 16-584. Qualified elector not on
precinct register; recorder’s certificate; verified
ballot; procedure
A. A qualified elector whose name is not on the
precinct register and who presents a certificate from
the county recorder showing that the elector is entitled
by law to vote in the precinct shall be entered on the
signature roster on the blank following the last
printed name and shall be given the next consecutive
register number, and the qualified elector shall sign in
the space provided.
B. A qualified elector whose name is not on the
precinct register, on presentation of identification
verifying the identity of the elector that includes the
voter’s given name and surname and the complete
residence address that is verified by the election board
to be in the precinct or on signing an affirmation that
states that the elector is a registered voter in that
jurisdiction and is eligible to vote in that jurisdiction,
shall be allowed to vote a provisional ballot.
C. If a voter has moved to a new address within the
county and has not notified the county recorder of the
change of address before the date of an election, the
voter shall be permitted to correct the voting records
for purposes of voting in future elections at the
appropriate polling place for the voter’s new address.
The voter shall be permitted to vote a provisional
ballot. The voter shall present a form of identification
that includes the voter’s given name and surname and
the voter’s complete residence address. The residence
address must be within the precinct in which the voter
is attempting to vote, and the voter shall affirm in

421a
writing that the voter is registered in that jurisdiction
and is eligible to vote in that jurisdiction.
D. On completion of the ballot, the election official
shall place the ballot in a provisional ballot envelope
and shall deposit the envelope in the ballot box.
Within ten calendar days after a general election that
includes an election for a federal office and within five
business days after any other election or no later than
the time at which challenged early voting ballots are
resolved, the signature shall be compared to the
precinct signature roster of the former precinct where
the voter was registered. If the voter’s name is not
signed on the roster and if there is no indication that
the voter voted an early ballot, the provisional ballot
envelope shall be opened and the ballot shall be
counted. If there is information showing the person
did vote, the provisional ballot shall remain unopened
and shall not be counted. When provisional ballots are
confirmed for counting, the county recorder shall use
the information supplied on the provisional ballot
envelope to correct the address record of the voter.
E. When a voter is allowed to vote a provisional ballot,
the elector’s name shall be entered on a separate
signature roster page at the end of the signature
roster. Voters’ names shall be numbered consecutively
beginning with the number V-1. The elector shall sign
in the space provided. The ballot shall be placed in a
separate envelope, the outside of which shall contain
the precinct name or number, a sworn or attested
statement of the elector that the elector resides in the
precinct, is eligible to vote in the election and has not
previously voted in the election, the signature of the
elector and the voter registration number of the
elector, if available. The ballot shall be verified for

422a
proper registration of the elector by the county
recorder before being counted. The verification shall
be made by the county recorder within ten calendar
days after a general election that includes an election
for a federal office and within five business days
following any other election. Verified ballots shall be
counted by depositing the ballot in the ballot box and
showing on the records of the election that the elector
has voted. If registration is not verified the ballot shall
remain unopened and shall be retained in the same
manner as voted ballots.
F. For any person who votes a provisional ballot, the
county recorder or other officer in charge of elections
shall provide for a method of notifying the provisional
ballot voter at no cost to the voter whether the voter’s
ballot was verified and counted and, if not counted, the
reason for not counting the ballot. The notification
may be in the form of notice by mail to the voter,
establishment of a toll free telephone number, internet
access or other similar method to allow the voter to
have access to
this information. The method of
notification shall provide reasonable restrictions that
are designed to limit transmittal of the information
only to the voter.
A.R.S. § 16-1005. Ballot abuse; violation;
classification
A. Any person who knowingly marks a voted or
unvoted ballot or ballot envelope with the intent to fix
an election for that person’s own benefit or for that of
another person is guilty of a class 5 felony.
B. It is unlawful to offer or provide any consideration
to acquire a voted or unvoted early ballot. A person

423a
who violates this subsection is guilty of a class 5
felony.
C. It is unlawful to receive or agree to receive any
consideration in exchange for a voted or unvoted
ballot. A person who violates this subsection is guilty
of a class 5 felony.
D. It is unlawful to possess a voted or unvoted ballot
with the intent to sell the voted or unvoted ballot of
another person. A person who violates this subsection
is guilty of a class 5 felony.
E. A person or entity that knowingly solicits the
collection of voted or unvoted ballots by
misrepresenting itself as an election official or as an
official ballot repository or is found to be serving as a
ballot drop off site, other than those established and
staffed by election officials, is guilty of a class 5 felony.
F. A person who knowingly collects voted or unvoted
ballots and who does not turn those ballots in to an
election official, the United States postal service or
any other entity permitted by law to transmit post is
guilty of a class 5 felony.
G. A person who engages or participates in a pattern
of ballot fraud is guilty of a class 4 felony. For the
purposes of this subsection, “pattern of ballot fraud”
means the person has offered or provided any
consideration to three or more persons to acquire the
voted or unvoted ballot of a person.
H. A person who knowingly collects voted or unvoted
early ballots from another person is guilty of a class 6
felony. An election official, a United States postal
service worker or any other person who is allowed by
law to transmit United States mail is deemed not to

424a
have collected an early ballot if the official, worker or
other person is engaged in official duties.
I. Subsection H of this section does not apply to:
1. An election held by a special taxing district
formed pursuant to title 48 for the purpose of
protecting or providing services to agricultural
lands or crops and that is authorized to conduct
elections pursuant to title 48.
2.
A family member, household member or
caregiver of the voter. For the purposes of this
paragraph:
(a) “Caregiver” means a person who provides
medical or health care assistance to the voter in
a residence, nursing care institution, hospice
facility, assisted living center, assisted living
facility, assisted living home, residential care
institution, adult day health care facility or adult
foster care home.
(b) “Collects” means to gain possession or control
of an early ballot.
(c) “Family member” means a person who is
related to the voter by blood, marriage, adoption
or legal guardianship.
(d) “Household member” means a person who
resides at the same residence as the voter.

425a

APPENDIX G

2019 ELECTIONS
PROCEDURES
MANUAL

December 2019
www.azsos.gov
1700 W. Washington St.
Phoenix, AZ 85007
1-877-THE-VOTE
(843-8683)

426a
***
ARIZONA SECRETARY OF STATE
1029 ELECTIONS PROCEDURES MANUAL
Chapter 9, Section IV. The County Recorder must
disqualify the ballot if the voter does not provide
sufficient identification by the deadline.
1. County Recorder Responsibilities
a. Verification of Provisional Ballots
All provisional ballots must be verified for proper
registration within 10 calendar days after a general
election that includes an election for federal office, and
within five business days for all other elections. A.R.S.
§ 16-135(D). The provisional ballot shall be counted if:
1. The voter’s registration is verified and the voter
is eligible to vote in the precinct, and
2. The voter’s signature does not appear on any
other signature roster for that election, and
3. There is no record that the voter voted early in
that election.
For a provisional ballot to be counted, the County
Recorder shall confirm that all of the following
requirements are met:
1. Confirm that the provisional ballot affidavit is
signed;
2. Confirm that the voter was registered to vote and
was eligible to vote in the election;
3. Confirm that the voter voted in the correct polling
place or voting location or cast the ballot for the
correct precinct;
4. Confirm that there is no record that the voter
voted early for that election;

427a
5. If the voter moved without updating their
address and voted in the precinct for the new
address, confirm that the voter did not vote in the
prior precinct by confirming that the voter did not
sign the signature roster for the prior precinct;
6. For a partisan primary election, confirm that the
voter received and voted the correct party ballot
based on the voter’s party affiliation;
7. If the voter is registered as a “federal-only” voter,
confirm that the voter received a “federal-only”
ballot or clearly mark or stamp the outside of the
provisional ballot envelope to indicate that the
voter is a “federal-only” voter and only races for
federal candidates should be duplicated and
tabulated.
The County Recorder shall deliver only provisional
ballot envelopes and/or affidavits of qualified voters
who meet the above requirements to the Board of
Supervisors or officer in charge of elections for
counting. Rejected provisional ballot envelopes and/or
affidavits should be separately retained and delivered
to the officer in charge of elections for retention in
accordance with A.R.S. § 16-624.
b. Rejection Reason Code
The rejection code reason is determined by the County
Recorder. The rejection reasons include:
1. Not registered;
2. No ballot in envelope;
3. Registered after 29-day cut-off;
4. No signature;
5. Insufficient/illegible information;

428a
6. Voter did not provide adequate identification and
signature does not match;
7. Wrong party;
8. Outside jurisdiction ballot;
9. Voter challenge upheld;
10. Voted in wrong precinct;
11. Voted and returned an early ballot;
12. Proper identification not provided by deadline;
13. Not eligible; and
14. Other (please specify).
c. Updating Voter Registration Records
The County Recorder shall update the appropriate
county register or registration database with the
names of all provisional voters whose registration was
verified to indicate that those voters are qualified to
vote in future elections.
The County Recorder may also use the information
from a provisional ballot envelope or affidavit to
update a voter’s name and address. A provisional
ballot envelope or affidavit may also be used to register
a voter for the first time for future elections (not the
current election the provisional ballot was used for) if
the form substantially complies with A.R.S. § 16-152.
Additionally, a “federal-only” voter may use the
provisional ballot process to provide a driver license
number as DPOC for future elections (although not for
the current election the provisional ballot was used
in).

429a
d. Voter Verification of Provisional Ballot
Status
The County Recorder shall create a provisional ballot
record for the voter that contains the following
information:
1. Provisional ballot receipt number;
2. Name of the voter;
3. Precinct/polling location where the provisional
ballot was cast;
4. Provisional ballot status;
5. Provisional ballot status reason;
6. Address (optional)
***

